<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-827]
[From the U.S. Government Printing Office]




                                                S. Hrg. 109-827, Pt. 5
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2007

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2766

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2007 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               ----------                              

                      MARCH 10, 29; APRIL 5, 2006


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
            2007--Part 5  EMERGING THREATS AND CAPABILITIES


                                                  S. Hrg. 109-827 Pt. 5

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2007

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2766

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2007 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               __________

                      MARCH 10, 29; APRIL 5, 2006


         Printed for the use of the Committee on Armed Services



For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  


                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
JEFF SESSIONS, Alabama               JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              JACK REED, Rhode Island
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
JAMES M. TALENT, Missouri            BILL NELSON, Florida
SAXBY CHAMBLISS, Georgia             E. BENJAMIN NELSON, Nebraska
LINDSEY O. GRAHAM, South Carolina    MARK DAYTON, Minnesota
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York
JOHN THUNE, South Dakota

                    Charles S. Abell, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                      JOHN CORNYN, Texas, Chairman

PAT ROBERTS, Kansas                  JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              EDWARD M. KENNEDY, Massachusetts
JOHN ENSIGN, Nevada                  ROBERT C. BYRD, West Virginia
JAMES M. TALENT, Missouri            BILL NELSON, Florida
LINDSEY O. GRAHAM, South Carolina    E. BENAJAMIN NELSON, Nebraska
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
       Roles and Missions of the Department of Defense Regarding 
            HomelandDefense and Support to Civil Authorities
                             march 10, 2006

                                                                   Page
McHale, Hon. Paul, Assistant Secretary of Defense for Homeland 
  Defense........................................................     4
Inge, LTG Joseph R., USA, Deputy Commander, United States 
  NorthernCommand................................................    13
Blum, LTG H. Steven, USA, Chief, National Guard Bureau...........    17
Rodriguez, Major General Charles R., Adjutant General, Texas 
  MilitaryForces.................................................    41

     U.S. Nonproliferation Strategy and the Roles and Missions of 
 Departmentof Defense and the Department of Energy in Nonproliferation
                             march 29, 2006

Flory, Hon. Peter, Assistant Secretary of Defense for 
  International SecurityPolicy...................................    62
Cartwright, Gen. James, USMC, Commander, United States Strategic 
  Command........................................................    75
Paul, Hon. Jerald S., Principal Deputy Administrator of National 
  NuclearSecurity Administration, Department of Energy...........    82

          Department of Defense's Role in Combating Terrorism
                             april 5, 2006

O'Connell, Hon. Thomas W., Assistant Secretary of Defense for 
  Special Operationsand Low-Intensity Conflict...................   132

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2007

                              ----------                              


                         FRIDAY, MARCH 10, 2006

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

  ROLES AND MISSIONS OF THE DEPARTMENT OF DEFENSE REGARDING HOMELAND 
                DEFENSE AND SUPPORT TO CIVIL AUTHORITIES

    The subcommittee met, pursuant to notice, at 9:32 a.m. in 
room SR-222, Russell Senate Office Building, Senator John 
Cornyn (chairman of the subcommittee) presiding.
    Committee members present: Senators Cornyn, Thune, and 
Reed.
    Also present: Senator Levin.
    Committee staff member present: John H. Quirk V, security 
clerk.
    Majority staff members present: Sandra E. Luff, 
professional staff member; Elaine A. McCusker, professional 
staff member; David M. Morriss, counsel; Lynn F. Rusten, 
professional staff member; and Scott W. Stucky, general 
counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Evelyn N. Farkas, professional staff 
member; Richard W. Fieldhouse, professional staff member; and 
Gerald J. Leeling, minority counsel.
    Staff assistants present: Jessica L. Kingston and Benjamin 
L. Rubin.
    Committee members' assistants present: Russell J. 
Thomasson, assistant to Senator Cornyn; Stuart C. Mallory, 
assistant to Senator Thune; Elizabeth King, assistant to 
Senator Reed, and William K. Sutey, assistant to Senator Bill 
Nelson.

       OPENING STATEMENT OF SENATOR JOHN CORNYN, CHAIRMAN

    Senator Cornyn. Good morning. The subcommittee will come to 
order. The subcommittee meets today to receive testimony on the 
Department of Defense's (DOD) role in homeland defense and 
support to civil authorities.
    We welcome our distinguished witnesses today, including the 
Honorable Paul McHale, Assistant Secretary of Defense for 
Homeland Defense; Lieutenant General Joseph R. Inge, Deputy 
Commander of Northern Command (NORTHCOM); and Lieutenant 
General Steven Blum, Chief of the National Guard Bureau (NGB).
    I'd also like to recognize someone from my home State, 
Major General Charles Rodriguez, who's attending the hearing 
today. General Rodriguez is the adjutant general for the State 
of Texas, and has done a superb job. I saw him in action during 
the response to Hurricanes Katrina and Rita, and we're grateful 
to have his service, not only to our State, but our Nation.
    I commend each of our witnesses for the leadership you 
provide. I've had a chance to review your written statements, 
and they're all outstanding and quite comprehensive. We will, 
of course, invite you to make an opening statement, and then 
we'll have some questions.
    I also hope that you will convey to the fine men and women 
under your charge, both military and civilian, the Nation's 
gratitude for their selfless service and commitment to our 
Nation's defense. We recognize that we must view homeland 
defense, in a post-September 11, 2001, environment, in a--
perhaps even in a different way. Moreover, recent events along 
the U.S./Mexican border, coupled with the discovery of the Otay 
Mesa Tunnel, highlight the need for our continued vigilance and 
the close cooperation between the Department of Homeland 
Security (DHS) and the DOD in protecting our Nation's borders 
and keeping us safe.
    As public servants, our most solemn obligation is to 
protect the American people. Simply stated, the security of the 
United States and defense of the Homeland is job number one. 
While our forward-deployed forces are our first line of defense 
in the global war on terrorism, the readiness of our Armed 
Forces to defend the Homeland and to assist civilian 
authorities in identifying threats, gathering and analyzing 
intelligence, preventing or responding to an attack or other 
national emergencies are of paramount importance to the 
subcommittee. We welcome your insights on developments in your 
respective organizations, as well as your personal assessments 
of the fiscal year 2007 defense budget request.
    Lieutenant General Inge and Lieutenant General Blum, the 
subcommittee also looks forward to hearing your assessment with 
regard to how you integrate the total force into the execution 
of your mission. We're specifically interested in how you 
coordinate and synchronize the elements of your mission that 
are in support of the DHS. We're also interested in your views 
regarding the establishment of unity of effort, as well as 
unity of command when the Active-Duty, Reserve component, and 
the National Guard Forces are employed in response to a 
catastrophic national disaster, pandemic, or attack on the 
Homeland.
    Secretary McHale and Lieutenant General Inge, we seek your 
comments and insight on the recommendations outlined in the 
Federal response to Hurricane Katrina lessons learned. We're 
particularly interested in the recommendations that outlines 
that the DOD should lead the Federal response, in extraordinary 
circumstances. Under what circumstances would you like to see 
the DOD take such a role?
    In addition, the subcommittee seeks your assessment 
regarding the steps being taken to identify gaps, as well as 
redundancies, between Federal agencies that share a role in 
homeland security and homeland defense. Of particular interest 
is how your organizations synchronize your support to the DHS 
with regard to the land, air, and maritime defense of our 
borders, and how resident DOD technology and capabilities are 
being leveraged and shared with the DHS in their execution of 
the border defense mission.
    The subcommittee is also interested in any authorities that 
you believe should be reexamined in light of the recently 
published Quadrennial Defense Review (QDR), as well as the 
Federal response to Hurricane Katrina lessons learned.
    Again, we welcome each of our witnesses this morning. We 
certainly want to convey to you our appreciation for your 
service to our great Nation and the seriousness of the 
responsibilities with which you have been charged. We stand 
ready to assist you, in any way that is within our power, in 
the discharge of those very important duties in defense of our 
Nation.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    Let me join you in welcoming the members of the panel. 
Secretary McHale, General Inge, and General Blum, thank you for 
the service to the Nation.
    I'm particularly glad to see Secretary McHale here, after 
serving with the Secretary in the House of Representatives, and 
I know his commitment to the men and women of the Armed Forces, 
particularly the Marine Corps. So, thanks for that, Paul.
    We extend our thanks, obviously, to all of you, and to the 
valiant men and women that you lead. Thank you so much.
    This is the first hearing of the subcommittee, and the 
first Armed Services hearing since the Hurricane Katrina 
disaster to explore DOD's role in support of Federal 
authorities during a natural or manmade disaster. The DOD, 
NORTHCOM, and especially the National Guard played a tremendous 
and pivotal role in helping the victims of the disaster in 
Louisiana and along the Gulf Coast. Indeed, there was a stark 
contrast between the military's response and the response of 
the DHS and the Federal Emergency Management Agency (FEMA). 
Nevertheless, I believe that DOD's ability to support civil 
authorities can be improved, and I think most, if not all, the 
witnesses have indicated such in comments before other 
audiences, other hearings before Congress.
    The White House view of the lessons learned from the 
response to Hurricane Katrina stated ``Limitations under 
Federal law and DOD policy caused the Active-Duty military to 
be dependent on requests for assistance. These limitations 
result in slowed application of DOD resources during the 
initial response. Further Active-Duty military and National 
Guard operations were not coordinated, and serve two different 
bosses--one, the President, and the other, the Governor.'' This 
review makes 11 recommendations, and I hope to hear from the 
witnesses today on the conclusion of this review and on the 
recommendations.
    I also hope to hear more about the DOD's homeland defense 
efforts, including developments relating to North American 
Aerospace Defense Command (NORAD) and our cooperation with 
Canada, air and maritime security, how the interface between 
NORTHCOM and the National Counterterrorism Center (NCTC) is 
functioning, and DOD's ability to prevent, respond, and manage 
the aftermath of a terrorist attack or other catastrophic 
event.
    The public's confidence, frankly, has been shaken by the 
Federal response to Hurricane Katrina, particularly since the 
administration has asserted, since September 11, 2001, that 
we've been improving our emergency capacity. I'm not 
convinced--and more importantly I don't think the American 
public is convinced--that we are fully prepared to respond to a 
terrorist event if it were to happen today or tomorrow or the 
next several days or months ahead. I'd like your views on this 
subject, what we've learned with respect to Hurricane Katrina 
and how well we're ready to respond to a catastrophic event, if 
it occurs in the United States.
    Thank you, Mr. Chairman.
    Senator Cornyn. Thank you, Senator Reed. I appreciate the 
way that our staffs and you and I are able to work together to 
discharge our responsibilities. It's a pleasure working with 
you.
    We'd like now to hear from our witnesses, starting with 
Assistant Secretary McHale, and then General Inge, and then 
General Blum. If you would keep your comments to within 10 
minutes or so, we want to give you plenty of time to say what 
you want to say, and then we have a lot of questions we want to 
ask.
    So, Secretary McHale, we'll turn to you first.

 STATEMENT OF HON. PAUL McHALE, ASSISTANT SECRETARY OF DEFENSE 
                      FOR HOMELAND DEFENSE

    Mr. McHale. Thank you, sir.
    Chairman Cornyn, Senator Reed, it is a pleasure to be back 
in your company again--distinguished members of the 
subcommittee, thank you for this opportunity to describe DOD's 
role in protecting the United States from foreign attack and in 
responding to the consequences of attacks and natural 
disasters.
    Mr. Chairman, you indicated, accurately, that my formal 
statement has been submitted for the record. If I may, I'll 
simply proceed to a very brief summary of that testimony.
    Senator Cornyn. Very well.
    Mr. McHale. The 2005 National Defense Strategy designates 
securing the United States from direct attack as DOD's first 
objective. DOD gives top priority to dissuading, deterring, and 
defeating those who would seek to harm the United States, with 
a paramount emphasis upon enemies potentially armed with 
weapons of mass destruction (WMD).
    Protecting the United States Homeland requires a global, 
active, and layered defense strategy. There is no home game, 
there is no away game. We are engaged in a global conflict. In 
that global conflict, the defense of the U.S. Homeland is the 
preeminent duty.
    It is the primary mission of the DHS to prevent terrorist 
attacks within the United States, including stopping terrorists 
form crossing our borders, coming through our ports, or 
hijacking aircraft inside or outside of the United States. 
Similarly, the Attorney General leads our Nation's law 
enforcement effort to detect, prevent, and investigate 
terrorist activity within the United States. DOD's 
responsibility is to employ our warfighting capabilities, 
subject to constitutional and statutory authority, in a 
military defense of U.S. lives, property, and individual 
freedom.
    DOD has primary responsibility for defending U.S. airspace 
and protecting the Nation's air approaches. Since the terrorist 
attacks of September 11, 2001, more than 41,000 fighter, aerial 
refueling, and airborne early-warning sorties have been flown, 
while more than 2,000 air patrols have responded to actual 
incidents and suspicious flight operations.
    We have fighters positioned throughout the United States 
and Canada capable of defending major population centers and 
high-value infrastructure within minutes. Within the National 
Capital Region (NCR), where we are located today, the DOD 
conducts irregular air patrols, maintains a dedicated 24/7 
fighter capability based at Andrews Air Force Base, and has a 
dedicated ground missile defense system to provide around-the-
clock coverage of the NCR. In addition, last year, DOD provided 
a sophisticated visual warning system to warn wayward pilots.
    In the maritime domain, including the international waters, 
the maritime approaches to the United States, our territorial 
seas, and other U.S. navigable waters, we have a defense and a 
highly effective partnership executed by the United States Navy 
and the United States Coast Guard. The U.S. Navy defends the 
sea approaches to the United States and works with the Coast 
Guard to patrol international waters and our territorial seas.
    In December 2004, DOD and DHS signed a memorandum of 
agreement (MOA) that incorporated the U.S. Coast Guard in 
support of DOD maritime homeland defense operations. A similar 
MOA that would include DOD in support of the Coast Guard 
maritime homeland security operations is currently awaiting 
final approval.
    As noted earlier, it is the primary mission of DHS to 
prevent terrorist attacks within the United States. In 
addition, the Attorney General leads our Nation's law 
enforcement effort to detect, prevent, and investigate 
terrorist activity, again, within the United States. 
Accordingly, DOD does not have the assigned responsibility to 
stop terrorists from coming across our borders, to stop 
terrorists from coming through U.S. ports, or to stop 
terrorists from hijacking aircraft inside or outside of the 
United States. These responsibilities belong to DHS. Nor does 
DOD have the authority to seek out and arrest terrorists in the 
United States. These responsibilities belong to the Department 
of Justice (DOJ).
    DOD does have a role in providing support to civil 
authorities, when appropriate and permitted by law. For 
instance, DOD Active and Reserve component forces, and the 
National Guard, have provided a wide variety of 
counternarcotics missions along the southwest border of the 
United States since 1989. Congress recognized the possible 
interplay between drug trafficking and terrorism, and included, 
in the National Defense Authorization Act for 2004, a provision 
that addressed the authority of the Secretary of Defense to 
expand the mission of DOD joint task forces from 
counternarcotics to include counterterrorism activities.
    Again, as noted earlier, at the direction of the President 
or the Secretary of Defense, the DOD provides military support 
to civil authorities as part of a comprehensive national 
response to prevent and protect against terrorist incidents or 
to recover from an attack or natural disaster.
    In 2003, DOD acted on 75 requests for assistance (RFA) from 
more than 20 civilian agencies. In 2004, DOD acted on 99 RFAs 
from domestic civilian agencies, as noted by Senator Reed just 
a few moments ago.
    DOD's deployment in response to the catastrophic effects of 
Hurricane Katrina was the largest, fastest civil support 
mission in the history of the United States. Between August 29 
and September 10, 2005, more than 72,000 Federal military and 
National Guard personnel were deployed in response to Hurricane 
Katrina, more than twice the previous record deployment in 
response to Hurricane Andrew in 1992.
    During the response to Hurricane Katrina, DOD acted on more 
than 90 hurricane-related RFAs from civil authorities. Many of 
these requests were approved orally by the Secretary of 
Defense. I would note, parenthetically, including one RFA 
approved orally and quickly that had an estimated cost of $1 
billion. These RFAs were in execution when the paperwork caught 
up, several days later. DOD felt a sense of urgency, and acted 
upon it.
    In addition to Hurricane Katrina, DOD acted on more than 
140 requests for assistance in 2005, including responses to 
Hurricanes Dennis, Ophelia, and Rita.
    In the aftermath of Hurricane Katrina, again, as noted by 
Senator Reed, President Bush ordered a comprehensive review of 
the Federal response. The White House recommendations correlate 
well with our internal DOD lessons-learned effort. We have 
already begun to implement improvements.
    For example, DOD is developing pre-scripted requests for 
assistance that would speed the response to a catastrophic 
event. We are completing a contingency plan defining NORTHCOM's 
role in providing support to DHS during domestic contingencies. 
We are developing a framework to provide initial damage 
reconnaissance. I would note, that was one of our areas of 
deficiency during Hurricane Katrina. Battle damage assessment, 
as we would perform it overseas, or an assessment of the damage 
associated with a natural event here in the United States, was 
not as successful as it should have been, because we relied too 
heavily on what turned out to be inaccurate media reports. 
That's not a criticism of the media. It's simply a strong 
motivation, a requirement, for the DOD to develop independent 
capabilities for rapid, accurate damage assessments following 
either terrorist attacks or naturally occurring catastrophic 
disasters within the United States.
    We are also participating in the interagency revision of 
the National Search and Rescue Plan.
    In conclusion, we recognize that the defense of the United 
States Homeland, our people, property, and freedom, is DOD's 
most fundamental duty. Men and women in military uniform, 
Active, Reserve, and National Guard, will continue to meet that 
obligation with passion, professionalism, and a resolute sense 
of purpose.
    Mr. Chairman, I'll look forward to your questions.
    [The prepared statement of Mr. McHale follows:]

                 Prepared Statement by Hon. Paul McHale

                              introduction

    Chairman Cornyn, Ranking Member Reed, distinguished members of the 
subcommittee: thank you for the opportunity to address you today on the 
Department of Defense's (DOD) important role in protecting the United 
States from enemy attacks and responding to the consequences of attacks 
and natural disasters.
    As noted in the recently released Quadrennial Defense Review (QDR), 
the United States is a nation engaged in what will be a long war. Since 
the attacks of September 11, 2001, our Nation has fought a global war 
against violent extremists who use terrorism as their weapon of choice, 
and who want to destroy our free way of life. Our enemies seek weapons 
of mass destruction (WMD) and, if they are successful, will likely 
attempt to use them in their conflict with free people everywhere.
    As we wage this long war, we must also be prepared for other 
threats. Hostile states could attack the United States using WMD 
delivered by missiles or by means such as commercial shipping or 
general aviation. They could attack surreptitiously through surrogates, 
and, of course, there is also the danger that the WMD capabilities of 
some states could fall into the hands of, or be given to, terrorists 
who could use them to attack the United States.
    In addition to their duties overseas, U.S. forces have taken on 
greater roles at home since this long war began. Immediately following 
the September 11, 2001, terrorist attacks, U.S. forces were called upon 
to assist in securing the Homeland. Working alongside other Federal 
agencies, DOD answered the call. At the President's direction, Active 
and Reserve Forces: conducted combat air patrols over major cities to 
prevent follow-on attacks; reinforced the Nation's land borders; 
guarded shipping lanes; protected harbors; secured critical 
infrastructure; and guarded airports and other transportation hubs 
temporarily until the establishment of the Transportation Security 
Administration (TSA). Specialized anti-terrorism and chemical and 
biological incident response forces also deployed to Washington, DC, in 
the wake of the 2001 anthrax attacks.
    Whether at home or abroad, defending our Nation, fighting our wars, 
or responding to disasters, the men and women of our military--Active, 
Guard, and Reserve--have proven that they are dedicated, adaptable, and 
ready to answer the call to duty.

                      protecting the united states

    The 2005 National Defense Strategy designates securing the United 
States from direct attack as our first objective. DOD gives top 
priority to dissuading, deterring, and defeating those who seek to harm 
the United States directly, with a paramount emphasis upon enemies 
potentially armed with WMD. Protecting the U.S. Homeland requires a 
global, active, and layered defense strategy. There is no ``home 
game.'' There is no ``away game.'' There is only one game. We are 
engaged in a global conflict. In that global conflict, the defense of 
the U.S. Homeland is the preeminent duty. Therefore, Homeland Defense 
must be seen as an integral part of a global, active, layered defense--
a defense in depth that has as its single goal to secure the United 
States and its citizens from attack. In addition to the National 
Defense Strategy, last year we also completed DOD's first Strategy for 
Homeland Defense and Civil Support. By articulating strategic goals and 
objectives, we add coherence and direction to relevant activities 
across the DOD that include: deterring and preventing attacks; 
protecting critical defense and designated civilian infrastructure; 
providing situational understanding; and preparing for and responding 
to incidents.
    To secure our freedom and safeguard the American way of life we 
cannot depend on passive or reactive defenses. A purely passive defense 
would be subject to enemy reconnaissance and inevitable defeat. By 
contrast, an active, layered defense relies on early warning of an 
emerging threat in order to quickly deploy and execute a decisive 
response. An active defense is a powerful deterrent, dissuading enemies 
and denying them the operational initiative.
    U.S. forces are prepared to: intercept and defeat threats against 
U.S. territory, within U.S. territorial waters and airspace, and at a 
distance from the Homeland; protect against and mitigate the 
consequences of any attack; and/or conduct military operations in 
response to any attack.
    Here at home, it is the primary mission of the DHS to prevent 
terrorist attacks within the United States, including stopping 
terrorists from coming across our borders, coming through our ports, or 
hijacking aircraft inside or outside the United States. The Attorney 
General leads our Nation's law enforcement effort to detect, prevent, 
and investigate terrorist activity within the United States. DOD's 
responsibility is to employ our warfighting capabilities, subject to 
constitutional and statutory authority, in a military defense of U.S. 
lives, property, and individual freedom.

            dod's homeland defense and civil support posture

    All U.S. military commands throughout the world have a role to play 
in the active defense-in-depth of the United States. Three military 
commands--U.S. Northern Command (NORTHCOM), the North American 
Aerospace Defense Command (NORAD), and U.S. Pacific Command (PACOM)--
are directly involved in the defense of the U.S. Homeland. 
Additionally, the U.S. Strategic Command (STRATCOM) is the lead 
combatant commander for integrating and synchronizing military efforts 
to combat WMD, including ensuring the force structure and necessary 
resources are in place to help all combatant commands defeat WMD.
    To meet emerging threats, DOD is postured to deter, defend against, 
and defeat threats to the United States in the air, maritime, and land 
domains.
Air Defense
    In the air domain, DOD has primary responsibility for defending 
U.S. airspace and protecting the Nation's air approaches. The air 
domain is guarded, patrolled, and monitored by the bi-national U.S.-
Canada NORAD. Since the terrorist attacks of September 11, 2001, more 
than 42,000 fighter, aerial refueling, and airborne early warning 
sorties have been flown, while more than 2,000 air patrols have 
responded to actual incidents and suspicious flight operations. We also 
have air defense alert fighters positioned throughout the United States 
and Canada that are capable of reaching major population centers and 
high-value infrastructure within minutes. The number of alert fighters 
can be increased or decreased according to emerging threat levels.
    We continually adjust our posture in order to protect the National 
Capitol Region (NCR), the seat of the U.S. Government. The DOD conducts 
irregular air patrols,, maintains a dedicated 24-hours-a-day/7-days-a-
week alert fighter response based at Andrews Air Force Base, Maryland, 
and has a dedicated ground missile defense system located to provide 
around-the-clock coverage for the NCR. In addition, last year, DOD 
provided the Visual Warning System (VWS) to warn wayward pilots to 
contact the Federal Aviation Administration (FAA) air traffic 
controllers immediately and to depart from restricted airspace. We also 
detailed DOD liaison officers to serve at the TSA-hosted NCR 
Coordination Center (NCRCC) on a full-time basis and provided key 
interagency operations centers and the NCRCC access to DOD's classified 
conferencing capability, which is used for DOD coordination and 
decision making during the response to hostile domestic air threats.
    In addition, DOD has begun deploying missile interceptors at Fort 
Greeley, Alaska, to protect the U.S. Homeland from ballistic missile 
attack even as system development, testing, and fielding continue.
Maritime Domain
    The maritime domain--including international waters, the maritime 
approaches to the United States, our territorial seas, and other U.S. 
navigable waters--is guarded by a highly effective partnership between 
the U.S. Navy and the U.S. Coast Guard. The U.S. Navy defends the sea 
approaches to the United States and works with the U.S. Coast Guard to 
patrol international waters and our territorial seas.
    In December 2004, DOD and DHS signed a memorandum of agreement that 
incorporated the U.S. Coast Guard in support of DOD maritime homeland 
defense operations. This memorandum of agreement established a joint 
command, control, and coordination structure using existing DOD and 
U.S. Coast Guard operations centers. A similar memorandum of agreement 
that would include DOD in support of U.S. Coast Guard maritime homeland 
security operations is currently awaiting final approval. This close 
coordination is essential to our ability to interdict terrorists and 
others attempting to enter the United States, possibly with WMD 
materiel and components, via the maritime domain.
    This year, the Secretary of Defense approved a new NORTHCOM 
Maritime Homeland Defense Execute Order, which provides readily 
accessible forces, procedures, coordination requirements, and rules of 
engagement to counter all threats to the U.S. Homeland, including WMD 
proliferation.
    Additionally, in multiple theaters in the global war on terror, 
forward-deployed U.S. Navy assets work with other agencies to identify, 
track, and intercept threats before they threaten the United States.
Land Domain
    It is the primary mission of DHS to prevent terrorist attacks 
within the United States. The Attorney General leads our Nation's law 
enforcement efforts to detect, prevent, and investigate terrorist 
activity within the United States. Accordingly, DOD does not have the 
assigned responsibility to stop terrorists coming across our borders, 
to stop terrorists from coming through U.S. ports, or to stop 
terrorists from hijacking aircraft inside or outside the United States 
(these responsibilities belong to DHS). Nor does DOD have the authority 
to seek out and arrest terrorists in the United States (these 
responsibilities belong to DOJ). DOD does have a role in providing 
support to civil authorities, when appropriate and as permitted by law. 
DOD has deployed numerous assets both to defend the U.S. Homeland and 
to assist civil authorities:

        <bullet> Quick Reaction Forces and Rapid Reaction Forces, 
        highly trained U.S. Army and U.S. Marine Corps units, are 
        postured to respond to a wide range of potential threats to the 
        U.S. Homeland, including critical infrastructure protection.
        <bullet> The U.S. Marine Corps Chemical-Biological Incident 
        Response Force (CBIRF), headquartered at Indian Head, Maryland, 
        can deploy to assist local, State, or Federal agencies and 
        military commanders in consequence management operations by 
        providing: capabilities for detection and identification; 
        casualty search, rescue, and personnel decontamination; and 
        emergency medical care and stabilization of contaminated 
        personnel. CBIRF was instrumental in responding to the 
        discovery of ricin in the Dirksen Senate Office Building in 
        February 2004.
        <bullet> Joint Task Force Civil Support, headquartered in Fort 
        Monroe, Virginia; Joint Task Force Consequence Management East, 
        headquartered at Fort Gillem, Georgia; and Joint Task Force 
        Consequence Management West, headquartered at Fort Sam Houston, 
        Texas, can provide consequence management support to civil 
        authorities in the case of WMD attacks.
        <bullet> Joint Force Headquarters NCR, based at Fort McNair in 
        Washington, DC, is responsible for land homeland defense, civil 
        support, and consequence management in the NCR.
        <bullet> Joint Task Force North (JTF-N), headquartered at Fort 
        Bliss, Texas, supports counterdrug, counterterrorism, and other 
        operations to countertransnational threats.
        <bullet> Joint Task Force Alaska, based at Elmendorf Air Force 
        Base, Alaska, is responsible for land homeland defense and 
        civil support operations in Alaska, and Joint Task Force 
        Homeland Defense, based at Fort Shafter, Hawaii, has these 
        responsibilities in Hawaii and U.S. territories, possessions, 
        and protectorates in the Pacific.
        dod's role in the security of the united states borders
    In accordance with section 202 of title 6, U.S. Code, DHS is 
responsible for ``[s]ecuring the borders, territorial waters, ports, 
terminals, waterways, and air, land, and sea transportation systems of 
the United States'' and ``[p]reventing the entry of terrorists and the 
instruments of terrorism into the United States.'' DOD's role in the 
execution of this responsibility, as noted earlier, is to provide 
support to DHS, when requested, appropriate, lawful, and approved by 
the President or the Secretary of Defense.
    DOD Active and Reserve component forces and the National Guard have 
conducted a wide variety of counternarcotics missions along the 
southwest border of the United States since 1989. That support to 
civilian law enforcement has included activities such as surface and 
aerial reconnaissance; minor construction; establishing tactical 
observation posts, training, intelligence analysis, linguist support, 
and transportation; and conducting training exercises along the border 
to provide terrain denial. DOD also supports requests from DOJ, DHS, 
and the High Intensity Drug Trafficking Area (HIDTA) Task Force 
Headquarters for unique military assistance, such as reconnaissance 
(ground-based, aviation-based, and maritime), logistics, 
transportation, engineer support along the southwest border, as well as 
intelligence programs and training.
    Since September 11, 2001, policy and operational changes in DOD 
have improved the alignment of resources and efforts where there is a 
potential relationship between terrorism and narcotics trafficking. 
Congress recognized the possible interplay between drug trafficking and 
terrorism and included in the National Defense Authorization Act for 
Fiscal Year 2004 a provision that addressed the authority of the 
Secretary of Defense to expand the mission of DOD joint task forces 
from counternarcotics to include counterterrorism activities.
    Since the terrorist attacks of September 11, 2001, DOD has also 
engaged in a number of activities to assist civil authorities in 
improving the security of our borders:

        <bullet> March-August 2002. DOD mobilized some 1,600 National 
        Guard personnel along the northern and southern borders to 
        support the U.S. Customs Service, the Immigration and 
        Naturalization Service (INS), and the Border Patrol, in their 
        heightened post-September 11 security posture.
        <bullet> October-November 2003. A Predator B Unmanned Aerial 
        Vehicle (UAV), scheduled for future delivery to DOD, operated 
        in support of DHS Immigration and Customs Enforcement (ICE) 
        Operation Safeguard, a humanitarian/law enforcement effort to 
        protect lives of illegal aliens and enforce immigration law 
        during crossings along the southwest border into the United 
        States. Operation Safeguard provided an opportunity for DOD to 
        demonstrate UAV capabilities to border authorities. Operation 
        Safeguard also served to highlight the policy, legal, and 
        infrastructure issues that must be examined in tandem with 
        technology development. These include challenges associated 
        with the use of UAVs in controlled domestic airspace as well as 
        the extensive infrastructure (e.g., communications, 
        exploitation tools, imagery analysts) required to process and 
        exploit information collected by UAVs.
        <bullet> June-September 2004. DOD UAVs operated in support of 
        the Arizona Border Control Initiative (ABCI), which sought to 
        detect illegal entry and smuggling/drug activity along the 
        Arizona-Mexico border, and to aid in the rescue of lost or 
        injured persons.
        <bullet> November 2004-January 2005.

                <bullet> JTF-N supported the U.S. Customs and Border 
                Protection (CBP) Operation Winter Freeze, an operation 
                to interdict suspected transnational threats along the 
                U.S.-Canadian border in the Swanton and Buffalo sectors 
                (New Hampshire, Vermont, and New York). The military 
                provided aerial reconnaissance and interdiction sorties 
                and augmented two Chemical, Biological, Radiological, 
                Nuclear, and High-Yield Explosive (CBRNE) detection 
                checkpoints.
                <bullet> Army Hunter UAVs flew sorties to detect 
                illegal entry/drug activity along the Arizona--Mexico 
                border in support of the ABCI.

        <bullet> June 2005. DOD supported a DHS bi-national interagency 
        exercise, ``Operation San Juan,'' involving CBP and Royal 
        Canadian Mounted Police activities along the northwest border 
        in Washington State. DOD provided surveillance radars, ground 
        sensors, and military personnel to operate them.
        <bullet> September 2005. DOD supported DHS CBP by providing 
        flight operations support at Fort Huachuca, Arizona, to UAV 
        operations supporting counterterrorism border enforcement 
        efforts.
        <bullet> October-November 2005. JTF-N supported DHS CBP's 
        efforts to interdict transnational threats in the El Paso 
        Sector by conducting multi-sensor operations (ground-based 
        forward-looking infrared, tactical unmanned aerial vehicles, 
        ground sensors, ground surveillance radars) in Hidalgo, Grant, 
        Luna, and Dona Ana counties of New Mexico.

                  defense support of civil authorities

    At the direction of the President or Secretary of Defense, the DOD 
supports civil authorities--as appropriate and consistent with the law 
and the imperative to sustain military readiness--for designated 
activities and as part of a comprehensive national response to prevent 
and protect against terrorist incidents or to recover from an attack or 
a disaster.
    DOD has significant resources that may be available to support 
civil authorities. In Incidents of National Significance, DOD's support 
is provided consistent with the National Response Plan (NRP), which was 
published in December 2004. The Secretary of Defense retains command of 
military forces providing defense support to civil authorities (DSCA)--
sometimes referred to as ``civil support''--as with all other military 
operations. In accordance with the NRP, when requested, and upon 
approval of the Secretary of Defense, DOD provides DSCA during domestic 
incidents. Accordingly, DOD is considered a support agency for all of 
the NRP's emergency support functions.
    There are three primary mechanisms by which DOD takes part in a 
Federal response to a domestic incident. Federal assistance, including 
assistance from DOD, can be provided: (1) at the direction of the 
President; (2) at the request of another Federal agency under the 
Economy Act, or (3) in response to a request from DHS's Federal 
Emergency Management Agency under the Stafford Act. The second and 
third mechanisms require a request for assistance and approval of the 
Secretary of Defense.
    DOD resources employed in support of domestic civil authorities are 
under the command and control of Commander, NORTHCOM, for responses in 
the Continental United States, Alaska, the Commonwealth of Puerto Rico, 
U.S. Virgin Islands, and the District of Columbia; or Commander, PACOM, 
for Hawaii and U.S. territories, possessions, and protectorates in the 
Pacific region.
    DOD has continued its long tradition of DSCA while maintaining its 
primary mission of fighting and winning the Nation's wars. In 2003, DOD 
acted on 75 RFAs from more than 20 civilian agencies. In 2004, DOD 
acted on 99 RFAs from domestic civilian agencies. DOD's response to the 
catastrophic effects of Hurricane Katrina was the largest and most 
rapid military deployment within the United States since the Civil War. 
More than 72,000 Federal military and National Guard personnel were 
deployed in response to Hurricane Katrina--more than twice the number 
that deployed in response to Hurricane Andrew in 1992 (more than 
29,000). These forces were directly employed in saving lives through 
extensive search and rescue, evacuation, and medical assistance. Other 
military capabilities employed during the response included 23 ships, 
68 fixed-wing aircraft, 293 helicopters, amphibious landing craft, 
space-based imagery, night vision capabilities, port and waterway 
surveillance, mortuary teams, and large-scale construction support 
provided through the U.S. Army Corps of Engineers and U.S. Navy 
Seabees. Additionally, nine DOD installations served as logistical 
staging areas for the delivery of supplies and as sites for Federal 
Medical Shelters. Little Rock Air Force Base, Arkansas, was designated 
as the central collection point for foreign relief donations. During 
the response to Hurricane Katrina, DOD acted on more than 90 hurricane-
related RFAs from civil authorities requiring a broad range of military 
capabilities. Some of these requests were approved orally by the 
Secretary of Defense or the acting Deputy Secretary of Defense, and 
were in execution when the approval paperwork caught up later. DOD felt 
a sense of urgency and acted upon it, as provided for within the NRP. 
In addition to Hurricane Katrina, DOD acted on more than 140 requests 
for assistance in 2005, including responses to Hurricanes Dennis, 
Ophelia, and Rita, and the provision of UAV support to DHS border 
security activities.

                            the total force

    The Strategy for Homeland Defense and Civil Support, which was 
published 2 months prior to Hurricane Katrina, reflects a Total Force 
approach to homeland defense and domestic civil support missions, 
incorporating the capabilities of trained and equipped Active-Duty, 
National Guard, and Reserve Forces. This approach preserves the 
historic Federal relationship between the various levels of government 
while, at the same time, recognizing the unique capabilities of the 
Total Force to respond immediately to American citizens who are 
desperately in need. The Total Force--Active, Reserve, and National 
Guard--is even now engaged in activities at home and abroad that 
promote the security and interests of our Nation. The National Guard, 
in particular, provides unique capabilities in every U.S. State and 
Territory. The modern-day National Guard effectively operates as an 
operational force for military missions at home and abroad and can 
answer no-notice calls by the President, the Secretary of Defense, or 
the Governors to respond to natural or man-made catastrophic incidents 
here at home.
    The DOD planned for and employed a balance of Active, Reserve, and 
National Guard capabilities in responding to Hurricane Katrina. In 
contrast to Hurricane Andrew (1992), in which National Guard Forces 
constituted 24 percent of the military response, National Guard Forces 
represented more than 70 percent of the military force for Hurricane 
Katrina. Even while 75,000 National Guard members were deployed 
overseas, under the leadership of Lieutenant General Blum and the 
various state Adjutants General, the National Guard amassed more than 
30,000 personnel in 96 hours in response to Hurricane Katrina. At the 
height of Hurricane Katrina relief efforts, the National Guard deployed 
a total of 50,000 military personnel. National Guard personnel from 
every State, Territory, and the District of Columbia were involved in 
Hurricane Katrina response operations. Further, National Guard Weapons 
of Mass Destruction--Civil Support Teams (WMD-CSTs) from 14 States 
deployed to provide state-of-the-art communications capabilities to 
local authorities and assistance and advice on identifying and handling 
hazardous materials from damaged infrastructure.
    The National Guard provides important capabilities to NORTHCOM and 
PACOM, including situational awareness capabilities, intelligence and 
information feeds, chemical-biological weapons of mass destruction 
response force packages, and forward-deployed command and control 
apparatuses and joint logistics bases, as needed.
    In the 2005 National Defense Authorization Act, Congress authorized 
the Secretary of Defense to provide funds to the Governor of a State 
for the use of the National Guard in a title 32 status (State control/
Federal funding) for approved homeland defense activities. This new 
authority recognizes both the truly global nature of the current war 
and the special capabilities and contributions of the National Guard--a 
force located in every State and Territory, very familiar with the 
local geography, officials, and population, and well versed in working 
with other U.S. agencies. Under this authority, National Guard Forces 
will be engaged directly in the defense of the U.S. Homeland in a 
manner not seen since the early days of our country.

                   hurricane katrina lessons learned

    Hurricane Katrina and the subsequent sustained flooding of New 
Orleans exposed significant flaws in our national preparedness for 
catastrophic events and our Nation's capacity to respond to them. 
Emergency plans at all levels of government were put to the test and 
came up short. As a result, President Bush, in his September 15, 2005, 
address to the Nation from Jackson Square in New Orleans, made it clear 
that the Federal Government will make the necessary changes to be 
``better prepared for any challenge of nature, or act of evil men, that 
could threaten our people.''
    President Bush subsequently ordered a comprehensive review of the 
Federal response to Hurricane Katrina--this review resulted in the 
publication of ``The Federal Response to Hurricane Katrina: Lessons 
Learned.'' Regarding DOD, the review states:

          The Federal response to Hurricane Katrina demonstrates that 
        the Department of Defense (DOD) has the capability to play a 
        critical role in the Nation's response to catastrophic events. 
        During the Katrina response, DOD--both National Guard and 
        Active-Duty Forces--demonstrated that along with the Coast 
        Guard it was one of the only Federal departments that possessed 
        real operational capabilities to translate Presidential 
        decisions into prompt, effective action on the ground. In 
        addition to possessing operational personnel in large numbers 
        that have been trained and equipped for their missions, DOD 
        brought robust communications infrastructure, logistics, and 
        planning capabilities. Since DOD, first and foremost, has its 
        critical overseas mission, the solution to improving the 
        Federal response to future catastrophes cannot simply be ``let 
        the Department of Defense do it.'' Yet DOD capabilities must be 
        better identified and integrated into the Nation's response 
        plans.

    The White House recommendations correlate well with our internal 
lessons learned effort. We have already begun to implement improvements 
with an urgent focus on the operational challenges associated with this 
year's upcoming hurricane season. For example, DOD is:

        <bullet> Developing pre-scripted requests for assistance that 
        would speed the response to a catastrophic event;
        <bullet> Completing a contingency plan defining NORTHCOM's role 
        in planning and executing support to DHS during domestic 
        contingencies;
        <bullet> Reviewing its Immediate Response Authority with a view 
        to making appropriate changes if necessary;
        <bullet> Providing a strategic planner as a detailee to the 
        DHS's Policy Directorate and reviewing DOD personnel support to 
        DHS in terms of both numbers and expertise to identify 
        appropriate adjustments;
        <bullet> Developing a framework to provide initial damage 
        reconnaissance, including those capabilities provided by the 
        National Geospatial Intelligence Agency (NGA) and the National 
        Security Agency (NSA), as part of a STRATCOM civil support 
        plan;
        <bullet> Proposing legislation that would allow more effective 
        and rapid mobilization of applicable Reserve units to conduct 
        all-hazards civil support missions in response to disasters;
        <bullet> Participating in the interagency revision of the 
        National Search and Rescue Plan, including disaster response 
        operations and address air traffic control and coordination; 
        and
        <bullet> Pursuing better integration of Federal military force 
        and State National Guard during planning and exercises. In the 
        future, integrated planning can be enhanced by anticipating 
        incidents and their operational requirements, as well as by 
        training and exercising for the 15 National Planning Scenarios 
        developed by DHS. NORTHCOM is developing detailed operational 
        plans for all foreseeable mission requests. Additionally, 
        beginning in February 2006, NORTHCOM will participate in DHS's 
        effort to review emergency plans in all 54 States and 
        Territories. We will integrate the lessons learned from the 
        response to Hurricane Katrina into future exercises to minimize 
        or mitigate military command and control difficulties during 
        responses to future disasters. Finally, when justified by the 
        disabling impact of a catastrophic incident upon State and 
        local authorities and the need to act swiftly to save lives, 
        the President has the necessary authorities to Federalize 
        National Guard Forces and establish ``unity of effort'' by 
        establishing a unity of command, placing all military forces--
        Active, Reserve, and National Guard--in title 10 status.

                               conclusion

    As stated in the Strategy for Homeland Defense and Civil Support, 
the United States faces ruthless enemies who seek to break our will by 
exploiting America's fundamental freedoms. Our adversaries are eager to 
employ violence against Americans at home. In this environment, DOD's 
paramount goal will continue to be the defense of the U.S. Homeland 
from direct attack.
    A new kind of enemy requires a new concept for defending the U.S. 
Homeland. The terrorist enemy now considers the U.S. Homeland a 
preeminent part of the global theater of combat, and so must we. We 
cannot depend on passive or reactive defenses but must seize the 
initiative from adversaries.
    The active, layered defense articulated in the Strategy for 
Homeland Defense and Civil Support seamlessly integrates U.S. 
capabilities in the forward regions of the world, the global commons, 
the geographic approaches to the U.S. territory, and within the United 
States. Whether in a leading, supporting, or enabling role, the DOD, 
guided by this Strategy and consistent with U.S. law, will work with a 
sense of urgency to protect the U.S. Homeland and the American people.
    Defending the U.S. Homeland--our people, property, and freedom--is 
our most fundamental duty. Failure is not an option.

    Senator Cornyn. Thank you very much, Secretary McHale.
    General Inge, we'd be pleased to hear from you.

STATEMENT OF LTG JOSEPH R. INGE, USA, DEPUTY COMMANDER, UNITED 
                    STATES NORTHERN COMMAND

    General Inge. Chairman Cornyn, Senator Reed, distinguished 
members of the subcommittee, thank you for the opportunity to 
report on NORTHCOM's homeland defense and civil support 
operations.
    As we enter our fourth year at NORTHCOM, we are mission 
capable, and we are responding to the needs of the Nation. Our 
primary focus is on homeland defense, deterring, preventing, 
and defeating attacks. We also stand ready to assist primary 
agencies in responding quickly to manmade and natural 
disasters, as directed.
    When we became NORTHCOM some 4 years ago, we inherited a 
family of plans from various organizations across the land. In 
conjunction with taskings from the Joint Strategic Capabilities 
Plan, we have built those plans into a family of plans. We now 
have some 12 plans that are either complete or very near 
complete. These plans are the foundation of our ability to 
deter, prevent, and defeat threats to our Nation, and to assist 
civil authorities when called upon by the President or the 
Secretary of Defense.
    To refine these plans and to hone our ability to accomplish 
our missions, we conduct frequent and demanding exercises. Our 
exercises scenarios have simulated a wide range of homeland 
defense and civil support challenges. These challenges have 
been exercised in the air, the land, the sea, both natural and 
manmade.
    To date, over 150 Federal, State, local, and 
multifunctional nongovernmental organizations (NGO) have 
participated in our exercises. After each of these, we conduct 
a comprehensive review to identify lessons learned. We adjust 
our operations and our plans, in accordance with these lessons 
learned, to improve our ability to protect Americans and supply 
primary agencies in times of crisis. I would also add that we 
adjust a similar rigorous after-action review process after 
each event, in terms of a real operation.
    Day-to-day, we sustain continuous situational awareness and 
readiness to defend the United States against a range of 
threats in all domains. Our operations center is up and running 
24 hours a day, 7 days a week, 365 days a year. It is manned by 
a team of qualified and competent professionals interfaced with 
other agencies within Government, and, particularly, I would 
add, with the National Guard. We are networked with our 
subordinate commands and stand ready to respond immediately in 
time of crisis.
    NORTHCOM has four subordinate headquarters, that I believe 
you are aware. Briefly, Joint Forces National Capital Region, 
located here, at Fort McNair, is responsible for land-based 
homeland defense, civil support, and incident management within 
the NCR. Joint Task Force Civil Support is located in Fort 
Monroe, Virginia, and command and control's DOD forces that 
respond to catastrophic chemical, biological, radiological, 
nuclear, and high-yield explosive events. Joint Task Force 
Alaska, located at Elmendorf Air Force Base in Alaska, is under 
PACOM for normal operations. If Alaska-based forces are needed 
for homeland defense or civil support operations, NORTHCOM will 
command and control the forces through Joint Task Force Alaska. 
Joint Task Force North, located at Fort Bliss, Texas, supports 
law enforcement agencies in counterdrug, counterterrorism, and 
border patrol operations along the northern and southwest U.S. 
borders.
    In addition, the Army, Air Force, and Marine Corps have 
established dedicated service components for NORTHCOM. These 
commands are 5th United States Army, located at Fort Sam 
Houston, Texas; 1st Air Force, Air Force North, located at 
Tyndall Air Force Base, Florida; Marine Forces North, located 
in New Orleans, Louisiana; and the Commanders of Fleet Forces 
Command located in Norfolk, Virginia, is designated as the 
Navy's supporting command to NORTHCOM.
    In the area of civil support, DOD has a long history of 
supporting civil authorities, providing specialized skills and 
assets that can rapidly stabilize and improve situations in the 
wake of catastrophic events. All DOD support is provided at the 
direction of the President or the Secretary of Defense and in 
accordance with the National Response Plan and applicable laws.
    In the past year, we have supported the President's State 
of the Union Address, the United Nations 60th General Assembly, 
National Interagency Fire Center, combating wildfires in 
Arizona, Colorado, Idaho, Nevada, and many other States in the 
western United States. We have supported Customs and Border 
Protection--just to name a few.
    In 2005, we supported the DHS in four hurricanes, including 
the unprecedented response to Hurricane Katrina. We continue to 
support law enforcement in combating illegal drugs and other 
transnational threats. Federal laws and policies allow us to 
assist law enforcement agencies in conducting their mission and 
securing our borders. All DOD involvement in border security 
operations is solely in support of civilian law enforcement 
agencies.
    We actively coordinate with other agencies, including the 
DHS and the National Guard, to develop stronger working 
relationships with State, regional, local, and international 
partners. We will never operate alone. We know this. In 
everything we do--planning, exercising, conducting realworld 
operations--we continue to improve our ability to support civil 
authorities in responding to disasters, while never losing 
focus of our primary mission, which is defending our Homeland. 
Our enemies should make no mistake about our resolve or our 
capabilities.
    We thank the members of this committee for their steadfast 
support to our men and women in uniform, and I look forward to 
your questions.
    [The prepared statement of General Inge follows:]

             Prepared Statement by LTG Joseph R. Inge, USA

    Chairman Cornyn, Senator Reed, and members of the subcommittee: 
Thank you for this opportunity to discuss homeland defense and civil 
support operations.
    U.S. Northern Command (NORTHCOM) is responsible for homeland 
defense, sustaining continuous situational awareness and readiness to 
protect the United States against a range of symmetric and asymmetric 
threats in all domains. Day-to-day, we are focused on deterring, 
preventing and defeating attacks against our Homeland. We also stand 
ready to assist primary agencies in responding quickly to manmade and 
natural disasters, when directed by the President or Secretary of 
Defense. To better serve Americans in their time of need, we are 
actively coordinating with other Federal agencies and developing 
stronger working relationships with State and local partners.
    NORTHCOM conducts maritime operations to deter terrorist operations 
and prevent attacks against the United States and its allies. During 
the past year, we analyzed and disseminated to government leaders 
information on the global maritime environment to facilitate 
situational awareness and decision making. NORTHCOM pursued and 
effectively garnered national and international support and 
strengthened partnerships to deter and disrupt terrorist activity. We 
also monitored threats of interest in the global maritime environment.
    For land domain operations, NORTHCOM postures and positions forces 
to deter and prevent attacks. Quick and rapid response forces and 
consequence management forces are maintained at appropriate alert 
levels to meet potential threats. During the 2004 national election 
period, we provided assistance for border security, conducted airport 
vulnerability assessments, and deployed forces trained for radiological 
detection at the request of the Department of Homeland Security (DHS) 
and the direction of the Department of Defense (DOD).
    our Homeland is protected from air threats primarily by the North 
American Aerospace Defense Command (NORAD). NORTHCOM and NORAD work 
closely together in defending our Nation's airspace. Across the United 
States and Canada, armed fighters are on alert and flying irregular air 
patrols to identify and intercept suspect aircraft. Since September 11, 
2001, as part of Operation Noble Eagle, NORAD has flown more than 
42,000 accident-free sorties and scrambled or diverted fighters more 
than 2,000 times in response to potential asymmetric threats. In 
addition, NORAD remains postured to defend against strategic airborne 
threats to the United States and Canada. NORTHCOM is responsible for 
air operations within our area of responsibility such as evacuation and 
movement of people and high-value cargo via military airlift. In 
addition, NORTHCOM has the capability to use NORAD air defense alert 
aircraft to conduct unilateral operations as required and directed.
    The DOD has a long history of supporting civil authorities with 
specialized skills and assets that can rapidly stabilize and improve 
the situation in the wake of catastrophic events. All requested DOD 
support is provided at the direction of the President or Secretary of 
Defense and in accordance with the National Response Plan and 
applicable laws, including the Stafford Act and the Economy Act.
    NORTHCOM provides defense support of civil authorities primarily 
through our subordinate commands Joint Task Force Civil Support at Fort 
Monroe, Virginia; Joint Force Headquarters National Capital Region at 
Fort McNair, Washington DC; Joint Task Force Alaska at Elmendorf Air 
Force Base, Alaska and Joint Task Force North (JTF-N) at Fort Bliss, 
Texas. In addition, the Army, Air Force and Marine Corps have 
established dedicated Service Components for NORTHCOM. These commands 
include: Army North located at Fort Sam Houston, Texas; Air Force North 
located at Tyndall Air Force Base, Florida, and Marine Forces North 
located in New Orleans, Louisiana. The Commander Fleet Forces Command, 
located at Naval Station Norfolk, Virginia, is designated as the Navy's 
Supporting Commander to NORTHCOM.
    The Homeland Security Act of 2002 assigns the Secretary of Homeland 
Security the responsibility for security of our Nation's borders. 
NORTHCOM's role in the border security mission is to provide support to 
civil authorities, principally the DHS. We provide such support under 
chapter 18 of title 10. When Customs and Border Protection requests the 
military's support, the Office of the Secretary of Defense evaluates 
their request, and as directed, NORTHCOM provides the necessary 
support. NORTHCOM's involvement in border security operations is always 
in support of civilian law enforcement agencies. Coordinated by JTF-N, 
our force providers continue to support law enforcement agencies in the 
war against illegal drugs and other transnational threats through the 
application of emerging DOD-unique technologies. This includes 
intelligence and operational support missions. Intelligence support 
includes employing military intelligence analysts to develop 
operational intelligence products that we can share with our 
interagency partners for their use in early cuing, warning, and 
interdiction operations. Operational support includes detection 
missions using a variety of sensors that are unique to the DOD in order 
to improve a supported law enforcement agency's ability to detect, 
monitor and interdict transnational threats. Construction of roads, 
bridges and fences, as well as installing area lighting to improve the 
ability of law enforcement officers to move, identify and respond to 
threats crossing the border are also a part of this mission category.
    In addition to assisting the law enforcement agencies that request 
such support, JTF-North's intelligence and operational support missions 
provide military training opportunities for the title 10 and National 
Guard Forces that conduct them. JTF-North recruits units to volunteer 
for these missions by soliciting forces from all Services, both Active 
and Reserve components. Through JTF-N, NORTHCOM employed unmanned 
aerial systems along the southwest border in support of U.S. Customs 
and Border Protection. While obtaining unmanned aerial system training, 
these flights greatly assisted in the detection and apprehension of 
those engaged in illegal drug trafficking in New Mexico and Arizona.
    During 2005, NORTHCOM supported DHS in responding to four 
hurricanes. For Hurricane Katrina, we established Joint Task Force 
Katrina to oversee title 10 operations for the most complex civil 
support mission in the history of the U.S. military. DOD provided 
Defense Coordinating Officers and Elements, DOD bases for mobilization 
centers, airlift, ground transportation assets, aerial damage 
assessment, satellite communications, airborne and waterborne search 
and rescue, subsistence, water purification, mosquito abatement and 
medical support. We are actively involved in efforts to compile lessons 
learned and incorporate them into future operations. One very important 
lesson we learned pertains to unity of effort and unity of command. 
NORTHCOM was in charge of 22,500 Active-Duty Forces. Additionally, 
there were 50,000 National Guardsmen in state status (title 32 and 
state Active-Duty). Commanding and directing 22,500 Active-Duty Forces 
and coordinating with the National Guard the efforts of over 50,000 
state status National Guard troops presented challenges. We embrace the 
fact that the National Guard will play a pivotal role in disasters. 
However, the Nation should have the capability to effect unity of 
effort among Active-Duty Forces and state status National Guard Forces 
when assembling and directing a large-scale, multi-state and 
international response to a catastrophic event. We are prepared to 
respond as directed by the President or Secretary of Defense.
    Another lesson learned from our response to Hurricane Katrina 
relates to communications. We need immediate, reliable communications 
that are survivable, flexible and interoperable with our civilian 
partners. These communications must be mobile, secure and both voice 
and data capable.
    As we act to support civil authorities in responding to natural 
disasters, we never lose focus on our primary mission of homeland 
defense. We thank the members of the Senate Armed Services Committee 
for their unwavering support of NORAD and NORTHCOM. We are grateful for 
all that you have done to ensure our men and women in uniform have the 
tools they need to keep our Nation and the American people safe and 
free. Thank you for your time. I look forward to your questions.

    Senator Cornyn. Thank you very much, General Inge.
    General Blum, we would be glad to hear from you.

  STATEMENT OF LTG H. STEVEN BLUM, USA, CHIEF, NATIONAL GUARD 
                             BUREAU

    General Blum. Thank you, sir.
    Chairman Cornyn, Senator Reed, and distinguished members of 
the subcommittee, thanks for the opportunity to appear here 
today and talk about your National Guard and its role in 
homeland defense in support of homeland security, as well as 
the great job we do overseas when we're called into Federal 
service.
    The Army and the Air National Guard this past year have had 
a very historic year. We had more people overseas than at any 
other time since World War II. We made up over 50 percent of 
the Army's combat formations in Iraq. We're training the Afghan 
national army, keeping the peace in the Sinai, maintaining the 
peace in the Balkans, Bosnia, and Kosovo, and sending citizen 
airmen and soldiers to 40 other nations in the global war on 
terrorism. At the same time, we had our busiest year ever in 
terms of military response to natural disasters.
    Hurricanes Katrina, Rita, and Wilma were not the only 
things the National Guard did last year. We were called out for 
several hundred local- and State-level emergencies brought on 
by either industrial accidents, civil unrest, critical 
infrastructure protection, or the effects--the weather patterns 
that affected the States of our great Nation.
    We are leveraging existing combat capabilities and 
technologies that we use to fight the war. We are a full-
spectrum force, and we apply those same skill sets, experience, 
knowledge, and technologies here at home when we're called out 
either by the Governors or the President to execute our duties.
    Your National Guard has 10 essential core elements that we 
feel are necessary to be able to do homeland defense or 
homeland readiness indicators, as we call them. They fall into 
the categories of aviation, engineering, civil support teams, 
security forces, medical, transportation, maintenance, 
logistics, and, of course, what we used to call command and 
control (C2), or we do call command and control everywhere else 
in the world, but here at home, I think C2 takes a different 
definition. It's not really C2 we're talking about. We're 
talking about communications and coordination. So, we have a 
Joint Force Headquarters in every single State and Territory 
that is superbly able to do that, not only with military forces 
of all the Services, but with the interagency and the 
intergovernmental response that was required for the State or 
the region or the Nation.
    Last, and not least--in fact, almost most important--are 
communications. We are leveraging all of these capabilities, 
and have established certain protocols, organizations, and 
capabilities as gap fillers. They are not to take the place of 
existing title 10 organizations, they are to fill the gap, the 
capabilities gap, that exists in the early hours of an incident 
while we are discovering what we are facing and when the 
American people expect their first military responders to 
probably be their local National Guard units.
    So, what we have done is, we've set up a Joint Force 
Headquarters in every State and Territory. We've set up a Joint 
Operations Center that has 24-hour-a-day, 7-day-a-week, 365-day 
operational coverage, so that we can basically provide a shared 
awareness with all of those interagency, intergovernmental 
partners, and military partners, on the Active-Duty side, 
such--particularly noteworthy is NORTHCOM--so that we have a 
shared awareness of what's going on and a better idea of how 
we're going to work together to solve the problem.
    We have, of course, the Civil Support Teams that Congress 
has authorized. They are moving out, and have proven their 
worth. We sent--I think it was 17, total, responded to 
Hurricanes Katrina, Rita, and Wilma. What they brought, that 
communications van that is embedded in that Civil Support Team, 
proved to be invaluable, because it was one of the few systems 
that would connect the DOD communications technology with the 
civilian first-response community's technologies and 
communications capabilities.
    In addition, we have stood up what we call CERFPs, which 
are Chem-Bio Response Force Packages. We have 12 of those. Now, 
with Congress's assistance and direction, we will stand five 
more up, so we'll have a total of 17. They are arrayed all over 
the United States, so that no region of the United States is 
left uncovered.
    We have something called a Joint Continental United States 
Communications Support Environment, which is a lot of words 
that actually mean we take all of the existing technologies in 
the Air Force and the Army that are resident in the National 
Guard, and we optimize them so that they can be most useful in 
feeding situational awareness in a common relative operating 
picture to NORTHCOM and PACOM in Hawaii, Alaska, and Guam, and 
that we're able to pass information in a secure method or a 
nonsecure method, to include video teleconferencing (VTC), so 
that everybody really knows what actually is occurring and what 
needs to be done in any catastrophe.
    I think what I'll do, in the interest of time, is shorten 
my statement and give you more time for questions, and close in 
saying that the successful integration of the interagency and 
intergovernmental, and the civilian and the military 
organizations, are absolutely essential in any disaster that 
ever befalls this Nation. The National Guard has a 368-year 
history of being able to do that quite well. We have a great 
deal of pride in how well we respond, but we recognize we could 
do better.
    Senator Reed is exactly right, no military organization is 
ever satisfied with its performance. There are several areas we 
could improve. They are listed in my report. But mostly they 
revolve around resourcing, equipment, training and exercising, 
and planning so that we can be better prepared next time than 
we even were the last time.
    Thank you very much for the opportunity. I await your 
questions.
    [The prepared statement of General Blum follows:]

             Prepared Statement by LTG H. Steven Blum, USA

    Thank you for the opportunity to speak to you today about the 
National Guard's role in homeland defense. In addition to the overseas 
fight, you can rest assured, the National Guard stands ready to protect 
the Homeland and provide military assets to assist civilian authorities 
at the request of the Governors or the President, through a rapid, 
integrated response across the Nation. Geographical distribution, 
community integration, and other traditional strengths make the 
National Guard an effective and cost efficient force for many homeland 
defense (HLD) and civil support requirements at both the State and 
Federal levels. In preparing for these missions, the National Guard has 
examined the emerging threats and searched for capability gaps we must 
overcome to be successful. I want to stress meeting these needs does 
not demand a dedicated HLD force structure, rather, they can be 
addressed through enhanced capabilities for existing warfighting force 
structure.
    The National Guard is a balanced force which operates across the 
full spectrum of military engagement from close order combat to 
military support to civil authorities. Training and preparation for the 
overseas warfighting mission provides National Guard Forces with the 
vast majority of the preparation required for HLD and civil support. 
These requirements do not focus solely on material solutions; they also 
identify needed cultural changes--specifically regarding coordination 
and unity of effort across multiple agencies and intergovernmental 
seams. The emphasis of our homeland defense mission is on prevention, 
pre-event deterrence, and responding within hours after a major 
incident.
    As I'll discuss in a moment, the National Guard's response to 
homeland defense since September 11, and more recently during Hurricane 
Katrina has been tremendous. Still, there is room for improvement. 
Capability and synchronization gaps between local first responders and 
follow-on State and Federal forces exist and must be addressed to 
ensure a fully secure America. In June 2005, the Department of Defense 
(DOD) published the Strategy for Homeland Defense and Civil Support 
followed shortly in August by Joint Publication 3-26 Homeland Security. 
This document emphasizes the need to ``Lead, Support, and Enable'' by 
executing missions to prevent and repel attacks; working with civil 
authorities as part of a national response to attack or disaster; and 
sharing expertise with domestic as well as our international partners. 
This broad homeland security direction on Homeland Defense and Civil 
Support (HLD/CS) focuses reliance upon National Guard capabilities 
within an active, layered defense strategy for the United States.
    HLD is mission one for the National Guard. Governors count on the 
National Guard to be the first military responder and call on Guard 
assets at their disposal within the first hours of an event, which 
makes resourcing critical. The National Guard must be able to support 
the Governors' requirements on an immediate basis, and respond with the 
right capabilities, to the right location, at the right time. The 
States have indicated to the National Guard Bureau that there are 
certain capabilities they feel they need to meet emergencies. At the 
National Guard Bureau we express these in the following list of 10 
essential capabilities each State, Territory, and the District of 
Columbia must maintain at all times: (1) Aviation, (2) Engineering, (3) 
Civil Support Teams, (4) Security, (5) Medical, (6) Transportation, (7) 
Maintenance, (8) Logistics, (9) Joint Force Headquarters, and (10) 
Communications.
    We are seeking to further leverage the capacity currently existing 
in these 10 essential capabilities to address identified gaps through 
the development of the following initiatives and concepts.

          (1) Joint Force Headquarters-State (JFHQ-State). JFHQ-State 
        is a joint command and control entity in each State and 
        Territory. It is integrated into national consequence 
        management and contingency planning structures. JFHQs provide 
        situational updates (common operating picture) information to 
        national level headquarters before and during any contingency 
        operation and Joint Reception, Staging, and Onward Movements, 
        and Integration for all inbound military forces. Federal law 
        provides a mechanism whereby a National Guard officer can 
        command Federal troops. Such a commander at the head of a Joint 
        Task Force-State (JTF-State) can assume tactical control of all 
        military units--State National Guard, other National Guard 
        Forces, Active component and Reserves. JTF-State commander can 
        be a dual-hatted commander of both title 32 and title 10 forces 
        as demonstrated in the 2004 G8 Summit, Democratic and 
        Republican National Conventions.
          (2) Joint Force Headquarters Joint Operations Centers (JFHQ 
        JOC). The JOC is a network composed of the National Guard 
        Bureau JOC and a JOC in the 54 States and Territories. JFHQ JOC 
        serves as the primary entity for coordinating, facilitating, 
        and synchronizing efforts in support of their states, 
        information requirements of National Guard Bureau and customers 
        at the Federal level during natural disasters, National Special 
        Security Events (NSSE), exercises and domestic activities. Each 
        JFHQ JOC has redundant connectivity: DOD architecture of NIPR 
        and SPIR; a High Frequency (HF) network with classified and 
        unclassified voice and data information; and commercial 
        systems.
          (3) National Guard Chemical, Biological, Radiological/
        Nuclear, and high-yield Explosive (CBRNE) Enhanced Response 
        Force Package (NG CERFP). The National Guard developed and 
        fielded 12 NG CERFP teams to provide a regional capability to 
        respond to incidents involving chemical, biological, 
        radiological or high explosive threats. Each team is designed 
        to rapidly (less than 96 hours) provide the capability to 
        locate and extract victims from a CBRNE incident site and 
        perform mass patient/casualty decontamination and medical 
        triage and stabilization. The CERFP augments the capabilities 
        of the Civil Support Teams (CST). The incremental training and 
        equipment for this capability is specialized, compatible with 
        the first responders, and interoperable with the incident 
        command system. Congress provided direction and, for fiscal 
        year 2006, funding to establish an additional 5 teams bringing 
        the total to 17.
          (4) Critical Infrastructure Program-Mission Assurance 
        Assessments (CIP-MAA). National Guard CIP-MAA teams--formerly 
        referred to as Full-Spectrum Vulnerability Assessment teams--
        execute the pre-planning needed to educate the civilian 
        agencies on basic force protection and emergency response. 
        Additionally, these teams are building relationships with first 
        responders, owners of critical infrastructure and National 
        Guard planners in the States and Territories. CIP-MAA teams 
        deploy traditional National Guard Forces in a timely fashion to 
        assist in protection of the Nation's critical infrastructure, 
        including vital elements of the Defense Industrial Base. 
        Currently, 6 ``pilot'' teams staffed by 14 specially trained 
        National Guard personnel conduct vulnerability assessments.
          (5) National Guard Reaction Force (NGRF). Being based in so 
        many communities, the National Guard has proven time and again 
        that it can muster forces and be on the scene of an incident 
        within hours. Each of the 54 States and Territories is 
        currently training a battalion size reaction force that can 
        respond anywhere in the state with an initial 75 to 125 person 
        element within a minimum of 4 to 8 hours. So, generally, we can 
        get a company of troops on the ground within hours and a 
        battalion in place overnight. These reaction forces provided 
        crucial support to law enforcement in the response to Hurricane 
        Katrina. The NGRF is task-organized from existing units and can 
        provide Critical Infrastructure Protection (CIP), site 
        security, and security and support during CBRNE contingency 
        operations.
          (6) Joint CONUS Communications Support Environment (JCCSE). 
        The National Guard has successfully established a JCCSE 
        nationwide. Each JFHQ established Homeland Security Information 
        Network (HSIN) linkages. The HSIN is an unsecured collection of 
        Department of Homeland Security systems designed to facilitate 
        information sharing and collaboration. Additionally, each Joint 
        Force Joint Operation Center (JF JOC) has secure/non-secure 
        real-time operational network linkages in addition to secure 
        video teleconference capabilities. This is critical to 
        providing real time operational connectivity as well as a 
        common operating picture to local, State, and Federal agencies.
          (7) Weapons of Mass Destruction-Civil Support Teams (WMD-
        CSTs). Include 22 Army and Air National Guard-Active Guard 
        Reserve (AGR) personnel organized, trained, and equipped to 
        enter contaminated areas and identify contaminants within a 
        short period of time. They have extensive reach-back 
        communications capability to facilitate off-site evaluation and 
        support from various laboratories. They are equipped with 
        mobile laboratories capable of providing identification of 
        chemical or biological materials. To date, the National Guard 
        has fielded 36 CSTs and will have 55 teams by fiscal year 2007.
          (8) Aviation Security and Support (S&S) Battalions. As part 
        of the Army's overall aviation transformation, the Army 
        National Guard has been able to convert and grow some valuable 
        dual-purpose aviation structure that will be readily available 
        and responsive to homeland security/defense needs, in addition 
        to their normal Army operational mission. The ARNG officially 
        activated 6of these 24-aircraft S&S Battalions on October 1, 
        2005, and placed them in readily responsive locations across 44 
        States.

    We are, once again, on point to test many of these measures as we 
are fast approaching another hurricane season. In this post-Katrina era 
we find that the best preparation for the next potential disaster is 
history.
    With that said, I am particularly proud of the timeliness and 
magnitude of the National Guard's efforts in advance of Hurricane 
Katrina and our response in its immediate aftermath. National Guard 
Forces were in the water and on the streets of New Orleans rescuing 
people within 4 hours of Katrina's passing. Over 50,000 National Guard 
personnel hailing from every State and Territory responded to calls for 
support of the affected region.
    This response was phenomenal; however, it is the ``lessons 
learned'' from Katrina that require--in fact, demand--our immediate 
attention. Through conversations with troops on the ground, commanders, 
Senate and House hearings, and most recently the White House's February 
report, The Federal Response to Hurricane Katrina Lessons Learned, 
released by Frances Townsend, Assistant to the President for Homeland 
Security and Counterterrorism, the National Guard has three major issue 
areas that need to be addressed--resourcing, interoperability, command 
and control of all military forces, and training.

                               resourcing

    Even prior to September 11, the National Guard did not have all of 
the equipment it is required to have. The pace of combat has placed 
even further challenges on us. In order to ensure that deploying units 
are fully equipped and ready to support operations anywhere in the 
world, we have transferred over 101,000 items of equipment in support 
of these missions. This situation has presented the National Guard with 
challenges in keeping our inventories here at home fully supplied with 
critical items such as trucks, radios, and heavy engineering equipment. 
With the help of Congress and the President, we have made an excellent 
start in filling these equipment gaps, and the President's budget will 
allow the National Guard to continue on the road to recovery. Over the 
fiscal years 2006-2011 timeframe, the administration plans to invest 
$19.2 billion and $4.4 billion in the Army and Air National Guard, 
respectively, demonstrating an unwavering commitment to providing the 
resources necessary to protect our Homeland.
    We are also addressing this through force structure rebalancing and 
the use the Emergency Management Assistance Compact (EMAC) as an 
essential force multiplier. This agreement among the States enhances a 
Governor's response capabilities by providing access to regional forces 
and equipment. Without question, EMAC enabled the National Guard to 
overcome many of the equipment/resource obstacles faced during 
Hurricanes Katrina and Rita. The National Guard Bureau Joint Operations 
Center (NGB JOC) served as the coordination point for the various EMAC 
requests before sending the requests out to the states and territories. 
We provided needed advice and assistance to Governors in identifying, 
selecting, requesting and deploying Guard forces needed in the affected 
states.
    Maintaining essential capabilities across the National Guard, amid 
ongoing overseas operations, Active component/Reserve component 
rebalance, modularity conversions, and National Strategy adjustments is 
an evolving task. Nevertheless, the National Guard Bureau attempts to 
synchronize all of these activities to ensure at least 50 percent of a 
given State's National Guard is always available for State missions, 
and HLD operations.

                            interoperability

    The recently released White House report, The Federal Response to 
Hurricane Katrina Lessons Learned spoke to the need for 
interoperability. It said, ``lack of interoperable communications was 
apparent at the tactical level, resulting from the fact that emergency 
responders, National Guard, and Active-Duty military use different 
equipment.'' As for the National Guard Forces, the first 48 hours after 
the hurricane made landfall saw the Guard literally using boats and 
helicopters to communicate. Our specialized command, control, 
cummunications, and computers packages, though limited in number, were 
able to bridge the frequency gap between military and civilian 
personnel in many locations. An in-depth look at interoperability is 
ongoing and there is a ``sense of urgency'' inside the Army and the DOD 
about meeting the National Guard's equipment needs.

                          command and control

    The infusion of the Active-Duty Forces into the Hurricane Katrina 
response effort presented some challenges at the operational level. 
There were some gaps in communication, coordination and integration 
into ongoing National Guard and emergency response operations already 
underway by the affected States. The situation was occasionally 
exacerbated by incompatible communication systems, lack of familiarity 
with the local area, and lack of involvement in the pre-hurricane 
planning.
    The efficacy of the creation of the Joint Forces Headquarters-State 
was proven in the National Guard portion of the response as both of the 
affected states were able to integrate forces from 53 other States and 
Territories and the District of Columbia. Further, the Joint Forces 
Headquarters-State could have provided reception, staging, and onward 
integration for the Federal forces deployed by NORTHCOM to support the 
civil authorities in the affected States.
    In addition to the benefits of JFHQ-State I've already discussed, a 
Joint Task Force-State (JTF-State) can, with State-Federal concurrence, 
assume tactical control of all military units ordered to respond to a 
contingency operation or disaster. This includes all State National 
Guard, other National Guard Forces, Active component as well as 
Reserves. The JTF-State commander can be a dual-hatted commander of 
both title 32 and title 10 forces giving unity of command within the 
military forces. The JTF-State can act as a subordinate C\2\ 
headquarters for NORTHCOM if required. The effectiveness of dual-hatted 
command was proven in 2004 at the G8 Summit, Operation Winter Freeze as 
well as the Democratic and Republican National Conventions. These were 
landmark achievements. For the first time in our Nation's history, the 
military attained unity of command for all forces operating in support 
of a major event. In each case, from one Joint Force Headquarters, a 
single National Guard officer commanded Guard units from multiple 
states operating under title 32 authority, as well as Active component 
Army, Navy, Air Force, and Marine Corps title 10 forces in a joint, 
intergovernmental, interagency environment.

                                training

    I'd like to transition into training and the National Guard's 
determination to take advantage of opportunities to share training and 
planning expertise with civilian partners and the importance that these 
efforts be institutionalized. The above-mentioned White House report 
recommended that each Federal agency a homeland security professional 
development program. We are pleased to say that we are already heading 
in that direction. The National Guard's Joint Interagency Training 
Center in West Virginia, serves as a model that demonstrates how joint 
training capacity can be expanded and how the military and civilian 
communities can train and work together. We are working with the Joint 
Forces Command to institutionalize this Center within the Departments 
process for joint education and training. This will allow us to 
increase the overall effectiveness of the national effort through 
standardized operational concepts, shared experiences, and enhanced 
interoperability.
    These four areas of concern--resourcing for personnel and 
equipment, interoperability, command and control of all military 
forces, and training--must be addressed as they are crucial to ensuring 
an effective response for HLD and civil support. Identifying and 
correcting these concerns will only improve the National Guard's 
already high state of readiness in supporting HLD as training received 
to support our other mission, overseas warfight, provides the vast 
majority of preparation required for HLD.
    The successful integration of civilian and military cultures and 
capabilities has long been one of the strengths of the National Guard. 
Our members live in both worlds. Our forces operate in both worlds. We 
are proud to be able to bring these communities, cultures and 
capabilities together and render to our fellow citizens essential help 
when it is needed most.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Cornyn. Thank you very much, General Blum. We 
appreciate your testimony.
    All of your written statements will be made part of the 
record, without objection, in addition to the summaries that 
you've given us orally.
    We'll proceed with a round of questions now. We're glad to 
have Senator Thune join us, and I understand Senator Levin may 
well join us. Of course, we're being televised. We don't know 
who else is watching, but there's a lot of interest in what you 
have to say, and let me start off with some questions.
    First of all, I appreciate each of your efforts to help us 
understand, a little bit better, about how all of our national 
assets, whether they be designated civilian and under the 
purview of the DHS, or military and under the purview of the 
DOD, can be used to protect the American people.
    Just a little bit of a background for you. I think I've 
mentioned this to Secretary McHale. I also happen to serve as 
the subcommittee chairman on the Immigration and Border 
Security Subcommittee in the Judiciary Committee. Of course, 
there's a lot of concern in America today about our border 
security and just how we ought to deal with that. A lot of 
people have a lot of different ideas. You've heard, like I 
have, people have said, ``Well, there ought to be a role for 
our military in border security.'' I appreciate the legal and 
the policy reasons why our civilian agencies take the primary 
law enforcement role, Posse Comitatus, for example, and 
obviously the other obligations our men and women in uniform 
have elsewhere around the world.
    I guess it's really a tremendous compliment to our military 
and to our civilian leadership that people hold you up as the 
gold standard when it comes to professionalism and competence. 
When they see that gold standard compared to other agencies of 
the Federal Government, they usually find those other agencies 
tend to pale somewhat in comparison. So, I guess it's a 
backhanded compliment, but we need to also understand better 
how those roles interact.
    If I can just mention an example: certainly, as Secretary 
McHale mentioned, in the DOD authorization of 2004 it indicated 
and directed a role of the joint task forces in counterdrug 
missions, but it also included counterterrorism missions. 
Obviously one concern we have about our border is its--how it 
can be exploited to--by terrorists who want to exploit the 
porosity of our borders.
    Another example I will mention to you, recently I was down 
at the Corpus Christi Naval Air Station and looked at the 
operation of the Customs and Border Patrol Air and Marine 
Division down there, that operates the P-3s, the aircraft with 
the Airborne Warning and Control System (AWACS) type setup on 
the top, that's designed to protect both our airspace and the 
sea lanes from drug traffickers. Unfortunately, all of the P-3s 
in Corpus Christi are now grounded, because they're 40-year-old 
aircraft and they have serious maintenance problems, leaving 
us, I think, in a very bad way.
    So, as I'm trying to prepare the context for you, I want to 
make sure that we're in a position to reassure the American 
people that we are using all of the assets, both in personnel 
and technology, and of every category, to keep them safe and to 
make sure that those are working in a smooth, hopefully as 
seamless a way as possible.
    Perhaps it would be good to start with you, Secretary 
McHale. Could you explain, in a summary fashion, how you 
believe that the DOD, including NORTHCOM, are operating today, 
in terms of its cooperation and communication with the DHS when 
it comes to border security?
    Mr. McHale. Yes, sir, I can.
    The domestic responsibilities of the DOD essentially fall 
into two categories. As I indicated in my opening statement, we 
have the warfighting responsibility to use military power to 
defend the United States against a foreign threat, whether that 
threat would be a nation-state or a transnational terrorist 
group. Our primary emphasis has been on the need to identify, 
interdict, and defeat any such attack upon the United States 
that would involve a WMD.
    If you look at the NORTHCOM mission statement, the first 
half the mission statement addresses that warfighting 
responsibility. Where we're not in support, we have the lead 
for the warfighting defense of the United States.
    If you look at the second half of the NORTHCOM mission 
statement, it deals with civil support missions, including 
missions of the type that you describe. Now, the most recent 
and prominent, obviously, is the military response to Hurricane 
Katrina. We were not in the lead. DHS was in the lead. FEMA was 
the operating entity of DHS. The activities that we executed 
with 72,000 men and women forward deployed were all in support 
of FEMA, while FEMA and DHS retained the lead.
    As I indicated, we average probably 90 to 100 civil support 
missions each year. Last year, because of Katrina, we went well 
beyond that. Among the civil support missions are the border 
support missions to assist civilian law enforcement in 
maintaining our border security. Again, we don't take the lead. 
Border security is a law enforcement mission. But, under a 
variety of authorities, including the statutory authority, 
Senator, that you referenced, we can, and we do, assist the 
Customs and Border Patrol (CBP) in their paramount law 
enforcement role to secure the border.
    So, for instance, we do provide technical assistance, we 
provide robust surveillance capabilities in counternarcotics 
missions, and, in what is a new statutory mission, we are 
permitted to provide counterterrorism, as well as 
counternarcotics, support to CBP and other civilian law 
enforcement agencies--not to take their place, but to better 
enable those civilian law enforcement authorities to secure the 
border, both in the context of counternarcotics and, more 
recently, in the context of counterterrorism.
    Senator Cornyn. Thank you very much.
    General Inge, NORTHCOM, of course, is the command that has 
responsibility for homeland defense. Could you tell us how many 
dedicated forces that NORTHCOM has to its support mission for 
the DHS?
    General Inge. Thank you, Senator.
    First of all, with regard to the DHS, we work very closely 
with them, and we've had very close ties, very good engagement. 
On a day-to-day basis, if there is not a mission assigned, we 
have JTF North, which is planning headquarters, that would 
coordinate efforts with the CBP, for example. When a mission is 
requested, forces are then allocated to JTF North to accomplish 
that mission. So, it depends on the day, and it depends on the 
mission, and it depends on the support request, is the short 
answer to your question.
    Senator Cornyn. Thank you. So, do I understand----
    General Inge. There are no standing forces that are 
dedicated specifically to doing border support unless there is 
a mission request.
    Senator Cornyn. All right.
    As far as leveraging and sharing of technology, Secretary 
McHale, the National Response Plan and the Department of 
Defense Strategy for Homeland Defense and Civil Support states 
that the DOD, as you mentioned, will facilitate and nurture 
collaborate research, and ensure, as applicable, for the smooth 
transition of appropriate technologies and capabilities to the 
civilian sector. What DOD technologies and capabilities are 
currently being leveraged by, or shared with, the DHS? If you 
could provide us, if possible, the specific examples where the 
sharing of technology or the transfer of technology or resident 
DOD capability assist the DHS in their homeland security and 
border defense mission, I would appreciate it.
    Mr. McHale. Senator, if I may answer it a little bit more 
broadly than perhaps the way you phrased it in the question, 
I'll give you an example of some of the technologies which are 
applicable to border security, but not exclusively to border 
security.
    We have a statutory duty, under the National Defense 
Authorization Act of 2003, section 1401, to transfer dual-use 
technologies from DOD to our civilian interagency partners, 
most especially DHS. As some specific examples, there are areas 
where we have developed technology to support us in overseas 
warfighting, where that technology may have a domestic 
application, depending upon the nature of the threat. As an 
example, we've had the responsibility now for many decades to 
be prepared to execute our military mission overseas in a WMD-
contaminated environment. So we have protective equipment, we 
have WMD CBRNE sensor capabilities that have allowed us to 
prepare for war in an overseas fight where the environment has 
been contaminated by WMD. Unfortunately, but the reality is, 
much of that technology could potentially have a domestic use 
if we were to be attacked by terrorists utilizing WMD. So, we 
share that information and technology with the DHS, so not only 
the DOD, but first-responders and others, will have access to 
personal protective equipment, sensor capabilities, and other 
WMD-related technology to better enable the civilian mission.
    A specific example of technology sharing was cited by 
General Blum a couple of minutes ago, and that is, one of the 
major challenges we have is that when first-responders, 
emergency management personnel, including Federal Emergency 
Management personnel, the National Guard, and Active-Duty 
military forces, show up in the same area of responsibility, we 
all bring different communications equipment. A police officer 
from a city does not carry the same radio as an officer in the 
United States military, even differentiating between the 
National Guard and Active-Duty. We have to knit those 
capabilities together.
    General Blum made reference to the Customer Service Team 
(CST) vans provided to the National Guard by the DOD, where 
there's a patch capability. You can take a police officer's 
radio, put it through a central switchboard that we have 
designed, and it will be seamlessly connected to a title 10 
radio that is very different in infrastructure, on a completely 
different frequency, a wholly different design, yet these two 
pieces of equipment, when patched through that central 
switchboard contained within that CST van, will allow for 
interoperability of communications.
    In addition, in certain other areas, ground surveillance 
capabilities, sensors that have been deployed along the border, 
aerial observation platforms, Predators that we have made 
available to DHS for border security, tunnel detection 
capabilities, there are numerous areas that are leveraged by 
technology where we have developed that technology for one 
purpose, but make it available to DHS for domestic employment.
    Senator Cornyn. Thank you very much.
    I'm going to turn it over to Senator Reed. But let me just 
note, and ask for confirmation by General Inge, with regard to 
interoperable communications--I note, General Inge, that 
NORTHCOM has provided a list of unfunded requirements that have 
not been addressed in the budget submitted by the DOD. The top 
two items include the need for, number one, interoperable 
communications, for $10 million, and, number two, $5.6 million 
for Maritime Domain Awareness Initiative. It's a 
straightforward question, but obviously you don't have what you 
need now in order to undertake those interoperable 
communications, I take it.
    General Inge. Hurricane Katrina taught us that 
establishing, immediately after a disaster, interoperable 
communications that would be commercial-backbone-like, is 
critical to the success in an immediate response to the Nation, 
and that capability is not in place today.
    Senator Cornyn. I hope this subcommittee, and this 
committee, can help you get what you need in order to get that 
done. It seems like a no-brainer.
    General Inge. Thank you, sir.
    Senator Cornyn. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    First, let me join the chairman in recognizing General 
Rodriguez, the technical assessment group (TAG) of the Texas 
National Guard. General Blum and all the TAGs have done an 
extraordinary job, in terms of not only responding to domestic 
crises, but deploying overseas in support of our operations. 
I'm very proud of my Rhode Island National Guard. So, I thank 
you, General Rodriguez, for your service.
    Mr. Secretary and General Inge, during Hurricane Katrina 
there were essentially two military chains of command. There 
was a National Guard chain of command and there was a title 10 
chain of command under General Honore. At any time, did the 
White House ask for your advice about unity of command, a 
different command structure, during the pendency of the crisis?
    Mr. McHale. Senator, when you phrase the question, ``the 
White House,'' that's pretty broad. I think I can answer your 
question directly by saying that I did provide recommendations 
to the Secretary of Defense, recommendations that he then 
considered to inform him in any recommendations that he might 
make to the President of the United States. I did have 
discussions on that point with Secretary Rumsfeld.
    Senator Reed. Was your recommendation, Mr. Secretary, a 
unified command for all forces, or----
    Let me step away from the history. Going forward, what we 
know now, how will we approach the command structure, when you 
essentially had two chains of command, which, I would assume, 
violates the fundamental principle of unity of command?
    Mr. McHale. It does violate the fundamental principle of 
unity of command, it does reflect the Constitution of the 
United States. We have a conflict between what you and I would 
want to achieve in terms of unity of command for operational 
purposes and the system of government, thank God, that we live 
under, which is Federal in character, but assigns to the 
President of the United States Federal C\2\ responsibilities, 
and preserves, for the Governor, within the Governor's sphere 
of responsibility, C\2\ over what historically was called the 
State militia, today known as the National Guard. So, the 
division in the command structure is a direct reflection of our 
Federal system of government. Although there is the ability, by 
statute, to achieve unity of command over both Active-Duty and 
National Guard Forces, the invocation of the Insurrection Act 
and the federalization of the National Guard are two steps 
that, historically speaking, are seen as sobering decisions, 
and not readily undertaken, unless there is clear reason to do 
so.
    So, with that as context, the Constitution sets up two 
chains of command, so either we achieve, through very detailed 
advanced planning, close coordination between the National 
Guard and title 10 forces, recognizing that we don't have unity 
of command, but that we can achieve unity of effort through 
that close coordination in advance, not during, a crisis, or, 
in the alternative, failing that kind of coordination, which 
did work between General Honore and General Landreneau, the 
title 10 commander and the National Guard TAG, if coordination 
fails, then we do have the statutory option, the President has 
the authority to federalize the Guard, move the Guard from 
title 32 status to title 10, and have true, not only unity of 
effort, but unity of command.
    But I don't think--well, I'm sure--in the past 50 years, 
since the days of the civil rights movement, no Governor has 
been stripped, by statute, of that command authority over the 
National Guard involuntarily. Only once or twice has it been 
done, with the consent of the Governor; most recently, in 1992, 
with the Los Angeles riots.
    But, bottom line, it is a sobering decision to take that 
command authority away from a Governor. In most cases, the 
purpose is to achieve--the purpose should be to achieve unity 
of effort, even in the absence of unity of command.
    Senator Reed. Your comments are well taken, Mr. Secretary, 
but I think what you've said is that we are working now much 
more explicitly and consciously on the problems of unifying the 
effort.
    Mr. McHale. Yes.
    Senator Reed. But, it has to be an ongoing basis.
    Mr. McHale. Yes.
    Senator Reed. It has to be part of our mindset, and also 
what we exercise, I presume, that, as we----
    Mr. McHale. Absolutely correct----
    Senator Reed.--look at these----
    Mr. McHale.--on all points. Yes, sir.
    Senator Reed. Also, I would assume, given the magnitude of 
Hurricane Katrina, and perhaps the magnitude of another natural 
or, unfortunately, manmade crisis, that one of the first issues 
will be assessing whether this unity effort is taking place, 
and, if not, going to that very difficult judgment about 
whether there has to be a decision by the Executive to unify 
the command. Is that fair?
    Mr. McHale. Yes, sir, that's a completely accurate summary.
    I think it's important that we keep it in the context that 
I described earlier, and that is, for those of us who come out 
of a military background, and who quickly recognize that having 
dual command authority is not what is most operationally 
efficient, that we understand why that is. It's the 
Constitution of the United States. It's the recognized 
authorities, both of the National Government and the State 
governments, creating a dual chain of command. We should not 
simply look at it from a military perspective and assume that 
unity of effort requires unity of command. That, I think, would 
violate some basic principles of federalism. We retain that 
option, when required, but we should not lightly execute it.
    When possible, we should preserve the command authorities 
of a Governor, certainly command--respect the constitutional 
authorities of the President of the United States. While 
recognizing two distinct chains of command through close 
coordination, deliberate staff planning, detailed anticipation 
of the mission requirements, and rigorous exercises to test 
that, we should preserve the two chains of command, while 
insisting upon unity of effort through coordination.
    Senator Reed. Thank you, Mr. Secretary.
    Let me turn to a question that was alluded to, I think, in 
your comments, Secretary McHale. It is situational awareness; 
it was very poor. It was poor for the National Guard. It was 
poor for NORTHCOM. That's the conclusion of the White House 
report. Poor for practically all the participants, days into 
the crisis. First, I don't think you will argue with that 
premise, but, if you do, let me know. But I'd like to ask all 
of you, what are you doing to improve the situational awareness 
in another incident like Hurricane Katrina? Perhaps, General 
Blum, you might start in terms of the National Guard.
    General Blum. It's a bottom-up build, which is probably a 
good way to do it. That's the way the National Response Plan is 
built, anyway. So, the first responsibility for establishing 
this situational awareness or this information feed so that 
someone would know what is going on and then be able to 
determine what needs to be done, based on what's being done and 
what's unable to be done in the local area, is very important. 
To take an event where you lose all of your existing normal 
lines of communication--your television, radio, cell phones, 
hardwired phones, fax machines, e-mail--all of those things, 
electricity is gone. So, you have to--you have to--we have to 
worst-case it. In the past, we did not. We did not, as much as 
we should have. None of us.
    So, now we are planning for catastrophic events. How do you 
establish those critical communications in the early moments so 
that you can gain the situation awareness, so you know what is 
going on, so that you can tell others what is going on, so they 
know what to anticipate to be ready to do next, because--so 
they know what they don't have to do, because they're aware of 
what is happening.
    So we're setting up communications that are flyaway 
packages, pre-positioned packages, and we've come to Congress 
and submitted a requirement, and they have been very good, and 
they've given the Army National Guard $700 million. I am 
working with the United States Army for an accelerated 
purchase. The hurricane season will be on us in 5 months. We 
should start seeing hurricanes as early as June. They don't 
always wait until the fall. So, we have to be ready. The United 
States Army is doing an accelerated purchase for mostly 
satellite communications that is not reliant on cell towers 
being in place or any existing communications being in place. 
We have those in much greater supply now than we did for 
Hurricane Katrina, already. By this hurricane season, we'll be 
much better prepared than we were last year. We will not be 
where we need to be this year. It will take us some time, and 
take us additional resources. I have to be honest. But we are 
honestly and earnestly working toward that end that you 
describe, and I think it's entirely appropriate to criticize 
that, because that was a flaw in all of our planning, in all of 
our response.
    Senator Reed. General Inge, quickly--and my time is 
receding quickly--but could you comment? Then, Secretary 
McHale, the last word.
    General Inge. Sure. A couple of things. True situational 
awareness, needed to improve in this disaster. But, at the same 
time, we probably had better situational awareness than we had 
the right to expect, given our experience from times past. So, 
it's a good and a bad story.
    There is a lot of talk about situational awareness, title 
10 versus State forces. I think we've worked on that. General 
Blum and I have personally met and worked on that. That's a 
matter of communication and coordination--they're the words he 
used--and we have personal communication, and we agree with 
that.
    We've met with the TAGs of the hurricane States already at 
NORTHCOM to make sure that our lines of communication are open, 
our staffs' lines are open. I think that we'll be much better.
    We have work to do. This is the first time we've ever put 
up an air picture of the magnitude that we did for this 
hurricane, I suspect in the history of the Nation. We have a 
lot of work to do to get what, in a combat zone, would be 
called intelligence, surveillance, and reconnaissance (ISR), 
which we should rightly call here damage assessment, so that it 
all flows in the downlinks in the right place. We're working 
that very hard.
    Control of 360 airplanes of different nature over a 
disaster area, we're working that hard, to build that picture, 
and are working with the adjutants general of the various 
States so that, in a disaster, we can assist them with that, 
while they are still in charge of the disaster.
    Working the Navy piece, we had not worked as hard. Having 
the Navy follow the storm, as is appropriate, to do beach 
assessment immediately is a great deal.
    But a piece we don't talk about very much is the logistics 
piece and how you support FEMA in tracking logistics and it's 
one of the technology pieces Senator Cornyn talked about. We 
found that we routinely use our radio frequency tags in our 
military business. Tracking our containers and just getting the 
logistics package into the area of damage is no small task.
    Day after day, you would hear staff officers stand up and 
say, ``Sir, we shipped a million Meals Ready to Eat (MRE) 
today.'' That's good information, I suppose. But the real 
question is, ``How many did you need to ship, and where did 
they go?'' So we're working all those kinds of issues very 
aggressively as we move into this next season.
    Senator Reed. Thank you, sir.
    Secretary, if you have a comment?
    Mr. McHale. Senator, the need to conduct wide-area 
surveillance for damage assessment after a natural disaster 
should have been a mission requirement that we recognized, but 
it was not. So before the end of September, in our internal 
preliminary lessons learned, we identified, and did not hide at 
all, our recognition that the ability to have aerial assets in 
place to conduct wide-area surveillance after either a 
terrorist attack or a natural disaster is a preeminent 
requirement. We did not anticipate, though--if we had read the 
after-action reviews from Hurricane Andrew, in 1992, we might 
have anticipated the reality that media reports inevitably, 
after a disaster, tend to be inaccurate. So, unlike Hurricanes 
Andrew and Katrina, for Hurricane Rita, that came along 4 or 5 
weeks after Hurricane Katrina, we had a complete aerial 
observation package in support of NORTHCOM. It included P-3s, 
Predators, C-130s, high-altitude and space-based imagery, so 
that if Hurricane Rita had produced catastrophic damage, we 
would not have been reliant on media reports to scope and 
assess that damage.
    So, the first thing you need is--we don't call it, 
domestically, an ISR package, as the General properly noted. 
We're talking about wide-area surveillance for damage 
assessment, and then the ability, through interoperable 
communications, to disseminate what we collect to all of the 
first-responders, emergency management personnel, military 
authorities, who need to be aware of the damage so they can 
begin responding to it. We didn't get it right for Hurricane 
Andrew in 1992, we didn't get it right for Hurricane Katrina, 
we did get it right for Hurricane Rita, and it's a lesson that 
we have now learned very clearly.
    Senator Reed. Thank you very much. Just a point with this 
capability, you could have, for example, identified not just 
the damage, but the fact that thousands of people were 
collecting at the Superdome, because your photo analysts, 
either space-based or jets up in the air, could have done the 
same type of photo analysis they do in a tactical situation, 
and said, ``You have lots of people accumulating.'' Is that--
all I need is a yes or no--what you're talking about when 
exploiting this information?
    Mr. McHale. What we're talking about, primarily, is 
physical damage.
    Senator Reed. Okay.
    Mr. McHale. When you start talking about observing the 
population with these assets, you get into an area of public 
policy that is--I think, as you recognize----
    Senator Reed. Let's defer that to next round, because I 
will stop and----
    Mr. McHale. Yes, sir.
    Senator Reed. I will recognize Senator Thune.
    Excuse me. Thank you.
    Senator Cornyn. Thank you, Senator Reed.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman, and thank you, 
members of the panel, for your service. I appreciate the--just 
listening to the line of questioning and the responses, clearly 
there are lots of things that need to be improved upon, from 
some of the responses in the past, and I appreciate the steps 
that you've enumerated to make sure that we get it right in the 
future.
    I want to start with a question for General Blum, which has 
to do with a piece of equipment that you all, the National 
Guard, is receiving, the first 32 C-27s off the line. My 
understanding is, those receiving units may have already been 
selected. I have a two-pronged question. One is, when do you 
estimate the NGB will make selections on units for the next 
group to follow off the assembly line? What criteria will you 
use in making that selection?
    General Blum. Senator, let me back up if I can. To my 
knowledge, the aircraft has not been selected. If you're 
talking about the future cargo aircraft, or the light cargo 
aircraft, that the Air Force and the Army are going to buy, and 
we're going to put in the National Guard as a joint 
intratheater airlift capability, it is my intent to put those 
airplanes, when the DOD decides which one they're going to 
buy--when they give that to the National Guard, I will then put 
that capability out into as many States as I can, but they will 
be distributed regionally as part of a package that supports 
the Chem-Bio Response Force Packages, the Civil Support Teams, 
the Quick Response Forces. They will be positioned based on 
known weather patterns and also areas that we know are critical 
and key in being able to move capabilities and logistics to 
other affected areas.
    That's a long answer. We've put out the first four or five 
that are really so obvious where they need to go. The others 
are under very careful consideration, in collaboration with 
your adjutants general, your Governors, and the emergency 
managers in the region, so that we do something that, when 
they're not in the service of the Nation overseas as part of 
the Air Expeditionary Force, they are superbly postured and 
ready to support any Federal, or State and Federal combined 
response, for a regional response, or even a national response.
    So, I hope that gets to your question. If you want to be 
more specific, I'll try to address it.
    Senator Thune. I guess my question is, though, that the 
first 32 of those units off the line--my understanding was that 
the receiving units had already been selected. What you're 
saying is that----
    General Blum. The very first ones are, yes, sir.
    Senator Thune. Okay. But--all right. So, then I guess what 
I'm asking is, the next installation of that, the criteria that 
you're going to use, which you've enumerated, is going to be 
regional, and it's going to be based on some of the mission 
requirements.
    General Blum. Yes, sir. It will also be placed in a place 
that has--do you understand the term ``bed down''?
    Senator Thune. Right.
    General Blum. It has the infrastructure there, so that the 
airplane doesn't pass a bill to the Army or the Air Force for 
military construction and the construction of a new airfield. 
There are many, many airfields that are already in existence 
that have superb infrastructure to support a C-130-like 
airplane.
    Senator Thune. Right.
    General Blum. So, it would make sense that if that place is 
near one of these regions we're talking about, they'd be a 
strong candidate for where I would nominate them to receive 
those aircraft.
    Senator Thune. That was going to be a follow-up question, 
is one of the things that you will look at among these 
competing units, then, is the infrastructure capacity.
    General Blum. Oh, absolutely. If they have the airspace, 
they have the airfield, they have the hangars and the 
maintenance, and it's already there, it would be foolish not to 
take advantage of it, I think.
    Senator Thune. One of the things I'd--with respect to the 
National Guard--and 80 percent of the South Dakota National 
Guard has mobilized in support of operations in the Middle 
East--Operation Noble Eagle, Operation Enduring Freedom--and I, 
like all South Dakotans, are extremely proud of the 
contributions that they have made to the war on terror, as well 
as to homeland defense--one of the questions I have is--I'm 
concerned, I think, like a lot of people are, that our National 
Guard and Reserve will not be able to meet the demands of both 
their title 32 and title 10 missions, due to some of the 
operational stress on personnel and equipment. We're running a 
lot of our equipment into the ground--the personnel, the 
deployments--that have put tremendous stresses and strains on 
the National Guard. How, in your view, can DOD maximize the use 
of the National Guard and Reserve, without overusing them? 
That's a general question, I understand.
    General Blum. I think you do that by predictability. We've 
worked that out with the Army and the Air Force. The members of 
your National Guard know pretty well that, if they're in the 
Air National Guard, that they're going to deploy for a 
relatively short period of time, 2 to 3 months, about every 18 
months. They accept that. The employers seem to accept that, 
and the families accept it. Our retention rate shows that it is 
well accepted by the three partners in the citizen soldier--the 
employer, the family, and the servicemember. Our retention rate 
is over 100 percent of our goal in the Air National Guard. It's 
over 100 percent in the Army National Guard, but they rotate on 
a different model, and that's about one deployment every 6 
years. We have--we think--I firmly believe we can achieve that. 
We're not there yet, but I think we can.
    We hit an all-time highwater mark this time last year, with 
12 brigades over in combat. This time--the same time this year, 
we'll probably have four, four and a half. Then, when you add 
Afghanistan, perhaps five. So, it's been a significant 
reduction in the contribution that the Army National Guard--or 
the demands on the Army National Guard overseas, as what they 
have been over the last year--that was a conscious decision to 
give the Army time to reset into modularity, so that they could 
assume a heavier burden this year, and they are. So, we're very 
conscious of what you're describing. I think we can do it.
    The personnel piece, I'm very confident we can recruit, 
retain, and keep our force. The equipment piece is where I need 
help from this body.
    Senator Thune. Right.
    General Blum. We sent the very best of our equipment 
overseas, as we should. We've been over there now for several 
years. We've crossleveled our equipment. We were short of 
equipment when the war started. You have to remember that. The 
National Guard was under-resourced deliberately. It was a 
strategic reserve. It has, for the last 6 years at least, been 
an operational force overseas. It needs to be resourced as an 
operational force back here at home. In the old--and we didn't 
view the National Guard that way in the past, because they had 
all the equipment that they needed as a strategic reserve 
overseas, gave them adequate equipment to be ready here at 
home. Now that we're an operational force overseas and that 
equipment is moved to the war zone, which it should, we need to 
address the shortages here.
    Now, while this body will help provide the money for that, 
and the authority to buy that new equipment, or acquire that 
new equipment, we are leveraging the Emergency Assistance 
Compacts (EMAC) amongst the States to move equipment to the 
affected areas of this Nation while we're short on equipment, 
so that we mitigate the--otherwise, if we didn't do that, the 
problem would be that some States would be under-equipped to do 
what they need to do. But through EMAC, we have, as Hurricanes 
Katrina, Rita, and Wilma have shown--and, by the way, when all 
of that was going on, and 80,000 troops were overseas, we were 
still fighting blizzards in your northern neighbor, in North 
Dakota. We had a blizzard going on while the hurricane was 
coming on. We were clearing roads in North Dakota. We were 
fighting floods in Vermont and New Hampshire at the same time. 
So, Mother Nature doesn't throw this stuff at us one at a time. 
But we can handle multiple near-simultaneous events, if we need 
to. But we could handle them a lot better if we were better 
equipped.
    Senator Thune. That sounds exactly like what our TAG said 
this week when he was in town. So, we understand that. 
Certainly we want to do everything we can to address the needs 
that you have, in terms of equipment and--understanding that--
the important role that the National Guard and those assets 
have played in the war on terror, realizing that you--we ask 
you to do a lot of things, and we have to make sure that you 
have the resources you need to get it done.
    Secretary McHale, a question having to do--some of what's 
been touched on by Senator Cornyn, Senator Reed already--on the 
homeland defense front, the illegal immigration issue, of 
course, is a very hot issue on the border States. Admiral Loy, 
who's Deputy Secretary at DHS, testified in front of the Senate 
Select Committee on Intelligence that 44,000 other-than-
Mexicans came across the border last year. I guess what I'm 
interested in knowing is, is the DOD working with DHS to 
identify where those other-than-Mexicans are coming from? What 
is the DOD doing, in terms of working with the DHS, to 
implement the use of UAVs on the southern border? That's what I 
hear is the technology that, as we look at immigration reform, 
we may want to incorporate the UAVs that are policing the 
border.
    Mr. McHale. Yes, sir. We, in fact, are very active in 
supporting CBP, a DHS subordinate element, in its 
responsibilities along the southwest border. As I noted in my 
opening statement, we've been engaged in counternarcotics 
activity in support of civilian law enforcement since 1989. A 
recent change in the law, that Chairman Cornyn cited earlier, 
expanded the DOD role to include counterterrorism activity in 
support of civilian law enforcement, as well as 
counternarcotics activity. We've been doing a lot for a long 
time to support civilian law enforcement in the execution of 
their mission.
    We have routinely provided aerial platforms, usually 
helicopters, to provide surveillance of cross-border movement, 
illegal movement, in order to inform ground-based CBP agents of 
that movement so that appropriate detentions and arrests could 
be made. I've flown one of those flights along the Texas border 
with a U.S. Marine Corps Reserve helicopter unit where that 
unit provided aerial surveillance in support of CBP on the 
ground.
    About 2 years ago, I think, I received a request for the 
first use of a Predator, a DOD Predator, one that had not yet 
been delivered to DOD, but was scheduled for delivery, to be 
used in support of CBP, much like the helicopters, but using a 
UAV, for surveillance along the southwest border. I think, for 
about a 3-week period of time, based on our support for that 
request for assistance, that Predator became the first of many 
flights that have now been executed, and continue to be 
executed, in support of CBP. My understanding is that DHS, 
correctly, is in the process of standing up its own UAV 
capability. But, in the interim, on a frequent, even daily, 
basis, we, for instance, for training purposes, conduct UAV 
flights in the southwest, training our own personnel to control 
those flights, but we do share the information that we acquire 
through that training with the CBP.
    Lastly, I would not want to give the impression that it's 
just aerial surveillance or UAV support that we provide. JTF 
North, a subordinate NORTHCOM command, provides numerous other 
forms of assistance on a regular basis--ground sensors, 
engineering support, and other capabilities, to include the 
sharing of intelligence and information to better identify the 
nature of the threat.
    The bottom line, there is absolutely no doubt that the 
situation along the southwest border is extremely troubling, 
probably getting worse, not better, in terms of criminality and 
violence. There is no doubt that the requirement to address 
that situation is primarily a civilian law enforcement 
function, but there is also no doubt that, consistent with the 
law, we are prepared to support--not replace, but support--
civilian law enforcement in the execution of that mission.
    Senator Thune. Have you been able to identify where the 
folks who are coming across the border, other than those who 
are coming in that are Mexicans coming across the border where 
those folks are coming from?
    Mr. McHale. Yes. It's part of our strategy for homeland 
defense that we have a defense in depth. In most domains, in 
the air and on the sea, that means the forward deployment of 
forces to interdict and defeat a threat before it enters the 
United States. We don't forward deploy ground forces into 
Canada or into Mexico. So, to achieve that defense in depth 
requires the ability to obtain information in depth as to 
threats that may be approaching the United States border.
    In an unclassified setting, I can tell you that we receive 
briefings--and I personally receive briefings--almost daily as 
to the nature of that threat and any question of terrorist 
activity that might be associated with it. We do try, to the 
very best of our collection capability, to identify terrorist 
threats approaching the United States border at a distance from 
the United States border to separate illegal immigration from 
what are perhaps related issues of terrorist infiltration.
    Senator Thune. I see my time is expired. Thank you, Mr. 
Chairman. Thank you all very much.
    Mr. McHale. Thank you.
    Senator Cornyn. Thank you, Senator Thune, for those 
important questions and the testimony we've heard.
    We've all been told, during the course of hearings, that 
the nature of illegal immigration across our border has 
changed, and there's been some exchange about the spike in 
people coming from countries other than Mexico, including 
countries of special interest. It causes all of us a great 
concern. Admiral Loy testified, as Senator Thune indicated. 
But, pretty clearly, there seems to be a consensus that where 
historically it may have been--organized crime may have been 
involved in drug trafficking, that now they're engaged not only 
in drug trafficking, but literally human smuggling, arms. It 
doesn't take any stretch of the imagination to imagine that 
they would transact in terrorist smuggling or in smuggling of 
WMD. So, I think the emphasis on how we can cooperate and how 
we can use all the assets of the Federal Government to protect 
us against that threat are very, very important.
    In that connection, I want to ask--starting with General 
Inge--given the need for effective and synchronized interagency 
coordination to respond to manmade or natural disasters, what 
thought have you given to transitioning Joint Task Force North 
into a Joint Interagency Task Force?
    General Inge. Sir, that's been the subject of discussion 
for, that I'm aware of, at least part of 3 years now. It's a 
discussion more properly addressed, I believe, here in this 
town than by the people of NORTHCOM. But we have been involved 
in those discussions. It rests, as I understand it now, with 
transitioning first to JTF North, with closer coordination with 
the interagency--and we work very closely with the interagency, 
and are very well tied in with them. If we continue on this 
path, the next step would be to decide, when do you transition? 
Then, who would be in charge? As you appreciate, JTF South 
works air and sea domains, and therefore, is operational 
control (OPCON) to Southern Command (SOUTHCOM), a military 
organization. When you work the land domain internal to the 
United States, you have different laws that would apply to the 
organization.
    So, short answer to your question, the discussions continue 
in the interagency, and we are involved, and we are a 
participant in the discussion. But I would assure you that 
today, JTF North is very closely aligned, and very much 
involved in, interagency coordination and incorporation as we 
work the southwest border.
    Senator Cornyn. I appreciate the fact that there's only so 
much that you can do, or that NORTHCOM can do, or the DOD can 
do, if it involves interagency cooperation and participation. 
I, for one, intend to do everything within my power to 
encourage all of the agencies that would make up an Interagency 
Task Force to fully cooperate in the effort, because I think 
there's a lot to be gained by that.
    General Inge. I could tell you, certainly, Senator, 
cooperation is better today--far better today than it was 18 
months ago. That's the time I personally have been watching. 
It's amazing how it's changed.
    Senator Cornyn. General Inge, how is NORTHCOM coordinating 
with SOUTHCOM? You mentioned JTF South, but how are you 
coordinating across the board to ensure that there's no gaps 
between commands?
    General Inge. Sir, we are tied in with SOUTHCOM in multiple 
ways. Most of their drug interdiction, we monitor--and, 
frankly, from a little afar, because they do it in the southern 
part of the region, and the focus of their emphasis is south of 
our area of responsibility (AOR). But we have proper liaison 
channels. We stay in communication with their Joint Interagency 
Task Force (JIATF). As is appropriate, they will work missions 
for us. We're in constant contact to make sure that a seam 
doesn't develop between us. Likewise, as you look at the 
islands to our south, we make sure that we have the right 
connection and the right handoff between them, in case of mass 
migrant problems.
    Senator Cornyn. General Blum, training and exercising are 
essential to preparedness.
    General Blum. Yes, sir.
    Senator Cornyn. We've talked a little bit about resources, 
things that would allow interoperable communications. One of 
the problems we saw during the Hurricane Katrina disaster was, 
the Louisiana National Guard lost communications connectivity. 
But what I want to focus on are other training and exercise 
concerns that we can perhaps help you address, and help the DOD 
address.
    Currently, it's my understanding the DOD does not provide 
funding for homeland security and homeland defense integration 
training at the State and regional level. If that's true, what 
can best be done to help improve overall joint response 
nationally? Is programmed appropriated and routine DOD, DHS 
training and exercising--is that part of the solution?
    General Blum. Mr. Chairman, I think you've hit on something 
very key. As I said--and Senator Reed said, what can you do 
better? I think one of the things that we absolutely must do, 
if we're going to get better, is to train and exercise. No good 
team doesn't practice. Any good team practices very hard and 
very realistically. That's why they're a good team. The problem 
that I face isn't that there's no unwillingness to train or 
practice; the problem is, there's no resource stream to 
actually accomplish that. It's not by evil intent; it was just 
never really a priority requirement in the past, and I think it 
needs to be seriously addressed in the future.
    If the DOD were provided funding for that, or if the 
National Guard were provided funding for that, we could do that 
very well at a local and State level, and a regional level, for 
that matter. But I would like to see those exercises and 
training tied in with the DOD so that it has the rigor and 
overwatch that has produced the world-class teams in the Army, 
Navy, Air Force, Marine Corps, and Coast Guard that training 
and exercises in our military model has produced.
    I think that's one place where the military honestly could 
be a force multiplier for the interagency and 
intergovernmental. We know how to do that. If we were 
adequately funded, or there was some mechanism to have some 
cost sharing perhaps between DHS and DOD to do this, I think 
the National Guard would be glad to be the lynchpin for the 
connecting of those resources and the broker for putting that 
together.
    Having said that, I think there's a role to be played there 
also by Joint Forces Command (JFCOM), NORTHCOM, STRATCOM, and 
PACOM, who all have equities in this, as well, because some of 
their--particularly NORTHCOM--mission set is largely focused on 
the United States.
    So anything they do, or we do, we're going to have to do 
together anyhow, so, we may as well learn how to do that well, 
early.
    Senator Cornyn. Thank you very much.
    If Congress saw fit to fund that sort of joint exercising 
and training, Secretary McHale, you don't see any objections or 
concerns, do you, from any other standpoint?
    Mr. McHale. Within the constraints of the President's 
budget, no. Our exercises have not been tough enough. Fifty to 
60 times each year, there are presidentially-declared major 
disasters. They are the type with which you and I are very 
familiar. It's a hurricane of a recurring type, a tornado 
through a region of the country, an earthquake that may be 
damaging, or even significantly damaging, but not catastrophic 
in its consequences. Fifty to 60 times a year, there are major 
disasters. For most of those major disasters, civilian response 
capabilities at all levels of government can normally address 
the remediation requirement, and the role of the DOD is fairly 
modest.
    Hurricane Katrina, which in my judgment, was at the low end 
of catastrophic events, taught us that we are not adequately 
prepared for those kinds of terrorist attacks or natural 
disasters that exceed in scope recurring major disasters and 
become catastrophic in their consequences. Most of our 
exercises in the past have dealt with major disasters, but not 
truly catastrophic events of the type that are envisioned, for 
instance, in the 15 planning scenarios that have been developed 
by DHS.
    So, Senator, I guess I would summarize by saying, we need 
to plan not only for recurring major disasters, but for the 
much more challenging environment of catastrophic events. Our 
exercises should reflect catastrophic requirements and a more 
deeply engaged DOD, where we have the organic capabilities to 
provide a response that may not be found anywhere else in the 
United States Government. Funding that kind of exercise program 
is a good thing; again, within the constraints of the 
President's budget.
    Senator Cornyn. Thank you.
    General Rodriguez, since you're here, I want to take 
advantage of your presence, just ask you one question, if I 
may. You might want to come up to the microphone, maybe over 
here on General Inge's left.
    The Texas National Guard played a very important role in 
responding to both Hurricanes Katrina and Rita. I'd like to 
give you an opportunity to share with the subcommittee any 
lessons learned from the Texas National Guard's perspective, 
that you'd like to highlight for the committee, that might help 
us in our deliberations.

   STATEMENT OF MAJOR GENERAL CHARLES R. RODRIGUEZ, ADJUTANT 
                 GENERAL, TEXAS MILITARY FORCES

    General Rodriguez. Yes. Thank you, Senator Cornyn, Senator 
Reed.
    Lessons learned from Katrina are primarily around two 
areas. One is how we worked, in a title 32 status, alongside--
along parallel with the title 32 Active-Duty Forces, and that 
it is possible--it's not ideal, but it is possible. As the 
Secretary and the others here have said, unity of effort is the 
primary concern, to include planning. There is no sense in 
planning in a vacuum, either. We must plan both at the Federal 
and at the State and at the local level. Everyone is tied 
together when a disaster strikes.
    The Texas National Guard adopted and tailored the adaptive 
battle staff model that is favored by NORTHCOM for our own 
Joint Force Headquarters. The Texas National Guard always 
remained in a posture of assistance to civilian authorities. 
But we focused exclusively on our customers--that is, the 
disaster-impacted residents of the State who were represented 
in the disaster zone by local elected officials, such as the 
county judges and the city mayors and appointed State 
authorities, like the disaster district chairman. In other 
words, the control was very local. The Governor serves as a 
moderator or a thermostat to make sure everything is in tune.
    We pushed military and civilian hybrid capabilities forward 
early. We pushed it strong, and we pushed it consistently. Our 
focus was to deliver commodities, care, and calming presence 
early, and to stay deployed forward as long as the Governor 
deemed appropriate.
    The most significant lesson we learned is that the National 
Guard should continue to refine its mission. But clearly it is 
the military choice of force for domestic disaster response, 
because our armories are there, we live there, we're where the 
disasters happen. What General Blum says is very true, that 
when you call up the National Guard, you call up America.
    Sir, you had mentioned something about the White House 
report, the Townsend Report. There's a particular 
recommendation there that really highlights the value of a 
lesson learned. It's number 28. It's the one that mentions the 
Joint Forces Headquarters State as a key facilitator and 
infrastructure platform of Joint Incident Command, one that 
ought to receive high priority implementation. That Joint Force 
Headquarters is the place where military and civilian 
coordination can be realized, where military coordination can 
happen to support lead Federal and State civilian agencies, and 
cross-communication can happen with greatest efficiency and 
effectiveness. The Joint Force Headquarters worked for us 
during our Hurricane Rita response. The Joint Force 
Headquarters State ought to be fully supported at the national 
level as a State or even a regional platform for fuller 
integration with Federal/regional joint field offices. That is 
to say, DHS.
    I encourage recommendation number 28 be fast-tracked for 
explicit establishment and missioning and legislation.
    Senator Cornyn. Thank you very much for that testimony. 
Thank you.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Let me begin by associating myself with General Blum's 
remarks about exercising. It's been said often, but I don't 
think as well as or as emphatically as you did. We're spending 
a lot of money on technology. We're doing lots of analysis. 
We're doing lots of training. But until you blow the whistle 
and say, ``Okay, here's the problem. Go out there and actually, 
on the ground, do something,'' we really don't know what we 
have. I agree with Secretary McHale's comments, too, that these 
exercises have to be more rigorous, but my inclination is that 
we could get a lot more bang for our buck if we put more money 
into exercising every level of command. We've done that a 
little bit in the Rhode Island National Guard, sort of on an ad 
hoc basis, but we should be doing it every quarter, or at least 
once a year, not just tabletop, but rolling--getting the wheels 
on--moving on the ground and things like that.
    Mr. Chairman, maybe we could think about trying to identify 
those resources.
    General Blum. Senator, you're spot on. I applaud Rhode 
Island and other States that have taken money out of their 
hide, or used State money, or some combinations of money to put 
together to do the little bit of training and exercising 
they've been able to do. We have an exercise schedule not too 
far from here, near the Washington, DC, Armory here, coming up 
at the end of the month. That's a modest exercise, but it costs 
about $1 million. We've had to take that out of hide that we 
don't have. But my good conscience won't allow me to stand up 
organizations and then let them atrophy. If we're going to 
train and certify them, they must be exercised if they're going 
to be ready when you need them. Otherwise, unless they go right 
into the crisis after graduation--and, even then, they're not 
going to be terribly effective, because they haven't practiced 
together. So you have to pull all of the parties together that 
are really going to come to the dance, and let them practice, 
so that when they are called upon in the middle of the night, 
on short or no notice, they can respond the way the American 
people expect them to.
    Senator Reed. I think you're absolutely right. In fact, 
I've been associated with the Army since 1967. It's gotten 
better as it's done with more realistic evaluations, more 
realistic in-the-field training. Not just the training, but 
evaluations, the whole--probably technology--the terminology is 
out of date, but the whole Radar Technology Improvement Program 
(RTIP) process, the whole evaluation, down to individual 
skills, from unit skills, is something that has moved us 
forward. We have to do the same thing on the homeland security 
side.
    Mr. Secretary, I want to follow up the last comment you 
made about the fact that now we have these air capabilities to 
essentially photograph everything on the ground for a damage 
assessment. Is there a legal issue about who can interpret 
these photographs? Or where does the information go? For 
example, my last point before I relinquished to Senator Thune 
was, we had thousands of people trapped in the Superdome. 
Presumably, if you had aerial coverage, taking photographs, 
digitizing, and sending it down to photo interpreters, someone 
would have noticed thousands of people congregating outside, 
and perhaps assumed that, if they're outside, there are more 
inside, and we could have moved quicker to relieve the 
pressure. Can that be done now, or is there a legal obstacle to 
interpreting these photos and getting information to the right 
people?
    Mr. McHale. There are certainly public policy questions, 
important public policy questions, and, I believe, very likely, 
related legal issues.
    When I spoke earlier about the need for more timely and 
accurate damage assessment, I was focused on the physical 
consequences of a catastrophic event.
    Senator Reed. Right.
    Mr. McHale. In the days after landfall of Hurricane Katrina 
on August 29, we did not immediately appreciate the enormous 
damage that had taken place along the Mississippi Gulf Coast, 
because, by comparison to the coverage in New Orleans, the 
coverage of the Mississippi Gulf Coast was modest. The focus 
tended to be upon New Orleans, so we saw everything through 
that region--everything in that region through the prism of a 
New Orleans perspective. So we have recognized that, for wide-
area surveillance, not involving the observation--certainly not 
the direct or intended observation of the movement of citizens, 
either groups, crowds, or individuals, but, rather, to simply 
see what's been blown away by the event, we have prepared, and 
in fact, for Hurricane Rita, deployed, assets to gather that 
wide-area surveillance.
    Now, my instinct, Senator, is to say that obviously there 
are profound issues of public policy when those aerial 
platforms begin observing people, as opposed to damage. I know 
that legally there are issues, legal issues, associated with 
any observation of citizens by military platforms for purposes 
of collecting information on those citizens for later criminal 
prosecution. We can't do that. That violates Posse Comitatus.
    I guess what I would say to you is, we are confident that 
it's an appropriate military role to use those collection 
assets for rapid, accurate damage assessment. We have not, and 
in the absence of clear statutory authority, would not, take on 
the responsibility of observing citizens, either groups or 
individuals. Frankly, if you want to find out that somebody's 
at the Superdome, the first-responders who are on the ground, 
the military personnel who are on the ground observing events, 
can provide a much more timely and accurate picture of what's 
happening than something that we draw from an aviation asset.
    Senator Reed. Mr. Secretary, let me observe, and I think 
you will agree, you already have a public policy problem, 
because the photograph of the battle, the photograph of New 
Orleans to assess the levee damage would reveal citizens.
    Mr. McHale. Oh, yes, sir.
    Senator Reed. So, we could be in the very interesting 
position where we have graphic evidence of a need to rescue 
Americans, yet no one has thought through how you legally get 
that information to someone who can effect the rescue or the 
relief.
    Mr. McHale. Yes, sir.
    Senator Reed. So, I would just urge you to--and I know you 
have--study this quickly, address those public policy problems.
    Mr. McHale. Yes, sir.
    Senator Reed. If we need statutory relief, please send us 
some recommendations so that we can make the judgment--and I 
think you would urge that should be made--of what is the proper 
policy.
    Mr. McHale. Yes, sir. The public policy question really 
involves the intent of that aerial imagery. So long as we 
collect aerial imagery that is for the purpose of damage 
assessment, the fact that individual citizens or groups of 
citizens show up on that imagery is not a problem and we can 
disseminate that information. If we begin focusing that aerial 
imagery not on damage assessment, but on the movement of 
citizens on the ground, then you get into issues related to 
both the law and public policy if that imagery reveals----
    Senator Reed. Right.
    Mr. McHale.--unintentionally----
    Senator Reed. Yes.
    Mr. McHale.--in the collection of the imagery, criminal 
activity.
    Senator Reed. I appreciate that, but the reality is, in one 
of these crises, you will have multiple data about people, 
about physical destruction about potential problems.
    Mr. McHale. Yes, sir.
    Senator Reed. We have to have a way, legally and 
constitutionally, that we can get pertinent information to 
people so that we can relieve citizens who are in distress. I 
would be very interested in seeing a recommendation as to how 
we do this.
    General Inge, how is the intelligence-sharing between 
NORTHCOM of the NCTC functioning today?
    General Inge. Can I comment very briefly on the previous 
discussion?
    Senator Reed. Yes, you may, sir. Yes.
    General Inge. Public law has not been an impediment to us 
doing what we need to do. We are very careful that we don't put 
ourselves in a position where we can be accused of spying on 
our citizens. We are very sensitive to civil liberties.
    But I wouldn't want us to leave here thinking technology is 
the solution to this problem. It will only be a----
    Senator Reed. Yes.
    General Inge.--benefit to it, but it won't be the solution. 
The boots on the ground of the guy reporting accurately what he 
or she sees, and getting that report properly integrated to the 
right people, is the long-term solution to situational 
awareness.
    The TAG of Mississippi personally rode down the coast of 
the Gulf Coast the night the storm moved through. So, he knew 
what was there. There weren't enough overhead assets, 3 days 
later, that were going to help them very much.
    Senator Reed. Right. Let me applaud both the Secretary's 
and your concern with civil liberty. I want to reinforce that. 
This is not a plea to disregard. This is actually a plea to 
respect those. But I'm just looking ahead, I hope, practically, 
to the point where you have the information, and you can't use 
it, and people are suffering. Shame on us.
    General Inge. Absolutely.
    Senator Reed. We should have thought through this problem 
and at least have some type of procedure to alleviate it.
    Now your counterterrorism comment.
    General Inge. Sir, I was new to homeland intelligence when 
I came to this job 18 months ago, and everyone around the land 
told me how bad intelligence cooperation was, and, if you 
didn't believe that, you just had to listen to the news. I got 
out there, and I found senior representatives from each of our 
agencies in our headquarters in our morning meetings, sharing 
appropriate information back and forth. We have good liaison 
support with the agencies now, and good cooperation.
    Is it as good as it needs to be? No, sir, it's not. But 
it's improving on a daily basis. All of the senior heads of 
those departments have been to us in the recent months to make 
sure we're working to do what we need to do to meet the needs 
of the people.
    Senator Reed. Let me just give you a follow-up question.
    General Inge. Go ahead.
    Senator Reed. Do you receive actionable intelligence on a 
regular basis? I mean, this is something where----
    General Inge. We receive intelligence. We haven't had the 
need, as a military, to action it.
    Senator Reed. Right. Specifically, what could we do to 
improve it? Are there specific steps that still have to be 
taken that you could urge us to take?
    General Inge. We, as the executives, are continuing to work 
this problem, to the mutual benefit of the American people. I'm 
not sure that there's immediate steps that need to be taken 
here.
    Senator Reed. It's just--keep the pressure on, keep moving 
forward, never be satisfied.
    General Inge. It's another piece of the interagency 
coordination that we just have to continue every day to get 
better at it because we're not as good as we need to be, but 
we're better today than we were yesterday.
    Senator Reed. Right. General Inge, Admiral Keating has 
decided to combine NORAD and NORTHCOM Command Centers. I must 
commend you for developing a new phrase for the Cheyenne 
Mountain, ``The Warm Standby.''
    General Inge. Yes, sir.
    Senator Reed. I sometimes feel like I'm warm standby. So, 
I'm going to use that, with your permission.
    Will this initiative change the mission and capability of 
NORAD? Will functions at Cheyenne Mountain be reduced or 
eliminated when relocated to Peterson Air Force Base?
    General Inge. Sir, we will take the air warning and the 
aerospace surveillance piece, move that piece of the Operations 
Center into our, now NORAD/NORTHCOM Command Center, so the 
commander will be able to go to one place, get a common 
operating picture of all domains at one time.
    Senator Reed. Has this been coordinated with General 
Cartwright, at STRATCOM?
    General Inge. Yes, sir.
    Senator Reed. What is the impact of moving the operation of 
NORAD, as a binational command with Canadian involvement? 
Essentially, what is the reaction of the Canadians, at this 
point?
    General Inge. We have coordinated with appropriate people 
in Canada before we proceeded to do this. What the outcome will 
be, and the precedent as we move forward, remains to be 
determined, but the key leaders who needed to be coordinated 
with, were coordinated with before we started, so it's not a 
surprise to them.
    Senator Reed. Thank you very much.
    General Inge. Certainly here in the country, as well--in 
our country.
    Senator Cornyn. Thank you, Jack.
    The discussion about taking pictures of people and--as part 
of a damage assessment, and inadvertently picking up American 
citizens, and the potential conflict in our laws, raises 
another interesting question, and a related question.
    Secretary McHale, we're all familiar with the debate about 
the NSA and the Terrorist Surveillance Program that's going on. 
One of the important functions of the NSA also relates to 
cybersecurity. I'd like to know whether you have any concerns 
regarding information assurance and Posse Comitatus. Are there 
any changes in the law that--and you can either take this 
question now or get back to us with a written response later 
on--but I'd be interested to know, given the fact that 
technology has certainly outstripped the 1978 law, Foreign 
Intelligence Surveillance Act, that Congress passed, that our 
ability to both get information and also the defensive efforts 
we need to undertake to protect our own information 
infrastructure have certainly changed, and are changing perhaps 
even as we speak, I'd like to know whether you have any 
concerns with regard to legal limitations, like Posse Comitatus 
may have, with regard to our ability to provide information 
assurance.
    Mr. McHale. Senator, when I took this position, I promised 
the general counsel of the DOD that I wouldn't practice law 
without a license. I am an attorney in private life from time 
to time, but I'm not really prepared, nor would it be 
appropriate for me, to address the legal questions today, 
although we can certainly get back to you on that level of a 
response to your question.
    [The information referred to follows:]

    The General Counsel of the Department of Defense (DOD) advises me 
that, as described below, information assurance activities of the DOD 
are not limited by the Posse Comitatus Act. The Posse Comitatus Act, 
with certain exceptions, generally prohibits the use of any part of the 
Army or the Air Force for civilian law enforcement purposes. DOD 
defines information assurance as measures that protect and defend 
information and information systems by ensuring their availability, 
integrity, authentication, confidentiality, and nonrepudiation, 
including the restoration of information systems by incorporating 
protection, detection, and reaction capabilities. Accordingly, DOD's 
information assurance focus is on protection and defense of its 
information and information systems rather than on civilian law 
enforcement. To the extent that DOD information assurance activities 
may involve activities that appear to be civilian law enforcement, 
these activities probably would be within the military purpose 
exception to the Posse Comitatus Act. This judicially recognized 
exception permits DOD participation in civilian law enforcement-like 
activities if there is an independent military purpose for the 
activities, in this case, the protection and defense of DOD information 
and information systems.

    Mr. McHale. Operationally, I have to tell you, I do have 
those concerns. I think it would be irresponsible not to be 
concerned about cybersecurity and mission assurance in the 
context of adversaries who undoubtedly would attack us, in 
terms of cyber-vulnerabilities, if given an opportunity to do 
so.
    Much like border security and some of the other issues that 
we talked about earlier, it's important to emphasize that the 
cybersecurity of the United States is not a DOD responsibility, 
it's a responsibility that, by law, has been assigned primarily 
to the DHS. We do have the responsibility within the DOD to 
protect our own command-and-control capabilities and other 
operational capabilities of DOD from a cyberattack. I do have 
concerns, and that doesn't reflect an inadequacy, in terms of 
what we're doing to protect those assets. It simply reflects 
the reality that those assets almost certainly would come under 
attack either prior to, or during, an overt combat operation 
against the United States.
    That said, what I'd like to do, perhaps at a classified 
level, is get back to you, both with a more detailed answer, in 
terms of cyber-defenses and vulnerabilities within DOD, how 
that nests within the larger responsibility of DHS, and the 
legal implications associated with that defense.
    Senator Cornyn. Thank you very much. That would be very 
helpful. We'd appreciate that very much.
    I just have two other relatively quick areas I want to 
inquire.
    I'm pleased that we've been joined by Senator Levin, the 
ranking member of the committee.
    First of all, let me ask General Blum. Since 2000, 
Congress--and this committee taking the lead--has provided 
approximately a half a billion dollars to establish and sustain 
55 WMD Civil Support Teams and 17 CERFPs, or otherwise known 
as, I guess, Chem-Bio Radiological Nuclear Enhanced Response 
Force Package teams. What's the current status of these two 
programs? Is there any need for any additional CERFP teams in 
fiscal year 2007?
    General Blum. Thank you, Mr. Chairman, for the question.
    It was Congress that established the Civil Support Teams. 
The ultimate goal is to have 55 of those, one in each State, 
two in California, before the end of the program. At that 
point, I think we will probably have more than sufficient 
number of Civil Support Teams.
    Are they perfectly configured? Are they perfectly equipped 
now that we've had some experience and time? I'm not sure of 
that. I think after we have them all fielded, trained, and we 
get to test and exercise them, we may want to make some minor 
modifications to their capabilities and composition of the 
team. Having said that, there has not been 1 day--1 day--passed 
in any month, in any year since 2000 that these teams have not 
deployed. The calm and the psychological terror that they have 
prevented by being able to show up in a shopping center or a 
business district, and to assess immediately whether the white 
powder was sugar or some other harmful substance, has been 
incredibly important.
    They have also responded in a capacity that--far greater 
than anybody ever intended, with what Secretary McHale 
described, and that's the ability to bridge the communications 
normally that are brought to bear by the National Guard, Army, 
and air communications with the civilian first-responders. So, 
at the local level, at the very local level in the States and 
the cities and the counties and municipalities, when these 
teams come out, and the National Guard gets called out, and the 
police and firefighters or emergency servicepeople are called 
out, or hazardous materials teams come out, they work 
magnificently well together, and they're well received. They 
have also plugged in, on the incident command system, in a 
magnificent manner. Even the most critical elements of civilian 
emergency response welcomes their presence, are glad when they 
come to the scene, and they're now, this is a success story. 
But I don't think we need to expand the Civil Support Teams in 
the country beyond 55 at this time.
    I would like consideration given to some of the legislative 
restrictions that are put on the Civil Support Teams. Since 
Congress created them, they also put the law in there that 
restricts their ability to go outside of the country. There are 
scenarios and times and events that would be hugely beneficial 
to NORTHCOM to be able to acquire these Civil Support Teams to 
help our neighbors in Canada and Mexico, for example. 
Certainly, I could envision other places around the globe where 
the capabilities and the expertise of these Civil Support 
Teams, now that we have sufficient number of them, would be 
highly useful to the combatant commanders and our allies around 
the world, and would also be very welcome in building new 
partners overseas who are also worried about WMD and 
counterterrorism and may want to build their own versions of 
Civil Support Teams.
    Now, the CERFPs, we started with 12, one in every FEMA 
region, plus several extra, because I--you realize that--we 
talked about earlier, the National Guard is deployed today 
around the world, so it's likely that parts of those CERFPs 
would be mobilized and deployed overseas. By having 12, we 
would always have at least one for every FEMA region by having 
that float. That has worked out very well, and I welcome the 
fact that this body has asked us to expand it to five more.
    Do I think we need more, beyond the 17? I'd rather feel the 
17 and evaluate it and give you a more educated answer than to 
just give you a swag today. Right now, I think we probably have 
what we need, but I'd come back after an evaluation of the 
program.
    Mr. McHale. Senator, just as a footnote to the comment made 
by General Blum. On the issue that he talked about--and that 
is, cross-border movement of the CSTs to provide, for instance, 
consequence management capabilities to Canada, if requested, or 
conceivably to Mexico, if requested--for instance, we have the 
Vancouver Olympics coming up in the not too distant future, 
where it's foreseeable that it would benefit both Canada and 
the United States to allow the CST to move cross-border--we are 
preparing draft legislation that we will submit for your 
consideration that would allow for the cross-border movement of 
CSTs to deal with a WMD event that might take place, for 
instance, north of our U.S./Canadian border.
    Senator Cornyn. Thank you very much.
    One final category of questions I have for Secretary 
McHale, and this has to do with biometrics. I understand that 
the DOD is collecting biometric information from individuals 
detained in Iraq and from forensic investigations of improvised 
explosive device (IED) attacks. Is the biometric data collected 
in theater connected to, or shared with, our--your office or 
with the DOJ, the Department of State, or the DHS? For example, 
if a detainee was to escape from custody, would our current 
system of screening people prevent him or her from entering the 
United States using a forged name? If you could just address, 
generally, what the DOD's policy is on the development, 
integration, and use of biometrics technology across Federal 
agencies.
    Mr. McHale. Consistent with applicable law, we are 
aggressively using biometrics for the purposes that you 
describe, Senator. I would estimate that it was about a year 
and a half ago, the DOD established uniform procedures for the 
collection of biometric information and applied those uniform 
standards to our forward-deployed combatant commands, so that, 
with a very conscious intent, now executed, to collect 
biometric data, let's say, in CENTCOM, the data collected is 
transmitted to a co-located facility with the Federal Bureau of 
Investigation (FBI). I would note, as a footnote, when we stood 
up that facility, we worked with the FBI and others, most 
especially DHS--Secretary Ridge and I talked about this very 
issue, in direct conversation--we transferred many, many--I'll 
just keep the number general--but hundreds of thousands of 
biometric datasets going back to the early 1990s to form the 
base data for this system. So today when we add to that system 
newly collected data acquired in overseas geographic combatant 
commands, not only do we have access to it, we're co-located 
with the FBI, and that information is shared with the entire 
interagency, to include DHS.
    Senator, if I may, it's an extraordinary success story. 
Again, in an unclassified setting, what I can tell you is we 
have had many instances when that biometric data has informed a 
decision as to whether or not an individual in our custody will 
be released. For instance, we have acquired biometric data from 
threats overseas, and we have linked that data to specific 
individuals, and, in specific cases, have kept them in custody, 
under circumstances where, but for that biometric data, they 
might have been released.
    Senator Cornyn. Thank you very much.
    Senator Levin.
    Senator Levin. Mr. Chairman, thank you very much for 
allowing me to come to the hearing this morning as a Johnny-
come-lately and ask some questions. I appreciate your courtesy.
    I appreciate the work of all three of you gentlemen.
    First, there appears to be a widespread agreement that one 
of the lessons learned from Hurricane Katrina is that there 
needs to be better planning and training to improve 
coordination between the National Guard and Active-Duty troops. 
The White House report on Katrina called the current deployment 
system, ``fragmented.''
    The National Response Plan states the following, ``The 
National Guard Forces employed under State Active-Duty or title 
32 status''--and that's the status where we pay for the 
operations of the State National Guard Forces--``that are 
employed either under State Active-Duty or title 32 status are 
providing support to the Governor of their State and are not 
part of Federal military response efforts.''
    Now, that really makes pretty sharp dichotomy between State 
forces, National Guard, and Active Duty. It is too sharp a 
dichotomy, in my judgment. I know we have to keep it, 
constitutionally. I know, Secretary McHale, you have made 
reference to that. But, in terms of coordination, it is too 
sharp a dichotomy. I think NORTHCOM has to be hooked into what 
the National Guard is doing, particularly since we have this 
arrangement among the Governors where they call on each other 
to supply National Guard.
    So I guess the first question, General Inge, would go to 
you, as to whether or not NORTHCOM, at least in Katrina, was 
adequately linked into the utilization of National Guard 
Forces. If so, what do we need to do to improve that 
coordination?
    General Inge. Sir, the answer to that question is, yes and 
no. In the early days, we didn't feel that we had clear enough 
picture on what was happening within the National Guard. I 
don't believe that it was due to a lack of willingness to do 
that, in any way. I don't mean to imply that. But as we moved 
into the operation, we developed what reports needed to be 
submitted at what time, as we saw the numbers were going to 
pass 50,000 people wearing the uniform on the ground, and it 
became much improved.
    I would tell you that, as recently as last week General 
Blum and I met with the J-3 of the Joint Staff to discuss this 
issue, to satisfy ourselves that we now have the proper 
procedures in place to share and pass information. Sitting in 
our Operations Center at Colorado Springs today, the two chairs 
on the end of the front row are National Guard guys that have 
direct links back into Bureau Operating Center to make sure 
that we have this problem solved.
    I would also report to you that in preparation for the 
coming hurricane season, we've already met and conferenced with 
the adjutants general of the hurricane States, out at Colorado 
Springs, at NORTHCOM, to discuss the need for awareness. You 
would appreciate the spirit of cooperation and the positive 
response that we had, both from us to them, and them to us, to 
make sure that we've rectified this problem. I feel fairly 
confident that we have.
    Senator Levin. Okay. When the Federal Government pays for 
the costs involved with National Guard deployment, sometimes 
that comes after the fact. So, in this case, I believe--
Secretary McHale or General Blum may know--that the title 32 
decision to reimburse the States for costs, came weeks 
afterwards.
    General Blum. No, it--well, I'll----
    Senator Levin. Or days after?
    Mr. McHale. Days.
    General Blum. It was days. I'll tell you the day. It was 
September 3.
    Senator Levin. Was that, what, Friday?
    General Blum. Yes, sir. But the----
    Mr. McHale. No.
    General Blum.--order was retroactive until August 29, which 
is the day the hurricane made landfall.
    Senator Levin. Right.
    General Blum. So, the States bore the burden for calling up 
the National Guard pre-landfall, but, as soon as the effects 
made landfall, when we really saw we needed to flow large 
number of forces in there, the Under Secretary of Defense----
    Mr. McHale. Deputy Secretary.
    General Blum.--Deputy Secretary of Defense, Secretary 
England, actually authorized the retroactive payment of those 
orders to the 29th. That decision was made probably as fast as 
I've ever seen a decision made in the Pentagon, on September 3.
    Senator Levin. Right.
    General Inge. Sir, that was Wednesday or Thursday of the 
week of the hurricane.
    Senator Levin. It just reinforces the Federal role here. 
What I'm really trying to say is that there's a major Federal 
role, not just in terms of Active-Duty Forces, but in terms of 
payment for the National Guard.
    General Inge. Yes, sir.
    Senator Levin. My last question relates to the chain of 
command. Do we have a Federal role through title 32 
utilization, let's start with that. Should we have a single 
chain of command? At what point should there be a single 
military chain of command over both National Guard and Active-
Duty? Or, should there never be a single chain of command?
    General?
    General Blum. I would--from my point of view, I don't think 
the answer is an absolute. I think--and I'm not trying to evade 
the question--it depends on the situation. For instance, that 
hurricane hit Florida; they had a single chain of command. That 
hurricane also hit Alabama; they had a single chain of command. 
That hurricane also hit Texas; and they maintained a single 
chain of command. Mississippi insisted that they maintain a 
single chain of command. Now, that doesn't mean that title 10 
forces didn't assist all four of those other States. Now, I've 
deliberately left Louisiana out of the discussion, because 
that's what everybody focuses on. But you have to remember, 
there were four other States affected, and, frankly, 
destruction-wise, to a greater degree; damage-wise, to a 
greater degree.
    Senator Levin. Who was the commander of the title 10 
forces?
    General Blum. The commander of the title 10 forces is the 
President of the United States and then whoever he designates 
below him.
    Senator Levin. Underneath the President, who is the 
commander?
    Mr. McHale. It goes from the President of the United States 
to the Secretary of Defense, to the----
    Senator Levin. Keep going.
    Mr. McHale.--to the combatant commander.
    Senator Levin. Who is----
    Mr. McHale. Now----
    Senator Levin. What is----
    Mr. McHale. NORTHCOM.
    Senator Levin. NORTHCOM, okay.
    Mr. McHale. Admiral Keating.
    Senator Levin. So, I want to just stop there at NORTHCOM. 
Who's the commander of the National Guard Forces in Louisiana?
    General Blum. The Commander in Chief, again, is the 
Governor.
    Senator Levin. Down to?
    General Blum. Down to the adjutant general.
    Senator Levin. The adjutant general.
    General Blum. Then the operational force is the Joint Force 
Headquarters commander that's subordinate to the Governor.
    Senator Levin. Is there ever a single chain of command 
between title 10 forces and the National Guard?
    General Blum. We have done that, sir, four or five times.
    Senator Levin. I know we did it during the riot situation.
    General Blum. We've done it in the G8 Summit, we've done it 
for the National Democratic Convention, we've done it for four 
national special security events.
    Senator Levin. Should we do it in an instance like Katrina?
    Mr. McHale. No, sir, unless absolutely essential. If I can 
revector slightly what you're heard so far, we have had dual-
hatted command in four circumstances. That's not really a 
single chain of command. That preserves the authority of the 
Governor, preserves the authority of the Secretary of Defense, 
and their authority comes together in the person of one 
individual, who is responsible to both in the exercise. That's 
not really a single chain of command.
    Senator Levin. Okay, let me go to dual-hatted. Let me shift 
over. Should there be a dual-hatted person in Katrina 
situations?
    Mr. McHale. No, sir.
    Senator Levin. Okay. Why not?
    Mr. McHale. Dual-hat works when you have an absolutely 
inseparable partnership between the President of the United 
States and an individual Governor. If there is any daylight 
between the two of them in a crisis environment, it leaves that 
commander, who is responsible to both, in a very difficult 
position.
    In my judgment, dual-hatted command is an excellent 
command-and-control approach in a noncrisis environment, like 
the four circumstances that General Blum mentioned a moment 
ago. But in a crisis, if you're going to have a difference--a 
good-faith difference of opinion between the President and the 
Chief Executive of the State, I think you're inviting a very 
difficult circumstance to put a single officer in a position to 
be responsible to both.
    Can you achieve unity of command? The answer is yes. How do 
you implement it? You implement it by federalizing the National 
Guard. Is that, historically speaking, an extraordinary 
decision? Yes. We did it in Los Angeles in 1992, because the 
Governor asked us to do it. But we haven't done it 
involuntarily, creating a single chain of command, stripping 
the Governor of command authority, since the Civil Rights 
Movement.
    Senator Levin. I'm going to conclude, again, with my thanks 
to the chair and ranking member here. There were really gaps in 
coordination in Hurricane Katrina, in our military response. I 
am going to just leave it at that.
    I think it is important that you inform this committee as 
to what you are working out to close those gaps. I think they 
were obvious and they were unacceptable to everybody. There 
were long delays. There were misunderstandings. The Governor 
thought she had made a request that did not appear from the 
Federal side to be a formal request. We have heard a lot of 
testimony over in the Homeland Security and Governmental 
Affairs Committee. We have to work it out. I think from the 
point of view of the Nation, we must have a very clear 
coordination of a military response.
    There's no excuse, as far as I am concerned, to have our 
military down at or near a convention center and our Federal 
officials not even knowing about it. We had NORTHCOM not 
knowing what the National Guard were up to. It is just totally 
unacceptable. I know efforts are underway to make sure that 
never happens again. Just please keep this subcommittee and our 
full committee informed, as well as the Homeland Security and 
Governmental Affairs Committee.
    Thank you very much.
    Senator Cornyn. Thank you, Senator Levin.
    The concerns that you express are ones that we, I know, all 
share. We've heard some very practical solutions to those 
problems already, in terms of interoperable communications, in 
terms of joint training and exercising, making sure that those 
budgets are funded so that that can occur, so that our military 
can practice together, and so when a catastrophe arises, they 
can respond more effectively than perhaps they've been able to 
do in the past.
    I, for one, have learned a lot from this hearing. I want to 
express my gratitude to each of you for your testimony and your 
participation. I know there will be some follow-up that we'll 
want to undertake, and perhaps some additional briefings and 
other questions, maybe even by members of the subcommittee.
    We're going to leave the record open, so that if there are 
any members of the subcommittee who want to ask question in 
writing--we'll leave the record open, let's say, until next 
Friday, a week from today--they can submit those in writing, 
and if you'll respond--I don't know that there will be, but, if 
there are, then I want to provide them an opportunity to do 
that.
    With that, I thank you for your time and your service, and 
the hearing is now adjourned.
    [Whereupon, at 11:33 a.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2007

                              ----------                              


                        WEDNESDAY, MARCH 29, 2006

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                     Washington DC.

U.S. NONPROLIFERATION STRATEGY AND THE ROLES AND MISSIONS OF DEPARTMENT 
      OF DEFENSE AND THE DEPARTMENT OF ENERGY IN NONPROLIFERATION

    The subcommittee met, pursuant to notice, at 9:43 a.m. in 
room SR-222, Russell Senate Office Building, Senator John 
Cornyn (chairman of the subcommittee) presiding.
    Committee members present: Senators Cornyn, Collins, Reed, 
E. Benjamin Nelson, and Clinton.
    Committee staff members present: Leah C. Brewer, 
nominations and hearing clerk; and John H. Quirk V, security 
clerk.
    Majority staff member present: Lynn F. Rusten, professional 
staff member.
    Minority staff members present: Madelyn R. Creedon, 
minority counsel; and Richard W. Fieldhouse, professional staff 
member.
    Staff assistants present: Jessica L. Kingston and Benjamin 
L. Rubin.
    Committee members' assistants present: Mackenzie M. Eaglen, 
assistant to Senator Collins; Russell J. Thomasson, assistant 
to Senator Cornyn; Elizabeth King, assistant to Senator Reed; 
William Sutey, assistant to Senator Bill Nelson; Eric Pierce, 
assistant to Senator Ben Nelson; and Andrew Shapiro, assistant 
to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN CORNYN, CHAIRMAN

    Senator Cornyn. The Subcommittee on Emerging Threats and 
Capabilities will come to order. Senator Reed, our ranking 
member, will be arriving momentarily. We're pleased to have 
Senator Collins here with us as well, as well as each of our 
witnesses.
    The subcommittee meets today to receive testimony on U.S. 
nonproliferation strategy and the roles and missions of the 
Department of Defense (DOD) and the Department of Energy (DOE) 
in nonproliferation.
    We welcome each of our witnesses: The Honorable Peter C. W. 
Flory, Assistant Secretary of Defense for International 
Security Policy; General James E. Cartwright, USMC, Commander, 
U.S. Strategic Command (STRATCOM); and the Honorable Jerald S. 
Paul, Principal Deputy Administrator for Defense Nuclear 
Nonproliferation, National Nuclear Security Agency (NNSA) of 
the United States DOE. The Honorable Robert G. Joseph, Under 
Secretary of State for Arms Control and International Security, 
could not be with us today due to a conflict with his testimony 
in the Foreign Relations Committee but he has submitted a very 
helpful statement for the record, which I will insert after my 
remarks.
    The programs and missions for which each of you are 
responsible are critically important to the national security 
of the United States. In a major address on nonproliferation at 
the National Defense University on February 11, 2004, President 
Bush stated: ``The greatest threat before humanity today is the 
possibility of a secret and sudden attack with chemical or 
biological or radiological or nuclear weapons.'' He was 
referring, of course, to the threat of weapons of mass 
destruction (WMD) getting into the hands of terrorists.
    Appearing before the Senate Armed Services Committee just 1 
month ago, Ambassador John Negroponte, the Director of National 
Intelligence (DNI), testified that terrorism is the preeminent 
threat to the United States, and the key terrorist 
organizations remain interested in acquiring chemical, 
biological, radiological, and nuclear materials or weapons to 
attack the United States, U.S. troops, and U.S. interests 
worldwide. Each of you have significant responsibilities for 
programs and missions that are aimed at reducing the 
proliferation threat, and managing the consequences should such 
weapons ever get into the wrong hands or even be used.
    Assistant Secretary Flory, we look forward to your 
testimony on the administration's nonproliferation policy and 
strategy, the Cooperative Threat Reduction (CTR) program, DOD's 
role in the Proliferation Security Initiative, and your 
assessment of efforts underway in the DOD to consolidate and 
integrate myriad Department activities into a unified 
``combating WMD'' mission.
    With respect to the CTR program, the subcommittee is 
interested in your testimony on the progress of the chemical 
weapons destruction facility at--I'm going to have a hard time 
pronouncing that here--Shchuch'ye; the prospects for using CTR 
funds to eliminate chemical weapons in Libya, and your vision 
of the future of the CTR program.
    General Cartwright, we look forward to your testimony on 
your new responsibility for integrating the DOD's efforts to 
combat WMD. We understand this is a work in progress. We look 
forward to enhancing our understanding of what this mission 
encompasses, how you plan to carry out your responsibilities in 
this area, and what role the Defense Threat Reduction Agency 
(DTRA) will play. We'll be interested to hear what milestones 
you have set to measure progress in integrating DOD's efforts 
to combat WMD.
    Deputy Administrator Paul, we look forward to your 
testimony on the impressive and growing array of the DOE 
nonproliferation programs. Second Line of Defense, Megaports, 
the Global Threat Reduction Initiative, the elimination of 
weapons grade plutonium production programs, to name just a 
few, are making important contributions to U.S. 
nonproliferation objectives.
    One program that I have concerns about is the mixed-oxide 
(MOX)/plutonium disposition program, which seems to have an 
uncertain future on the Russian side, and has experienced 
considerable cost growth and schedule delays on the U.S. side. 
We look forward to a dialogue with you about the way forward in 
this program.
    In general the fiscal year 2007 DOD and DOE budget requests 
demonstrate the administration's continuing commitment to 
threat reduction and nonproliferation programs. I strongly 
share that commitment and believe that we must maintain and 
strengthen our support for these vital nonproliferation 
programs in the future. The subcommittee looks forward to your 
testimony and I thank each of you for the service to our Nation 
and your presence here today to provide testimony.
    [The prepared statement of Hon. Joseph follows:]

              Prepared Statement by Hon. Robert G. Joseph

     u.s. strategy to combat the proliferation of weapons of mass 
                              destruction

    I am pleased to have the opportunity to provide a written statement 
to the subcommittee regarding the threat to U.S. national security from 
the proliferation of weapons of mass destruction (WMD) and delivery 
means, and the administration's strategy for combating that threat.
    Almost immediately upon assuming office, President Bush emphasized 
that WMD proliferation was the major security threat of the 21st 
century, requiring a new, comprehensive strategy. In a speech at the 
National Defense University on May 1, 2001, the President said:

          . . . this is still a dangerous world, a less certain, a less 
        predictable one. More nations have nuclear weapons and still 
        more have nuclear aspirations. Many have chemical and 
        biological weapons. Some already have developed the ballistic 
        missile technology that would allow them to deliver weapons of 
        mass destruction at long distances and incredible speeds. A 
        number of these countries are spreading these technologies 
        around the world.
          Today's world requires a new policy, a broad strategy of 
        active nonproliferation, counterproliferation and defenses. We 
        must work together with other like-minded nations to deny 
        weapons of terror from those seeking to acquire them. We must 
        work with allies and friends who wish to join with us to defend 
        against the harm they can inflict. Together we must deter 
        anyone who would contemplate their use.

    A year later, in his first National Security Strategy of the United 
States and the National Strategy to Combat Weapons of Mass Destruction, 
the President expanded both on the requirements to meet today's threats 
and on the tools we would marshal against them. The National Strategy 
to Combat WMD is the first of its kind--a broad strategy uniting all 
the elements of national power needed to counter the full spectrum of 
WMD threats. Previous U.S. approaches had focused almost exclusively on 
nonproliferation. The Bush administration has dramatically expanded 
U.S. nonproliferation efforts to prevent acquisition of WMD, related 
materials and delivery systems by rogue states or terrorists. At the 
same time, the President recognized the reality that preventive efforts 
will not always succeed. Therefore, the National Strategy to Combat WMD 
put new, and necessary, emphasis on counterproliferation--to deter, 
detect, defend against, and defeat WMD in the hands of our enemies. 
Further, the National Strategy also focused on consequence management, 
to reduce as much as possible the potentially horrific consequences of 
WMD attacks at home or abroad.
    The three pillars in the national strategy of counterproliferation, 
nonproliferation, and consequence management do not stand alone, but 
rather come together as seamless elements of a comprehensive approach. 
Underlining that point, the National Strategy identified four 
crosscutting enabling functions that are critical to combating WMD: 
intelligence collection and analysis; research and development; 
bilateral and multilateral cooperation; and targeted strategies against 
hostile states and terrorists.
    To succeed in our effort to combat WMD proliferation, we must apply 
all elements of national power--diplomatic, economic, intelligence, law 
enforcement, and military.
Diplomatic Tools
    The Bush administration has given new vitality to the use of 
diplomatic tools to prevent the proliferation of WMD. U.S. assistance 
to other countries to reduce and prevent the proliferation of WMD and 
delivery vehicles--through the Department of Defense's (DOD) 
Cooperative Threat Reduction (CTR) program, the DOE's nuclear 
nonproliferation programs, and the smaller but nonetheless important 
Department of State (DOS) programs--has been at record funding levels. 
The President has committed an average of $1 billion a year to these 
critical efforts; we greatly welcome the consistent, strong support of 
the subcommittee, the committee, the Senate, and the House of 
Representatives, for these essential programs. Moreover, with the 
proposal in 2002 for the G-8 Global Partnership Against the Spread of 
Weapons and Materials of Mass Destruction, the President successfully 
called on our foreign partners to commit their fair share to the effort 
to meet what is a global responsibility. We continue to work closely 
with the other G-8 members to realize fully the potential of this 
critical commitment. Although much remains to be done, the Global 
Partnership has already had important success in increasing non-U.S. 
funding for securing and eliminating sensitive materials, technologies 
and weapons.
    While the bulk of U.S. nonproliferation assistance remains focused 
on the states of the former Soviet Union, we have also expanded our 
efforts to address proliferation threats more broadly. It is noteworthy 
how these programs have evolved to meet today's threats, from an early 
focus on denuclearizing Ukraine, Belarus, and Kazakhstan and on 
reducing the former Soviet strategic arsenal, to an increasing 
concentration on measures to prevent the proliferation of WMD and 
related materials. Landmark DOE programs include the Global Threat 
Reduction Initiative to reduce fissile and radioactive material 
worldwide, and the Second Line of Defense and Megaports programs to 
install radiation detection capability at major seaports, airports and 
land crossings. While the statutes authorizing the CTR program give it 
less flexibility than its DOE counterparts for work outside the former 
Soviet states, DOD is taking full advantage of the flexibility it has 
been given to eliminate chemical weapons in Albania.
    The United States has also spearheaded the effort for the United 
Nations Security Council to take on its responsibilities to maintain 
peace and security against WMD threats. A major milestone was the 
passage in April 2004 of United Nations Security Council Resolution 
(UNSCR) 1540. In adopting UNSCR 1540, the Security Council--for only 
the second time since its founding--invoked its Chapter VII authorities 
to require nations to act against a general, as opposed to a specific, 
threat to international peace and security. In particular, UNSCR 1540 
requires all states to prohibit WMD proliferation activities, such as 
we witnessed with the A.Q. Khan network. It further requires that 
states institute effective export controls, and enhance security for 
nuclear materials on their territory. The United States stands ready to 
assist other states in implementing UNSCR 1540; here too, DOE and DOD 
nonproliferation assistance programs, as well as those of the DOS, are 
key instruments for the administration's strategy to combat WMD.
    The United States also has led the way to strengthen the 
International Atomic Energy Agency's (IAEA) ability to detect nuclear 
proliferation. We instituted a successful effort to increase the IAEA's 
safeguards budget. We have strongly supported the IAEA Additional 
Protocol, to strengthen the IAEA's ability to uncover clandestine 
nuclear programs. The President submitted the U.S. Additional Protocol 
to the Senate, which gave its advice and consent to ratification in 
2004, and called for all other countries to adhere to it as well. The 
President also successfully urged the creation of a new special 
committee of the IAEA Board of Governors to examine ways to strengthen 
the IAEA's safeguards and verification capabilities.
    In addition to the President's proposals to strengthen the IAEA 
institutionally, he challenged the international community to rectify 
the greatest weakness in the nuclear nonproliferation system: the 
ability of states to pursue nuclear weapons under the cover of peaceful 
energy programs. The lesson of Iran and North Korea is clear: some 
states will cynically manipulate the provisions of the Nuclear 
Nonproliferation Treaty to acquire sensitive technologies to enable 
them to pursue nuclear weapons capabilities--the very capabilities the 
treaty is intended to deny.
    To close this loophole, the President has proposed that uranium 
enrichment and plutonium separation capabilities--the two primary paths 
to acquiring fissile material for nuclear weapons--be limited to those 
states that already operate full-scale, fully-functioning facilities. 
In return, he called on the world's nuclear fuel suppliers to assure 
supply, in a reliable and cost effective manner, to those states which 
forego enrichment and reprocessing. We are working with other fuel 
provider states and with the IAEA to put in place assurances that will 
convince states with power reactors that their best economic interest 
is not to invest in expensive, and proliferation risky, fuel cycle 
capabilities. The DOE plays a critical part in developing these 
Presidential initiatives and working with other nations to bring them 
to fruition.
    DOE's Global Nuclear Energy Partnership (GNEP), which Secretary 
Bodman announced last month, offers the promise for the longer term of 
enhancing global access to nuclear energy while strengthening 
nonproliferation. An important emphasis of the initiative is to provide 
a basis for states to benefit from civil nuclear power while avoiding 
the costs and challenges of enriching fresh fuel on the front end of 
the fuel cycle and disposing of spent fuel on the back end. To that 
end, GNEP envisions a cradle-to-grave fuel leasing regime under which 
states that currently have the full fuel cycle would provide fresh fuel 
for nuclear power plants in user nations. The spent fuel would then be 
returned to a full fuel-cycle nation and would be recycled using a 
process that does not result in separated plutonium. The DOS is working 
closely with DOE to engage international partners to participate 
actively in GNEP.
Defensive Measures
    We refer to another set of tools as ``defensive measures.'' A key 
requirement of counterproliferation is to protect ourselves from WMD-
armed adversaries. Combating WMD requires both offensive and defensive 
capabilities, to deter, detect, defend against, and mitigate the 
consequences of WMD and missile attacks. As the President stressed in 
May 2001, we require new methods of deterrence against the 
proliferation threats of today. A strong declaratory policy and 
effective military forces are essential elements of our contemporary 
deterrent posture, reinforced by effective intelligence, surveillance, 
interdiction, and law enforcement. Because deterrence may not always 
succeed, our military forces must be able to detect and destroy an 
adversary's WMD before they are used, and to prevent WMD attack from 
succeeding through robust active and passive defenses and mitigation 
measures. All of those requirements place particular demands on the 
DOD. Major milestones in implementing the administration's 
comprehensive approach to combating WMD were marked in: January 2005, 
when the Secretary of Defense designated STRATCOM as the lead combatant 
command for this mission; in January 2006, when General Cartwright 
announced the initial operating capability of the new STRATCOM Center 
for Combating WMD in partnership with the Defense Threat Reduction 
Agency; and in February 2006, when the DOD issued the first National 
Military Strategy to Combat WMD.
    Another critical defensive measure undertaken by the Bush 
administration to combat weapons of mass destruction is the 
Proliferation Security Initiative (PSI), which shows the close 
interaction among--and the creative use of--diplomatic, military, 
economic, law enforcement, and intelligence tools to combat 
proliferation. Within the U.S. Government, the DOD, Intelligence 
Community (IC), and the DOS all play essential roles in PSI. The 
participating countries are applying laws already on the books in 
innovative ways and cooperating as never before to interdict shipments, 
to disrupt proliferation networks, and to hold accountable the front 
companies that support them. PSI has now expanded to include support 
from more than 70 countries, and continues to grow. It is not a treaty-
based approach, involving long, ponderous negotiations which yield 
results only slowly, if at all. Instead, it is an active--and 
proactive--partnership, to deter, disrupt, and prevent WMD 
proliferation. It is working.
    Economic and financial tools are also key elements of our defensive 
measures. Adopting many of the means developed in the war against 
terrorism, we are now working with our partners to cut off the 
financial flows that fuel proliferation. UNSCR 1540 requires states to 
take and enforce effective controls on funds and services related to 
export and transshipment that would contribute to WMD programs. 
Consistent with UNSCR 1540, in July 2005, G-8 leaders called for 
enhanced efforts to combat proliferation through cooperation to 
identify, track, and freeze financial transactions and assets 
associated with proliferation-related activities.
    President Bush augmented U.S. efforts in this area when he issued 
in July 2005 a new Executive order, which authorizes the U.S. 
Government to freeze assets and block transactions of entities and 
persons, or their supporters, engaged in proliferation activities. 
Currently 16 entities--11 from North Korea, 4 from Iran, and 1 from 
Syria--have been designated under the Executive order, and we are 
actively considering additional ones.
    Our efforts to combat proliferation can also be aided by other 
financial tools which are not specifically designed against WMD 
proliferation. For example, in September, the Department of Treasury 
(Treasury) applied authorities under the USA Patriot Act against an 
Asian bank that provides financial services to North Korean illicit 
activities, such as counterfeiting and drug trafficking. In designating 
Banco Delta Asia as a ``primary money laundering concern'' under the 
USA Patriot Act, Treasury acted to protect U.S. financial institutions 
while warning the global community of the illicit financial threat 
posed by the bank.
The Challenges Ahead
    I would emphasize three proliferation challenges to illustrate the 
path ahead.
    The first is to end the North Korean and Iranian nuclear weapons 
programs. The President has made clear repeatedly that, while all 
options remain on the table, our strong preference is to address these 
threats through diplomacy.
    In the Six-Party joint statement of September 2005, North Korea 
committed to abandoning all its nuclear weapons and existing nuclear 
programs. This was a notable development, but we still must agree on, 
and implement, the detailed requirements of North Korean 
denuclearization and its verification. That task will be difficult. 
Indeed, North Korea's demand for a light water reactor immediately 
after the joint statement was issued, and its more recent refusal to 
return to negotiations until the United States rescinds what Pyongyang 
calls ``economic sanctions,'' underscore the problems ahead. We have 
made it clear that we are committed to pursuing successful Six-Party 
negotiations, and we continue--with essential input from the DOD and 
DOE--to develop our detailed concepts for the verified denuclearization 
of North Korea. At the same time, we must and will continue our 
defensive measures, and expand them as required, to ensure that we can 
protect ourselves from the proliferation actions of the north, as well 
as from its illicit activities such as money laundering or 
counterfeiting.
    In some ways, the challenge Iran poses to the nuclear 
nonproliferation regime is even more daunting and complex than the 
North Korean threat. We have now moved to a new phase, in which the 
Security Council can add its considerable authority to the 
international effort to counter Iran's quest for nuclear weapons. The 
council will not supplant the IAEA effort, but reinforce it--for 
example, by calling on Iran to cooperate with the IAEA and to take 
steps the IAEA board has identified to restore confidence, and by 
giving the IAEA new, needed authority to investigate all aspects of the 
Iranian nuclear effort.
    The Council should make clear to the Iranian regime that it will 
face increasing isolation and pressure if it does not reverse course, 
take the steps called for by the IAEA Board, and return promptly to 
negotiations. We will continue to consult closely with the EU-3 and the 
European Union, with Russia, China, and many other members of the 
international community as this new diplomatic phase proceeds. Indeed, 
Secretary Rice is meeting tomorrow in Berlin with her colleagues from 
the United Kingdom, France, Germany, Russia, and China to discuss the 
way forward.
    Absent even more provocative actions by Iran, we envision a 
graduated approach by the Security Council, interacting closely with 
the IAEA. The Security Council can take progressively firmer action, to 
the extent necessary, to induce Iran to come into complete compliance 
with its Nuclear Nonproliferation Treaty and safeguards obligations, 
suspend all its enrichment- and reprocessing-related activities, and 
cooperate fully with the IAEA. We have been negotiating a statement by 
the President of the Security Council that would send a clear message 
to Iran that it must abandon its nuclear weapons ambitions. If Iran 
defies the Security Council Presidential Statement, as it has the IAEA 
Board of Governors resolutions, we will urge a Council resolution to 
put increased pressure on Iran to comply. The resolution could be 
grounded in chapter VII of the U.N. Charter, given the threat to 
international peace and security posed by Iran's nuclear program. In 
issuing such a resolution, the Council could require Iran, within a 
specified short period of time, to comply with all elements of the IAEA 
Board resolutions, as well as with additional Council requirements such 
as opening up to substantially increased IAEA investigative authority. 
If Iran still does not comply, we will look to even firmer Council 
action. Our aim is that Iran will be persuaded to reverse course by the 
obvious resolve of the international community, shown first in the IAEA 
Board of Governors and beginning this month in the Security Council.
    The second challenge is to end proliferation trade by rogue states, 
individuals and groups. As I described, we have made progress over the 
last few years. We have moved from the creation of international export 
control standards to their active enforcement--through enhanced 
national legislation, PSI interdictions, international law enforcement 
and financial cooperation. We have shut down the world's most dangerous 
proliferation network. We are steadily reducing the opportunities 
available to proliferators. But we must continue to expand and deepen 
our efforts--using all available national and international authorities 
and, where necessary, creating new ones--until the proliferation trade 
has effectively ended.
    The final challenge that I would mention is the need to prevent 
terrorist acquisition and use of WMD, and especially of biological and 
nuclear weapons. If terrorists acquire these weapons, they are likely 
to employ them, with potentially catastrophic effects. The biggest 
hurdle that a well-organized terrorist group with appropriate technical 
expertise would have to overcome to make a crude nuclear device is to 
gain access to sufficient quantities of fissile material. Although 
terrorist use of other weapons is more likely, the consequences of a 
terrorist nuclear attack would be so catastrophic that the danger 
requires particular attention. On the biological weapons side, with 
today's dual-use capabilities and access to particular, dangerous 
pathogens--many of which exist in nature or could be relatively easily 
obtained and cultured--the bioterror challenge presents a low-cost 
means to prosecute a potentially high-impact attack.
    Many of the tools we have in place to combat proliferation by rogue 
states are relevant against WMD terrorism. A few examples are: reducing 
the global stocks of fissile material and securing those which remain; 
improved nuclear and biological detection capability; and the 
interdiction of trafficking in nuclear weapons and biological weapons 
components. A key difference, however, is one of scale. We cannot rest 
as long as enough material for even one nuclear weapon remains 
unsecured.
    While many of the tools are the same, preventing WMD terrorism 
requires different approaches from those we have followed against state 
WMD programs or against conventional or non-WMD-related terrorism. For 
example, intelligence collection and action against the proliferation 
of WMD have traditionally focused on state-based programs, while anti-
terrorist intelligence has focused on individuals and groups. 
Intelligence regarding the nexus of terrorism and WMD must cover the 
full range of state and non-state threats and their interrelationships. 
We are working hard to close any remaining gaps and to ensure that the 
intelligence process supports our strategic approach to combating WMD 
terrorism.
    That strategic approach entails working with partner nations to 
build a global layered defense to prevent, detect and respond to the 
threat or use of WMD by terrorists. To prevent, we will undertake 
national, multilateral, and global efforts to deny terrorists access to 
the most dangerous materials. To protect, we will develop new tools and 
capabilities with partner nations to detect the movement of WMD and to 
disrupt linkages between WMD terrorists and their facilitators. Because 
we can never be certain of our ability to prevent or protect against 
all potential WMD terrorist attacks, we will cooperate with partners to 
manage and mitigate the consequences of such attacks, and to improve 
our capabilities to attribute their source. Thus, we will work to 
harness, in an effective multinational way, all relevant collective 
resources to establish more coordinated and effective capabilities to 
prevent, protect against, and respond to the global threat of WMD 
terrorism.

                               conclusion

    The strategic approach to combat WMD proliferation which the 
President first laid out almost 5 years ago continues to provide an 
essential guide to action against this paramount threat. Our strategy, 
supported by the new measures we have adopted to implement it, is 
flexible and dynamic, suited to the changing nature of the 
proliferation threat. Under the overall interagency leadership of the 
National Security Council, the DOS, DOD, and DOE work closely together 
at all levels--along with the Departments of Treasury, Commerce, 
Homeland Security, and the IC--to ensure the full and coordinated 
implementation of the President's strategy. While we have made 
substantial progress in countering today's proliferation threats, we 
cannot be satisfied. We must continue to heed the warning which the 
President gave in 2002: ``History will judge harshly those who saw this 
coming danger but failed to act. In the new world we have entered, the 
only path to peace and security is the path of action.''

    Senator Cornyn. We'll go ahead and hear the opening 
statements from each of the witnesses then we'll turn to a 
round of questions and when Senator Reed arrives certainly give 
him a chance to make any opening statement he would care to 
make.
    Mr. Flory, we'll be glad to hear from you first.

 STATEMENT OF HON. PETER FLORY, ASSISTANT SECRETARY OF DEFENSE 
               FOR INTERNATIONAL SECURITY POLICY

    Mr. Flory. Chairman Cornyn, thank you. Senator Collins, 
Senator Nelson. It's a honor to have the opportunity to testify 
before the subcommittee today to describe the DOD's efforts to 
combat the proliferation of WMD. I appreciate the opportunity 
to summarize my prepared remarks which I request be included in 
the record in full.
    Senator Cornyn. Certainly, without objection. All written 
statements will be made part of the record.
    Mr. Flory. Thank you. My goal today is to share with you 
many of the new approaches, new initiatives, the DOD is taking 
to stop the proliferation of WMD, to preventing its use, and to 
enable our warfighters to accomplish their missions in a WMD 
environment, if necessary.
    This is not a new mission, it's something we've been 
focusing on particularly since the events of September 11 and 
the promulgation of a national strategy on combating WMD in 
2002. The challenge was summed up particularly well by 
President Bush in his January 2004 State of the Union address, 
when he said, ``America is committed to keeping the world's 
most dangerous weapons out of the hands of the most dangerous 
regimes.'' I would add to that that under regimes we would also 
include terrorist groups and others who might want to use WMD 
against us.
    There's a great deal that's happened since September 11, 
since 2002, and even since January 2004. At the strategic level 
as in the strategic level guidance preventing hostile states 
and non-state actors from acquiring or using WMD is one of the 
four priorities for the DOD that were identified in the 
Quadrennial Defense Review (QDR) that was issued by Secretary 
Rumsfeld last month. I would add that it also supports and is 
an element of the other priorities which include defeating 
terrorists networks, defending the Homeland in depth, and 
shaping the choices of states at strategic crossroads. So all 
of these priority areas actually relate to and support each 
other.
    This is the first time that a QDR has devoted so much 
attention to the threat of WMD. Also recently and at the 
strategic level the Chairman of the Joint Chiefs of Staff, 
General Pace, issued the first ever national military strategy 
to combat WMD on February 13, 2006, last month. Our strategic 
approach is to build on the so-called three pillars of 
combating WMD, and these were identified in the 2002 national 
strategy, and those are: nonproliferation, 
counterproliferation, and consequence management. We use those 
terms as follows:
    Nonproliferation refers to actions to prevent the 
proliferation of WMD by dissuading or impeding access to, or 
distribution of, sensitive technologies, material, and 
expertise.
    Counterproliferation refers to actions to defeat the threat 
and/or the use of WMD against the United States, against our 
Armed Forces, against our allies, or against our partners.
    WMD consequence management refers to actions taken to 
mitigate the effects of a WMD attack or event and to restore 
essential operations and services at home or abroad.
    The strategic framework and the more detailed functional 
requirements that flow to it is the Department's vehicle for 
dividing the broad combating WMD mission into eight specific 
and definable military activities that we can address with 
better focus in the budget, training, doctrine, and policy 
processes.
    In addition to a new strategic framework we have also 
revised our organizational structure to better position us to 
combat WMD. On January 6, 2005, the Secretary of Defense 
designated STRATCOM, commanded by General Cartwright who is 
here with me today, as the DOD's lead for synchronizing and 
focusing combating WMD operational efforts in support of our 
combatant commanders. In this new role, STRATCOM supports the 
other combatant commanders as they execute combating WMD 
operations and General Cartwright and his team, including Dr. 
Jim Tegnelia, of the DTRA now are the advocates for developing 
mission requirements and shepherding them through the budget 
process. Those are mission requirements relating to combating 
WMD.
    The first two mission requirements to be addressed in this 
manner are WMD elimination and interdiction, two areas where we 
need to increase our capabilities substantially. Those are two 
of the eight mission areas that were identified.
    In addition, all DOD components were directed to realign 
themselves to improve execution of the combating WMD mission. 
Within the Office of the Secretary of Defense for Policy, the 
Under Secretary of Defense for Policy, for example, my own 
office, the Office of the Assistant Secretary for International 
Security Policy, is a near-single point of contact for policy 
support for the combating WMD mission, specifically covering 
seven of the eight mission areas. We continue to refine our 
organization within the Office of the Under Secretary for 
Policy.
    While we pursue these strategic and organizational changes 
we continue to move ahead with day-to-day activities to combat 
WMD. Many of these activities were initiated around the time of 
the National Strategy to Combat WMD in 2002. Some actually were 
started earlier and many are entirely new or certainly things 
that were initiated in the last couple of years. The QDR groups 
these activities into preventive and responsive dimensions.
    With respect to the preventive end of things, 
nonproliferation treaties and export control regimes have been 
and remain integral elements of our strategy for combating WMD. 
These include the Nuclear Nonproliferation Treaty, the Chemical 
Weapons Convention, the Biological Weapons Convention, the 
Nuclear Suppliers Group, the Australia Group, the Wassenaar 
Arrangement, and the Missile Technology Control Regime. The DOD 
brings significant policy and technical expertise to bear on 
enforcement of these regimes including for a few examples 
within my office, our Office of Negotiations Policy, and the 
Defense Technology Security Administration. But while these 
regimes are an important first line of defense, not all 
countries are members of all regimes and many countries that 
are members of regimes cheat. WMD programs in countries like 
Iran and North Korea, for example, have highlighted the need 
for additional measures. One of those in particular is 
interdiction.
    Interdiction is an essential component in our efforts to 
counter the proliferation activities of both suppliers and 
customers. Interdictions can raise the costs for proliferators, 
they can shine a bright light on their activities, they can 
also deter suppliers or potential suppliers from going into the 
proliferation business in the first place.
    President Bush launched the Proliferation Security 
Initiative (PSI) in May 2003 to help U.S. interdiction efforts 
and to build the interdiction capacity of like-minded 
governments around the world. PSI partners, and now there are 
over 70 of them, define interdiction broadly to include 
military, law enforcement, intelligence, and diplomatic efforts 
to impede and stop proliferation shipments. This can involve 
sea, air, land, or what we call transmodal shipments, shipments 
that go from sea to air or land, to sea or whatever. Again, 
more than 70 countries have indicated support for the PSI and 
we continue to discuss the initiative with other potential 
supporters.
    The DOD is responsible for leading the PSI Operational 
Experts Group process which is the main focus for the 
operational aspects of PSI. This is a group that brings 
together experts in military, intelligence, law enforcement, 
customs, and other fields and allows them to plan and conduct 
exercises to share expertise, for example, on how different 
country's legal regimes can be used to support 
counterproliferation activities. To date, we've had 19 PSI 
exercises with a number of countries involving a wide range of 
operational assets including air, maritime, and ground assets, 
and these have been hosted by a number of different PSI 
countries.
    Another DOD program that supports the preventive dimension 
of combating WMD is the CTR program which Chairman Cornyn 
mentioned earlier. The subcommittee is familiar with the 
history and the details of CTR and we appreciate your support 
in the past. My prepared statement addresses in detail the 
CTR's record over the past year and some of the issues and 
challenges we see in the year ahead.
    For now I'd like to highlight one of the activities, one of 
the CTR preventive activities in particular which is one in 
which the administration needs Congress' help in the short-term 
to help ensure success and I'm referring to the Nuclear 
Security Cooperation Initiative announced by Presidents Bush 
and Putin at the February 2005 G8 Summit in Bratislava. A key 
element of this initiative is to accelerate U.S. security work 
at Russian nuclear warhead storage sites to achieve completion 
by 2008. That would be 4 years ahead of the originally planned 
schedule. If we're successful in doing this and we certainly 
intend to be successful we'll be able to say by 2008 that we 
will have done all that we can to bring the security of 
Russia's nuclear weapons up to credible standards. This will be 
a significant achievement and we need your help to achieve this 
goal. Acceleration of the original schedule to 2008 requires 
additional funds for obligations during fiscal year 2006 and I 
would respectfully urge subcommittee members to support the 
administration's request for $44.5 million in fiscal year 2006 
supplemental appropriations for this project.
    Mr. Chairman, if I could just quickly also address two of 
the specific issues you asked about in your statement, the 
Shchuch'ye Project, and the question of using CTR funds to 
Libya. The Shchuch'ye Project is a large project in which we've 
invested a great deal of money to construct a chemical 
demilitarization plant. We've had a delay in the project that 
is going to set us back we think somewhat over a year. The one 
subcontractor that entered a bid to carry out some of the work 
inside the facilities of actually putting in some of the 
equipment submitted a bid that is way too high and both the 
U.S. Government and our main contractor on the contract agreed 
that the bid was too high. We've gone back, we have put the 
contract out for additional bids. We'll go through that 
process, we'll see what we emerge with, and see if we can't get 
a better offer on the table this time. I would emphasize for 
the committee's purposes that this means there will be a delay 
in the Shchuch'ye Project.
    The other matter you raised was the question of Libya, what 
CTR might do to contribute to the destruction of Libyan 
chemical weapons. We had a team, I think it was a Department of 
State (DOS) DTRA team with members from the DOS and our DTRA 
that was in Libya in February. They have looked at the stocks 
involved, they have looked at the logistical and other issues 
involved, and we expect to get a report back from them with 
some options sometime next month and I'm sure we'll have the 
opportunity to discuss that further with the committee. That's 
the status on the couple of additional items that you raised.
    Mr. Chairman, turning now to the responsive dimension of 
the combating WMD mission and what we have done to address the 
challenges here, the autumn 2005 program/budget review 
undertook a comprehensive look at combating WMD funding that 
was carried on through the QDR. Beginning with the 2006 budget 
submission, in fact, we added $2 billion to the previous $7.6 
billion fiscal years 2006-2011 allocation for the Chemical 
Biological Defense Program. This increase in the Chem-Bio 
Defense Program funding represents a down payment towards 
reprioritization of and within the combating WMD mission. This 
process is not complete and we look forward to working with 
STRATCOM and with the committee as we proceed with these 
initiatives.
    Another element of the responsive dimension is the 
establishment of an Army headquarters tasked to provide 
technically qualified chemical, biological, radiological, 
nuclear, and high-yield explosives (CBRNE) response forces to 
support geographic combatant commanders. The 20th Army Support 
Command has this job now which includes capabilities to quickly 
and systematically locate, seize, secure, disable, and 
safeguard an adversary's WMD program, including sites, 
laboratories, materials, associated scientists, and other 
personnel. The impetus for setting up this organization was the 
work that was done prior to the Iraq war to set up forces to 
deal with the WMD that we expected to find in Iraq. In fact, 
many of the elements of the current group actually did serve as 
part of the Iraq WMD effort.
    Today this organization includes the Army's technical 
escort battalions as well as an Army explosive ordinance 
disposal (EOD) group. The headquarters of the 20th was 
activated in 2004. The next step for this unit will be to make 
the entire unit including the headquarters as deployable as its 
many operational components. As it stands right now some of the 
headquarters is civilian so they cannot be deployed in the same 
way that the military components can be, but that's something 
we're in the process of changing.
    Another element of the responsive dimension is to 
anticipate the continued evolution of WMD threats. As an 
example of how we're doing this, we are reallocating $1.5 
billion in Chem-Bio Defense Program funds to invest in broad-
spectrum countermeasures against advance bioterror threats. 
Currently the approach has been somewhat shorthanded as the 
``one drug, one bug'' approach whereby a particular vaccine or 
a particular remedy only worked against one particular 
pathogen. What we're trying to do now is develop broad-spectrum 
countermeasures that work against an entire class of threats.
    We're also expanding our work with potential partner 
countries to improve response capabilities. In 2002, the DOD 
helped create a Chem-Bio Radiological Nuclear (CBRN) Defense 
Battalion for the North Atlantic Treaty Organization (NATO). 
Elements of this fully operational battalion were available 
just over a year later to support the 2004 Summer Olympics in 
Athens. This battalion has received personnel and capability 
support from 17 NATO nations to date. We continue to encourage 
strengthening the battalion's capabilities to help drive member 
nations to improve their own combating WMD capabilities as well 
as to improve the collective capabilities of the unit. This 
battalion will be a model for future collaboration as we expand 
our counterproliferation discussions with other nations.
    In addition, we continue to develop bilateral discussions 
with international partners on counterproliferation issues 
ranging from policy and operational support to detailed 
technical cooperation. We have or we are establishing such 
bilateral working groups with a number of countries in Europe, 
the Middle East, and Asia that share our concern about and our 
desire to prepare for the WMD threat.
    I would just add as a general point here, one of the key 
themes in the QDR is the idea of developing partnership 
capacity and both the initiatives that I just mentioned as well 
as a number of things that we are undertaking are designed to 
support that goal. We can't do everything. We shouldn't have to 
do everything, and in a number of cases arguably it's better if 
somebody else does it. So the idea of developing capabilities 
and developing capabilities of partner nations is something 
that runs throughout our entire approach here.
    Senator Cornyn. Secretary Flory, you are providing the 
committee a lot of very good information but in the interest of 
getting to the other witnesses if you wouldn't mind summing up 
and then, of course, we'll come back with some questions and 
answers.
    Mr. Flory. Mr. Chairman, I can sum up very briefly and 
simply say we understand at the DOD that combating the threat 
of WMD in a complex and uncertain world while it continues to 
surprise us and often in unpleasant manners, requires a new 
approach. This approach is reflected in our strategic guidance, 
in our realigned operational structure, and in the way we carry 
out our day-to-day activities. Our commitment to success is 
absolute. Failure is not an option. I look forward to having 
the opportunity later to answer your questions. Thank you.
    [The prepared statement of Mr. Flory follows:]
              Prepared Statement by Hon. Peter C.W. Flory
    Chairman Cornyn, Senator Reed, members of the subcommittee, it is 
an honor to have the opportunity to appear before you to describe the 
Department of Defense's (DOD) efforts to combat proliferation of 
weapons of mass destruction (WMD). My goal today is to share with you 
many of the Department's new approaches to stopping the proliferation 
of WMD, preventing its use, and enabling our warfighters to accomplish 
their missions in a WMD environment if necessary.
    Since December 2002, when the President set forth the National 
Strategy to Combat Weapons of Mass Destruction, the Department has 
taken a number of measures to enable us better to carry out this 
mission. At the same time, while adapting at the strategic level, we 
have been carrying out the day-to-day activities--some ongoing, some 
new, such as the Proliferation Security Initiative (PSI)--to implement 
our policies in the face of the global WMD challenge.

                           strategic guidance

    At the strategic level, preventing hostile states and non-state 
actors from acquiring or using WMD is one of the four priorities for 
the Department identified in the Quadrennial Defense Review (QDR). This 
is the first time a QDR has devoted such attention to the threat of 
WMD.
    Also at the strategic level, the Chairman of the Joint Chiefs of 
Staff on February 13, 2006, issued the first-ever National Military 
Strategy to Combat Weapons of Mass Destruction. This strategy builds on 
the three-pillar structure of the 2002 National Strategy to Combat WMD: 
nonproliferation, counterproliferation, and consequence management. As 
defined in the National Military Strategy to Combat WMD, these pillars 
are:

        <bullet> Nonproliferation: actions to prevent the proliferation 
        of weapons of mass destruction by dissuading or impeding access 
        to, or distribution of, sensitive technologies, material, and 
        expertise.
        <bullet> Counterproliferation: actions to defeat the threat 
        and/or use of WMD against the United States, U.S. Armed Forces, 
        its allies, and partners.
        <bullet> WMD Consequence Management: actions taken to mitigate 
        the effects of WMD attack or event and restore essential 
        operations and services at home and abroad.

    At the next level, the National Military Strategy to Combat WMD 
identifies eight military mission areas that support the pillars in the 
National Strategy: offensive operations, elimination operations, 
interdiction operations, active defense, passive defense, WMD 
consequence management, security cooperation and partner activities, 
and threat reduction cooperation. This new strategic framework is the 
Department's vehicle for dividing the broad ``combating WMD'' mission 
into specific, definable military activities that we can address with 
better focus in the budget, training, doctrine, and policy processes.

                organizing for the combating wmd mission

    On January 6, 2005, the Secretary of Defense designated the United 
States Strategic Command (STRATCOM)--commanded by General Cartwright, 
here today--as the Department's lead for synchronizing and focusing 
combating WMD operational efforts in support of our combatant 
commanders. In this new role, STRATCOM supports other combatant 
commanders as they execute combating WMD operations. General Cartwright 
and his team now are designated to serve as advocates for developing 
combating WMD mission requirements and shepherding them through the 
budget process. STRATCOM's initial assignment is to focus on two of the 
missions assigned by the National Military Strategy to Combat WMD: 
elimination and interdiction.
    Also, in the nature of organizational change, all DOD components 
have been directed to realign themselves to improve execution of the 
combating WMD mission. Within the organization of the Office of the 
Under Secretary of Defense for Policy, for example, offices have been 
realigned over the past 6 months to create in my office, the Office of 
the Assistant Secretary of Defense for International Security Policy, a 
near-single point of contact for policy support of the combating WMD 
mission. Within my office, in August 2005 the Deputy Assistant 
Secretary of Defense for Negotiations Policy--already responsible for 
interdiction and related WMD nonproliferation activities--was assigned 
responsibility for the Offices of Counterproliferation Policy and 
Cooperative Threat Reduction. The Deputy Assistant Secretary of Defense 
for Forces Policy, also within my office, is responsible for active 
defense and offensive operations. This organizational shift thus 
brought policy responsibility for seven of the National Military 
Strategy to Combat WMD's eight functional areas--offensive operations, 
elimination operations, interdiction operations, active defense, 
passive defense, security cooperation and partner activities, and 
threat reduction cooperation--under a single policy point of contact. 
Organizing Policy's oversight of consequence management capabilities is 
something we are still working on.
    Our approach builds on the 2002 National Strategy to Combat Weapons 
of Mass Destruction, and, more recently, the 2006 National Security 
Strategy. Our goal was well summed up by President Bush in his January 
20, 2004, State of the Union address, ``America is committed to keeping 
the world's most dangerous weapons out of the hands of the most 
dangerous regimes.'' To fulfill the President's commitment, the QDR 
directs that ``national efforts to counter the threat posed by WMD must 
incorporate both preventive and responsive dimensions.''
    Again, while we are pursuing the strategic and organizational 
changes I described above, we are already moving ahead on a day-to-day 
basis in activities to combat WMD. Many of these activities were 
initiated around the time the National Strategy to Combat WMD was 
adopted. Some were started even earlier. Many are entirely new.

                 preventive dimension of combating wmd

The Toolkit for Preventive Activities
    Nonproliferation treaties and export control regimes have been for 
decades an integral element of our strategy for combating WMD. These 
treaties and regimes include the Nuclear Non-Proliferation Treaty, the 
Chemical Weapons Convention, the Biological Weapons Convention, the 
Nuclear Suppliers Group, the Australia Group, the Wassenaar Arrangement 
and the Missile Technology Control Regime. DOD brings significant 
policy and technical expertise to bear toward enforcement of these 
regimes through the Office of Negotiations Policy and the Defense 
Technology Security Administration.
Interdiction
    While these regimes are a first line of defense, not all countries 
are members of all regimes, and many countries that are members cheat. 
WMD programs in countries like Iran and North Korea have highlighted 
the need for additional measures such as interdiction. The December 
2002 U.S. National Strategy to Combat WMD called for enhanced 
interdiction to curtail proliferation of WMD. Interdiction is an 
essential component in our efforts to counter the proliferation 
activities of both suppliers and customers. Interdictions raise the 
costs for proliferators, but also can deter some suppliers from even 
getting in the business of prolferation.
Efforts to Improve Interdiction Capabilities
    As part of this effort, DOD has taken steps to strengthen U.S. 
military capabilities to support interdiction. For example:

        <bullet> Interdiction Simulation. In October 2005, the Naval 
        War College organized the first government-wide, classified 
        gaming exercise for all U.S. agencies involved in interdiction. 
        This simulation involved senior officials and a broad spectrum 
        of operational/technical experts. The goal was to improve our 
        ability to create and exploit interdiction opportunities by: 
        (1) developing new operational concepts; and (2) strengthening 
        relationships across the government.
        <bullet> Integration of U.S. Military Capabilities. In January 
        2005, STRATCOM was tasked with integrating DOD efforts to 
        combat WMD. Interdiction was identified as a top priority 
        (along with WMD elimination). In this new role, STRATCOM will 
        be able to: advocate development of capabilities supporting 
        WMD-related interdiction; develop operational concepts and 
        doctrine; synchronize intelligence; identify resource 
        requirements; and coordinate strategic planning. Military 
        departments and other combatant commands were tasked to support 
        STRATCOM's efforts.
        <bullet> Naval Assets. The U.S. Navy has improved shipboarding 
        and cargo assessment. In 2005, the Navy validated its new Visit 
        Board Search and Seizure (VBSS) team capability. VBSS teams are 
        assigned to every large deployed U.S. naval formation. The Navy 
        has also been testing a virtual, open-source database to 
        provide ship-boarding teams with visual cues (photographs and 
        descriptions of WMD-related materials) during examinations of 
        personnel, manifests, and cargo.
        <bullet> DOD Intelligence Organizations. The Defense 
        Intelligence Agency (DIA) established a new division for 
        interdiction support to DOD policymakers. This division is 
        integrating databases around the Intelligence Community for 
        tracking individuals, organizations and means of transport for 
        items of proliferation concern. In October 2005, the Office of 
        Naval Intelligence (ONI) was directed to lead development of 
        cross-government, global maritime intelligence integration to 
        support national maritime security requirements to include 
        interdiction. The goal is strategic-to-tactical, time-sensitive 
        maritime intelligence for policymakers around the clock: 
        targeting support analysis, strategic indications and warning 
        analysis, and real time information sharing.

    These are some specific examples of interdiction-related work 
undertaken since 2002, and expansion of the relationships essential for 
building capabilities.
The Proliferation Security Initiative (PSI)
    In addition to U.S. domestic efforts, we have worked closely with 
other governments since President Bush launched the PSI in May 2003. 
The PSI has been a forum for the United States and other countries to 
collaborate on how we will work together to interdict WMD-related 
shipments bound to and from states of concern, and to build national 
capabilities so that like-minded nations collectively have a more 
robust arsenal of WMD interdiction tools.
    PSI partners define interdiction broadly to include military, law 
enforcement, intelligence, and diplomatic efforts to impede and stop 
proliferation-related shipments, and it can involve sea, air, land, or 
trans-modal shipments. Today more than 70 countries have indicated 
support for the PSI, and we continue to discuss the initiative with key 
states where proliferators may operate.
PSI Builds National Capabilities
    PSI partners are working together in the PSI operational experts 
group (OEG) to improve their national interdiction capabilities. The 
OEG is an expanding network of military, law enforcement, intelligence, 
legal, and diplomatic experts. They develop new operational concepts 
for interdiction, organize a program of interdiction exercises, share 
information about national legal authorities, and pursue cooperation 
with industry sectors that can be helpful to the interdiction mission. 
Through these efforts, OEG participants raise the level of collective 
and national interdiction capabilities. The November 2005 OEG meeting 
was the first regionally focused OEG meeting and provided a venue for 
all European PSI participants to develop national and regional 
capabilities. The United States will host the next OEG meeting in April 
2006, which for the first time will involve a South American 
participant, Argentina.
    DOD is responsible for leading the OEG process, the locus of 
operational aspects of PSI. To date, 19 PSI exercises involving a wide 
range of operational assets have been held. These have included air, 
maritime, and ground assets and have been hosted by a range of 
countries. Table-top games and simulations in particular have helped 
participants work through interdiction scenarios, and have, in many 
cases, improved the way participating governments organize to conduct 
interdictions. We need to ensure DOD assigns the resources needed to 
continue playing a leadership role in PSI operational activities and 
working with our PSI partners.
Cooperative Threat Reduction
    Mr. Chairman, the subcommittee is already familiar with the history 
and details of the Cooperative Threat Reduction (CTR) program. CTR 
supports another two of the mission areas identified by the National 
Military Strategy to Combat WMD: threat reduction cooperation, and 
security cooperation/partner activities. The program continues to help 
eliminate WMD material and enhance security for WMD, particularly the 
legacy WMD of the former Soviet Union. I would like to focus my 
testimony on recent developments in CTR, as well as priorities for the 
year ahead. A detailed explanation of the President's fiscal year 2007 
budget request for the CTR program is appended to this statement.
    The administration is requesting $372.1 million for CTR activities 
in fiscal year 2007. The decrease from fiscal year 2006 ($409.2 
million) results from decreasing requirements for the nerve agent 
elimination project at Shchuch'ye, Russia. We expect CTR budget 
requests to rise again in future years, as other projects replace 
currently ongoing and completing projects.
    Fiscal years 2005 and 2006-to-date saw continued progress for CTR. 
This was the case both with respect to CTR's substantive mission, as 
well as with respect to the revised business practices implemented 
after problems arose several years ago. These new practices extended to 
both policy and implementation. They included changes in personnel, 
application of DOD acquisition processes, extensive reviews by the DOD 
Inspector General and Government Accountability Office, conversion of 
informal understandings to binding legal agreements, and establishment 
of a formal ``executive review'' process, in which implementation and 
policy experts review all aspects of major projects semi-annually with 
their Russian counterparts.
    In this timeframe, CTR continued its WMD infrastructure elimination 
work in Russia, destroying 42 intercontinental missiles, and continued 
work on the new mobile missile project that eliminates SS-24/25 
missiles, as well as their rail- or road-mobile launchers. CTR also 
continued work on the Chemical Weapons Destruction Facility at 
Shchuch'ye. The Shchuch'ye facility will provide Russia a capability to 
eliminate some 2.1 million artillery shells and rockets loaded with 
nerve agent--one of Russia's most dangerous chemical agents weaponized 
in the most proliferable form. At Shchuch'ye, both the Russian-built 
and CTR-built main chemical weapons elimination buildings stand near 
completion, ready to be outfitted internally with chemical handling and 
neutralization equipment. Regrettably, the state-owned subcontractor we 
had hoped would complete the CTR-funded main processing building 
submitted an exorbitant bid for this work and has refused to budge. The 
result may be up to a 14-month delay in completion of the facility, now 
targeted for late 2008, with potential additional costs that cannot be 
predicted with accuracy at this point. The U.S. commitment to 
Shchuch'ye remains unchanged, and support from international partners 
continues to be excellent.
    Also in Russia, CTR has continued its assistance to improve the 
security of nuclear warheads in storage. With the President's 
Bratislava Nuclear Security Cooperation Initiative, we are poised to 
complete our security work at Russian nuclear warhead storage sites by 
2008. This effort is an acceleration of work that was already underway 
through CTR and a related DOE program, but was not programmed for 
completion before 2011. What was achieved at Bratislava was Russian 
agreement to supply information promptly on all warhead sites where 
Moscow felt U.S. assistance would be necessary. Russia met that 
commitment by providing detailed information in June 2005 that allowed 
U.S. agencies and the Russian government to agree on an accelerated 
schedule to upgrade security at select sites by 2008.
    Let me be clear: the U.S. is not enhancing security of warheads 
attached to operational nuclear delivery systems; rather, we are 
supporting Russia in its responsibility to secure its extensive warhead 
inventory across its vast and often remote array of storage facilities. 
The U.S. will be able to say by 2008 that we have done all we can to 
bring security of Russia's nuclear weapons up to credible standards. 
That will be a significant achievement. We will need Congress to help 
in this endeavor. Acceleration of the original schedule from a 2011 
completion target to 2008 requires that additional funds be obligated 
during fiscal year 2006. I urge subcommittee members to support the 
administration's request for $44.5 million in fiscal year 2006 
supplemental appropriations for this CTR project.
    The past year has also seen success in implementation of CTR's 
``Threat Agent Detection and Response'' (TADR) project. TADR is being 
implemented in Central Asian and Caucasus states. It is a web-based 
disease surveillance network that replaces the Soviet system of 
maintaining libraries of dangerous pathogens in unsecured locations. 
Under TADR, CTR consolidates these dangerous pathogen strains in a 
Central Reference Laboratory which will have the ability to 
characterize and securely store the sample. The U.S. receives samples 
of each strain. The result is a capability to determine whether a 
disease outbreak is naturally occurring or a potential bio-terror 
event. TADR-supplied equipment and training already in place have been 
used to identify Avian Influenza. In 2005, we signed agreements on TADR 
assistance with Azerbaijan and with Ukraine. This complements 
agreements already in place with Georgia, Uzbekistan, and Kazakhstan. 
The TADR project has been a key initiative for this administration and 
we believe it helps meet a significant, unfilled requirement for the 
U.S. to stay abreast of the global bio-terror threat.
    During the past year, CTR also saw continued progress in its WMD 
border security project, known as the WMD-Proliferation Prevention 
Initiative (PPI). PPI was conceived at the outset of this 
administration, and implemented after the September 11 attacks. This 
initiative takes CTR in a fundamentally new direction. Previously, CTR 
dealt with WMD at its source--a CTR mission that will be essential for 
as long as governments identify stocks of WMD, delivery systems, and 
related infrastructure and request U.S. help in eliminating them.
    However, September 11 highlighted the need to look beyond ``WMD-in-
place'' and address the threat of ``WMD-on-the-move.'' PPI focuses on 
willing countries that lack resources--in the case of PPI, the 
resources to build detection/interdiction capabilities on their own. 
PPI is now at work in Ukraine, Uzbekistan, and Azerbaijan. We recently 
expanded activities in Ukraine, and signed key legal agreements with 
Kazakhstan to allow us to begin PPI projects with that country. We are 
focusing on Central Asian countries because of their proximity to 
Russia in order to create a WMD ``safety net.'' We are not merely 
supplying equipment through PPI, but are working with the combatant 
commands to provide training, doctrine and tactics for that equipment.
    We have appreciated the continued interest of Armed Services staff 
in PPI and WMD border security. PPI's approach has prompted questions 
about whether it should be viewed as traditional security assistance. 
In our view, since PPI is linked specifically to WMD nonproliferation--
CTR's core goal as reflected in the original CTR legislation--it is 
eligible for funding under CTR. We will continue to work with Congress 
to ensure PPI continues to meet the legislation requirements. We 
believe WMD border security is an important element of the CTR mission, 
and will continue to provide opportunities to help other countries 
improve their ability to secure their borders against the spread of 
WMD.
    One reason for congressional concern about CTR's WMD border 
security work has been the sheer scope of U.S. international border 
security activities, and the need to enhance coordination of these 
border security programs. We can report that, as of January 2006, all 
international border security assistance related to nuclear detection 
activities is governed by guidelines promulgated and administered by 
the NSC's Proliferation Strategy Policy Coordinating Committee. These 
guidelines will be expanded to include a process whereby all types of 
U.S. international border security assistance, from proliferation 
prevention to counternarcotics, will be synchronized and deconflicted 
as well at the Washington level, as they are currently in the field.
    Finally, I can report that in May 2005, DOD took the initiative to 
extend the CTR program's legal framework with Russia--over 1 year ahead 
of expiration. We took this step to avoid a disruption of CTR's 
important work such as occurred 7 years ago, the last time the 
framework required extension. We are pleased to report that Russia has 
accepted U.S. terms for extension of this framework and we believe we 
will be able to conclude negotiations well before the June 2006 
deadline. This will allow CTR's important work to secure and eliminate 
WMD and related infrastructure in Russia to continue uninterrupted.

                 responsive dimension of combating wmd

Day-to-Day Changes: Investing for the Future
    Revising our strategies, restructuring our organizations, and 
changing our daily activities will not have lasting impact without 
adequate funding of corresponding capabilities, technologies and 
mission areas. The autumn 2005 program/budget review undertook a 
comprehensive review of combating WMD funding which was carried through 
the QDR. Beginning with the fiscal year 2006 budget submission, we 
added $2 billion to a $7.6 billion fiscal year 2006-2011 FYDP for the 
Chemical Biological Defense Program (CBDP). We continue to seek 
opportunities to realign resources for the combating WMD mission; and 
two key priorities, under STRATCOM's leadership, will be military 
requirements for the elimination and interdiction missions. The $2 
billion increase in chem-bio defense program funding represents a down 
payment toward reprioritization of the combating WMD mission. However, 
this process is not complete and we look forward to working with 
STRATCOM on improving definition of the requirements.
Day-to-Day Changes: Joint Task Force for Elimination
    One of the earliest lessons learned from our military operations in 
Iraq was that DOD needed a well organized, well trained force to be 
able to quickly and systematically locate, seize, secure, disable and 
safeguard an adversary's WMD program, including sites, laboratories, 
materials, and associated scientists and other personnel.
    The Army's 20th Support Command, located north of Baltimore at the 
Edgewood Area of Aberdeen Proving Ground, was stood up as an Army 
headquarters tasked to provide technically qualified Chemical, 
Biological, Radiological, Nuclear, and High-Yield Explosives response 
forces to support geographic combatant commanders. This unique 
organization includes the Army's Technical Escort Battalions as well as 
an Army Explosive Ordnance Disposal Group. While the 20th was not 
established until after Operation Iraqi Freedom, many of its units 
participated in the search for WMD in Iraq.
    The 20th Headquarters was activated in 2004. However, while the 
military units assigned to this headquarters are deployable, the 
headquarters itself cannot deploy today since nearly two-thirds of the 
staff is composed of government civilians or contractors. In the QDR 
process, DOD leadership approved a proposal to assign 20th Support 
Command the task of becoming a deployable headquarters that could 
command and control these types of operations.
    Establishing a joint task force for elimination is a key element of 
the Department's vision, as articulated by the QDR, to deal with all 
aspects of the threat posed by WMD.
Day-to-Day Changes: Biodefense Initiative
    Another key conclusion of the QDR was that the Department should 
focus on new defensive capabilities in anticipation of the continued 
evolution of WMD threats. In response, DOD has decided to reallocate 
funding within the Chem-Bio Defense program to invest over $1.5 billion 
over the next 5 years to develop broad-spectrum countermeasures against 
advanced bio-terror threats. For example, rather than continuing the 
traditional approach to developing countermeasures--which in effect 
results in ``one drug, one bug''--DOD will conduct research to develop 
drugs that could each counter many pathogens. For example, we are going 
to conduct research to develop a single vaccine to counter all types of 
viral hemorrhagic fevers (like Ebola and Marburg) as well as a single 
vaccine for all ``intracellular'' pathogens, like the Plague.
    While supporting our combating WMD effort, these initiatives also 
benefit our forces who may well be ordered to deploy to places where 
these fevers pose a risk. Having one drug that could counter many bugs 
would improve military effectiveness by getting forces into the theater 
more quickly.
Day-to-Day Changes: Building Partner Capacity
    More than ever before, we need partners be to be prepared for 
operations with us in a CBRN world. In 2002, the Department proposed 
creation of a CBRN Defense Battalion for NATO. This U.S. concept was 
endorsed by NATO defense ministers during the 2002 Prague Summit, and 
elements of a fully operational CBRN Defense Battalion supported the 
2004 Summer Olympics just over 1 year later. The battalion includes a 
CBRN joint assessment team and mobile chemical, biological and 
radiological laboratories; it has received personnel and capability 
support from 17 NATO nations to date. The concept for the Battalion and 
the way it was quickly institutionalized were unprecedented at NATO. We 
continue to encourage strengthening of the Battalion's capabilities to 
help drive member nations to improve their own combating WMD 
capabilities. The Battalion will be a model for future collaboration as 
we expand our counterproliferation discussions with other nations.
    In addition, we continue to develop bilateral discussions with 
international partners on counterproliferation issues ranging from 
policy and operational support to detailed technical cooperation. We 
have or are establishing such bilateral working groups with countries 
from Europe, the Middle East, and Asia that share our desire to prepare 
for defense against the WMD threat.
    One goal of the bilateral working groups we establish is to ensure 
that U.S. and potential coalition partners can execute combined 
operations in a WMD environment. The challenge of interoperability is 
significant even in a ``mere'' conventional warfighting environment. 
However, a WMD situation raises many additional issues. For example, if 
our combat or transport aircraft are returning from an area where WMD 
has been employed, we need to know in advance what decontamination our 
allies will require in order to ensure ready access to important way 
stations and forward depots. Similar problems relate to the 
decontamination of forces--including potentially wounded personnel--who 
will require immediate evacuation and attention. We have launched 
discussions with our NATO allies as well as several key potential 
coalition partners on these and other issues we believe need to be 
resolved for combined operations in a WMD environment.
    Building partner capacity takes many forms and can include building 
legal capacities. In 2005, Navy, Joint Staff, General Counsel, and 
Office of the Secretary of Defense-Policy representatives completed 3 
years of activity to expand legal authority against maritime 
trafficking in WMD, and helped secure adoption of amendments to the 
Convention on Suppression of Unlawful Acts at Sea Against the Safety of 
Maritime Navigation establishing the first international criminal 
standard against shipment of WMD as well as a comprehensive boarding 
regime. Once the amendment enters into force after ratification by 12 
member-states, we will have a new vehicle to prosecute violators and 
press for greater vigilance against trafficking in WMD.

                               conclusion

    Mr. Chairman, the DOD understands that combating the spread of WMD 
in a complex and uncertain world requires a new approach. This new 
approach is reflected in our new strategic guidance, realigned 
organizational structure, and in changes in our day-to-day activities. 
We view this as part of the Department's larger, long-term 
transformation to better ensure U.S. security against future threats. 
Our commitment to success in this endeavor is absolute. Failure is not 
an option. Congress is an essential partner in this fight, and we look 
forward to continuing our work together. Thank you again for the 
opportunity to testify.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Cornyn. Thank you very much. General Cartwright, 
we'd be glad to hear your opening statement.

  STATEMENT OF GEN. JAMES CARTWRIGHT, USMC, COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    General Cartwright. Thank you, Mr. Chairman. I think most 
of it has been covered and I'll just hit on a couple of 
questions that you brought up in your initial statement just to 
make sure we have that as a starting point. The threat really 
has been covered, the pillars, the national, and the military 
strategies here.
    In January 2005, STRATCOM was assigned the mission of 
synchronizing and integrating all of the mission areas that 
heretofore had been spread across the Department. So we see 
ourselves in a position of advocating for the doctrine, the 
organization, the material solutions, the tactics, techniques, 
and procedures that will serve and benefit the regional 
combatant commanders.
    In August 2005, the DTRA was assigned as our lead combat 
support agency and what they brought to the table for us was 
the technical expertise. They are recognized within the DOD as 
having the technical expertise and the relationships across the 
government to allow us to effect this mission area in a way 
that we need to do it.
    In the January timeframe of this year, 2006, we stood up 
the initial operating capability of what we call the Center for 
Combating Weapons of Mass Destruction. STRATCOM is organized 
with joint functional components but given that the DTRA is in 
fact an agency rather than a military organization and has a 
director as its head versus a commander, we chose to call this 
a center to clearly identify the fact that it was led by a 
civilian. We have assigned to that organization a flag officer 
who gets up every day worrying about what it is that we need to 
do to bring closer the military capabilities and the technical 
expertise that DTRA brings to the table. So there is a core 
element inside of DTRA at their headquarters in Fort Belvoir in 
Virginia that is assigned to bring closer together that 
technical expertise that resides there and the operational 
planning and execution functions that we're going to have to 
carry out in this mission area across all three pillars.
    We also, as was discussed here in the opening statement, 
have a joint task force (JTF) for elimination that we are 
standing up with the 20th Support Group of the Army; a major 
effort and a major capability need that we have to get going 
and get going quickly. We're in the functional need assessment 
phase of standing that organization up to make it deployable, 
make it responsive to the combatant commanders. The objective 
here is to give the regional combatant commanders the 
capability all the way from what we call Phase Zero which is 
the engagement activities within the theater through combat 
operations and, if necessary, through the consequence 
management of the clean-up of activities at the end of a 
conflict. To have one coherent organization looking across all 
those phases in support of the regional combatant commanders is 
where we want to end up.
    We intend to get there and get there as quickly as we can. 
The next major milestone for us is at the end of this year to 
have that component, that JTF for elimination, up and running 
with a needs assessment and understanding of the requirements, 
resources both in manpower and dollars that are going to be 
necessary and the authorities for the organization to be 
effective. I'll leave it at that and open to your questions, 
Mr. Chairman.
    [The prepared statement of General Cartwright follows:]

          Prepared Statement by Gen. James E. Cartwright, USMC

    Mr. Chairman and members of the subcommittee: Thank you for this 
opportunity to review U.S. Strategic Command's (STRATCOM) progress 
during the past year and to present our plan for the future. I will 
discuss the Quadrennial Defense Review (QDR) role in validating and 
updating our transformational approach, and request your continued 
support for specific actions necessary to ensure our strategic 
capabilities are correctly postured to meet the challenges of today and 
tomorrow. 2006 is a year of unprecedented change. Our ultimate goals 
are driving the pace of change: building strategic advantage, ensuring 
the security of the American people and strengthening the community of 
free nations.

      adapting to the new environment--transforming while we fight

    One year ago, we spoke of global interdependence and its impact on 
how we organize, plan, and operate. We emphasized developing strong 
links between U.S. strategic objectives and regional operations, as our 
adversaries were employing asymmetric means to strike well beyond the 
battlefields of Iraq and Afghanistan. We also spoke of STRATCOM's new 
mission assignments and the steps we had undertaken to transform our 
command into an agile 21st century organization capable of deterring 
our adversaries and bringing the full range of global strike, 
defensive, command and control (C\2\), and intelligence, surveillance, 
and reconnaissance (ISR) capabilities to bear against them if 
necessary. We outlined an enormous transformational effort that had to 
be accomplished in the context of an ongoing global conflict with 
active combat operations and without the luxury of an operational 
pause.
    Throughout the last year, the men and women of STRATCOM have 
engaged in that global conflict, often employing means not visible 
either to the average American or to our adversaries. They met this 
day-to-day challenge with professionalism and commitment while they 
were also restructuring our organization to focus our efforts, conserve 
our resources, and streamline support to other combatant commanders 
around the world. I come to you today gratified by the progress these 
fine men and women have made and energized to complete the task before 
us.

                    stratcom transformation vectors

    The Department of Defense (DOD) budget you enacted for 2006 enabled 
a string of organizational and operational successes along all of our 
transformation vectors.
    We changed the way we are organized and operate. We implemented, 
and by the end of 2006, will refine the redistributed and functionally 
aligned command structure described last year. This new structure is 
already paying off in terms of decentralized operational employment and 
increased operational speed. Our efforts resulted in:

        <bullet> A flattened, streamlined, and focused headquarters 
        staff charged with maintaining command and control of the 
        Nation's nuclear forces, providing strategic guidance and 
        advocacy for essential mission capabilities, and conducting 
        integrated and synchronized strategic-level planning necessary 
        for mission accomplishment in all mission areas.
        <bullet> Four interdependent Joint Functional Component 
        Commands: ISR; Network-Warfare; Integrated Missile Defense; and 
        Space and Global Strike. Day-to-day operational planning and 
        execution of specialized global capabilities now reside at the 
        component level, where commanders are able to maintain focus on 
        their primary mission and not be distracted by staff support 
        activities.
        <bullet> Integrated Information Operations (IO) support through 
        the Joint Information Operations Center (JIOC). The JIOC is the 
        focal point for all operational and tactical IO planning 
        support to DOD users around the globe.
        <bullet> Improved security for DOD information systems through 
        the aggressive efforts of Joint Task Force--Global Network 
        Operations (JTF-GNO). JTF-GNO instituted stringent use controls 
        and trained system users to reduce vulnerabilities.
        <bullet> A collaborative, Joint Space Operations Center 
        (JSpOC), to deliver select DOD space capability to U.S., 
        allied, and other national users. When fully operational, JSpOC 
        will provide the full range of DOD space capabilities.
        <bullet> A new STRATCOM Center for Combating Weapons of Mass 
        Destruction and a new Global Innovation and Strategy Center 
        that recently completed their formative processes, joining the 
        fight with specialized technical skills and solutions to unique 
        mission challenges.

    By making this unique organizational transformation we also 
strengthened our operational relationships with the Defense 
Intelligence Agency, Defense Threat Reduction Agency, Defense 
Information Systems Agency, and National Security Agency in order to 
leverage the tremendous resources and capabilities resident in these 
organizations. Now we effectively bridge many artificial barriers to 
communications and information sharing, and bring enhanced combat power 
to the regional combatant commanders.
We made progress in our drive toward a New Triad of capabilities
    The New Triad is comprised of offensive and defensive capabilities 
enabled by persistent global C\2\, intelligence, an agile planning 
system, and a responsive defense infrastructure. The New Triad provides 
improved flexibility in dealing with a wider range of contingencies, 
while reducing our dependence on nuclear weapons, in order to assure 
our allies, dissuade competitors, and deter those who plan to harm us, 
particularly with weapons of mass destruction (WMD).
    Efforts to improve conventional global strike capability focused on 
generating effects without being hindered by factors of time, distance, 
basing rights, overflight considerations, or undue risk to American 
service men and women. Recently the Department:

        <bullet> Bolstered the number of Joint Direct Attack Munitions 
        in the inventory, providing all weather, precision strike in a 
        smaller weapon footprint.
        <bullet> Fielded Tactical Tomahawk and the Joint Air-to-Surface 
        Standoff Missile, providing strike weapons that operate from 
        ranges outside enemy point defenses.

    During the past year nonkinetic capabilities became an increasingly 
important tool to deny our adversaries the opportunity to communicate 
easily or to manipulate information in ways that further their efforts 
to undermine stability around the world. We seek better nonkinetic 
capabilities to improve our freedom of action at the lowest level of 
conflict; to enhance deterrence; and support the sustained ability to 
use our networks while denying the adversary a similar capability. In 
this area we:

        <bullet> Expanded development of the applicable tactics, 
        techniques, and procedures to support use of information and 
        networks--cyberspace--as an environment for integrated 
        exploitation, offensive, and defensive operations.
        <bullet> Improved integration of nonkinetic effects into 
        operational planning, on a limited basis, in support of forces 
        involved in the global war on terrorism.

    The President has committed the United States to sustaining a 
credible nuclear deterrence capability with the lowest possible number 
of nuclear weapons consistent with national security. STRATCOM's task 
is to ensure our nuclear force remains ready to meet any contingency 
while the nuclear stockpile remains safe, secure, and reliable as we 
prudently achieve the thresholds specified in the Moscow Treaty. To 
this end we:

        <bullet> Sustained a safe and reliable nuclear stockpile in 
        cooperation with the national laboratories and the National 
        Nuclear Security Administration.
        <bullet> Took steps to improve the security and safety of the 
        deployed nuclear force.
        <bullet> Retired the last Peacekeeper Intercontinental 
        Ballistic Missiles (ICBM) from service.
        <bullet> Reduced the number of operationally deployed strategic 
        nuclear warheads on the Minuteman III ICBM force.
        <bullet> Transferred the final ballistic missile submarine 
        scheduled for reconfiguration to carry conventionally armed 
        cruise missiles.

    We continued pursuit of both active and passive defenses as a means 
of deterring our adversaries by demonstrating our ability to deny their 
attempts to coerce or harm the United States. During 2006 we will:

        <bullet> Conduct additional tests of a Standard Missile 3, 
        which is designed to engage mid- and short-range ballistic 
        missiles early in flight.
        <bullet> Conduct tests of a Terminal High Altitude Area Defense 
        missile, which is designed to engage mid- to short-range 
        ballistic missiles late in flight.
        <bullet> Increase the number of emplaced Ground Based 
        Interceptors in Alaska and California. Ground Based 
        Interceptors are designed to engage long-range ballistic 
        missiles in the midcourse of their flight. We plan on an 
        interceptor demonstration this spring and up to two more 
        interceptor tests by the end of 2006.
        <bullet> Refine our missile engagement tracking capability by 
        deploying sea-based and forward-based X-Band radars to 
        operational locations in the Pacific region, where, by the end 
        of 2006, they will join a global network of radars.
        <bullet> Upgrade the Command, Control, Battle Management, and 
        Communications System to extend situational awareness 
        capability to Pacific Command and European Command by the end 
        of 2006.
        <bullet> Promote expanded interagency support and participation 
        in the Proliferation Security Initiative to further global 
        efforts to combat the spread of WMD.

    At the heart of the New Triad are the key enablers of command and 
control, intelligence, and planning. Through these enablers, and our 
broad array of space capability, we create the agility to respond to a 
wide range of global challenges. During 2006 we will:

        <bullet> Evolve the renovated STRATCOM Global Operations Center 
        to enhance collaboration among all geographically distributed 
        STRATCOM elements--defining the first step toward a Global C\2\ 
        capability for all New Triad forces.
        <bullet> Complete preparations for opening the first node in a 
        network of ground entry points designed to serve a nationally 
        distributed ground, air and sea network capable of providing 
        the diverse connectivity requirements of the New Triad and DOD 
        support to a broader national command capability using all 
        elements of national power.
        <bullet> Codify the output of the department-wide process 
        review designed to modify historically inefficient ISR force 
        apportionment practices to globally manage low-density, high-
        demand ISR assets such as unmanned aerial vehicles (UAVs) and 
        reconnaissance aircraft.
        <bullet> Extrapolate the results of an exercise in which we 
        demonstrated the ability to achieve persistence through the 
        combination/integration of different ISR phenomenology, to 
        better fulfill combatant commander's intelligence requirements.
        <bullet> Capitalize on the longer dwell time of unmanned and 
        unattended sensors to produce greater persistence in global war 
        on terrorism operations.
        <bullet> Initiate a pilot program to determine essential global 
        strike command and control services with an explicit objective 
        of delivering a distributed, collaborative product. The pilot 
        program will take advantage of the Department's Data Strategy, 
        which calls for visible, accessible and understandable data, 
        and uses Services Oriented Architectures (SOA) to promote 
        flexibility and agility.
        <bullet> Initiate efforts to transition from a limited space 
        surveillance architecture to a more fully integrated 
        terrestrial and space-based approach to situational awareness.

                a nation at war--continuing to transform

    When I came before you last year, it was clear the pace of change 
and nature of the threats and challenges to our Nation were growing 
rapidly. It was also clear that Strategic Command's legacy systems and 
organizational relationships were not suitable for meeting emerging 
challenges the Nation now faces. Our intent, this year, was to address 
nuclear issues in the QDR in order to rationalize them in the context 
of our overall capabilities. It is against this backdrop that we 
entered the dialog of the 2006 QDR.
    STRATCOM presented new ideas and concepts, which were widely 
debated during the course of review proceedings. We entered this review 
believing the New Triad concept was sound in principle, but that the 
pace of attaining the new construct was lagging the National need. With 
this in mind we focused on four objectives:

        <bullet> Determine which elements of our considerable nuclear 
        force structure are essential to future stability and which 
        might be retired in favor of more redundant and credible 
        conventional or nonkinetic capabilities called for by the 2001 
        Nuclear Posture Review and 2005 Strategic Capabilities 
        Assessment.
        <bullet> Determine the next steps needed to fulfill our 
        commitment to an integrated missile defense capable of 
        defending the U.S., its deployed forces, friends, and allies.
        <bullet> Identify key enablers within the domains of ISR; 
        communications, space, and collaborative planning that could 
        rapidly improve our agility and responsiveness.
        <bullet> Identify structural barriers to effective integration 
        and synchronization of DOD efforts to combat WMD.

    The QDR served to remind us of two very important factors: first, 
that the United States is a nation engaged in a long war; and second, 
that our enemies in this long war seek WMD and will likely attempt to 
use them in their conflict with free people everywhere. Importantly, 
the QDR validated the need to adjust the U.S. global military force 
posture by moving away from a static defense in obsolete Cold War 
garrisons. While the review described many areas in which we must shift 
emphasis, we believe three are of particular importance to shaping our 
command and its approach to the future:

        <bullet> From nation-state threats--to decentralized networked 
        threats from non-state enemies.
        <bullet> From ``one-size-fits-all'' deterrence--to tailored 
        deterrence for rogue powers, terrorist networks, and near-peer 
        competitors.
        <bullet> From a focus on kinetics--to a focus on effects.

    We have taken the QDR's imperative for change as validation of our 
desire to accelerate transformation in many areas. While we believe 
progress has been made, more can be done in selected areas to improve 
STRATCOM's posture and preparedness to respond to a wider range of 
traditional, irregular, disruptive, or catastrophic challenges. 
Beginning in 2007, we will take steps to:

          Improve STRATCOM's nuclear deterrence posture. Key 
        initiatives include:

                <bullet> Reduce the number of deployed Minuteman III 
                ballistic missiles in order to provide assets to meet 
                essential flight test needs and ensure the viability of 
                the Minuteman force. This will better balance our 
                legacy nuclear capabilities while preserving our 
                ability to reconstitute additional forces in response 
                to strategic surprise.
                <bullet> Study the requirement for a Minuteman III 
                replacement. We believe this is an essential step 
                toward ensuring our future national security needs.
                <bullet> Study the requirement for nuclear-armed cruise 
                missiles and look at alternative methods of storing 
                these Cold War era weapons. We believe that this study 
                will provide valuable input in support of developing an 
                effective long term strategy to maintain the nuclear 
                stockpile.
Develop a wider range of conventional deterrent weapons
    STRATCOM championed the need for a prompt, precise conventional 
global strike capability, to bridge the gap between prompt nuclear 
weapons and less timely, but precise, conventional weapons. Key 
initiatives include:

        <bullet> Deploy an initial precision-guided conventional 
        Trident Sea-Launched Ballistic Missile capability within 2 
        years. The speed and range advantage of a conventional Trident 
        missile increases decision time and provides an alternative to 
        nuclear weapon use against fleeting, high value targets. The 
        conventional Trident missile would be particularly useful in 
        deterring or defeating those who seek to coerce or threaten the 
        U.S. with WMD.
        <bullet> Develop a new land-based, penetrating long-range 
        strike capability to be fielded by 2018.
        <bullet> Study alternative options for delivering prompt, 
        precise conventional warheads using advanced technologies such 
        as hypersonic vehicles from land, air, or the sea.

    Develop nonkinetic capabilities to expand the range of effects we 
can generate against certain targets. Without question we are on the 
verge of a major technology shift to the Network Age. We see an 
environment in which digital internet communication is more pervasive, 
reliable, efficient, cheap, and rapid--even with the enormous increase 
in volume, variety, and velocity of data. Key initiatives include:

        <bullet> Develop capabilities that promote the freedom of 
        action we enjoy in other mediums like, maritime and air.

        <bullet> Develop the doctrine, organization, training, 
        maintenance, logistics, personnel and facilities to defend our 
        Nation in this domain.
        <bullet> Enhance measures to improve information assurance and 
        network security.

    Improve integrated defenses against short, intermediate, and 
intercontinental range ballistic and cruise missiles, and develop 
complementary capabilities to combat WMD. Key initiatives include:

        <bullet> Develop and mature integrated air and missile defenses 
        that deter attacks, demonstrating the ability to deny an 
        adversary's objectives.
        <bullet> Integrate defensive systems among our international 
        partners in ways that promote assurance against attack.
        <bullet> Expand the Army's 20th Support Command's capabilities, 
        to enable it to serve as a Joint Task Force capable of rapid 
        deployment in support of WMD elimination.
        <bullet> Improve and expand U.S. forces' capabilities to 
        locate, track and tag shipments of WMD.
        <bullet> Expand our advanced technical render safe capacity and 
        implement measures to increase associated speed of response.

    Improve our nuclear infrastructure. STRATCOM recognizes the 
importance of an efficient and more responsive nuclear weapons 
infrastructure to the Department's strategy of tailored deterrence. We 
believe this is the essential element needed to ensure our weapons are 
safe, secure, and reliable, to ensure we can respond to both 
technological and political surprise, and to reduce our current 
stockpile of nuclear warheads.
    In May 2005, the Nuclear Weapons Council commissioned an 18-month 
study, to determine the feasibility of replacing some W76 warheads with 
a Reliable Replacement Warhead (RRW) and to examine the potential for 
using RRW in lieu of the W78 warhead. This U.S. Navy led study will 
include Air Force and Interagency participants and should issue a final 
report in November 2006. We believe this study will be a useful tool in 
addressing some of the concerns raised by the Report of the Defense 
Science Board Task Force on Nuclear Capabilities, dated January 2006. 
The key initiative is to:

        <bullet> Determine the feasibility of replacing existing 
        warheads with a RRW.

    Develop a more coherent global command and control capability and a 
network-enabled architecture that moves information to the user, rather 
than moving the user to the information. The New Triad needs a robust, 
resilient global C\2\ system that builds on our legacy nuclear C\2\ 
system and serves as the basis of a critical national-level capability 
suitable for use in emergencies range from terrorist attacks to natural 
disasters. Key initiatives include:

        <bullet> Transition the STRATCOM Mobile Consolidated Command 
        Center, providing a survivable and enduring nuclear command and 
        control capability, to a new network of distributed ground-
        based communications nodes; establishing a gateway to a robust 
        multi-functional global command and control capability.
        <bullet> Retire four National Airborne Operations Center (NAOC) 
        and upgrade the take charge and move out command and control 
        aircraft, to sustain a survivable airborne link to strategic 
        nuclear forces and broaden our ability to support full 
        functionality of the New Triad.

    Transition intelligence, surveillance, and reconnaissance 
activities from a legacy approach, directed largely at monitoring 
nation states in two theaters, to a true global enterprise tailored to 
meet regional needs. Key initiatives include:

        <bullet> Implement a new global intelligence approach focused 
        on achieving persistent collection capabilities against legacy 
        and emerging threats, with our U.S. Government and allied 
        partners, and improved synergy with the Intelligence Community.
        <bullet> Increase investment in UAVs to provide greater dwell 
        capabilities in the effort to identify and track mobile targets 
        globally.

Improve space capabilities
    The space mission area creates a decisive strategic advantage for 
our national security, empowering critical economic as well as defense 
related activities. Our dependence on space capabilities, coupled with 
recent significant advances in space operations demonstrated by others, 
establishes a true imperative to protect our space assets and our 
freedom of action in space. STRATCOM understands the need to stay at 
least one technology generation ahead of any foreign or commercial 
space power. We must improve space situational awareness and 
protection, and ensure unfettered, reliable, and secure access to 
space. Key initiatives include:

        <bullet> Improve responsive space access, satellite operations, 
        and other space enabling capabilities such as the space 
        professional cadre.
        <bullet> Integrate air and space capabilities to deliver 
        combined effects.
        <bullet> Realign resources to sustain existing space 
        surveillance capabilities.
     stratcom requests your support to meet the challenges we face
    Over the next 5 years, we must fully transform while remaining 
engaged in a conflict in which our enemies will use any and all means 
to achieve their objectives. We believe a more aggressive 
transformation schedule than envisioned 5 years ago is essential to 
maintain the strategic advantage needed to deter or defeat those who 
would do us harm. If we do not accelerate this transition, we will face 
these adversaries, who attack through asymmetric means, with the blunt 
weapons of last resort that won the Cold War. That alone will not 
preserve our future national security. In particular we are requesting 
your support in the following areas:
Prompt, Precision Conventional Global Strike
    Tailored deterrence requires a more complete range of capabilities 
to address the wide spectrum of challenges that confront us today. 
While the Department employs expeditionary forces around the globe, it 
is unlikely we will have forces in every place we need them at the 
crucial moment when we have an opportunity to stop a WMD-armed threat 
far from our shores. The United States has the capability to engage 
with high quality conventional forces around the world, given days or 
perhaps weeks to respond. But if our general-purpose forces are not in 
a position to respond rapidly, the need to defeat attacks against the 
United States may require STRATCOM to interdict fleeting targets at 
global range. We have the delivery capability on alert today, but 
configured only with nuclear weapons. This choice is not credible 
against many of the extremist adversaries we will face.
    We recommend proceeding with development of the responsive, 
conventional global strike alternative offered by the Conventional 
Trident Modification. The President's budget request includes funds for 
the modification of a number of submarine based Trident Missiles to 
deliver conventional warheads with precision over thousands of miles in 
tens of minutes.
Global Command and Control (GC\2\)
    We are now faced with the task of recapitalizing our aging, Nuclear 
Command and Control (NC\2\) network, which is a matter of prime 
importance. Capitalizing on advances in technology, we envision a 
transition from the single-purpose, stove-piped NC\2\ network that 
served us during the Cold War, to a multi-functional, distributed, 
survivable, and expandable GC\2\ capability, leveraging the assets and 
resources of the Global Information Grid and serving the needs of our 
joint warfighters.
    With your support for the President's budget request, we can 
deliver a resilient air, land, and maritime GC\2\ capability that will 
tie together all elements of New Triad power. Fully developed, the 
GC\2\ will enable collaboration between and among DOD and other 
government agencies and partners, providing the core of a National 
Command Capability to meet the broadening array of potential challenges 
we face as a nation. A true National Command Capability will only be 
effective with federally mandated standards for data tagging to 
facilitate enhanced information sharing.
RRW
    Finally, if we are to break the cycle of maintaining and 
refurbishing large numbers of Cold War-era nuclear warheads to guard 
against uncertainty, we request your support to ensure a safe, secure, 
reliable nuclear stockpile, and in the process transform the nuclear 
weapons enterprise. Discussions over the past year within the executive 
branch and Congress have increased understanding of the role for 
nuclear weapons in our current environment, and the value of a 
responsive defense infrastructure. STRATCOM supports the RRW as the key 
to transforming our aging Cold War nuclear weapons stockpile. RRW will 
enhance our long-term confidence in the stockpile and reduce the need 
to retain high numbers of hedge weapons while exercising the people, 
science, technology base, and facilities required for sustaining the 
nuclear weapons enterprise.
    Maintaining the current stockpile of Cold War era weapons is a 
challenge. If directed, we believe the time is right; the risk is 
manageable; and the opportunity is at hand to choose weapons that will 
best serve our future and allow us to further reduce our overall 
stockpile size, in order to transition to and maintain a smaller but 
safer, more secure, and more reliable nuclear weapon arsenal.
     stratcom transformational vectors building strategic advantage
    STRATCOM plays an important role in leading national efforts to 
send an unambiguous message to our adversaries and friends alike--we 
will do whatever it takes, for as long as it takes, to ensure the 
forces of freedom possess a lasting strategic advantage against those 
who would deny citizens of America and the world the security to govern 
their own future. We will continue to be aggressive and resourceful in 
offering our best advice in the pursuit of capabilities needed to meet 
our National security requirements. With your help we can assure our 
allies, dissuade unhealthy competition, deter coercive or damaging 
acts, and above all else, defend our citizens and defeat our enemies. 
Thank your for your continued support.

    Senator Cornyn. Thank you.
    Mr. Paul.

      STATEMENT OF HON. JERALD S. PAUL, PRINCIPAL DEPUTY 
  ADMINISTRATOR OF NATIONAL NUCLEAR SECURITY ADMINISTRATION, 
                      DEPARTMENT OF ENERGY

    Mr. Paul. Thank you, Mr. Chairman, Senator Nelson. Thank 
you for creating this opportunity to raise the level of 
attention and for your leadership on these paramount issues 
associated with nuclear WMD. It is indeed a pleasure to be here 
today to discuss nonproliferation activities of the DOE's NNSA.
    Acquisition of nuclear weapons, WMD capabilities, 
technologies, and expertise by rogue states or terrorists pose 
the greatest threat to our national security as the chairman 
eloquently pointed out. The pursuit of these capabilities by 
terrorists and states of concern underscores the importance of 
our threat reduction, detection, and interdiction programs.
    The mission for the Office of Defense Nuclear 
Nonproliferation, within NNSA, is to detect, prevent, and 
reverse the proliferation of WMD.
    Our programs are structured to support multiple layers of 
defense against nuclear terrorism and state-sponsored nuclear 
proliferation. We work with more than 70 countries to secure 
dangerous nuclear and radiological materials, and to dispose of 
surplus weapons-usable material.
    We also work closely with multinational and multilateral 
institutions, including the International Atomic Energy Agency 
(IAEA) at the United Nations in our offices in Vienna and with 
the Nuclear Suppliers Group, as well, to strengthen 
international nuclear safeguards regimes and to improve the 
nuclear export control regulatory infrastructure in other 
countries. This multi-layered approach is intended to identify 
and address potential vulnerabilities within the international 
nonproliferation regime and to limit terrorists' access to 
deadly weapons and material.
    Since September 11, 2001, the Office of the Defense Nuclear 
Nonproliferation within the NNSA has accelerated and expanded 
its implementation of a six-pronged defense-in-depth strategy 
to deny terrorists and states of concern the materials, the 
technology, and the expertise needed to develop nuclear and 
radiological weapons. Our programs fall into those six broad 
categories.
    The first element of that strategy is to account for and 
secure nuclear material in Russia and the former Soviet Union. 
To date, we've secured over 80 percent of the sites where these 
materials are stored and we are on course to finish all of our 
security upgrades by 2008, a full 2 years ahead of schedule.
    The second prong is to detect and prevent the movement or 
trafficking of weapons-usable technologies and nuclear 
materials. We have installed radiation detection equipment at 
more than 50 border crossings in Russia and the former Soviet 
Union and European countries. The Megaports Initiative is 
currently operational in Greece, the Bahamas, Sri Lanka, Spain, 
and the Netherlands, and is at various stages of implementation 
in nine other countries and there are many more on the list 
that we are driving towards implementing.
    The third prong is to stop the production of new fissile 
material in Russia. We are working with Russia to expedite the 
closure of its remaining three plutonium production reactors in 
the formerly closed cities of Seversk and Zheleznegorsk.
    Fourth, to eliminate existing weapons-usable material in 
Russia and former Soviet states. Through our Megatons to 
Megawatts program, more than 260 metric tons of Russian highly 
enriched uranium, that is bomb-grade uranium, from dismantled 
weapons have been down-blended to low-enriched uranium that is 
non-bomb grade uranium to non-weapons grade material for use in 
commercial nuclear power reactors. As we speak, Mr. Chairman, 
Senator Nelson, 10 percent of all electricity consumed by 
Americans in this country comes from low-enriched uranium that 
formerly was a part of high-enriched uranium for Soviet nuclear 
weapons. This program ultimately will be responsible for 
disposing of approximately 20,000 nuclear warheads worth of 
material and we're a little more than halfway through that now. 
We are also working with the Russian Federation to eliminate 34 
metric tons of weapons-grade plutonium in each country, enough 
for over 17,000 nuclear weapons. This in part is the MOX 
program the chairman mentioned and I look forward to taking 
some questions on both the Russian and the domestic progress on 
MOX.
    The fifth prong is to eliminate or consolidate the 
remaining weapons-useable nuclear and radiological materials 
that exists throughout the remainder of the world. Our Global 
Threat Reduction Initiative (GTRI) formed 2 years ago has 
converted 43 research reactors to use low-enriched uranium and 
plans to convert all 106 targeted research reactors by 2014. 
The GTRI has repatriated 145 kilograms of Russian-origin 
highly-enriched uranium from Russian-supplied research reactors 
and approximately 1,200 kilograms of U.S.-origin highly-
enriched uranium in spent fuel assemblies from U.S.-supplied 
research reactors. The U.S. Radiological Threat Reduction 
program has recovered more than 12,000 radioactive radiological 
sources in the United States and the International Radiological 
Threat Reduction program has completed security upgrades at 373 
sites to date.
    Our sixth prong is to support our U.S. diplomatic 
initiatives. The DOE and the NNSA through our national 
laboratories are playing a vital role in our Nation's broader 
effort to challenge proliferation in Iran, to prepare the 
groundwork for verifying any North Korean nuclear declaration 
in the context of the Six-Party Talks, to promote universal 
implementation of anti-proliferation measures outlined in the 
United Nations Security Council Resolution 1540, to update the 
Nuclear Suppliers Group guidelines and strengthen international 
safeguards and, of course, to assist Libya in the dismantlement 
of its former WMD program.
    We also perform critical research and development. We 
manage a vigorous nonproliferation research and development 
(R&D) program and it is the technical base that provides our 
policy programs and operational agencies, including the DOD, 
the Department of Homeland Security (DHS), and the Intelligence 
Community (IC), with the innovative systems and technologies to 
meet their nonproliferation, counterproliferation, and 
counterterrorism mission responsibilities.
    A brief word on Bratislava. Many of these programs have 
new, accelerated completion dates as a result of the Joint 
Statement at the G8 Summit at Bratislava to which the General 
and Secretary Flory referred. We have made great progress 
because of this momentum that has been given to us by this 
joint statement between President Bush and President Putin 
who've established a bilateral Senior Interagency Working Group 
co-chaired by U.S. Secretary of Energy Bodman and the Russian 
Federal Atomic Energy Agency Director, Sergei Kiriyenko. 
Together, they oversee enhanced nuclear security cooperation in 
six areas: Emergency Response, Best Practices, Security 
Culture, Research Reactors, Material Protection, and Control 
and Accounting.
    While the NNSA has been working with our Russian 
counterparts in many of these areas for several years, the 
Bratislava initiative truly did elevate our dialogue to a 
national level and has moved the operation to one of a shared 
partnership. One example would by our cooperation on physical 
protection of sensitive nuclear sites in Russia that has been 
accelerated and will allow us to complete those by the end of 
2008.
    I also want to make a brief comment while we're talking 
about nonproliferation, the importance of energy, nuclear 
energy and nuclear nonproliferation. Last month the President 
announced the Global Nuclear Energy Partnership (GNEP). GNEP is 
a comprehensive strategy to supply the projected doubling of 
the world's demand for nuclear energy in the next 4 decades, to 
do this by using the science of the atom to provide clean, safe 
nuclear energy for decades to come in a way that reduces air 
emissions, advances nonproliferation goals, helps to resolve 
nuclear waste disposal issues, and develops advanced safeguards 
and technologies. It is through GNEP that we can create a new 
model of nonproliferation both globally and domestically.
    Under the administration's proposal, countries with secure, 
advanced nuclear fuel cycle capabilities would offer 
commercially competitive and reliable access to nuclear fuel 
services to those countries who agree to forego the development 
of indigenous fuel cycle enrichment and reprocessing 
technologies.
    On the budget, let me just say that although we thank 
Congress very much for helping us elevate the level of 
attention to nonproliferation issues, we ask for your continued 
support. This administration has more than doubled the funding 
for nuclear nonproliferation since its first budget in 2001. 
The request this year of almost $2 billion supports the NNSA 
nonproliferation programs that represents almost a 7-percent 
increase over the budget for comparable 2006 activities in a 
budget constrained environment.
    I have submitted a more detailed budget justification and 
statistical appendix for the record and I'd like to take just a 
quick moment to run through a couple of those key items. For 
the activities that fall under the Bratislava Initiative, our 
budget request will support the completion of upgrades of nine 
additional 12th Main Directorate sites by the end of 2008, 
acceleration of the Russian Research Reactor Fuel Return 
program, and continued development and execution of specialized 
emergency management training for monitoring and assessing 
nuclear and radiological events.
    High among our priorities, it will also help us increase 
the sustainability activities to support transfer of the 
material protection and control and accounting activities to 
Russia by 2013. In other words, it's one thing to go in and 
secure a facility, you have to also then train the host country 
to maintain the capability and operate that equipment, the 
sustainability function that we continue to try to transfer to 
the Russians.
    The request also fulfills DOE's commitment to roughly $675 
million to the G8's global partnership against the spread of 
WMD and this is a program, of course, that Senator Domenici 
highlighted very eloquently yesterday during the hearing that 
Senator Collins attended. It will also support the Six-Party 
Talks with North Korea and the scientist engagement in Russia, 
the former Soviet Union, Libya, and Iraq.
    In conclusion, just again I want to thank you for this 
opportunity to speak about some of the programs that we are 
engaged in. Congress has been so supportive and we ask for your 
continued support and certainly look forward to an opportunity 
to answer some of your questions. Thank you.
    [The prepared statement of Mr. Paul follows:]

               Prepared Statement by Hon. Jerald S. Paul

    Mr. Chairman, Senator Reed, and members of the subcommittee, it is 
a pleasure to be here today to discuss the nonproliferation activities 
of the U.S. Department of Energy's (DOE) National Nuclear Security 
Administration (NNSA).
    Acquisition of nuclear weapons, weapons of mass destruction (WMD) 
capabilities, technologies, and expertise by rogue states or terrorists 
pose the greatest threat to our national security. The pursuit of these 
capabilities by terrorists and states of concern underscores the 
importance of our threat reduction, detection, and interdiction 
programs.
    I would like to begin by briefly outlining our NNSA's 
nonproliferation strategy and will highlight a few examples of where 
our programs, working with other agencies, fit into the context of 
broader U.S. Government efforts to stem the proliferation of WMD. Next, 
I will outline a few recent and new initiatives that the NNSA, 
particularly the Office of Defense Nuclear Nonproliferation (DNN), is 
supporting. Finally, I will discuss how the President's budget request 
supports these important missions. Before I begin, I would like to take 
a moment to note that it has been, and continues to be, a privilege and 
honor to work with the talented and dedicated individuals at the NNSA. 
These are folks charged with the single most important national 
security mission in the Department--keeping the world's most dangerous 
materials out of the hands of the world's most dangerous people--and 
they continue to meet that goal day in and day out.
    The mission of the Office of DNN, within the NNSA, is to detect, 
prevent, and reverse the proliferation of WMD.
    Our programs are structured to support multiple layers of defense 
against nuclear terrorism and state-sponsored nuclear proliferation. We 
work with more than 70 countries to secure dangerous nuclear and 
radiological materials, and to dispose of surplus weapons-usable 
material. We also work closely with multilateral institutions, 
including the International Atomic Energy Agency (IAEA) and the Nuclear 
Suppliers Group, to strengthen the international nuclear safeguards 
regime and to improve the nuclear export control regulatory 
infrastructure in other countries. This multi-layered approach is 
intended to identify and address potential vulnerabilities within the 
international nonproliferation regime, to limit terrorists' access to 
deadly weapons and material.
    Since September 11, the DNN within NNSA has accelerated and 
expanded its implementation of a six-pronged defense-in-depth strategy 
to deny terrorists and states of concern the materials, technology, and 
expertise needed to develop nuclear and radiological weapons. Our 
programs fall into six broad categories:
First: To account for and secure nuclear material in Russia and the 
        former Soviet Union.
    In cooperation with the Russian Federation our Office of Material 
Protection, Control and Accounting (MPC&A) works to upgrade security at 
Russia's Federal Atomic Energy Agency (Rosatom) weapons complex and at 
sites that store and process weapons-usable materials in Russia. 
Working with the Russian Ministry of Defense, we also cooperate to 
secure nuclear weapons at Russian Navy and Strategic Rocket Forces 
sites and consolidate weapons-usable material into fewer, more secure 
locations.

        <bullet> To date, we have secured over 80 percent of the sites 
        where these materials are stored and we are on course to finish 
        all of our security upgrades by 2008--a full 2 years ahead of 
        the schedule.
        <bullet> With over 95 percent of the warhead and nuclear fuels 
        sites completed, we will finish our work to secure Russian Navy 
        warhead and nuclear fuel sites in 2006. We are moving rapidly 
        to identify and secure all remaining 12th Main Directorate and 
        Strategic Rocket Forces warhead sites on an accelerated 
        schedule by the end of 2008.
Second: To detect and prevent the movement or trafficking of weapons-
        usable technologies and nuclear materials.
    Through our Second Line of Defense (SLD) Program, which includes 
the Megaports Initiative, and International Nonproliferation Export 
Control programs, we are working with other countries to install 
radiation detection equipment at key transit choke points throughout 
the world--such as sea ports, airports, and land border crossings--to 
enhance the capabilities of our international partners to detect 
movement of nuclear and radiological materials, and improve 
international export controls. These programs complement and build upon 
Department of Homeland Security (DHS) programs, such as the Container 
Security Initiative (CSI), and form an important layer in DHS's 
Domestic Nuclear Detection Office's ``Global Architecture.'' In 
addition, our work goes hand-in-glove with the State Department's (DOS) 
Export Control and Border Security (EXBS) initiative. With our CSI 
partners at DHS's Bureau of Customs and Border Protection, we are 
working to install radiation portal monitors at the foreign ports where 
CSI is present or will soon be operational.

        <bullet> Through 2005, we have installed radiation detection 
        equipment at more than 50 border crossings (rail crossings, 
        vehicle crossings, small seaports) in Russia and other Former 
        Soviet Union (FSU) and European countries. Additionally, we 
        maintain radiation detection equipment at approximately 60 
        locations originally equipped by the DOS and other agencies.
        <bullet> The Megaports Initiative is currently operational in 
        Greece, the Bahamas, Sri Lanka, Spain, and the Netherlands. 
        NNSA is at various stages of implementation in nine other 
        countries: Belgium, China, United Arab Emerates (UAE), 
        Honduras, Israel, Oman, the Philippines, Singapore, and 
        Thailand.
        <bullet> Our International Nonproliferation Export Control 
        Program assists foreign governments to implement effective 
        export controls, including training to identify and block 
        transfers of proliferation-sensitive trade. This program is 
        operating in over 40 countries, including nodal transshipment 
        states in regions of concern and emerging suppliers.
        <bullet> We are also placing an increasing emphasis on 
        interdiction, including assessments of foreign WMD technology 
        procurements and support for the administration's Proliferation 
        Security Initiative (PSI).

    In addition to this important work, we are securing weapons 
expertise through joint collaboration and alternate infrastructure 
development. Through the Department's Global Initiatives for 
Proliferation Prevention (GIPP) program we are engaging former weapons 
experts in nuclear, chemical and biological weapons institutes in 
Russia, FSU, Libya, and Iraq. We often say that the proliferation 
threat has three elements--technology, materials, and expertise. This 
program addresses the third element. By redirecting weapons scientists 
to peaceful, commercially viable, activities, we reduce the likelihood 
that these individuals will want to work with proliferators--and reduce 
the likelihood that a rogue state or terrorist organization will be 
able to recruit them.
    Another benefit of the GIPP program is the new sources of 
technology that it provides to the U.S. industry. The program is 
structured to include participation of U.S. companies, which match the 
Department's project funds with their own resources to bring projects 
to the market and gain intellectual property rights. Among the GIPP 
program's commercial successes are advanced medical equipment, 
specialized metallurgy, improved fossil fuel exploration, and filters 
that have been used in manned space exploration.
Third: To stop the production of new fissile material in Russia.
    In 1997, the U.S. and Russia signed the Plutonium Production 
Reactor Agreement (PPRA) requiring the cessation of weapons-grade 
plutonium production for use in nuclear weapons. Under PPRA, we monitor 
the permanent shut-down of Russia's plutonium production reactors and 
the more than 10 metric tons of plutonium oxide to ensure the reactors 
and materials are no longer available for use in weapons production.
    We are also working with Russia to expedite closure of the 
remaining three plutonium production reactors. In March 2003, the DOE 
and the Ministry of the Russian Federation for Atomic Energy (Rosatom) 
signed an agreement to carry out the objectives of PPRA, which 
committed DOE, subject to available funds, to assist in providing 
fossil fuel plants to replace the energy now provided by the reactors.

        <bullet> We have made significant progress on this project in 
        the last year. We have already begun construction work at the 
        first site, Seversk, and will start construction at the second 
        site, Zheleznogorsk, this spring.
        <bullet> At both sites, we agreed to ``quid pro quo'' 
        milestones that tie progress in fossil fuel plant construction 
        to progress toward permanent reactor shutdown and are making 
        satisfactory progress in meeting milestones.
Fourth: To eliminate existing weapons-usable material in Russia and 
        former Soviet States.
    To date more than 260 metric tons of Russian highly-enriched 
uranium (HEU) from dismantled weapons have been down-blended to low-
enriched, non-weapons grade material for use in commercial power 
reactors pursuant the HEU agreement or what is often called the 
``Megatons to Megawatts'' program. Altogether, by 2013, 500 metric tons 
of Russia's HEU will be converted and used to support civilian nuclear 
power here in the United States at little or no cost to the American 
taxpayer. This down-blended material accounts for 10 percent of U.S. 
electricity production. In other words, 1 in every 10 light bulbs in 
America is powered by material that was once contained in a Soviet 
nuclear warhead.
    Additionally, through our plutonium disposition programs, we are 
working with the Russian Federation to eliminate 34 metric tons of 
weapons-grade plutonium in each country, enough for over 17,000 nuclear 
weapons.
Fifth: To eliminate or consolidate the remaining weapons-useable 
        nuclear and radiological materials that exists throughout the 
        remainder of the world.
    In May 2004, DOE launched the Global Threat Reduction Initiative 
(GTRI) to identify, secure, recover, and/or facilitate the disposition 
of vulnerable nuclear and radiological materials around the world that 
pose a threat to the Unites States and to the international community.
    GTRI works to convert research reactors worldwide from the use of 
HEU nuclear fuels to low-enriched uranium (LEU). GTRI repatriates the 
U.S. and Russian-supplied HEU nuclear fuels from these reactors to 
their country of origin, as well as addresses the ``gap'' material 
(i.e. material of concern that is not currently being addressed under 
existing programs) for final disposition, and performs research reactor 
physical security upgrades. GTRI also maintains a rapid response 
capability to address denuclearization. This capability was put to use 
during the material and source removal efforts in Libya and Iraq.
    GTRI also addresses the threat of a radiological dispersal device 
or ``dirty bomb'' by identifying and recovering excess and abandoned 
radiological sources domestically and securing vulnerable radiological 
materials abroad.

        <bullet> GTRI has converted 43 research reactors to the use of 
        LEU and plans to convert all 106 targeted research reactors by 
        2014.
        <bullet> GTRI has repatriated 145 kilograms of Russian-origin 
        HEU from Russian-supplied research reactors and approximately 
        1,200 kilograms of U.S.-origin HEU in spent fuel assemblies 
        from U.S.-supplied research reactors.
        <bullet> The U.S. Radiological Threat Reduction program has 
        recovered more than 12,000 radioactive sources in the U.S. and 
        the International Radiological Threat Reduction program has 
        completed security upgrades at 373 sites.
Sixth: Support U.S. diplomatic initiatives.
    In his speech before the National Defense University 2 years ago, 
President Bush laid out an ambitious program of work to close gaps in 
the existing system of nonproliferation controls. DOE/NNSA and our 
national laboratories are playing a vital part in our Nation's broader 
effort to challenge proliferation in Iran; to prepare the groundwork 
for verifying any North Korean nuclear declaration in the context of 
the Six-Party Talks; to promote universal implementation of anti-
proliferation measures outlined in United Nations Security Council 
Resolution 1540; to update Nuclear Suppliers Group guidelines and 
strengthen international safeguards; and to assist Libya eliminate its 
WMD programs.
    Underpinning each of these policy initiatives, we maintain a 
vigorous Nonproliferation Research and Development (R&D) Program. This 
program conducts applied research, development, testing, and evaluation 
to produce technologies that lead to prototype demonstrations and 
resultant detection systems. This, in turn, strengthens the U.S. 
response to current and projected threats to national security 
worldwide posed by the proliferation of weapons of mass destruction and 
the diversion of special nuclear material. The R&D program is the 
technical base that provides our policy programs and operational 
agencies, including the Department of Defense (DOD), the DHS, and the 
Intelligence Community (IC), with innovative systems and technologies 
to meet their nonproliferation, counterproliferation, and 
counterterrorism mission responsibilities. NNSA invests in strategic 
and often high-risk technical solutions to detect the proliferation of 
WMD.
    Many of these programs have new, accelerated completion dates as a 
result of the Joint Statement on Nuclear Security by Presidents Bush 
and Putin following their meeting in Bratislava, Slovak Republic, in 
February 2005.
    The Bratislava Nuclear Security Initiative called for the 
establishment of a bilateral Senior Interagency Working Group, co-
chaired by U.S. Secretary of Energy Bodman and Rosatom Director 
Kiriyenko. Together, they oversee enhanced nuclear security cooperation 
in five areas: Emergency Response; Best Practices; Security Culture; 
Research Reactors; and Material Protection, Control and Accounting.
    While the NNSA has been working with our Russian counterparts in 
many of these areas for several years, the Bratislava initiative 
elevated our dialogue to a national level and has moved our cooperation 
to one of a shared partnership. As a direct result of the Bratislava 
Initiative, our cooperation on the physical protection of sensitive 
nuclear sites in Russia was accelerated and will be completed by the 
end of 2008. We continue to work with the Russian Government to ensure 
that they provide resources needed to sustain these upgrades and 
promote a strong nuclear security culture and employ best practices in 
handling nuclear materials.
    It seems natural after summarizing such a successful Presidential 
initiative to discuss the Global Nuclear Energy Partnership (GNEP). In 
February, the administration announced GNEP, as part of President 
Bush's Advanced Energy Initiative. GNEP is a comprehensive strategy to 
enable an expansion of nuclear power in the U.S. and around the world, 
to promote nuclear nonproliferation goals; and to help resolve nuclear 
waste disposal issues. Fundamental to GNEP is a new approach to fuel 
cycle technology. Under this proposed new approach, countries with 
secure, advanced nuclear fuel cycle capabilities would offer 
commercially competitive and reliable access to nuclear fuel services--
fresh fuel and recovery of used fuel--to other countries in exchange 
for their commitment to forgo the development of enrichment and 
recycling technology.
    Over the next year, we will work with other elements of the 
Department to establish GNEP, paying special attention to developing 
advanced safeguards and developing the parameters for international 
cooperation. I believe that GNEP takes us closer to expanding access to 
the benefits of peaceful nuclear technology while preventing the 
proliferation of nuclear weapons through tangible actions that will 
benefit directly those who join us in this partnership. GNEP will offer 
us the opportunity to take the international lead in making 
nonproliferation an integral part of our global nuclear safety and 
security culture.

                                 budget

    The administration's request of $1.73 billion to support NNSA 
activities addressing the global WMD proliferation threat represents 
almost a 7-percent increase over the budget for 2006 activities.
    The administration's fiscal year 2007 Fissile Material Disposition 
budget request is $638 million, an increase of $169 million over fiscal 
year 2006. This increase reflects the progress in implementing the 
plutonium disposition program in the past year. Of this amount, $551 
million will be allocated for disposing of surplus U.S. and Russian 
plutonium and $87 million is requested for the disposition of surplus 
U.S. highly-enriched uranium. The plutonium disposition program, the 
Department's largest nonproliferation program, plans to dispose of 68 
metric tons of surplus Russian and U.S. weapons-grade plutonium (34 
metric tons from each country) by fabricating it into mixed oxide (MOX) 
fuel for use in nuclear power-generating reactors. The United States 
and Russia completed negotiations of a liability protocol for the 
program, and senior Russian Government officials have assured the 
United States that the Russian Government has no issues with this 
protocol and that it will be signed in the near future. DOE has also 
been working to validate the U.S. MOX project cost and schedule 
baseline as part of our project management process, and we will have a 
validated baseline in place before construction begins. DOE received 
authorization to begin construction of the MOX facility from the 
Nuclear Regulatory Commission, began site preparation work for the MOX 
facility at the Savannah River Site, and implemented a number of 
improvements to strengthen the management of the MOX project. Current 
plans call for construction of the U.S. MOX facility to start in 2006, 
with operations to start in 2015. The administration's budget request 
is essential for continuing this work in fiscal year 2007, which will 
be a peak construction year. Now that the matter of liability 
protections for the plutonium disposition program has been resolved, 
pending signature of the liability protocol, high-level U.S.-Russian 
discussions are taking place to discuss technical and financial details 
for the Russian program.
    The administration's fiscal year 2007 budget request of $107 
million for the Global Threat Reduction Initiative (GTRI) is a 10-
percent increase over fiscal year 2006 and supports the ambitious 
completion dates and objectives set by the program. GTRI will identify, 
secure, recover, and/or facilitate the disposition of the vulnerable 
nuclear and radiological materials worldwide that pose a threat to the 
United States and the international community. Since the creation of 
GTRI, we have enjoyed a number of successes. Under our radiological 
threat reduction program, we secured more than 370 sites around the 
world. As a result of the Bush-Putin Bratislava joint statement on 
enhanced nuclear security cooperation, we have established a 
prioritized schedule for the repatriation of U.S.-origin and Russian-
origin research reactor nuclear fuel located in third countries. As 
part of our nuclear materials threat reduction efforts under GTRI, 
three successful shipments were completed in fiscal year 2005 to 
repatriate Russian-origin HEU fresh fuel from the Czech Republic (two 
shipments) and Latvia.
    In accordance with the President's Bratislava commitment, we are 
also working with the Russian Federation to repatriate Russian-origin 
spent fuel. We have also conducted several successful shipments to 
repatriate U.S.-origin spent nuclear fuel from Japan, the Netherlands, 
Sweden, Greece, and Austria. Three research reactors in the 
Netherlands, Libya, and the Czech Republic have converted from the use 
of HEU to the use of LEU fuel so far in fiscal year 2006.
    The International Material Protection and Cooperation fiscal year 
2007 budget request of $413 million reflects the completion of MPC&A 
security upgrades in 2008 and the acceleration of Second Line of 
Defense (SLD) activities in the Caucasus region. This request would 
fully fund both Bratislava and SLD requirements for 2007. For more than 
a decade, the United States has worked cooperatively with the Russian 
Federation and other former Soviet republics to secure nuclear weapons 
and weapons material that may be at risk of theft or diversion. As part 
of the Bush-Putin Bratislava joint statement, we agreed to accelerate 
security upgrades at Russian sites holding weapons-usable materials and 
warheads. The Bratislava joint statement also provided for a 
comprehensive joint action plan for cooperation on security upgrades of 
Russian nuclear facilities at Rosatom and Ministry of Defense sites. In 
addition, this statement called for enhanced cooperation in the areas 
of nuclear regulatory development, sustainability, secure 
transportation, MPC&A expertise training, and protective force 
equipment. A number of major milestones for this cooperative program 
are on the horizon, and the fiscal year 2007 budget ensures that 
sufficient funding will be available to meet these milestones. Security 
upgrades for Russian Rosatom facilities will be completed by the end of 
2008--2 years ahead of schedule. By the end of 2008 we will also 
complete cooperative upgrades at the nuclear warhead storage sites of 
the Russian Strategic Rocket Forces and the Russian Ministry of Defense 
sites. By the end of fiscal year 2007, we will have provided security 
upgrades at more than 80 percent of all the nuclear sites in Russia at 
which we now plan cooperative work. In addition to the accomplishments 
reached thus far under Bratislava, we have also completed physical 
security upgrades at three priority sites housing dangerous materials 
in Ukraine, Kazakhstan, and Uzbekistan.
    The administration's budget request will enable us to expand and 
accelerate the deployment of radiation detection systems at key transit 
points within Russia and accelerate installation of such equipment in 
five other priority countries to prevent attempts to smuggle nuclear or 
radiological materials across land borders. Through our Megaports 
Initiative, we plan to deploy radiation detection capabilities at three 
additional major seaports in fiscal year 2007, thereby increasing the 
number of completed ports to 13.
    The fiscal year 2007 budget request of $207 million for the 
Elimination of Weapons Grade Plutonium Production (EWGPP) is an 
increase of 18 percent from fiscal year 2006. The EWGPP program is 
working to establish the fossil fuel plants to allow for the complete 
and permanent shutdown of the three remaining weapons grade plutonium 
production reactors in Russia at Seversk and Zheleznogorsk. Every week, 
these reactors currently produce enough fissile material for several 
nuclear weapons. The overall EWGPP plan is to replace the heat and 
electricity these reactors currently supply to the closed cities with 
energy generated by fossil fuel plants by December 2008 in Seversk and 
December 2010 in Zheleznogorsk. The reactors are to be shut down 
immediately when the fossil fuel plants are completed and will be 
monitored under PPRA to confirm that they are not restarted. The first 
validated estimate of total EWGPP program cost--$1.2 billion--was 
determined in January 2004. After extensive negotiations with Russia, 
we achieved $200 million in cost savings. Also, under the authority to 
accept international funding as provided in the Ronald W. Reagan 
National Defense Authorization Act for Fiscal Year 2005, we have 
received pledges of $30 million from six Global Partnership 
participants. Construction of the fossil fuel plant at Seversk started 
in late 2004, and the start of construction of the fossil fuel plant at 
Zheleznogorsk was recently approved.
    The fiscal year 2007 budget requests $269 million for 
Nonproliferation and Verification Research and Development. This effort 
includes a number of programs that make unique contributions to 
national security by researching the technological advancements 
necessary to detect proliferation activity worldwide and to detect and 
prevent the illicit diversion of nuclear materials.
    The Proliferation Detection program advances basic and applied 
technologies for the nonproliferation community with benefit to both 
national counterproliferation missions and national counterterrorism 
missions. Specifically, this program develops the tools, technologies, 
techniques, and expertise for the identification, location, and 
analysis of the facilities, materials, and processes of undeclared and 
proliferant WMD programs. The Proliferation Detection program conducts 
fundamental research in fields such as radiation detection and advanced 
infrared and radar imaging, providing support to the DHS, the DOD, and 
the IIC. The Nuclear Explosion Monitoring program builds the Nation's 
operational sensors that monitor the entire planet from space to detect 
and report surface, atmospheric, or space nuclear detonations, with 
sensors carried on every Global Positioning System and ballistic 
missile early warning satellite. This program also produces and updates 
the regional geophysical datasets enabling operation of the Nation's 
ground-based seismic monitoring networks to detect and report 
underground detonations. The Nuclear Explosion Monitoring program has 
long supported the DOD and the DOS to conduct their missions.
    The fiscal year 2007 budget request for Nonproliferation and 
International Security is $127 million. This figure reflects a budget 
structure change, rather than a significant funding increase, 
realigning the Global Initiatives for Proliferation Prevention and HEU 
Transparency programs to this Government Performance and Results Act 
unit. Through this program, the Department provides technical and 
policy expertise in support of U.S. efforts to strengthen international 
nonproliferation institutions and arrangements, fosters implementation 
of nonproliferation requirements through engagement with foreign 
partners, and helps develop the mechanisms necessary for transparent 
and verifiable nuclear reductions worldwide. This budget request 
addresses our need to tackle key policy challenges including efforts to 
strengthen the IAEA safeguards system, attempt to block and reverse 
proliferation in Iran and North Korea, augment U.S. cooperation with 
China, India, and Russia, and plan to build-up the nonproliferation 
component of the GNEP.

                               conclusion

    The Defense Nuclear Nonproliferation programs are an important 
investment for this Nation, and are achieving great results. Our budget 
request will support continuing our progress on reducing the threat 
posed by the proliferation of nuclear and radiological weapons, 
expertise, and related technologies. Above all, it will meet the 
national security needs of the United States of America in the 21st 
century.
    Mr. Chairman, this concludes my statement. A statistical appendix 
follows that contains the budget figures supporting our request for the 
DNN. I would be pleased to answer any questions on the justification 
for the requested budget.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Cornyn. Thank you very much. We'll now proceed to a 
round of questions and each of you have provided extensive 
opening statements which rather than interrupt and truncate I 
thought were very helpful in laying out the overall groundwork 
that is necessary to understanding our nonproliferation, 
counterproliferation, and counterterrorism efforts. But I would 
like to just ask, maybe start with Secretary Flory, I 
understand General Cartwright's mission within the DOD when it 
comes to synchronizing and integrating the Department's efforts 
on counterproliferation but I'd like to get your comment on who 
is responsible government-wide across agencies for coordinating 
and integrating our efforts when it comes to 
counterproliferation and nonproliferation? My understanding is 
the ultimate responsibility stops at the National Security 
Council (NSC) and then obviously the President but I'd like for 
you to give us some sense of your confidence level that things 
are going well, that we are filling the gaps and anticipating 
departmental differences in our approach so that we can have 
some understanding about how we're handling these important 
missions government-wide.
    Mr. Flory. Senator, you're right, we focus primarily on 
what we do within the DOD, how we organize internally. The 
focal point, as you say, ultimately the responsibility is with 
the President and the President has the NSC and the NSC's 
staff. The focal point for most of our efforts is the Director 
for Proliferation Strategy (PROSTRAT) office in the NSC staff 
where there's a senior director who is the person who pulls 
together the different departments on many of these issues. I 
think you see an evolution on a lot of fronts since the 
administration took office, particularly since September 11, 
that have been manifested in the first strategy for combating 
WMD in 2002 and the succession of additional documents that I 
cited to you earlier, most recently, the most recent National 
Security Strategy. I would say that I think we have made a lot 
of progress in organizing for a new type of threat, a threat 
that in many ways is more diffuse and more complex than 
certainly the Cold War threat and even arguably than the way we 
perceive the threats in the 1990s. I think that the nature of 
the threat is such that one would never want to say one was 
totally confident because of the uncertainties involved because 
of the effort of proliferators, both countries that want to 
sell things and countries that want to get a hold of things, 
the extraordinary denial and deception measures that they use, 
the large amounts of money that they spend in doing the things 
they're trying to do. This remains a very hard target and a 
very complex target and this is one of the reasons that in the 
QDR and many of our other documents we emphasize the theme of 
uncertainty. We've been surprised before, we were surprised at 
the time of the first Iraq war at the extent to which the Iraqi 
nuclear problem had advanced, as well as later on as we found 
the extent of biological and chemical weapons that Saddam 
Hussein at that point had managed to amass. We were surprised 
when we went into Iraq in 2003 because we expected to find 
weapons there. We were focused for a number of years on Libya's 
chemical weapons program, then the nuclear program there came 
to our attention. That was an unpleasant surprise.
    So the basic point I would say is that yes we've made a 
great deal of progress in the way we have organized and in the 
guidance we've developed to deal with this threat. On the other 
hand, this is a very adaptive threat, it's a threat where 
people are watching what we're doing and trying to find ways to 
get around what we're doing. I would ask my colleagues, they 
might want to add on that. I know General Cartwright sees this 
on a day-to-day basis as well as Mr. Paul.
    Senator Cornyn. Let me put another little fine point on the 
question and then I'd ask General Cartwright and Mr. Paul to 
comment, but it seems to me that all of the wonderful work 
that's occurring and that each of you and the people working 
with you are doing to reduce the threat from proliferation of 
weapons and to prepare ourselves to counter proliferation of 
weapons can essentially be defeated if an A.Q. Khan or somebody 
like him sees that nuclear materials get in the hands of people 
that shouldn't have them. I just want to make sure and give you 
an opportunity to express yourselves on whether you believe 
that we are prioritizing measures appropriately and whether you 
believe that we are doing, since resources are not limitless, 
that we are putting our money and our resources and our 
personnel on the issues in a priority way that are most likely 
to cause us harm.
    General Cartwright.
    General Cartwright. Mr. Chairman, I think that's a good 
question that gets really at the heart of the issue. For 
STRATCOM, as we start to enter into this mission area, the 
objective is not to invent a whole new organizational construct 
to go out and buy all new equipment, et cetera, but to leverage 
what is there, understand where the gaps in our capability are, 
and how they can be quickly filled. A key part of this mission 
area is our interfaces with our interagency partners, as well 
as our allies, and so where we can we're taking advantage of 
those existing relationships.
    Clearly between DOE, STRATCOM, NNSA, a long heritage of 
sharing on the technical side and being able to leverage our 
technical capabilities in the nuclear world, et cetera. We're 
trying to leverage off of those capabilities. Within the 
STRATCOM's portfolio are the intelligence, surveillance, and 
reconnaissance skills that will be so critical to doing some of 
the things that you alluded to in trying to find these weapons, 
fix them, and then if necessary go out and take them, destroy 
them, whatever is necessary. Those skills are within the 
portfolio.
    What we're trying to understand now as we stand this 
organization up is how well will they scale up to the size; how 
quickly will they be able to respond to an ever-changing 
adversary; do we have the right organizational constructs; do 
we have the right relationships set up to be efficient at doing 
that and not to react to the adversary but to get in front of 
the adversary; to basically be determinant of where they're 
going rather than the other way around. I'll tell you that this 
is a work in progress. I'll tell you that the organizations are 
coming together. Issues of turf are not really getting in the 
way, and at the agency level, without stepping on checks and 
balances, we're creating relationships that are inside the 
decision cycles of the adversary which to me is the key 
attribute. We can have wonderful studies and decisions, but if 
they occur and they're not actionable because they occur after 
the adversary's already acted, it's of no value.
    So to us it's critical to make sure that whatever we set in 
place has to be able to make the adversary react to you, get in 
front of their decision cycles, and change the calculus in 
their minds. So to me that will be the litmus test of how well 
these organizations actually perform.
    Senator Cornyn. Thank you. Mr. Paul, do you have a brief 
response?
    Mr. Paul. Briefly, Mr. Chairman, it's an excellent 
question. Nothing binds men together more than a common 
challenge and just as nuclear proliferation and the threat of 
nuclear terrorism has bound members together in Congress in a 
bipartisan way to provide extraordinary attention, support, and 
resources for this, so too within the interagency, it binds us 
together. The working relationships are really fantastic.
    I'm not going to tell you that there aren't difficulties 
with the interagencies at times. There's supposed to be a 
certain amount of tension, which is healthy, but in this arena 
when we're focused on keeping people with evil in their hearts 
who would harm innocent people from doing so on American soil, 
that tends to bind us together and our organizations, Mr. 
Flory, General Cartwright, Under Secretary Joseph, DHS, and 
NNSA, I think work very well in this regard. Is there progress 
to be made? Absolutely. Every day we worry about whether we 
have the right construct, for example, the right organization 
in order to get our work done. But there is strong agreement on 
the need to develop the right technology, to deploy that 
technology, to ensure that we have the management structure and 
the focus and the attention on getting this job done because 
it's so important.
    Senator Cornyn. Thank you very much.
    Mr. Flory. Senator, if I could just add one small point. 
General Cartwright made the point very well about resources. In 
the DOD, we already get from Congress and the American people a 
substantial budget and we use it to cover our needs and we 
allocate in what we think is an intelligent way. One of the 
ways in which we can improve our capability is in some cases 
using a relatively small amount of money differently. For 
example, in terms of interdiction, the Navy is, and this is one 
of the items, one of the eight mission areas that General 
Cartwright is tackling as a priority, the Navy has done a good 
job of using relatively small amounts of money to increase its 
organic interdiction capabilities on ships deployed. The 
approach earlier was more an approach that the idea that you 
had to have some specialized operators to come in and do an 
interdiction. In most cases you actually don't, so what the 
Navy has done without spending a whole lot more money is to 
develop more deployed organic capabilities that can carry out 
interdiction.
    So it's not just a question of resources, it's a question 
of using the resources we have intelligently and in ways that 
give us that extra bit of leverage.
    Senator Cornyn. Thank you.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. Thank you 
for your consideration this morning, with my schedule 
particularly. I have an opening statement which I'd like to put 
in the record and at this time and will yield to Senator Nelson 
who has been attentive throughout the hearing.
    [The prepared statement of Senator Reed follows:]

                Prepared Statement by Senator Jack Reed

    Good morning. I would like to join Senator Cornyn in welcoming our 
witnesses this morning. This is an important hearing and I am glad we 
have an opportunity to discuss these issues this year.
    First I want to express my appreciation and admiration for the 
people at the Department of Energy/National Nuclear Security 
Administration, the Department of Defense, and in the Defense Threat 
Reduction Agency (DTRA), and their contractors who are on the ground in 
various parts of the world implementing these important 
nonproliferation programs. The working conditions are difficult, and 
many of the folks spend a good deal of time away from home. 
Complicating the work in some instances is pervasive corruption and 
criminal activity, which adds an additional level of complexity to the 
mission.
    Having said that I am concerned, however, that the administration 
is not giving the high priority to the programs and providing adequate 
funding to these programs that they have acknowledged is needed. For 
example, the 9/11 Commission found that countering the threat of 
weapons of mass destruction (WMD) should be a top priority of the 
United States and recommended that the United States put forth maximum 
effort to secure WMD. Nevertheless, in the December 2005 report card 
issued by the 9/11 Commission, the administration got a grade of ``D'' 
in its efforts to implement this recommendation. The 9/11 Commission 
concluded that at the current rate it would take 14 years to secure all 
of the nuclear materials just in the former Soviet Union and that is 
unacceptable. I agree.
    Today, I hope we can discuss what can be done to accelerate these 
programs, address all of the very real threats to the United States and 
to friends and allies, and to raise that grade from a D to an A.
    In addition, there are a number of programmatic issues that we need 
to discuss today including the Mixed Oxide Fuel program, border 
security and control issues, and the destruction of Russian chemical 
weapons.
    Finally, General Cartwright, I look forward to a good discussion of 
the Strategic Command's new mission to combat WMD, your goals for the 
mission, and the role of the DTRA as the Joint Functional Component 
Command designated to operationally plan and execute the new mission.
    Thank you, Senator Cornyn, and again thank our witnesses for 
appearing here today.

    Senator Ben Nelson. Thank you very much, Senator Reed. I 
appreciate the courtesy.
    General Cartwright, you mentioned in your written testimony 
that STRATCOM has developed a Center for Combating WMD and that 
there are going to be former Soviet scientists and others who 
have expertise in this area and they want to turn over their 
knowledge on access to weapons-grade plutonium and other very 
valuable information. Can you give us maybe some specifics as 
to how this would work?
    General Cartwright. The Center for Combating WMD had its 
initial operating capability declaration on the 1st of January 
this year. It is housed inside of the DTRA at Fort Belvoir. Dr. 
Jim Tegnelia who's here with me today is the lead of that 
agency. We have several programs that are of record and are in 
execution to try to help to both retrain people and take these 
skills and make them usable in other disciplines, use these 
skills in a way that's synergistic with our aims in things 
like, not necessarily just for the Russians, but the PSIs and 
other types of activities.
    We also have another activity in Omaha with STRATCOM that 
seeks to create partnerships in the civil sector and reach out 
through to try to find ways to address many of these problems, 
particularly as we start to get to the harder problems in the 
future, biological agents and chemical agents. To find ways to 
address these problems that are probably non-standard, and to 
take advantage of all of the expertise that lives in the 
academic world, not only in the United States but abroad, and 
in the business world. From that agency, coupled with this 
Center for Combating WMD, we hope to see some synergy develop 
starting to change the mind-set and offer a path forward that 
is positive in nature versus the one that we're on which, in 
many cases, just continues to build the next generation of an 
agent whether it be nuclear, biological, or radiological.
    Senator Ben Nelson. Thank you. Secretary Flory and Mr. 
Paul, when I hear words like uncertainty and surprise, those 
are words that are not comforting but after all the effort is 
made and with an expectation of success in 2008, how certain, 
on a scale of 1 to 100, will we be that we've identified all 
the nuclear material, secured it, and have kept it out of the 
hands of those who would misuse it?
    Mr. Paul. Senator, one thing we are certain of to a 100-
percent degree is that the threat is real and that those 
persons with evil in their hearts will continue to try and it's 
our job to make sure that they fail every day, all day. It's 
our job to ensure that our certainty about whether we're doing 
everything possible is at its peak as well. I can't give you an 
exact number. What I can tell you is that we have in the NNSA 
37,000 committed Federal, military, and civilian patriots who 
work every single day, 15-hour days, trying to make sure that 
this threat doesn't ultimately succeed on our soil. I have a 
high degree of certainty that the American people are safe and 
can be confident in knowing that we are doing absolutely all 
that we can do every single day.
    Senator Ben Nelson. What if we were to relate it to just 
the former Soviet Union and the Russian stockpiles? Is there a 
possibility of identifying some degree of certainty there?
    Mr. Paul. We have historically recognized that that is an 
area globally of greatest threat. That's where the material is. 
The fall of the Soviet Union security, we found out that 
security to them quite frankly had been a ring of soldiers, 
many of whom who simply went home shortly after, and there was 
very little physical protection. All the material protection 
and control and accounting systems that exist there today are 
U.S. origin that we put there and that we manage every single 
day and we are very close to wrapping up that work.
    In the former Soviet Union, for example, we've completed 41 
of 51 material sites. That's 80 percent where we've completed 
all of those upgrades, 47 of the 73 warhead sites at 64 percent 
and we will have all of those completely secured by the end of 
2008. We risk base those, we prioritize them in order to 
increase our certainty, if you will. We're making great 
progress. Congress has been very supportive. It takes time 
though. Access is one issue and, of course, it's obvious that 
these are facilities that exist in a country that has to 
cooperate with us in order to let us get in there and do our 
work. Once we get access we have high degree of certainty that 
by leveraging the extraordinary technology of our laboratory, 
Sandia National Lab, Los Alamos Lab, Livermore Lab, and so many 
others that we can do the job, do it quickly, and do it well.
    Senator Ben Nelson. When we identify those 50-plus sites, 
have we been able to do any kind of an accounting or inventory 
based on what was expected to be there versus what we found?
    Mr. Paul. Yes, there were predictions about how much 
material would be in those sites. Of course, they were merely 
predictions and as time went by as we got better and better 
intelligence, as we were able to put our technical experts 
inside with access, we learned that those predictions weren't 
always accurate and each time we get a new piece of 
intelligence, a new piece of data, we feed that into the 
calculus in making that risk based determination of what 
equipment to put in, where, and at what time. But certainly it 
is a work in progress truing up our decade and a half old 
predictions.
    Senator Ben Nelson. The final question is, is it reasonable 
to expect that not everything was there that had originally 
been there? In other words, are there missing items that we're 
aware are missing as opposed--what do we know that we know 
versus what we don't know?
    Mr. Paul. I think the question and the point is that you 
never know what you don't know. We do take that point. That is 
something that we build into our----
    Senator Ben Nelson. I understand, but what I'm trying to 
say is, do we have any information that would indicate that we 
expected something to be there that isn't there?
    Mr. Paul. No.
    Senator Ben Nelson. Or wasn't there with some degree of 
reliability a concern that there is something missing, putting 
it that way?
    Mr. Paul. No.
    Senator Ben Nelson. Thank you, Mr. Chairman, Thank you, 
General.
    General Cartwright. I would just add though, you don't want 
a false positive here.
    Senator Ben Nelson. That's what I'm trying to get to.
    General Cartwright. That ought to keep us awake at night. 
We can't assume that we do, in fact, have full accounting of 
what exists today and certainly the way technology is moving, 
building fissile material is a relatively complicated process. 
But as we move to the future and worry about the next 
generation of WMD may it be biological or some other, those 
production requirements are not the same and can easily be 
disguised and we should worry about what we don't know.
    Senator Ben Nelson. General Cartwright, with you worrying 
about it at night I think I'll sleep better at night. Thank 
you. Thank you, Mr. Chairman.
    Senator Cornyn. Thank you, Senator Nelson.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Thank you, 
gentlemen, for your testimony today and let me follow up with a 
question regarding Senator Nelson's topic and that is, we know 
very little about the tactical nuclear weapons that the Soviet 
Union had and now they are in the hands of Russia. Last year we 
proposed an amendment on the committee to try to get a better 
handle on that. Can you give us, Secretary Flory, a notion of 
what we're doing to initiate discussions and really try to 
determine the status of their tactical nuclear weapons and what 
we can do to put them into controlled circumstances?
    Mr. Flory. Senator Reed, as you point out, the status of 
those tactical weapons has been a concern from the beginning. I 
don't want to say we have a handle, but we have processes in 
place to deal with the strategic and as we mentioned 
specifically accelerating the improvements in the security on 
the stored, nondeployed weapons. I would have to get back to 
you specifically with respect to any discussions. Secretary 
Paul may have something that he can add to that but if I could 
get back to you on the record.
    Senator Reed. Surely.
    Secretary Paul?
    Mr. Paul. Together we will.
    [The information referred to follows:]

    We continue to engage with the Russians on the issue of securing 
both their strategic and tactical nuclear weapons, although the 
Russians have provided little data on the operational status of their 
tactical nuclear weapons. Neither the Department of Defense nor the 
Department of Energy has every differentiated between strategic and 
tactical nuclear weapons in our efforts to upgrade security at storage 
sites in the Russian Federation. We expect to complete our security 
upgrade work at all storage sites where assistance has been requested 
by the end of calendar year 2008, at which time the vast majority of 
all of Russia's nondeployed nuclear weapons, strategic and tactical, 
will have been secured with U.S. assistance.

    Senator Reed. Okay. One of the obvious things, and you 
might want to comment, General Cartwright, is that some of 
these weapons are rather mobile and small and ideal, if you had 
a shopping list as a terrorist, they would be on that shopping 
list and we have to be concerned about that, absolutely 
concerned.
    Let me raise another issue with Secretary Flory and 
Secretary Paul and that is the 9/11 Commission evaluated many 
of our national security efforts and this Commission is one of 
the most respected voices today on a bipartisan basis, and they 
gave the administration a D with respect to securing 
radiological and nuclear materials in the Soviet Union. I 
presume, correct me if I'm wrong, that this is agreed by all to 
be a high national security priority in the United States.
    Essentially what they've done is challenge the 
administration and Congress to speed up these efforts and be 
more proactive and more effective. What's the reasonable time-
line? The 9/11 Commission said it would take us 14 years at the 
current rate to secure these materials. I note that DOE and 
NNSA are talking about securing all materials by 2013. There 
seems to be a gap first of all in the perception of what the 
process is, how fast it's going, but the bottom line here is 
what do we have to do to accelerate the securing of these 
materials?
    Secretary Flory and Secretary Paul?
    Mr. Flory. I would like to make one point, one of the 
things we're trying to do to secure in particular the so-called 
stored warhead is the Bratislava Initiative announced by 
President Bush and President Putin and, in fact, we have a 
supplemental request before Congress now for $44 million. That 
will certainly help because that's one area where we recognize 
that there was a need to move faster on that. We worked with 
the Russians because frankly it wasn't easy to get the level of 
transparency and understanding and agreement on that side to 
let us know the things we needed to know in order to help them 
to solve this problem. I think that brings us to an important 
point here. The Russians continue to have the primary 
responsibility here and it's something we need to keep as part 
of the context. We can do with them what they are willing to do 
with us and they've been over time willing to do more things 
but the fact of the matter at the end of the day is that they 
are ultimately responsible.
    Senator Reed. Secretary Paul.
    Mr. Paul. It's an excellent question. As I said on the 
MPC&A upgrades we firmly believe that we will have this 
complete 100 percent by the end of 2008, a full 2 years ahead 
of schedule. What has given us a lot of momentum is Bratislava 
and President Bush and President Putin coming together and 
making that clear joint statement. But what's also given us a 
lot of momentum is the broad bipartisan support from Congress 
and the funding. As we talked about before, this administration 
has doubled the amount of funding that goes to nonproliferation 
and addressing this threat. We continue to make progress. We 
don't slow down. We look for ways to accelerate as much as we 
can. We have accelerated a lot. We've gotten more and more 
access into the Russian facilities but it's not just Russia. 
It's outside the Soviet Union states and that's really the next 
chapter in what we've been working on now for several years is 
broadening it throughout Europe, reducing the enrichment of 
those research reactors, the 106 remaining research reactors, 
and down-blending, putting in security measures at those 
reactors, repatriating Russian origin spent nuclear fuel and 
fresh nuclear fuel, all of which is high enriched uranium, and 
repatriating the fuel that had as its origin American U.S. fuel 
origin.
    We continue to look for ways to accelerate that. I take 
your point. We'll continue to do that.
    Senator Reed. Let me add a quick followup question. 
Secretary Flory points out that there's a supplemental request 
which we think is very important which we have to recognize. Do 
you have sufficient funds, Secretary Paul, to meet this 2013 
goal of securing these materials or do you need incremental 
funds going forward and we should, either through supplementals 
or enhanced budget authority now, give you these additional 
resources?
    Mr. Paul. The President's 2007 request provides for, as 
requested, provides for the adequate funds to meet these----
    Senator Reed. The 2013?
    Mr. Paul. Yes, sir.
    Senator Reed. Okay. Thank you, Mr. Chairman.
    Senator Cornyn. Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman. Obviously, Mr. 
Paul, this is a matter of great concern to us especially in 
light of Linton Brooks' comments in a recent USA Today article 
saying that one-third of the world's 130 civil nuclear research 
reactors lack security upgrades needed to prevent terrorists 
from stealing material that would enable them to make a nuclear 
device, including even an atomic bomb. We just need to know as 
precisely as you and others can lay out how to make good on the 
priority that the President expressed during the 2004 election 
and which many people agree with: that preventing rogue states 
and terrorists from acquiring the materials necessary for 
nuclear weapons has to be our top priority. Why aren't these 
reactors secure? Are people refusing our assistance, are we not 
offering our assistance, is there no international mechanism 
capable of coming in and trying to help secure these reactors?
    Mr. Paul. First of all, to correct one part, I think the 
article could be read--could be interpreted the way that you 
have stated. It's not--would not be completely accurate. 
Administrator Brooks did not say that there were all these 
reactors that weren't without security upgrades. Through our 
GTRI and Nonproliferation Organization we have a very effective 
program for providing the security at those reactors, both 
through this administration and the previous administration who 
placed attention on this as well. We originally identified 173 
research reactors throughout the world that had highly-enriched 
uranium in them. We started working down that list as to those 
who already had security upgrades with countries such as France 
and Canada who take care of their own security and what we came 
up with was a list of about 103 that needed additional security 
upgrades and down-blending from highly-enriched uranium to low 
enriched uranium. We have performed those upgrades at a total 
of 76 sites. Of the remaining 27 research reactors upgrading, 
there's currently upgrading of 6 reactors we're working on: 2 
in Chili, 1 in Mexico, Russia, Vietnam, and Peru, and of the 
remaining 21 we have identified 4 new sites where security is 
not adequate but we are working on access. This requires 
cooperation and it's this subcommittee and the full committee 
that have helped us in highlighting the focus and attention on 
that and that helps us get some access. But it's hard to get 
into some of these sites. I can assure you that we are on top 
of these sites, we have made security upgrades in most of them. 
We have a program in place to down-blend the uranium in them 
and as to the small number of sites that we believe need 
security upgrades and that we don't have access to, we are 
working very hard to get that access through the international 
regime and through other contacts and through the IAEA. Thank 
you for the question.
    Senator Clinton. I appreciate the update on that and 
obviously as you said this subcommittee and then the full 
committee are very concerned and focused on this so any 
additional authority, any additional resources, I hope that you 
will let us know. Obviously, that has to remain one of our top 
priorities.
    Mr. Paul. By the way, on the small list of other sites 
where we don't have access we could provide you in a different 
setting some information on those.
    Senator Clinton. Thank you very much. Mr. Paul, I want to 
follow up on some questions that I asked Secretary Bodman back 
in February when he testified before the full committee and we 
had a chance to discuss the GNEP. During that hearing, the 
Secretary said he would get back to me with answers to some of 
my questions. I haven't yet heard back so I'll ask the similar 
questions to you and I hope that I will hear back from one or 
both of you.
    Now, I believe that GNEP is a well-intentioned proposal to 
help meet the energy needs of our country and our allies and be 
part of a comprehensive strategy to reduce our dependence on 
foreign oil but I have some serious concerns about the program 
which would create a global system of nuclear reactors and U.S. 
reprocessing plants over the course of decades that could cost 
tens if not hundreds of billions of dollars. I am concerned 
about independent research that contradicts the 
administration's underlying claims that provide the rationale 
for GNEP. I have two questions: First, studies by the National 
Academy of Sciences, Massachusetts Institute of Technology 
(MIT), and even the DOE itself, have pointed out worrisome 
risks with the program.
    First, we know reprocessing spent fuel creates plutonium 
which can be used not only in civil nuclear energy reactors as 
laid out in the plan but also to make nuclear weapons. The U.S. 
has consistently opposed reprocessing, even for allies such as 
France, and while we focus on how to deal with Iran's quest to 
develop nuclear weapons and what to do about a nuclear armed 
North Korea, a country which does use plutonium in its nuclear 
weapons, I would ask, first, how do you respond to the 
questions and the risks laid out by the independent analysts 
and do you see a contradiction between GNEP and our global 
nonproliferation goals?
    Mr. Paul. Not only is there not a contradiction, the two 
are absolutely critical for the success of each. It is certain 
that the world will supply the more than doubling of the demand 
for nuclear power globally over the next 4 decades through the 
use of the science of the atom. The rest of the world has 
concluded that it's no longer a decision for America to make, 
quite frankly. The rest of the world in order to do this will 
continue to make use of the nuclear fuel cycle and will 
continue to recycle fuel. We no longer in America have a 
decision on whether that will occur. What the GNEP does do, 
however, is provide a narrow window of opportunity where 
through leadership America can guide it in a way that improves 
our nonproliferation regime globally and improves the 
proliferation resistance of those fuel cycle processes 
themselves. It is through our research and development and 
technology and support that we've been able to provide some 
enhancements to the current purex processes that is the current 
methodology whereby the fuel cycle states reprocess fuel now. 
GNEP proposes a form of recycling that gives enhanced 
proliferation protections, does not separate plutonium. Current 
recycling separates plutonium into a pure stream. What GNEP is 
proposing is a different model whereby plutonium is not 
separated into a pure stream. It continues to have these other 
actinides and lanthanides connected to it. On a global setting, 
as I said, the rest of the world has come to the conclusion 
that nuclear power will be an important part of providing 
energy supply not just to America and to the allies but also to 
those countries who aren't our allies, who want the peaceful 
use of the atom.
    GNEP is an opportunity to allow the peaceful use of the 
atom, the use of nuclear energy for energy purposes, but do it 
in a way so that you bring together a partnership of countries 
whereby those who don't have a fuel cycle can access the energy 
without accessing the capability that can be converted into a 
military threat. That is a notion that is as old as President 
Eisenhower's speech in 1953 before the U.N. Assembly. We have 
made some progress on it, GNEP puts together all of these 
pieces and we've been very encouraged by the support that we're 
getting from the global community, not only from the potential 
supplier states, Russia, China, Japan, France, U.K., and the 
IAEA Director El Baradei, but also from potential recipient 
states, those states who might say that if we had a mechanism 
to access nuclear energy without developing a recycling 
capability in-house, we might go in that direction, let's sit 
down and talk. It's very encouraging.
    Senator Clinton. Could I just have a followup on that 
because as I understand the critique from various 
nonproliferation experts, including the MIT study that I 
mentioned earlier, the so-called proliferation resistant 
reprocessing system that GNEP claims it would promote is 
proliferation resistant only in comparison to other methods of 
reprocessing, not as compared to the original spent fuel. The 
spent fuel itself is actually far more proliferation resistant 
than GNEP reprocessed plutonium because it's too radioactive to 
be handled safely by terrorists. So, in other words, the 
experts claim that the GNEP program would actually make it 
easier for terrorists to steal dangerous material to use in an 
attack. We're about to embark on an undertaking that could very 
well cost hundreds of billions of dollars and I'm well aware of 
the desire on the part of many countries and including the 
administration here at home to promote nuclear civilian use for 
energy purposes. But I'm just worried about the trade-offs 
here. If we spent hundreds of billions of dollars refining coal 
gasification we would provide clean coal without providing 
spent plutonium as a potential terrorist attack. So how do you 
make that trade-off?
    Mr. Paul. Fair question. First of all, the purpose of these 
other countries in accessing the science of the atom to provide 
energy is not to develop or promote nuclear power. It's to have 
electricity for hospitals and for first responders and for 
schools.
    Senator Clinton. It's nuclear power to fuel electricity.
    Mr. Paul. It's to have electricity and to find a way to 
provide that electricity in the cleanest, safest way, and they 
have come to nuclear power as the one zero emissions method for 
doing that. Now the question is, can America provide the 
leadership to help that new partnership be crafted globally so 
that it is more proliferation resistant? Now, I think we share 
common concerns and goals, maybe not--we may not share all the 
same conclusions as to the ``proliferation resistance'' of one 
chemical process as opposed to another based upon a spent fuel 
standard. First of all, that process that you're talking about 
already exists. It's what all of those countries are currently 
using, so to go back and say well let's compare it to not doing 
recycling at all, quite frankly we don't have that opportunity 
anymore. The rest of the world is going to recycle--is 
recycling fuel and will continue to recycle spent fuel.
    The question is, can we come up with a way that's even 
better? Can we be a player by asserting leadership? We think 
that we can. The global partners that we've spoken to also 
think that through this partnership we can show leadership to 
provide a more proliferation resistant process.
    Some of the studies that you're referring to or some of the 
comments have as their predicate certain assumptions that do 
not necessarily apply. You can design a recycle process 
thorough uranium extraction (UREX) to have whatever radiation 
level protection that you want, if that's the sole way that 
you're going to define proliferation resistance. But 
proliferation and nonproliferation are something that is far 
greater than a mere radiation dose level at hundred rad or rem 
per hour or 80-100 spent fuel standard. You can have UREX that 
is at that standard if that's your goal but the safeguards 
technologies that America has developed and helped these other 
countries to deploy even on their plutonium extraction (PUREX) 
processes has moved far beyond these earlier standards. We have 
the opportunity to shift them to a more proliferation resistant 
process that does not separate out plutonium and that provides 
safeguards and securities, verification technologies, and mass 
accounting that is available with this process that is not 
available with others. Remember that when you keep the 
plutonium entrained with other isotopes, the lanthanides and 
the other transuranics, you have signals, signatures, 
additional tools that a nuclear engineer can use to ensure that 
there is not diversion, and tools that I do not have available 
to me with PUREX.
    Senator Clinton. Thank you, Mr. Chairman.
    Senator Cornyn. Thank you, Senator Clinton, you raised some 
very serious concerns and certainly most Members of Congress 
aren't nuclear physicists and we need the best information we 
can possibly get when determining what the policy of this 
government should be in so many of these areas. So we'd 
encourage you to continue to supply us with that best thinking 
and the best science that is out there so we can answer some of 
these questions at least as satisfactorily as humanly possible.
    Mr. Paul, the Fissile Material Disposition Program under 
which the United States and Russia committed to dispose of 34 
metric tons of surplus weapons-grade plutonium is, of course, 
laudable in intent, but it's been plagued by numerous problems. 
There's been a 2-year delay in the program due to an inability 
to agree on liability for U.S. contractors and now there's an 
agreement but it awaits Russian signatures and ratification by 
the Duma.
    The impasse over liability caused the United States to 
postpone construction of the U.S. MOX Fuel Fabrication Facility 
in South Carolina in order to maintain parallelism between the 
Russian and U.S. programs, in 2005, the DOE Inspector General 
report criticized the management of the U.S. program and 
assessed that the cost of the U.S. MOX Facility will be $3.5 
billion, $2.5 billion more than the original DOE estimate in 
2002. The fiscal year 2007 budget request for the program is 
$638 million, nearly one-third of the total DOE 
nonproliferation request for that year, and now it appears that 
the Russians are no longer committed to the program as 
originally conceived. Would you give us your view of the status 
of that program and where you believe the future leads?
    Mr. Paul. Yes, Mr. Chairman. The plutonium disposition 
model, the goal of disposing of 34 metric tons of weapons-grade 
plutonium, both from Russia and 34 metric tons from the surplus 
material stockpile of the United States is a goal that is 
shared by both this administration, and the previous 
administration, and the previous administration put in place 
the Plutonium Disposition Agreement in 2000 with the Russians 
for the disposition on the Russian side and the U.S. side. On 
the U.S. side, is our MOX program. That is the MOX Fuel 
Fabrication Facility and Pit Disassembly Conversion Facility to 
take that plutonium from our stockpile, convert it into MOX 
fuel that can then be irradiated in the light water reactors, 
power reactors that produce electricity for us.
    On the Russian side, the Russians have never particularly 
supported the notion of consuming that plutonium in light water 
reactors. Their preferred method is through fast reactors and 
it is true that we have not made as much progress on the 
Russian side. They started site preparation 2 years ago on 
their MOX Facility, as we started site preparation this past 
fall on ours.
    The challenges, the difficulties with this are: one, again, 
the Russians would prefer to go in the fast reactor direction; 
and two, the liability dispute, the question about what 
liability protection would apply with U.S. workers in the 
Soviet Union, significantly delayed the progress on both sides, 
had a significant impact on the project costs. As you delay a 
project, a multibillion dollar project, the long lead 
procurement costs increase more and more and more. There has 
been uncertainty because of those delays that has to some 
extent affected appropriations and it has resulted in logical 
questions that would be asked from the legislative branch.
    Senator Cornyn. Let me ask you this, Mr. Paul. Do you 
believe that Russia is still committed to disposing of excess 
plutonium through the MOX program and if not what are the costs 
and benefits and risks to the United States going down another 
disposition path?
    Mr. Paul. As confirmed by recent communications between the 
Director of Rosatom, Sergei Kiriyenko, and Secretary Bodman, 
they are still committed to the disposition of the 34 metric 
tons although their preference is not for light water reactors, 
their preference is for the fast reactors. What they have said 
is pretty consistent with what they said from the beginning, 
which is that unless the international community provides all 
the money to do it--they're saying that they are supportive of 
doing it if the international community provides all of the 
money to use light water reactors.
    If, instead of using light water reactors, they can use 
their BN600 and move towards an upgrade of that, a BN800, a 
fast reactor model, then they are saying that they would put in 
a significant amount of the money themselves. So we are 
currently considering some discussions with them to figure out 
what would it take to get them to dispose of their plutonium in 
parallel with our disposition of plutonium pursuant to the 
commitment that this administration and the previous 
administration have made to developing the MOX program, this 
MOX facility now in South Carolina. Senator Graham has been a 
strong leader on these issues both as to the facility itself 
but also as to the importance of reducing the plutonium 
footprint worldwide.
    Senator Cornyn. If we were to delink the U.S. and Russian 
plutonium disposition programs, what would be the likely impact 
on the Russian program and on the U.S. program?
    Mr. Paul. I think it could have a significant impact on the 
extent to which the international community would be willing to 
contribute to the Russian program. Now the DOS has advised they 
think the probability is lower and lower that the international 
community is going to support this with funding at a greater 
and greater level. That's a lot of qualifiers. There's still an 
opportunity here for the international community to provide 
significant support. I think if you delink it right now, you 
would probably send a strong message to those contributors that 
causes them to be even less receptive.
    Senator Cornyn. If Russia decides to head down a different 
path, should the U.S. disposition program be considered a 
nonproliferation program or simply a program of disposing of 
excess U.S. material that should be considered in a wider 
context of DOE nuclear material disposition and cleanup?
    Mr. Paul. We think both. This administration and the 
previous administration both thought that it was important to 
not only reduce, condense, consolidate the amount of fissile 
material in this country and its locations and also for the 
worldwide nonproliferation effort to reduce the threat of 
people getting their hands on that material that can be used to 
make a nuclear device. For both of those reasons, we continue 
to be committed to disposing of that material.
    Senator Cornyn. Secretary Flory, 2 years ago Libya declared 
its intention to renounce all WMD programs and made a full 
declaration of its considerable chemical weapons stockpile as a 
first step forward to elimination. The United States has 
offered to help Libya in that connection and I understand the 
administration is currently considering which agency of the 
U.S. Government will be charged with carrying out that 
assistance. It would seem that the CTR program is the most 
logical candidate. CTR is aimed at eliminating WMD threats. 
Congress has provided authority to use CTR funds for activities 
outside of the former Soviet Union with the specific example of 
Libya in mind. CTR has the experience and expertise to 
undertake this activity based upon its experience in Russia and 
now in Albania. Do you support the use of CTR funds for 
chemical weapons elimination in Libya and what factors are the 
administration considering as it weighs its decision? Then let 
me ask you when you're answering those questions to answer one 
more. What is the estimated cost and timeline for carrying out 
the chemical weapons elimination program in Libya? So do you 
support the use of CTR funds, what factors are the 
administration considering as it weighs its decision, and 
what's the estimated cost and timeline?
    Mr. Flory. Senator, there was a team, a joint team, I think 
it was the DOS and DTRA team that was there in February at the 
site. They looked at the site and the surrounding area. It's a 
pretty remote site. I think it's about 600 kilometers away from 
Tripoli. The team that went there is supposed to present 
options sometime next month so given where we are in the month, 
pretty soon I'll be in a better position to get back to you 
after that. I think some of the factors that we would look at 
and I think these would be incorporated in the options that are 
presented are what are the conditions of the munitions, what 
are the proliferation risks we believe they pose, what are the 
technical aspects? For example, one part of the problem I think 
is going to be transportation. Where these things are now does 
not have any water and chemical demilitarization is a very 
water intensive process. So there are a number of issues to be 
looked at in terms of the threat, in terms of the technical 
aspects of how we do it, and once we've had a chance to look at 
the options that are presented, we will get back to Congress 
I'm sure.
    [The information referred to follows:]

    I support the current United States position that we are committed 
in principle to provide United States assistance to destroy Libya's 
chemical weapons stockpile contingent upon Libya remaining responsible 
for destruction, United States ability to identify appropriate funding, 
and United States and Libya conclusion of implementing agreements, to 
include agreement on division of responsibility.
    Factors affecting the Department's decision to use Cooperative 
Threat Reduction (CTR) funds include the proliferation risk we believe 
the Libyan stockpiles poses, the threat reduction and proliferation 
reduction value of eliminating Libyan chemical weapons relative to 
other CTR WMD elimination and proliferation prevention programs, the 
condition of the munitions, the technical and logistical aspects of the 
work, the availability of CTR funding, potential destruction timelines, 
and overall expected costs.
    The Department's CTR fiscal year 2006 and requested fiscal year 
2007 funds are committed to other programs assigned high priority by 
the administration. Use of these funds for assistance to Libya would 
come at the cost of significantly reduced efforts in these programs.
    Department of Defense's (DOD) cost and schedule estimate to 
destroy/neutralize the Libyan chemical agent and precursor materials is 
$142 million and 43 months. With risk and inflation factors removed, 
the estimated cost is $75 million. The DOD schedule does not include 
the time required to staff and obtain a presidential determination to 
comply with the legislative restriction on performing CTR work outside 
the states of the former Soviet Union, nor the time required to 
negotiate and conclude with the Government of Libya the legal 
architecture to ensure exemptions from taxes/customs and liability 
protections for United States Government and contractor personnel. 
Proceeding without this architecture in place could undermine the 
protections and exemptions negotiated with other countries where CTR 
work is performed.

    Mr. Flory. The question is, there's DOS nonproliferation 
money that's available. There's also the CTR money and that's I 
think the choice you referred to upfront. If we could get back 
to you when we know a little bit more about the scope of the 
problem, we'd be pleased to do so.
    In terms of the cost, because of some of the factors I just 
described, including the distances involved, the lack of water, 
the weather--I understand that it's 140 degrees during the day 
for most months of the year there--it's going to be fairly 
expensive. I haven't seen any figures we have a high degree of 
confidence in. I do think there's a good chance it will be over 
a $100 million and in that case we have to consider what are 
the opportunity costs of doing that particular bit of work 
compared to other work CTR or any other program is doing in the 
former Soviet Union in Central Asia or any of the other places 
we're working. But we'll be able to talk more with more 
definition when we have a report back from the team.
    Senator Cornyn. Thank you. We look forward to you getting 
back with us on that. Here again, I guess you raised in your 
answer the point that I was inquiring about initially, and 
given not limitless resources, how do we prioritize and focus 
and as you say the opportunity costs of participating or 
funding one program at perhaps the expense of others? That 
continues to be a concern and I know you're working hard on 
that but that certainly is a concern I have and one that I want 
to continue to stay in touch with you on.
    General Cartwright, let me just ask you quickly, you noted 
that STRATCOM's focused on improving DOD capacity and 
increasing resources for WMD elimination and mitigation 
efforts, but I want to make sure that you have all the 
capabilities in terms of authorization for the Department to 
carry out your mission and where in future years do you see 
your budget requests going in terms of fulfilling that mission?
    General Cartwright. Thank you, Mr. Chairman. My sense is 
that we have the resources and the authorities that we need to 
move forward on this mission and move forward aggressively. If 
there is a point in the future that I would use a crystal ball 
to say where do I think maybe things are going to change, the 
area that probably is most vexing right now technically is 
standoff detection, knowing what's coming to your border and 
being able to detect that in a technical sense with a degree of 
fidelity that you're not chasing false alarms on a regular 
basis and that you can have a level of monitoring that is 
global to understand what's going on in a global sense in these 
different processes.
    The technical solutions right now tend to be point 
solutions. We can tell what's in this room but 100 miles away 
we don't have a good capability of forecasting it's movement. I 
think that's an area that we will come back to you as we better 
understand the technical challenge and where we ought to apply 
our dollars and cents to go after that challenge.
    Senator Cornyn. Thank you, General Cartwright. I guess in 
light of recent events, we need to not only make sure we have 
the detection capability but perhaps good identification.
    General Cartwright. Identification.
    Senator Cornyn. So we know people are indeed authorized to 
transport radioactive materials, for example.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Let me 
follow up that line of questioning, General Cartwright, with 
respect to the combating WMD mission. You responded to Senator 
Nelson that the DTRA is the component commander. Could you 
elaborate? Do they report to you directly and do they retain 
planning, budgeting, and command control responsibilities? How 
does it work?
    General Cartwright. Sir, they are by designation a combat 
support agency within the DOD which creates a relationship 
between the chairman and the organization. They have a charter 
and a set of missions. All of those missions are not 
necessarily associated with the mission of combating WMD so in 
the DOD we have set up an arrangement that we've used for a lot 
of years where we take the director, in this case, and give him 
what we call dualhatting.
    In other words, he has two responsibilities. In the sense 
of the combating WMD, he operates as a component for STRATCOM 
to provide those services to all of the regional combatant 
commanders as they need them. He turns to me when there is 
competition for resources as the first level of let's see how 
we should prioritize resources and then also to advocate for 
additional resources where it's appropriate. So that tends to 
be the relationship.
    Inside the organization what we've tried to do is insert an 
element of military planning capability that was not there 
before to bring closer the skill set that's already resident in 
the DTRA and the skills necessary to service the regional 
combatant commanders in a timely fashion. So there's a good 
articulation and we don't have a separation. Oftentimes, your 
ability to ask the right question is the key in crisis to know 
what's out there to help you. By bringing the planning skills 
into the organization, we get closer and draw that relationship 
closer and that's at the heart of what we're trying to get 
accomplished.
    Senator Reed. But you're still--it's a work in progress?
    General Cartwright. It is, yes, sir.
    Senator Reed. You're also--on a day-to-day basis they're 
responding about synchronization, the chairman and yourself, 
and you're trying to get that more synchronized, is that fair?
    General Cartwright. That's fair. In the synchronization or 
the integration of the process, a lot of what we're trying to 
do by bringing them into the STRATCOM portfolio, so to speak, 
is to avail them of a very direct and close relationship with 
things like intelligence, surveillance, and reconnaissance. So 
that again, the partnership is much tighter, to the extent that 
it's appropriate, the information operations that we're 
responsible for missile defense operations so that you get a 
more holistic look at choices and as customers, so to speak. 
The regional combatant commanders come in the door and they can 
expect not only a direct answer to maybe the wrong question, 
but the opportunity to find the right question and the right 
set of answers.
    Senator Reed. What's STRATCOM's role in the PSI?
    General Cartwright. We work closely, through DTRA and 
through the operational forces, and, again, this is why the 
planners are so critical, along with the lead agency, the DOS 
to one, set the environment and, two, to provide when necessary 
the operational planning and execution skills that are 
necessary for a particular action.
    Senator Reed. Have you exercised this function yet?
    General Cartwright. We have in the planning and we have in 
the seminars and the objective setting and the training 
activities that go on broadly across the world.
    Senator Reed. But do you have a--what's the next step in 
exercising?
    General Cartwright. The next step is a set of exercises 
that are international in scope led by the DOS that extend 
through this summer and into next year. We are a key 
participant in providing support to those and interfacing with 
not only DOS but with the other governments and their military 
organizations to ensure services, for instance, we talked about 
a Navy capability to ensure that that matches up so that if we 
arrive at a juncture where we are trying to interdict 
something, that we have all of the right rules, we know how to 
operate together, we know who's to talk to who, and all of that 
gets laid out. That's the part of the exercise and planning 
activity that we're trying to bring.
    Senator Reed. Special Operations Command (SOCOM) in the QDR 
has been given similar responsibilities, at least closely 
allied. Can you talk about your link-up with SOCOM, 
particularly going forward?
    General Cartwright. Sure. There is a very tight 
relationship between SOCOM and STRATCOM, particularly in the 
areas of the intelligence, surveillance, and reconnaissance. In 
the area of combating WMD, the teams that we put together that 
have been called render safe but have the skills of the 
explosive ordinance disposal people, the skills that are 
brought to the table by the DTRA, bringing those together in a 
way that we can deploy them in a timeline that's appropriate 
that we can figure out what the size and availability of them, 
how many of these teams do we need, how robust do they have to 
be. All of those things seem to be growing over time. Where do 
we want to take these teams? Those are the types of things that 
General Brown and I work on a regular basis. Our staffs are 
linked both virtually and physically and we come together at 
the DTRA in that planning cell and in the technical expertise 
that Dr. Tegnelia and his organization bring. So it is a very 
close relationship.
    I will tell you that SOCOM is probably more focused on the 
execution side of this activity. We're trying to prepare the 
battle space, make sure that they have the tools necessary, as 
we do for each regional combatant commander.
    Senator Reed. Can you comment briefly on the mission of the 
Global Innovation and Strategy Center?
    General Cartwright. I talked a little bit about that with 
Senator Nelson's question, but the idea here is that there 
emerge questions for which we often don't have answers. In 
order to get the answers and get inside the decision cycles of 
an adversary who would operate with some limited knowledge or 
work in our seams, we have established an opportunity to reach 
out to the commercial sector, both U.S. and abroad, and to the 
academic sector. The idea here is if I have a problem I grab 
the smartest and brightest people in the world, get them into, 
my phrase, a hot, sweaty pile, and not let them out until we 
have a potential answer. [Laughter.]
    Senator Reed. That's good enough. [Laughter].
    We don't want to go any further with that.
    General Cartwright, in your testimony, you describe one of 
your key initiatives as improve and expand U.S. Forces 
capabilities to locate, track, and tag shipments of WMD. Could 
you provide some amplification there about what you're doing 
and do you need additional resources to do this?
    General Cartwright. This is another very close partnership 
with SOCOM because they work in this area and have worked in 
this area for a lot of years. The acknowledgment here is that 
the finding and fixing part of this cycle is probably broader 
than just radiological activities. In a find and fix activity 
you must tag it so that you know where it is and you can keep 
track of it. We must expand this effort to other vexing 
problems like mobile threats that we have, missiles, et cetera, 
and so the intent here is to broaden the activity not to 
diminish or dilute what SOCOM is trying to accomplish. Start to 
broaden it out and make it available to the other regional 
combatant commanders for a broader set of targets.
    Senator Reed. Just a final point and maybe just a very 
quick response, it seems to me that this function is intimately 
involved with the national intelligence capability. What's your 
general satisfaction level with the integration, with the new 
regime of intelligence in the United States?
    General Cartwright. I will tell you that what we are trying 
to do on the DOD side is focus, through STRATCOM, to the DNI 
and his organization a single portal, so to speak, where the 
needs are coming from one voice and one place that are 
aggregated from all the regions. Not to cut anybody out but to 
get them correlated and collated in a way that the IC can 
respond. That is starting to create synergies that we were 
unable to realize before because once we understand the problem 
and we can work at it together, many of these threats that we 
deal with today and we anticipate we'll deal with in the future 
operate in the seams of authorities. So by having that single 
portal and being able to get it very tight and very close--and 
essentially we will open a center here in the next month at 
Bolling Air Force Base in the DIA spaces that bring the DNI's 
capabilities along with the DOD's capabilities, at least to a 
common floor for operations so that we can see each other's 
problems, look at the opportunities to solve them in a way that 
creates synergy rather than the old constructive need to know. 
If you don't know the right question to ask, you don't 
necessarily get what you need.
    Senator Reed. Thank you, General. Thank you, Mr. Chairman.
    Senator Cornyn. Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman. I want to follow 
up on the line of questioning first by the Chairman and then by 
Senator Reed.
    Mr. Paul, with respect to the cost of the U.S./Russian 
disposal program, what is the approximate cost? What are we 
talking about when you say that the Russians won't do it the 
way that we would prefer unless they're paid for it and the 
international community may not want to bear the cost? What are 
we talking about in terms of dollars?
    Mr. Paul. For the Russian program?
    Senator Clinton. Right.
    Mr. Paul. Or the Russian side? I'm hesitant to quote an 
exact price from their recent validated baseline. I'm thinking 
$2.7 billion is what they're saying.
    Senator Clinton. So we're talking about $2.7 billion?
    Mr. Paul. I believe so.
    Senator Clinton. Where is the source of that money if it 
comes internationally? Who contributes to that $2.7 billion?
    Mr. Paul. I believe that France has made a pledge of a few 
hundred million dollars. I don't know the exact number.
    It's a couple million dollars because the MOX technology is 
of French origin. I shouldn't say that's why but there is a 
connection there. They actually have that technology. So the 
French have made a commitment if the fuel were MOX. There are a 
few others who have not made firm commitments, I believe, but 
have said that if the project goes forward they would be 
interested in making contributions. I don't know exactly how 
much money has been firmly committed by the international 
community. It's something that I will get you.
    It turns out I do know how much. [Laughter].
    Senator Clinton. Thank goodness for those people who sit 
behind us.
    Mr. Paul. It turns out I'm told that we have pledges 
totaling $844 million.
    Senator Clinton. Will this be an issue for the President to 
raise at the G8?
    Mr. Paul. I think that it is. It's something that we've 
discussed anyway about having that be mentioned and 
nonproliferation cooperation is something that the President 
has mentioned in the international fora in the past. I think 
this is an issue that the Russians--I don't know about MOX 
specifically but nonproliferation efforts is something that I 
believe that Russia as chair will raise as well.
    Senator Clinton. We might want to emphasize that, Mr. 
Chairman, because I think your questions really go to the heart 
of whether the single biggest threat, the one that we were most 
interested in trying to address over the last several years, 
will be addressed and finalized at some point. So maybe we 
could follow up on that.
    Mr. Paul. I appreciate that thought too, on the G8 Summit. 
I will follow up with that. I'll also get you a breakdown of 
the $844 million to tell you which countries have made those 
pledges.
    [The information referred to follows:]

    As a part of the Group of Eight, the Global Partnership against the 
Spread of Weapons and Materials of Mass Destruction is a significant 
force to enhance international security and safety. The G-8 has 
committed to raise up to $20 billion through 2012 to support Global 
Partnership projects primarily in Russia, such as the plutonium 
disposition project. As of now, international donations to the 
plutonium disposition are as follows:


                        [In millions of dollars]
United States.............................  $400
United Kingdom............................   133.6 (70,000,000 British
                                             pounds)
Canada....................................   57.4 (65,000,000 Canadian
                                             dollars)
Japan.....................................   100
Italy.....................................   102 (80,000,000 Euro)
France....................................   76.5 (60,000,000 Euro)
                                           -----------------------------
  Total...................................  $869.5



    Senator Clinton. I appreciate that, Mr. Paul. Let me follow 
up on the line of questioning by Senator Reed. When the panel 
describes the various entities that are now part of our threat 
reduction nonproliferation strategy it really does sound like 
alphabet soup. It sounds like there are lots and lots of cooks 
in the kitchen and when everybody's in charge, nobody's in 
charge. I'm concerned about duplication, I'm concerned about 
gaps, and I think it would be useful to get a matrix that 
actually lays out who is responsible for what, how they 
interact, what shared lines of command there may or may not be. 
I very much appreciate the work that everyone is doing on this 
but, for example, Mr. Paul, not to pick on you, but the DOE's 
Global Initiatives for Proliferation Prevention Program is 
incredibly important to ensure that WMD experts from various 
countries are redirected to peaceful jobs, don't end up in 
Iran, or you name it at this point.
    However, I'm also aware there's a DOS program that is 
focused on the similar objectives. Are these programs 
duplicative? Are they complementary? What mechanism is in place 
to ensure proper coordination? This is just a tiny example of 
what I see as a very broadly dispersed responsibility on the 
biggest threat we face.
    Mr. Paul. It's a good question and a good point. They are 
complementary but if you weren't on top of them day-in and day-
out and making sure that you have good coordination and 
communication, they could stumble over themselves. The programs 
for proliferation prevention and the complementary DOS program, 
something that this administration and the previous 
administration both supported, and has been very successful, 
but there is the potential for them to stumble over each other. 
That hasn't happened. We've worked very well together using the 
DOS's centers, if you will, for collecting the technical 
capabilities and our piece which is more deploying it into the 
nuclear weapons facilities. We reach out and we look for 
scientists, whether it be Russian scientists, former Soviet 
Union scientists, Libyan or Iraqi scientists, and we go out and 
try to link them up with peaceful uses, as I know you're 
familiar with this program. The DOS maintains a clearing house 
of that but quite frankly you are making a very good point that 
if you didn't communicate, if we didn't have such a good 
relationship between our program and theirs, it could be 
difficult to manage.
    Senator Clinton. I really appreciate that and as I say 
maybe, Mr. Chairman, our staffs could work with our witnesses 
and others to put forth that kind of matrix because everyone 
gives lip service to the fact that this is the most dangerous 
threat we face and there are lots of those cooks in the kitchen 
and I just want to know who the chef is and who the point 
person is. It's in DOD, it's in DOS, it's in DOE, so it would 
be helpful at least to me if we could try to sort that out.
    My final question that really would go to each of you which 
is to add a layer of further complexity on this, we do have the 
IAEA, which is responsible for promoting peaceful uses of 
nuclear technology and then ensuring insofar as possible that 
those technologies are not used to develop nuclear weapons and 
it does so largely in its role as a watchdog. Increasingly, the 
IAEA is playing a major international role. It frankly has 
credibility that sometimes we and our allies lack. It has 
access as it now does for example to Iranian nuclear sites that 
we could only dream of. I worry that we're not doing enough to 
bolster and support the IAEA and there developed a kind of 
antagonistic relationship for all the reasons we know. So let 
me ask each of you, starting with Secretary Flory, is there 
more we could do to help bolster the IAEA by, for example, 
sending more U.S. personnel to Vienna, Austria, or helping to 
provide technology or working better to coordinate with them?
    Because I think increasingly we're going to need an agency 
like that given what is, I think, the appropriate warning or 
caution that Mr. Paul gave that we're on a fast march toward 
nuclear proliferation and I wish we could do more to reign it 
in. I think there are some things we could do. It may or may 
not be inevitable but the fact is, it's happening. So what do 
we do to really bolster the IAEA as a necessary component of 
our efforts to try to watch that and prevent insofar as 
possible?
    Mr. Flory. Senator, you raise a very good point. The IAEA 
plays an extremely important role and after decades when it was 
there and frankly didn't get a lot of attention because things 
were moving along, it first came into world view after the 
first Iraq war when it was learned how much Iraq had been able 
to accomplish under IAEA scrutiny and that led to the 
development of stronger safeguards by the IAEA and most 
recently in the case of Iran. In terms of resources and things 
like that, I think--I don't know if I'm allowed to do this but 
if I can take your question for the record vicariously on 
behalf of Bob Joseph who was unable to be here----[Laughter].
    [The information referred to follows:]

    The United States has long been at the forefront of efforts to 
strengthen the International Atomic Energy Agency's (IAEA) ability to 
deter, detect, and respond to nuclear proliferation. When the IAEA 
safeguards system was being developed, we provided much of the 
technology to verify and monitor nuclear material and facilities. After 
the first Gulf War revealed the extent of Iraq's clandestine nuclear 
activities, we supported the successful development of the additional 
protocol, to strengthen the ability of the IAEA to detect undeclared 
nuclear activities and change safeguards from a culture of accountants 
to one of detectives. When the IAEA budget was stretched thin by the 
added demands of strengthened safeguards, we stepped in to fill the gap 
in safeguards through our annual voluntary contribution--the largest by 
far by any member state--and by persuading IAEA member states in 2003 
to support an increase in the safeguards budget.
    President Bush submitted the IAEA Additional Protocol to the Senate 
for advice and consent to ratification in 2002, and welcomed the 
Senate's approval in 2004. The President also called for universal 
adoption of the Additional Protocol and the creation of a new special 
committee of the IAEA Board to examine ways to strengthen the agency's 
safeguards and verification capabilities. Working closely with the IAEA 
Director General, we are pleased that the new special committee began 
its important work late last year.
    The United States has also worked with others on the IAEA Board to 
reinforce the essential role of the U.N. Security Council in addressing 
noncompliance with safeguards obligations, as that role was embedded in 
the IAEA Statute almost 50 years ago. In September 2005, the IAEA Board 
of Governors found Iran in noncompliance with its safeguards 
obligations, a formal finding that requires a report to the Security 
Council. The Board also found that Iran's nuclear activities raise 
questions concerning international peace and security that are within 
the competence of the U.N. Security Council. In February 2006, the 
Board reported the Iranian case to the Security Council, and the 
Council added its authority to the IAEA's calls on Iran through a 
Presidential statement in late March. Thus, as the U.S. strongly 
advocated, the Security Council has not supplanted the IAEA effort, but 
instead reinforces it.
    One clear lesson from the Iran case is that some states will skirt 
their obligations under the Nonproliferation Treaty (NPT), or cynically 
manipulate the provisions of the NPT to justify the acquisition of 
sensitive technologies that enable them to pursue nuclear weapons 
capabilities. These are the very capabilities the Treaty is intended to 
deny. To close this loophole, the President has proposed measures to 
halt the further spread of uranium enrichment and plutonium separation 
capabilities beyond those states that already operate full-scale, fully 
functioning facilities. These sensitive fuel cycle capabilities are--
the two primary paths to acquiring fissile material for nuclear 
weapons. In return, he called on the world's nuclear fuel suppliers to 
ensure that states that forego enrichment and reprocessing have 
reliable access at a reasonable cost to fuel for civilian reactors. We 
are working with other fuel provider states and with the IAEA to put in 
place reliable fuel service arrangements that will convince states with 
power reactors that their best economic interest is not to invest in 
expensive, and proliferation risky, fuel cycle capabilities.
    The IAEA relies on its member states to meet its needs for 
expertise and for developing and applying technology to meet safeguards 
needs and challenges. The U.S. Support Program is by far the largest 
and most comprehensive of the 18 Member State Support Programs. Over 
the years we have provided most of the basic technology for measuring 
nuclear materials and monitoring for possible diversion of those 
materials from peaceful nuclear activities. We provided experts who 
helped develop the system and structure of IAEA safeguards. When the 
IAEA needs novel or unique capabilities to respond to challenges in 
particular countries, such as Iran or North Korea, the United States 
has always stood ready to respond. Currently, we are sponsoring 12 
full-time experts and 35 interns, junior professionals and part-time 
consultants, and working on 80 other projects in collaboration with the 
IAEA Safeguards Department. We are committed further enhancing IAEA 
safeguards in the context of the Global Nuclear Energy Partnership, in 
order to facilitate the growth of nuclear energy to meet the world's 
growing energy needs.

    Mr. Flory. I'm sure he'll appreciate my doing this, but DOS 
is the lead and we'll obviously be happy to contribute to 
answering that question in any way we can. But since it's a 
diplomatic mission they probably are the best people to pull 
together an answer on that.
    I think what is tremendously important is that, and this is 
again something where the DOS is in the lead for us, is that 
the matter of Iran be handled successfully. The IAEA has 
grappled with this under the leadership for much of that time 
of a particular group of members but as you've mentioned it's 
focused attention on the IAEA and I think it's important for 
the overall, for the internationally established safeguard 
network, that the international system that we're working with 
be able to solve this problem.
    Senator Clinton. General, do you have anything to add to 
that?
    General Cartwright. I would just say that there are 
certainly things that we can do in partnership. The obvious 
ones are training, standards, technical experts, and making 
sure that we're on a common sheet of music, so to speak, in 
advocating for those standards and once they're accepted, then 
advocating globally for them. Those are critical pieces. There 
are also pieces that we probably ought to sit down in another 
session and talk a little bit about what we could do to assist 
them in setting the conditions for their ability to do their 
job.
    Senator Clinton. That would be very helpful. I'm sure that 
you've given thought to that and it might be something that we 
could look at.
    Mr. Paul. That's actually something that the President's 
focused on quite a bit, increasing the funding for the IAEA, 
continuing to provide the technical basis and supports that the 
IAEA and Director El Baradei needs. Every one of the more than 
200 nuclear weapons inspectors at the IAEA were trained at Los 
Alamos National Laboratory here in America here within the 
NNSA. We're very proud to continue to fund that training. They 
come here to learn how to do what they do to keep the world 
safe.
    We led the way to strengthen the IAEA's ability to detect 
nuclear proliferation. We instituted a successful effort to 
increase the safeguards budget. The United States of America is 
the single largest contributor to the budget of the IAEA. In 
fact, we are even a larger contributor by percentage basis to 
the IAEA than we are to the U.N. There's 128 members of the 
IAEA. We provide one-quarter of all the funding. We also 
provide a lot, on a rotational basis, of our technical experts 
from our national laboratories and with Ambassador Greg 
Schulte, our recently sworn-in ambassador to the U.N. mission 
there, along with our office, our DOE office there, we have 
engaged in an effort to increase the number of U.S. origin 
persons and experts that go to the IAEA and work internally. 
It's something that I've spoken personally with Director El 
Baradei about.
    I have one deputy director general on his board who is 
American, who's actually the Deputy Director General for 
Management for the IAEA and I am in a process right now of 
increasing the number of technical experts that we send over 
there. These are excellent points and they're things that we 
are working on on a day-to-day basis. I think that it's a good 
testament to the leadership of the President and the leadership 
of Director El Baradei. We've made some progress but we can do 
more.
    Senator Clinton. Thank you. Thank you very much, gentlemen. 
Thank you, Mr. Chairman.
    Senator Cornyn. Thank you, Senator Clinton. I, too, think 
it would be interesting to see that wire diagram.
    Senator Clinton. Yes.
    Senator Cornyn. May be instructive for all of us.
    Mr. Paul, the Megaports program is a DOE nonproliferation 
program to install nuclear detection equipment at major 
international seaports. Last Friday, March 24, a couple of 
newspapers ran articles alleging that through the Megaports 
Program the United States was contracting with foreign 
companies to scan cargo for nuclear materials. Could you please 
explain to us what the Megaports Program is and how it operates 
at international seaports? If you would also tell us what would 
be the role of private contractors in the Philippines, the 
Bahamas, and other countries where the Megaports Program is 
being conducted?
    Finally, who will actually operate the radiation detection 
equipment and how confident can we be that it will not be 
tampered with?
    Mr. Paul. We can be very confident that the equipment and 
the material, the data stream that we get from it, and the 
analysis of it will not be tampered with.
    Let me tell you a little bit about the Megaports Program. 
This is a fantastic program. It's an opportunity for us to have 
an additional layer of defense and protection in order to 
detect the illicit trafficking of nuclear and radiological 
material through some of the major ports with the most 
throughput outside the United States, ports through which cargo 
would travel before it ultimately comes to a U.S. port.
    We are currently up and running with our radiation detector 
equipment that we deploy in four ports. We have 10 this year 
that we have in construction mode and we have another 35, 40 
that we're in negotiations with right now. It's a program that 
works very much in tandem with the DHS Container Security 
Initiative (CSI). CSI has U.S. Federal customs agents onsite at 
foreign ports who through profiles review manifests of cargo to 
identify containers, for example, that should have further 
review, inspection, and detector inspections. What we do is we 
put equipment in these foreign ports. We train the operators. 
These are foreign port Federal Government operators.
    So, for example, we go into the Port of Bahamas and we 
train their customs officials, because it's their port to 
operate and analyze the data that comes from a radiation 
detector, a gamma ray detector, and a neutron detector, which 
is in that port. If a cargo container were to come through that 
portal and an alarm were to sound that data goes to a central 
alarm station that is manned by a government official. It is a 
customs official from the host government because these are in 
foreign government's ports. I think what was stated in a 
newspaper was not exactly correct.
    Senator Cornyn. That would surprise me.
    Mr. Paul. Yes, I know. To set the record straight, in the 
Bahamas and in all other Megaports ports and in all future 
Megaports ports the equipment and the data collection is 
operated by a Federal Government agent from the host country. 
Now, obviously, we have to work out agreements with the port on 
the logistics and how the ports themselves are operated so 
that, for example, if a terminal is owned by a private company, 
we can't change the fact that a private company operates it, 
but our radiation detection equipment in there is not operated 
by that private company, is not touched by that private 
company, it cannot be tampered with by that private company. If 
it is tampered with, we get an immediate alarm, a signal. If 
it's defeated so that there is a break in the signal, we get an 
immediate alarm. We also have technologies that allow us to be 
very vigilant in this setting, I'll say that.
    Senator Cornyn. I would note that we just got word that 
there is a 15-minute vote on the floor, so we're going to be 
wrapping up here rather quickly. What is the role that U.S. 
Government personnel play at those foreign ports?
    Mr. Paul. In most of those foreign ports, the CSI program 
is already in place where there is a U.S. Federal customs 
official reviewing manifests. We typically go into a port with 
Megaports and add the detector capability at a port where there 
is already CSI and therefore already a U.S. Federal customs 
official. In those instances, which is most of them, if a 
Megaports alarm were to sound and a government official from 
the foreign port got that alarm, it is common that that person 
would contact his counterpart, the U.S. Federal customs 
official there, but it's not a requirement. In the absence of a 
U.S. Federal customs official there, they go straight to the 
embassy and then the embassy calls me or calls our office. But 
under no circumstances is a private company in control of that 
data nor can they tamper with it.
    Senator Cornyn. Thank you. Mr. Flory, my last question and 
then I'll turn it over to Senator Reed, has to do with the CTR 
program and notwithstanding the success that that program has 
enjoyed, we see the CTR budget declining this year and it looks 
like CTR budgets will either remain flat or even decline 
further over the 5-year defense plan. It strikes me as odd 
because we also have a request for a $44.5 million supplemental 
for the CTR program to fund accelerated security improvements 
at Russian warhead sites agreed to by President Bush and 
President Putin at the Bratislava Summit, as has already been 
testified to.
    Could you explain that and in particular there's been some 
discussion as I know you know about the use of supplementals to 
fund ongoing operations of the DOD, and why a supplemental is 
the appropriate way to go here as opposed to putting it in the 
baseline of the DOD budget?
    Mr. Flory. Mr. Chairman, in terms of the supplemental 
request, I don't know precisely the answers to why that request 
came in as a supplemental. I suspect that it had to do with, 
and this is a problem we have in many cases, where the budget 
cycle is such a long drawn out process that sometimes things 
have changed and requirements have changed over time. We do 
need the money to spend now in fiscal year 2006. That's what's 
driving--and the fact that it's part of a program that is 
specifically designed to accelerate a preexisting program that 
was supposed to take until 2012 and is now supposed to take 
until 2008. With respect to this year's budget specifically, 
you're right, last year was I think about $409 million and this 
year we go down to $372 million. That reflected actually the 
program expectations at the time and in particular the fact 
that the assumptions driving the budget at the time the budget 
was put together assumed that there was going to be a drop-off 
in funding for Shchuch'ye.
    Now, as I told you earlier, we have a delay in the 
Shchuch'ye project. We do not assume that that delay is going 
to transform into an additional financial requirement. Right 
now we only know that it's going to take more time. If it were 
to turn out that more funding were required, we'd have to come 
back, but it's a function of the budget having been developed 
about a year ago and some of the problems only becoming 
manifest now.
    Senator Cornyn. Thank you.
    Senator Reed.
    Senator Reed. I just want to quickly follow up. You've 
mentioned Shchuch'ye but I have a series of specific questions 
about the delay, about the potential budget authorities that 
might be necessary in the future, and when live agent 
production will be--destruction I should say, not production, 
destruction--we're destroying we're not producing.
    Thank you. Thank you, Mr. Chairman.
    Senator Cornyn. Gentlemen, thank you very much for your 
testimony. As you can see, there's a lot of interest in what 
you do and in our country's security when it comes to 
proliferation, nonproliferation, and counterproliferation and 
counterterrorism efforts and we very much appreciate your 
service to our Nation and your willingness to take on this 
challenge. We want to be supportive of those efforts. We want 
to know what resources and authority that you need in order to 
do your job even better.
    The hearing will now conclude but we'll leave the record 
open for 48 hours in case there are other members of the 
committee who'd like to submit additional requests for 
information. Thank you very much. We are adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Cornyn

                  fissile material disposition program

    1. Senator Cornyn. Mr. Paul, the fissile material disposition 
program, under which the United States and Russia committed to dispose 
of 34 metric tons of surplus weapons-grade plutonium, is laudable in 
intent, but has been plagued by numerous problems: There was a 2-year 
delay in the program due to an inability to agree on liability issues 
for U.S. contractors. Though an agreement has now been reached, it 
still awaits Russian signature and ratification by the Russian Duma. 
The impasse over liability caused the United States to postpone 
construction of the U.S. Mixed Oxide (MOX) Fuel Fabrication Facility in 
South Carolina in order to maintain parallelism in the program. A 
December 2005 Department of Energy (DOE) Inspector General (IG) report 
criticized the management of the U.S. program and assessed that the 
cost of the U.S. MOX facility will be $3.5 billion-$2.5 billion more 
than the original DOE estimate in 2002.
    The fiscal year 2007 budget request for the MOX program is $638.0 
million--nearly one-third of the total DOE nonproliferation request for 
fiscal year 2007. Now it appears that the Russians are no longer 
committed to the program as originally conceived.
    Why hasn't Russia signed the liability agreement it reached with 
the United States last year?
    Mr. Paul. The United States and Russia successfully completed 
negotiations of a protocol covering liability protection for the 
plutonium disposition program in July 2005. The protocol is currently 
under final review within the Russian Government and is expected to be 
signed in the near future. We have been reassured by officials from the 
Russian Ministry of Foreign Affairs and the Russian Atomic Energy 
Agency that there are no substantive problems with the agreed language, 
but rather it is a question of the protocol undergoing a complete 
interagency review that has been moving more slowly than expected. 
While we are disappointed with the delay in signing, we continue to 
believe that the protocol will be signed.

    2. Senator Cornyn. Mr. Paul, since Russia has indicated this 
agreement must be ratified by the Russian Duma, are there risks in 
spending additional U.S. taxpayer dollars on the Russian program before 
the Duma has approved the liability agreement?
    Mr. Paul. I believe the risks are minimal. Russian officials have 
assured us that once the liability protocol is signed, the two sides 
can work together to seek interim arrangements to enable the terms of 
the protocol to be applied provisionally.

    3. Senator Cornyn. Mr. Paul, do you believe Russia is still 
committed to disposing of excess plutonium through the MOX program? If 
not, what are the costs, benefits, and risks to the U.S. of going down 
another disposition path with Russia?
    Mr. Paul. Yes, I believe Russia remains committed to disposing of 
34 metric tons of its surplus weapon-grade plutonium. Recent high-level 
meetings with officials from the Russian Atomic Energy Agency indicate 
that Russia would proceed with the disposition program using primarily 
light water reactors were full funding available from the international 
community. At the same time, Russian officials have expressed their 
desire to explore the use of fast reactors for their disposition 
effort, which is consistent with the 2000 U.S.-Russian Plutonium 
Management and Disposition Agreement as well as Russia's future energy 
policy. We are now actively engaged with Russia on exploring ways to 
shift the program in a direction that will garner Russian commitment, 
political as well as financial. The absence of such a commitment has 
been a major factor accounting for the delays in their cooperation.

    4. Senator Cornyn. Mr. Paul, do you believe the U.S. and Russian 
programs should continue to be linked? Should they still proceed at a 
parallel pace?
    Mr. Paul. The United States and Russia remain committed to 
proceeding with plutonium disposition in parallel, to the extent 
practicable, as called for in the 2000 agreement. However, vastly 
different political and regulatory infrastructures make meeting 
milestones for U.S. and Russian plutonium disposition facilities at the 
same time difficult. The Department is ready to start construction of 
the U.S. MOX facility in 2006, even though the Russian program has 
lagged behind. However, the Russian Government has recently signaled 
its intent to begin early disposition of limited quantities of weapon-
grade plutonium in its existing fast reactor well before the United 
States could begin disposition of its plutonium. Moreover, the United 
States and Russia are exploring the use of other advanced reactors for 
disposing of the balance of the 34 metric tons of Russian plutonium.

    5. Senator Cornyn. Mr. Paul, if we were to delink the U.S. and 
Russian plutonium disposition programs, what would be the likely impact 
on the Russian program and on the U.S. program?
    Mr. Paul. The 2000 Agreement commits the United States and Russia 
to dispose of 34 metric tons each of surplus weapon-grade plutonium in 
parallel to the extent practicable. While the U.S. is prepared to 
proceed with construction of its MOX facility, Russia is still 
considering various disposal options to meet its commitment. 
Consequently, the U.S. has concluded it's no longer practicable to link 
construction and operation of its MOX facility to the achievement of 
similar milestones for a MOX facility by Russia. The U.S. believes its 
approach will enable both countries to achieve commitments under the 
2000 Agreement in a timely and cost-effective manner.

    6. Senator Cornyn. Mr. Paul, in that case, should the U.S. 
disposition program still be considered a nonproliferation program? Or 
is it then simply a program for disposing of excess U.S. material that 
should be considered in the wider context of DOE nuclear material 
disposition and cleanup?
    Mr. Paul. Yes, the U.S. program is still a critical 
nonproliferation effort because it will yield important 
nonproliferation benefits by eliminating weapons usable nuclear 
material and demonstrating its leadership in nonproliferation to the 
rest of the world.

    7. Senator Cornyn. Mr. Paul, does DOE have a plan to present to 
Congress a clear path forward for both the Russian and the U.S. 
programs before we put any more funds into the program?
    Mr. Paul. A detailed cost estimate and schedule baseline for the 
construction of the U.S. MOX facility is currently being developed and 
will be validated before construction begins as part of the DOE's 
Critical Decision process. The Department will submit to Congress a 
report on the cost and schedule baseline for MOX facility by December 
2006. As for the Russian program, the two sides are working together to 
explore other disposition alternatives based on the use of advanced 
reactors for plutonium disposition. In this regard, Russian officials 
have signaled their intent to begin early disposition of limited 
quantities of weapon-grade plutonium in its existing fast reactor well 
before the United States could begin disposition of its plutonium. 
Moreover, the United States and Russia are exploring the use of other 
advanced reactors for disposing of the balance of the 34 metric tons of 
Russian plutonium. Joint U.S.-Russian technical working groups are 
being established to discuss early Russian disposition, with the first 
meeting planned for May 10-12, 2006. At this time, we cannot predict 
how long the preparations will take.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

   megaports and the second line of defense program and other border 
                          security initiatives

    8. Senator Reed. Secretary Flory and Mr. Paul, the Department of 
Homeland Security (DHS) Domestic Nuclear Detection Office (DNDO) plans 
to establish a global architecture for international border security. 
How will this be coordinated with the Department of State (DOS), which 
has the lead responsibility in coordinating efforts of the DOE and 
Department of Defense (DOD) to prevent nuclear smuggling overseas?
    Mr. Flory. I would refer you to DHS's DNDO and the DOS for an 
understanding of the coordination mechanisms between the two 
organizations regarding DNDO's global architecture.
    Mr. Paul. The DNDO's responsibility to develop the global 
architecture for radiation detection does not obviate the need for the 
DOS's coordination role. In coordination with the DOE, DOD, and DOS, 
the DNDO is focused on developing the overarching multi-layered 
strategy for protection of the U.S. from an act of nuclear terrorism 
(i.e., the Global Architecture), developing more advanced detection 
equipment, and examining methods to facilitate U.S. receipt of 
information on potential nuclear threats in near real-time. The DOE 
continues to have the responsibility for the international deployment 
of radiation detection systems and will continue to consult with DOS on 
its international cooperation programs. DOE is a participant in the 
Nuclear Trafficking Response Group, which is chaired by DOS and is 
responsible for facilitating the coordination of the U.S. Government 
response to all international origin nuclear detection alarms.

    9. Senator Reed. Secretary Flory and Mr. Paul, how does the global 
architecture apply to DOE and DOD programs?
    Mr. Flory. DOD policy and program personnel who work on the 
Cooperative Threat Reduction (CTR) program's Weapons of Mass 
Destruction-Proliferation Prevention Initiative (WMD-PPI) have been 
coordinating closely with DNDO in the development of DNDO's 
international radiation and nuclear detection capabilities data base--
one component of its global nuclear detection architecture.
    DOD's CTR policy office has provided to DNDO specific information 
on the deployment of radiation detection equipment that has been 
provided through its WMD-PPI program, as well as general WMD-PPI 
program background information.
    DOD is placing provisions in its WMD-PPI agreements with CTR 
program recipient states that require reporting, through the U.S. 
Embassy, when any WMD-related material is detected through the use of 
U.S. Government-provided equipment. These reports are sent back to the 
State Department, which shares them with DNDO.
    As its WMD-PPI projects mature, CTR Policy will continue to provide 
project information that is relevant to DNDO's mission.
    I would refer you to DOE for an understanding of how DNDO's global 
architecture applies to its programs.
    Mr. Paul. As the primary agency responsible for international 
deployment of radiation detection equipment, we work closely with DNDO 
to shape the global nuclear detection architecture. The National 
Nuclear Security Administration (NNSA) routinely exchanges programmatic 
and technical information with DNDO to determine how the efforts of the 
Second Line of Defense program can enhance the external layer of the 
Global Architecture.

    10. Senator Reed. Secretary Flory and Mr. Paul, in a report 
released Monday, March 27, 2006, the Government Accountability Office 
(GAO) recommends that the National Security Advisory, acting through 
the National Security Council staff, issue a plan ``guiding the 
implementation and coordination of threat reduction and 
nonproliferation programs addressing border security.'' How does the 
DHS global architecture fit within this recommendation?
    Mr. Flory. I would refer you to DHS and the National Security 
Council regarding this recommendation.
    Mr. Paul. The DHS's DNDO efforts to establish this global 
architecture are focused on baselining the current detection 
capabilities both domestically and internationally and identifying the 
``gaps'' where the establishment of detection or interdiction 
capabilities is required. According to the terms of National Security 
Presidential Directive (NSPD)/HSPD that created this office, the DOE, 
DOS, and DOD remain responsible for the policy and implementation of 
their respective international border security programs. As such, the 
National Security Advisor retains the authority to guide the 
implementation and coordination of such programs.

    11. Senator Reed. Mr. Paul, could you briefly describe the DOE 
Megaports program and explain how it is coordinated with the DHS's 
Container Security Initiative?
    Mr. Paul. The Megaports Initiative is a bilateral international 
nonproliferation program under which DOE/NNSA cooperates with its 
foreign partners to enhance host nation capability to deter and detect 
illicit trafficking in special nuclear and other radioactive materials 
in the international maritime trading system. Under the Megaports 
program DOE/NNSA provides radiation detection systems, training in use 
of the systems, and technical and sustainability support to appropriate 
host nation law enforcement officials. Once installation, training, and 
system evaluation is complete, ownership of the equipment and 
responsibility for its operation transfers to the host government. The 
host government is obligated to provide all data associated with 
detections or seizures made as a result of the use of DOE/NNSA supplied 
equipment to the U.S. Government.
    DOE/NNSA and DHS/Customs and Border Patrol (CBP) have built a 
strong, effective relationship and closely coordinate on the planning 
and implementation of the Megaports Initiative and the Container 
Security Initiative (CSI). The Megaports Initiative enhances CSI 
targeting and scanning activities at foreign seaports by providing an 
additional scanning tool to detect nuclear and other radioactive 
materials in cargo containers prior to being loaded on vessels bound 
for the United States. The broad extent of coordination between CSI and 
the Megaports Initiative is evident in the number of joint outreach 
missions and port assessments we have undertaken, the joint agreements 
we have already signed with host governments, and our efforts to 
identify additional opportunities to jointly implement both programs. 
Finally, for the ports where CSI personnel are present, NNSA is 
developing procedures with our host country counterparts whereby CSI is 
notified of alarms on containers bound for the United States.

    12. Senator Reed. Mr. Paul, some have suggested that these two 
programs be combined into the DHS. What are your views on this idea? 
Would you recommend for or against this proposal?
    Mr. Paul. For a number of compelling reasons, I believe that it is 
imperative that the Megaports Initiative remains within NNSA. The 
Megaports Initiative is a key component of our larger strategy to 
prevent the diversion of nuclear weapons and material. As an extension 
of our efforts to enhance the security of Russia's nuclear complex, the 
deployment of radiation detection monitors at land borders, airports, 
and seaports under the Second Line of Defense program, which includes 
the Megaports Initiative, provides another opportunity to prevent 
terrorist organizations access to nuclear or other radiological 
material. The NSPD that established the DNDO clearly acknowledged DOE/
NNSA's role as the primary source of expertise in dealing with issues 
related to special nuclear and other radioactive materials. Leaving the 
Megaports Initiative within NNSA will allow us to continue to leverage 
this expertise and build upon our solid record of successfully managing 
international nuclear nonproliferation programs.
    To ensure a cohesive international port security program, NNSA and 
DHS's CBP bureau have established a strong, effective partnership that 
allows us to leverage the unique strengths of both of our agencies. 
Although we are working towards the common goal of preventing WMD from 
entering our country, the Megaports Initiative's mission is broader in 
that we are focused on detecting efforts to smuggle nuclear material, 
regardless of the destination. Because CSI is focused on screening U.S. 
bound containers, merging the two programs could result in lost 
opportunities to seize smuggled material or weapons.
    Moreover, NNSA has the contractual infrastructure in place and the 
radiation detection monitors on hand to support deployments into fiscal 
year 2008. We are gaining significant momentum in expanding the 
Megaports program with the completion of eight new agreements in 2005 
and up to six more agreements in 2006. Transferring the program could 
delay further expansion indefinitely as it will require DHS to begin 
anew the building of the expertise and the complex contract/procurement 
processes necessary for this type of specialized work.

    13. Senator Reed. Mr. Paul, while we are on the subject of 
megaports, the GAO report expressed concern about DOE's ability to 
implement its goal of having equipment at 70 ports in 35 countries. By 
this spring DOE will have equipment operating at six ports. The fiscal 
year 2007 budget request for megaports is $40 million down from $73 
million in fiscal year 2006. How do you get from 6 to 70 ports in any 
useful period of time with a 40-percent decrease in the budget?
    Mr. Paul. For fiscal year 2006, we identified opportunities to 
accelerate implementation of the Megaports Initiative and, accordingly, 
sought additional funding for more ports. We did not initially 
anticipate opportunities to sign as many agreements in 2006 when we 
were formulating the fiscal year 2007 budget request. Since we had 
recently completed agreements with countries of high priority to the 
Core program we instead requested additional funds to support 
acceleration of the Core program for fiscal year 2007. To expedite the 
expansion of the Megaports program, DOE/NNSA is also pursuing cost-
sharing arrangements with prospective and current Megaports partners to 
cover additional ports in each country. Finally, we are exploring 
arrangements in which we would partner with the private sector port 
terminal operators to increase the number of international port 
terminals with radiation scanning capability.

    14. Senator Reed. General Cartwright, does Strategic Command 
(STRATCOM) play a role in the planning to prevent global nuclear 
smuggling?
    General Cartwright. Yes. STRATCOM is an integral part of the DOD's 
contribution to the Proliferation Security Initiative (PSI). In 
accordance with Chairman, Joint Chiefs of Staff directives, STRATCOM is 
identifying and assessing required capabilities, advocating for 
research and development, coordinating military intelligence, 
surveillance, and reconnaissance, and providing subject matter experts 
to international PSI meetings and activities. In conjunction with the 
Joint Staff and the Office of the Secretary of Defense, STRATCOM 
personnel are participating actively in the PSI exercise program as 
players, observers, and/or controllers.

    15. Senator Reed. General Cartwright, what is STRATCOM's 
relationship with the DHS DNDO?
    General Cartwright. No formal relationship exists. However, 
STRATCOM headquarters personnel and the command's component for 
combating WMD work closely with the DHS on issues related to nuclear 
detection. The STRATCOM Center for Combating Weapons of Mass 
Destruction (SCC-WMD) and Headquarters J8 directorate continue to 
develop a relationship with the DNDO, working to establish and 
formalize maritime architectures and information sharing. The National 
Military Command Center and the SCC-WMD are part of the Maritime 
Operational Threat Response notification system of United States 
Government departments and agencies to support DNDO's Interagency 
Nuclear Detection Alarm Adjudication Procedures. The SCC-WMD is also 
communicating at the working level to establish better links with the 
DNDO Operation Center, providing DNDO DOD subject matter expertise to 
further enhance timely/effective agency coordination.

                               corruption

    16. Senator Reed. Secretary Flory, General Cartwright, and Mr. 
Paul, corruption and criminal activity are complicated and pervasive in 
many areas of the world where there is a threat of nuclear smuggling. 
The mechanisms for the corruption and criminal activity are equally 
complicated and are often longstanding arrangements. What can the 
United States realistically do to minimize the effect of corruption and 
criminal activity on the efforts to prevent nuclear smuggling?
    Mr. Flory. In a country as large as the Russian Federation, with a 
well-established criminal element, underpaid military and civil 
servants, and widely dispersed storage locations far from central 
control, there is always a threat that local corruption could lead to 
proliferation. The U.S. response to this concern has been to provide 
equipment and training that makes it more difficult for either corrupt 
officials or criminals to obtain nuclear weapons. As a result of the 
joint statement by Presidents Bush and Putin, the DOD and DOE will 
complete security upgrades in 2008 to all nuclear weapons storage sites 
for which the Russian Federation has requested assistance. An automated 
inventory control and management system is now operational, allowing 
the Russian Ministry of Defense real-time inventories of its nuclear 
weapons. In addition, DOD has helped to set up and institutionalize 
within the Ministry of Defense directorate responsible for nuclear 
weapons security a personnel reliability program which is intended to 
protect against any threat from corrupt insiders. Together, these joint 
efforts improve control of the weapons by their lawful custodians, deny 
unauthorized access to weapons, and limit the ability of even a corrupt 
insider to divert any weapon.
    The CTR WMD PPI addresses the potential vulnerability of non-
Russian FSU states' borders to smuggling of WMD and related components. 
The program complements the CTR program's traditional focus, 
elimination of WMD at its sources, by addressing WMD ``on the move.'' 
Projects help develop comprehensive detection and interdiction 
capabilities at key ports of entry and along borders to diminish 
criminal cross-border smuggling activities. These projects help develop 
concepts of operation and include training to international standards. 
Data base upgrades and communications to headquarters help provide 
visibility into operations at outlying locations. These efforts help to 
professionalize the officers of the border services. Of particular 
note, the PPI Portal Monitoring Project in Uzbekistan will incorporate 
an Employee Dependability Program that will assist the Uzbekistan 
customs and border guard leadership in codifying and enforcing 
standards of dependability, conduct and behavior commensurate with 
responsibilities of those operating, maintaining and/or supervising 
radiation portal monitors.
    General Cartwright. The United States should continue to 
participate in and advocate for endorsement of and participation in the 
PSI. The PSI relies upon a supportive global network of partner 
nations, which share intelligence and conduct unilateral or joint 
operations in order to limit proliferation activities, including those 
resulting from criminal or corrupt activities. A multilateral approach 
to this problem is critical for success, and the United States aids 
other nations, particularly in regions of concern in minimizing the 
effect of corruption and criminal activity by fully supporting the PSI, 
and recruiting other nations to join in this effort.
    Mr. Paul. The NNSA has been working for years to understand and 
address the effects of corruption and criminal activity on cooperative 
security programs. First, NNSA strives to maintain an up-to-date, in 
depth understanding of a range of corruption issues in regions of 
concern. This involves NNSA commissioned studies by experts at the 
Transnational Crime and Corruption Center at the American University, 
Rand Corp, et cetera, and continual review of related foreign press and 
intelligence. This analysis includes corruption at various levels, 
including official corruption within governments, and links between 
corrupt officials and criminal networks with varying degrees of 
sophistication. Second, NNSA works to incorporate realistic assumptions 
about corruption into decisions related to cooperative security and 
anti-smuggling projects. For example, corruption factors into 
prioritization models used to rank prospective ports for inclusion in 
the Megaports program. NNSA also designs security systems to make 
official corruption more difficult. Measures such as video surveillance 
at key locations in nuclear facilities or border crossings can provide 
a viable deterrent. Finally, NNSA is working to increase awareness of 
corruption and the tools to address it by including the subject in 
training programs.
    Despite these efforts, NNSA recognizes that crime and corruption 
present a real and lasting challenge to anti-smuggling programs. In 
addition to measures described above, NNSA relies heavily on redundancy 
to combat this threat. Redundant layers of security at facilities, 
regional borders, and in the global shipping system, provide the best 
defense against nuclear smuggling networks.

                            mox fuel program

    17. Senator Reed. Mr. Paul, the United States and Russia agreed to 
each get rid of 34 metric tons of excess weapons grade plutonium. 
Without going into the whole history of the MOX fuel program, and the 
joint agreement to convert excess weapons grade plutonium into MOX fuel 
for nuclear power reactors, I am concerned about several aspects of the 
program:

          1. The ability of the U.S. and Russian program to move in 
        parallel as agreed;
          2. That the Russian Duma will never ratify the liability 
        agreement;
          3. That Russia probably is no longer willing to convert the 
        plutonium to MOX fuel; and
          4. That the U.S. is rushing to build a multibillion dollar 
        facility to convert plutonium into MOX fuel without a good 
        understanding of how Russia will meet its commitment to get rid 
        of 34 tons of excess weapons grade plutonium and without any 
        understanding of parallelism.

    Could you address each of these issues.
    Mr. Paul. The Russian Government has repeatedly stated that it 
remains committed to the 2000 U.S.-Russian Plutonium Management and 
Disposition Agreement, and we expect the Russian Government to fulfill 
its nonproliferation obligations. The United States and Russia remain 
committed to proceeding with plutonium disposition in parallel to the 
extent practicable, as called for in the 2000 agreement. We have been 
reassured by officials from the Russian Ministry of Foreign Affairs and 
the Russian Atomic Energy Agency that there are no substantive problems 
with the agreed upon language in the liability protocol, but rather it 
is a question of the protocol undergoing a complete interagency review 
that has been moving more slowly than expected. We continue to believe 
that the protocol will be signed. Russian officials have assured us 
that once the liability protocol is signed, the two sides can work 
together to seek interim arrangements to enable the terms of the 
protocol to be applied provisionally. The Russian Government recently 
demonstrated its commitment to plutonium disposition by signaling its 
intent to begin early disposition of limited quantities of plutonium in 
its existing fast reactor well before the United States could begin 
disposition of its plutonium. Moreover, the United States and Russia 
are exploring the use of other advanced reactors for disposing of the 
balance of the 34 metric tons of Russian plutonium. As a result, we are 
moving forward with the U.S. plutonium disposition program and plan to 
begin construction of the U.S. MOX facility at the Savannah River Site 
later this year. Further delay in construction would increase the cost 
for the facility, threaten our ability to meet our commitments to South 
Carolina as set forth in existing law and significantly increase the 
likelihood the Department would have to pay penalties and take other 
actions under 50 U.S.C. 2566.

    18. Senator Reed. Mr. Paul, currently, the U.S. plutonium is safe 
and secure at the Savannah River Site. I understand there is a desire 
to ensure that the plutonium stored indefinitely at Savannah River but 
we need to make sure that we have the right budget priorities before we 
spend $2 to $3 billion to make MOX fuel. Is there an alternative and 
higher priority use for these funds in DOE?
    Mr. Paul. No. The administration's fiscal year 2007 request 
reflects the operational priorities of the Office of Defense Nuclear 
Nonproliferation. We have developed comprehensive metrics and a 
prioritization model that identifies the highest threats, considers our 
ability to address those threats over time, and, thus, allows us to 
align our priorities over the fiscal years accordingly. Both the 
previous administration and this administration have stated a 
commitment to dispose of access plutonium through conversion to MOX 
fuel for use in commercial reactors. The administration's fiscal year 
2007 budget request continues to demonstrate that commitment.

    19. Senator Reed. Mr. Paul, I should also note that the DOE IG's 
office recently reviewed the MOX fuel facility and the construction 
cost estimates. The estimate in 2002 was that the facility would cost 
about $1 billion. $950 million has already been appropriated for the 
facility. The IG report indicated that the construction cost has more 
than doubled to between $2 and $3 billion. DOE wants to begin 
construction the end of this year. Is it time to rethink the plutonium 
disposition program?
    Mr. Paul. Although I understand your frustration with the findings 
in the Department's IG report on the U.S. MOX facility, I do not 
believe that it is time to rethink the plutonium disposition program. 
While it is true that project costs have risen, comparing the current 
MOX cost estimate to that which appeared in 2002 is misleading and 
overstates the cost difference. For example, costs appearing in the 
2002 report are in 2001 dollars whereas the current estimate: 1) is in 
future year dollars; 2) reflects sunk costs incurred to date; and 3) 
reflects a 2\1/2\ year delay caused by the liability impasse with 
Russia. In addition, it must be recognized that the cost increase 
results, in large part, from circumstances that cannot be fairly 
attributed to project management. Notwithstanding, the Department has 
already identified and taken action to address each of the 
recommendations in the report. These include incorporating performance 
incentives in future contract negotiations, improving monthly project 
reports from the contractor, controlling contractor spending, and 
reviewing contractor performance. Now that the planned date for the 
start of construction of the MOX facility has been set, the project 
cost and schedule baseline is currently undergoing an independent 
review and validation prior to the start of construction. This will 
enable us to track project performance against the baseline and 
minimize the possibility of future cost overruns. Plans are also 
underway to hire a qualified MOX Federal Project Director and to 
streamline the organizational structure of the project.

                         bratislava commitment

    20. Senator Reed. Secretary Flory and Mr. Paul, at the Bratislava 
summit, Presidents Bush and Putin agreed to a joint effort to improve 
security at 15 key Russian nuclear weapons storage sites by 2008. To 
meet this goal DOE and DOD have divided responsibility for the sites 
between them and must begin work in 2006. DOE received additional money 
in its fiscal year 2006 budget to begin its work in 2006, and DOD has 
requested $46 million in the fiscal year 2006 supplemental, now 
awaiting congressional action, to begin work in 2006. With the 
supplemental does each agency have enough money to do the work needed 
in 2006 to make the 2008 goal?
    Mr. Flory. If the requested supplemental funds are appropriated as 
CTR funds (as opposed to operations and maintenance funds), DOD will 
have, along with its fiscal year 2007 request, sufficient funds to 
complete the security upgrades at the 8 nuclear weapons sites assigned 
to DOD for upgrading (of the total 15 sites).
    By the end of 2006, DOD also will have completed upgrades at nine 
other storage sites and three rail transfer sites, while continuing to 
upgrade security at four other sites begun in 2005. The sites being 
upgraded are storage facilities for strategic and nonstrategic nuclear 
weapons.
    Mr. Paul. Given the supplemental funding received by the DOE to 
meet its Bratislava commitment, DOE has enough funding to meet the 2008 
goal of completing its portion of the work at the 15 key Russian 
nuclear weapons storage site by 2008.

    21. Senator Reed. Secretary Flory and Mr. Paul, is the work of DOE 
and DOD coordinated? Previously GAO has been critical of the two 
agencies for using different approaches for securing materials. Will 
both agencies be using similar approaches to secure the materials?
    Mr. Flory. DOD coordinates closely with DOE and the interagency to 
ensure that a common approach is being used to upgrade security for 
nuclear weapons in the custody of the Russian Ministry of Defense.
    Mr. Paul. Yes, both DOE and DOD have been coordinating on their 
approaches to work at these sites and have developed preliminary 
designs to enhance security at similar sites. Meetings between either 
party and their MOD counterparts are usually attended by a 
representative from the other agency to ensure continuity of approach.

                                stratcom

    22. Senator Reed. General Cartwright, the Quadrennial Defense 
Review (QDR) appears to give the Special Operations Command (SOCOM) 
additional responsibility for the render safe role. The DOE and its 
national labs provide technical support for the nuclear render safe 
mission. What is STRATCOM's role in the mission to render safe stolen 
or other WMD, including nuclear devices and do you plan to change these 
relationships in any way?
    General Cartwright. STRATCOM is currently in the process of 
validating the render safe roadmap set forth in the QDR. We believe 
that the current SOCOM/STRATCOM/DOE relationship is fundamentally 
sound.

    23. Senator Reed. General Cartwright, is the new render safe focus 
on large scale operations to identify and destroy large stockpiles of 
nuclear, chemical, and biological weapons and materials along the lines 
that the Bush administration thought were in Iraq before March 2003?
    General Cartwright. No, render safe focuses on the disarming of 
weapons once the target has been temporarily secured. The Joint Task 
Force-Elimination will focus on large-scale elimination of WMD 
capabilities.

    24. Senator Reed. General Cartwright, in your prepared testimony, 
you identify one of your key initiatives as ``Improve and expand U.S. 
forces' capabilities to locate, track, and tag shipments of WMD.'' 
Could you provide some additional explanation as what you plan to do 
under this key initiative?
    General Cartwright. The Chairman, Joint Chiefs of Staff directive 
on the ``PSI Activity Program,'' delineates specific STRATCOM tasks and 
responsibilities. These include ``identify and assess required U.S. 
military WMD interdiction capabilities . . .'' and ``advocate, support 
and monitor research and development associated with U.S. military WMD 
interdiction capabilities . . .'' In conjunction with interagency and 
international PSI partners, these STRATCOM efforts will result in an 
improved ability for U.S. forces to locate, track, and tag shipments of 
WMD.

   russian chemical weapons destruction facility--cooperative threat 
                           reduction program

    25. Senator Reed. Secretary Flory, there have been several delays 
in the construction of the Russian chemical weapons destruction project 
at Shchuch'ye. The reasons for the delays have varied from 
subcontractor bankruptcies to a reorganization of the Russian 
government. The current schedule calls for first agent destruction/
initial live agent operations at the end of 2008 and transfer to Russia 
in July 2009 for full operation. What is the estimated total project 
cost of the facility?
    Mr. Flory. DOD expects to complete the work within the current 
budgeted funds of $1,039.2 million. However, as a result of delays in 
completing the construction of the project's primary destruction 
building, final project costs cannot be projected with certainty. We 
will revise our schedule and know whether we can complete the project 
within our budget once the proposal is awarded. If there is a 
shortfall, DOD may in the future have to chose between either 
requesting additional funds or consulting with other partners to share 
the cost.

    26. Senator Reed. Secretary Flory, will the live agent startup date 
be met? If startup will not occur by the end of 2008, when will it 
occur?
    Mr. Flory. Live agent startup is currently scheduled for May 2008. 
Given the delay in awarding the contract to complete the main chemical 
weapons destruction building at Shchuch'ye, startup may be delayed by 
approximately a year to mid-2009.

    27. Senator Reed. Secretary Flory, how long after live agent 
destruction begins will the operational handoff to Russia begin?
    Mr. Flory. The United States and Russia have agreed to transfer 
custody of the Shchuch'ye Chemical Weapons Destruction Facility (CWDF) 
as soon as we have verified initial operational capability and design 
capacity. This verification involves the destruction of a limited 
number of live agent chemical munitions during a 10-day period. 
Operation of the CWDF to destroy the nerve agent stockpile is solely 
the responsibility of the Russian Federation.

    28. Senator Reed. Secretary Flory, will the United States continue 
to fund its commitment to complete the project including the design and 
construction of the facility; equipment acquisition and installation; 
systems integration; training; and facility startup?
    Mr. Flory. Yes, we intend to complete the project including the 
design and construction of the facility; equipment acquisition and 
installation; systems integration; training; and facility startup.

    29. Senator Reed. Secretary Flory, the CTR fiscal year 2007 budget 
includes $42.7 million for chemical weapons in Russia. How much is for 
Shchuch'ye?
    Mr. Flory. The entire fiscal year 2007 budget of $42.7 million for 
chemical weapons destruction in Russia is for the Shchuch'ye CWDF.

    30. Senator Reed. Secretary Flory, will funding be requested for 
Shchuch'ye after fiscal year 2007?
    Mr. Flory. DOD expects to complete the work within the current 
budgeted funds of $1,039.2 million. However, as a result of the 
collapse of negotiations previously described and the attendant delay, 
final project costs cannot be projected with certainty. We will revise 
our schedule and know whether we can complete the project within our 
budget once the new proposal is awarded. If there is a shortfall, DOD 
may in the future have to chose between either requesting additional 
funds or consulting with other partners to share the cost.

    31. Senator Reed. Secretary Flory, will the CTR program fund the 
training and live agent startup?
    Mr. Flory. Yes, we intend to provide training and verification of 
initial live agent operational capability.

caspian sea maritime proliferation prevention program in azerbaijan and 
                               kazakhstan

    32. Senator Reed. Secretary Flory, the funding for the Caspian Sea 
Maritime Proliferation Prevention Programs in Azerbaijan and Kazakhstan 
goes up substantially, from $7 million to $19 million. What is driving 
this increase, what is the program buying, and can this increase be 
executed?
    Mr. Flory. The increase is driven by the beginning of project work 
in Kazakhstan at the same time we are continuing work in Azerbaijan. 
The Caspian Sea Maritime Proliferation Prevention Projects in 
Azerbaijan and Kazakhstan support the development of a comprehensive 
capability for maritime surveillance and WMD detection and interdiction 
on the Caspian Sea borders. The project in Azerbaijan will build on 
previous assistance that established an interim command and control 
center; provided vessel maintenance assistance; enhanced detection 
capabilities by developing guides, handbooks, and procedures; and 
provided maintenance and logistics system enhancements and training. 
This year, assistance includes repair and upgrades of patrol and 
support craft; completion of the Astana Boat Basin in southern 
Azerbaijan; revision of the detection and interdiction concept of 
operations; and enhancement of a coastal surveillance system, including 
24/7 radar operations. We anticipate a formal notification from the 
Government of Azerbaijan that the Azerbaijan Navy will play a 
supporting role to the Coast Guard in prosecuting its WMD detection and 
interdiction mission, and identification of the site for permanent 
command and control center. This will permit construction of the new 
center.
    Fiscal year 2006 marks the beginning of the Caspian Sea Maritime 
Proliferation Prevention project with Kazakhstan. DOD teams twice have 
visited Kazakhstan to help determine the project's requirements. Teams 
have met with officials from the Kazakhstan Ministry of Defense, 
Maritime Border Guard, and Navy, and have visited operating bases, a 
maritime operations center, and a joint Navy-Maritime Border Guard 
training center on the Caspian Sea. While the assessments--including a 
concept of operations evaluation--are still ongoing, some fiscal year 
2006 funds will procure WMD detection equipment and training, boarding 
officer training, and enhancements of maintenance facilities and 
technical surveillance posts.
    This increase will be executed to improve WMD detection and 
interdiction on the Caspian Sea borders.

    33. Senator Reed. General Cartwright, is the Caspian Sea program 
coordinated with STRATCOM's combating WMD mission?
    General Cartwright. Yes, when the DOD draft Concept Plan is 
approved, the Caspian Sea program will be linked through the respective 
regional combatant commander's combating WMD campaign plans.

    34. Senator Reed. General Cartwright, how does the CTR program 
support your mission?
    General Cartwright. The CTR supports our mission through the dual 
aims of safeguarding and eliminating nuclear and other weapons in the 
former Soviet Union and to prevent the proliferation of WMD through the 
PPI. Every weapon secured or destroyed through the CTR program is one 
less weapon that the adversary may acquire and use against the United 
States.

    35. Senator Reed. General Cartwright, does this effort support the 
PSI?
    General Cartwright. The CTR supports the overall PSI program. When 
weapons are destroyed, secured, or otherwise interdicted, the 
proliferators are forced to expend more resources to obtain 
replacements.

   nuclear detection sensor on global positioning systems satellites

    36. Senator Reed. General Cartwright and Mr. Paul, I understand 
that there is an issue as to whether the Global Positioning System 
(GPS) III and possibly some of the GPS IIF satellites will include as a 
payload the nuclear detection (NUDET) sensor package. The DOE/NNSA 
develops and builds the NUDET sensor package and the Air Force is 
responsible for integration. The sensor detects nuclear weapon 
detonations. Inclusion of this sensor on GPS has always been a high 
priority for STRATCOM. What is the issue and will the NUDET sensor be 
on all future GPS satellites including all GPS III satellites?
    General Cartwright. Historically, power management on older GPS 
satellites has been the issue. Weight and power management are future 
GPS III considerations. Air Force Space and Missile Systems Center 
(SMC) are currently integrating NUDET sensors onto the follow-on GPS 
IIF satellites, and plan to host nuclear detonation detection sensors 
on the next generation GPS III satellites. STRATCOM is agnostic as to 
the platform this sensor will be placed upon, so long as the capability 
exists in a timely manner.
    Mr. Paul. NUDET sensor packages are on all current GPS satellites 
including the on-orbit GPS Block IIA & IIR satellites and the GPS Block 
IIF satellites that are in production. It has become a practice to turn 
off the NUDET sensors on older satellites that have lived beyond their 
design life, after the solar panels can no longer produce enough power 
to supply both the NUDET sensors and the navigation payload thus 
enabling continued use of the satellite in support of navigation 
requirements. This results in occasional reductions in the NUDET sensor 
coverage until new satellites replace these older GPS satellites. The 
next generation of GPS satellites (GPS Block III) are expected to have 
tighter constraints on the power and weight available to support the 
NUDET sensor package. NNSA is working to develop technology to reduce 
the size, weight, and power of future NUDET sensors while still meeting 
all the NUDET mission requirements. Concurrently, NNSA is working with 
STRATCOM, other elements of the DOD, and other NUDET sensor customers 
to review the detection requirements as well as alternative sensor 
technology and system approaches for meeting the requirements. The 
base-line strategy for satisfying NUDET detection requirements is to 
place NUDET sensor packages on all GPS Block IIF and GPS Block III 
satellites.

                        research and development

    37. Senator Reed. Mr. Paul, the DOE/NNSA's research and development 
program funds the Nation's basic research program for nuclear 
detection, proliferation, and monitoring, as well as other activities. 
I am concerned that the funding for this program is not adequate to 
meet all of the research missions. What work is being deferred based on 
the fiscal year 2007 budget request?
    Mr. Paul. The President's fiscal year 2007 budget request supports 
the research mission of the Proliferation Detection Program. Future 
funding increases could be used to accelerate the development of 
systems that can remotely detect and identify clandestine proliferation 
activities and the transition of these systems to operational detection 
of uranium-235 enrichment and plutonium reprocessing activities.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                   global nuclear energy partnership

    38. Senator Clinton. Mr. Paul, in its fiscal year 2007 budget 
request, the DOE asked for $250 million for the Global Nuclear Energy 
Partnership (GNEP). Based on DOE estimates, the fiscal year 2008 and 
fiscal year 2009 costs would total $1.55 billion. Funding would 
continue to increase, totaling $13 billion for the 10-year 
demonstration phase of the program. Note that these costs are merely 
for the demonstration phase. A 1996 National Academy of Sciences study 
concluded that reprocessing and transmutation of existing fuel from 
U.S. reactors could cost upwards of $100 billion, but does not address 
the cost to implement the program globally.
    As this is envisioned as a program with worldwide reach that could 
cost such a large amount to taxpayers, I would appreciate your 
assistance in understanding how GNEP would compliment the global 
nonproliferation regime and the administration's nonproliferation 
priorities.
    What nonproliferation benchmarks will the administration require 
that nations meet in order to take part in GNEP?
    Mr. Paul. GNEP proposes to increase global access to nuclear energy 
while promoting our nonproliferation objectives. GNEP seeks to 
demonstrate the nuclear technology systems that would make this 
possible over the next 2 decades while avoiding the costs of additional 
geologic repositories in the United States that would otherwise be 
required. Sustained operation of GNEP will ultimately be on a 
commercial basis, with supplier states leveraging their investments in 
the fuel cycle as a way for other partner states to benefit from 
nuclear energy while forgoing enrichment and reprocessing.
    We envision that states that participate in GNEP must adhere to 
essential nonproliferation commitments, for example, implementing the 
International Atomic Energy Agency (IAEA) additional protocol, 
complying with IAEA safeguards and Additional Protocol obligations, 
maintaining the latest international standards for physical protection 
of nuclear material. States that participate as recipients in the GNEP 
fuel leasing regime would also be expected to voluntarily refrain from 
developing enrichment and reprocessing capabilities as part of this 
arrangement. Beyond these essential conditions, we would want GNEP 
partners to subscribe to the general nonproliferation principles or 
goals that shape the GNEP vision, including committing to the building 
of advanced safeguards into new recycling and reactor technologies to 
ensure they are used for exclusively civil purposes, reducing stocks of 
separated plutonium and eventually bringing these stocks into 
equilibrium, creating a sensible timescale for fuel cycle states to 
move from PUREX to recycling technologies that do not result in 
separated plutonium, building proliferation resistance into new small 
reactor designs that can be safely deployed in the developing world, 
and creating a regime in which suppliers of fresh fuel can take back 
spent fuel for recycle or identify an approved path forward for spent 
fuel that will meet nonproliferation concerns.

    39. Senator Reed. Mr. Paul, will nations have to have ratified the 
Nuclear Nonproliferation Treaty? The Additional Protocol?
    Mr. Paul. The specific details of the framework for various 
international transactions under GNEP are still being developed. 
However, the Department anticipates that all activities that the United 
States will pursue with foreign partners will be in conformity of the 
Atomic Energy Act of 1954 and with Nuclear Suppliers Group Guidelines. 
As the United States develops its technology roadmap and identifies its 
potential partners, it will seek to strengthen the overall 
nonproliferation regime, including compliance with the objectives the 
NPT and the overall IAEA safeguards regime. Furthermore, as the 
Additional Protocol becomes widely accepted and ratified the Department 
anticipates that it will become part of the baseline requirements for 
nuclear cooperation within the Nuclear Suppliers Group, and thus become 
a standard element for all nuclear transactions with foreign partners 
including transactions under GNEP.

    40. Senator Reed. Mr. Paul, in order to implement the GNEP program 
internationally, will there have to be changes to the Nuclear Suppliers 
Group Guidelines?
    Mr. Paul. No, the NSG Guidelines will not have to be amended to 
implement GNEP. The Guidelines have been developed over the past 30 
years to allow for the promotion of the nuclear fuel-cycle with 
stringent nonproliferation standards.

    41. Senator Reed. Mr. Paul, IAEA Director General El Baradei has 
proposed that the IAEA manage a fuel bank to act as supplier of last 
resort to guarantee the supply of nuclear fuel so that states do not 
need to produce their own fissile material. What is the 
administration's position on the IAEA proposal, and how would it affect 
the GNEP?
    Mr. Paul. One of the key goals of the GNEP is to establish a fuel 
cycle services program that would allow developing nations to acquire 
and use nuclear energy economically while minimizing the risk of 
nuclear proliferation. The United States is working with supplier 
states and the IAEA to establish a fuel supply mechanism that could be 
used by states that forego enrichment and reprocessing in the event of 
a fuel supply disruption. The IAEA would play a central role as 
facilitator between supplier and recipient to resolve such problems.
    As an additional step to support this mechanism, the DOE is setting 
aside up to 17 MT HEU--from a stock that was previously declared in 
excess of national security needs--to be down-blended under IAEA 
verification and prepared for use as fuel in civilian reactors. This 
material will be the first contribution to a nuclear fuel reserve, and 
we will consider placing additional uranium in this reserve. We 
encourage other nations to join us in this initiative.

    [Whereupon at 11:47 a.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2007

                              ----------                              


                        WEDNESDAY, APRIL 5, 2006

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

          DEPARTMENT OF DEFENSE'S ROLE IN COMBATING TERRORISM

    The subcommittee met, pursuant to notice, at 11:36 a.m., in 
room SR-222, Russell Senate Office Building, Senator John 
Cornyn (chairman of the subcommittee) presiding.
    Committee members present: Senators Cornyn, Warner, and 
Reed.
    Committee staff members present: Leah C. Brewer, 
nominations and hearings clerk; and John H. Quirk V, security 
clerk.
    Majority staff member present: Sandra E. Luff, professional 
staff member.
    Minority staff members present: Evelyn N. Farkas, 
professional staff member; and Richard W. Fieldhouse, 
professional staff member.
    Staff assistant present: Jessica L. Kingston.
    Committee members' assistant present: Russell J. Thomasson, 
assistant to Senator Cornyn.

       OPENING STATEMENT OF SENATOR JOHN CORNYN, CHAIRMAN

    Senator Cornyn. The subcommittee reconvenes in open session 
to receive further testimony on the Department of Defense's 
(DOD) role in combating terrorism.
    For the record, we just concluded a closed session and are 
now reconvening in open session.
    Secretary O'Connell, during the closed session, you did not 
provide an opening statement, although we have heard a number 
of answers to a variety of questions. If you have anything you 
would like to add by way of an opening statement in this open 
session, we would be glad to give you that opportunity now.

 STATEMENT OF HON. THOMAS W. O'CONNELL, ASSISTANT SECRETARY OF 
   DEFENSE FOR SPECIAL OPERATIONS AND LOW-INTENSITY CONFLICT

    Mr. O'Connell. Sir, I will be very brief.
    Mr. Chairman and distinguished members of the subcommittee, 
I appreciate the opportunity to testify about the status of our 
Nation's superb Special Operations Forces (SOF) and the 
increasing ability of U.S. Special Operations Command (SOCOM) 
to respond to current and emerging transnational terrorist 
threats, as well as evolving asymmetrical threats. I have an 
extended statement for the record.
    Sir, the recently published 2006 Quadrennial Defense Review 
(QDR) accurately states that we are in a long war and it is 
irregular in nature. This long war is characterized by 
dispersed, global terrorist networks with radical aims that 
directly and indirectly threaten the United States and our way 
of life. The nature of this long war requires the U.S. Armed 
Forces to adopt unconventional and indirect approaches to 
ultimately prevail in this struggle. The report further 
emphasizes the important and necessary changes needed to 
prepare SOF and other forces to respond to wide asymmetric 
challenges. The result of this emphasis is a significantly 
expanded SOF program that will qualitatively increase not only 
SOCOM's capabilities but also its capacities to confront and 
prevail against a global terrorist network.
    I would like to commend my colleague, Vice Admiral Eric 
Olson, for his work on behalf of SOCOM in the QDR. I think the 
results reflect a great deal of effort on the part of he and 
his team.
    The fiscal year 2007 President's budget submission for 
SOCOM is $5.2 billion, excluding military pay. That is an 
increase of 27 percent over the fiscal year 2006 submission. 
This increase is essential to support the DOD's QDR decision to 
increase SOF capability and capacity to conduct low-visibility, 
persistent presence missions and a global unconventional 
warfare campaign.
    The budget submission continues to strengthen the command, 
reflecting QDR guidance to increase SOCOM's military capability 
and capacity. It will enable SOCOM to add over 1,300 personnel 
to specifically find, fix, and finish terrorist networks; 
maintain sustained operations in areas where terrorist networks 
are operating; continue the investment in critical fixed-wing, 
rotary-wing, and unmanned aircraft that provide SOF with the 
mobility necessary to deploy and execute their missions 
quickly; invest in additional Active and Reserve component 
civil affairs and psychological operations force structure; and 
support the newly created Marine Corps Special Operations 
Command (MARSOC) providing SOCOM greater flexibility and 
capability to fight terrorism.
    I would certainly like to thank this committee and Congress 
as a whole for their support of our Nation's SOF. Your 
continued interest and support of the President's budget is 
essential in sustaining this critical SOCOM effort.
    I welcome your questions, sir.
    [The prepared statement of Mr. O'Connell follows:]

             Prepared Statement by Hon. Thomas W. O'Connell

    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to testify about the status of our Nation's 
superb Special Operations Forces (SOF) and the increasing ability of 
the United States Special Operations Command (SOCOM) to respond to 
current and emerging transnational terrorist threats as well as 
evolving asymmetrical threats.
    The recently published 2006 Quadrennial Defense Review (QDR) report 
accurately states that we are in a long war that is irregular in 
nature. This long war is characterized by dispersed, global terrorist 
networks with radical political aims that directly and indirectly 
threaten the United States and our way of life. The nature of this long 
war requires the U.S. Armed Forces to adopt unconventional and indirect 
approaches to ultimately prevail in this historic struggle. The report 
further emphasizes the important and necessary changes needed to 
prepare SOF and other forces to respond to wide asymmetric challenges. 
The result of this emphasis is a significantly expanded SOF program 
that will qualitatively increase not only SOCOM's capabilities but also 
its capacities to confront and prevail against the global terrorist 
network threat.
    Title 10, section 138 requires my position to provide civilian 
oversight of special operations activities of the Department of Defense 
(DOD). I am responsible for ensuring that our SOF are appropriately 
tasked and employed, and that senior policymakers, to include our 
interagency partners, understand SOF capabilities as well as their 
limitations. Not only am I an advocate of the SOCOM and SOF, I am also 
dedicated to ensuring our elements continue to be the best trained, 
best equipped, most flexible, and effective fighting force available to 
our country. I consult closely with General Brown on a wide range of 
policy issues and participate in the SOCOM Board of Director's 
meetings, the Command's executive resource body. This effort produces a 
SOF program and budget that stress force readiness and sustainability, 
and provides sufficient force structure to meet the demands of the 
geographic combatant commanders and General Brown in his role as the 
supported commander in the global war on terrorism.
    I'd like to recognize the superb effort of General Brown's Deputy 
Commander, Vice Admiral Eric Olson, for his SOCOM team's work on the 
QDR. SOCOM was well prepared to present an objective blueprint for SOF 
growth and posture. They put a combatant commander's fingerprints on 
the QDR process, which I believe improved the result. A key component 
of that strategy has been the unwavering support of members of this 
committee, the full House and Senate in delivering the necessary 
support, congressional oversight, and critical review for SOF programs 
and initiatives. We've had successes and, yes, some setbacks with our 
programs, but I believe we've taken a prudent course in building both 
capability and capacity for the long war. The fiscal year 2007 
President's budget submission for SOCOM is $5.2 billion (excluding 
military pay), an increase of 27 percent over the fiscal year 2006 
submission. This fiscal year 2007 increase is essential to support the 
Department's QDR decision to increase SOF capability and capacity to 
conduct low-visibility, persistent presence missions and a global 
unconventional warfare campaign.
    The fiscal year 2007 President's budget submission continues to 
strengthen the command, reflecting QDR guidance to increase SOCOM's 
military capability and capacity. It will enable SOCOM to: 1) add over 
1,300 personnel to find, fix, and finish terrorist networks; 2) 
maintain sustained operations in areas where terrorist networks are 
operating; 3) continue the investment in critical fixed-wing, rotary-
wing, and unmanned aircraft that provide SOF with the mobility 
necessary to deploy and to execute their missions quickly; 4) invest in 
additional Active and Reserve component civil affairs and Psychological 
Operations (PSYOPs) force structure; and 5) support the newly created 
Marine Corps Special Operations Command (MARSOC), providing SOCOM 
greater flexibility and capability to fight terrorism.
    I would like to thank this committee and Congress for your support 
of this Nation's SOFs. Your continued interest and support of the 
fiscal year 2007 President's budget submission will be essential to 
sustain this critical funding for SOCOM.
    We are faced by interacting networks--sometimes structured--of 
radical extremists who inflict terror with minimal concern for their 
innocent victims. These networks will migrate to places where they can 
survive, operate, and grow. Our challenge is to develop counter-
networks to monitor, isolate, disrupt, and destroy hostile elements. 
SOCOM has started this process. While some of SOCOM's operations are 
visible, there has been a substantial investment in low-visibility and 
clandestine activities. Our Army Special Forces, Army Special 
Operations Aviation Forces, Army Rangers, Navy SEALs and Special Boat 
Units, Army Civil Affairs, Army Psychological Operations units, Air 
Force Special Operations crews and staffs, Combat Controllers and 
Weather Teams, have served U.S. Central Command requirements very well 
from their counter-insurgency and foreign internal defense roles in 
Afghanistan and Iraq to their work in the Horn of Africa. Most 
importantly, SOCOM Forces operate in the only environment that can lead 
to success: Joint, Interagency, Combined, and Coalition.
    SOCOM is also increasing its capacity to conduct operations against 
the threat:

        <bullet> The recently activated MARSOC with its organic 
        operational and foreign training units provides SOCOM 
        additional depth and operational flexibility in irregular 
        warfare.
        <bullet> A programmed one-third increase in Active-Duty Special 
        Forces battalions will improve SOCOM's rotation base. 
        Similarly, there is a programmed one-third increase in Civil 
        Affairs and PSYOPs units, both Active and Reserve component. 
        These force level increases allow additional time between 
        deployments to refit and reconstitute units that will improve 
        their readiness posture. Coupling this force level increase and 
        a flexible basing and rotation strategy will meet the demands 
        of the Secretary of Defense and the President as well as the 
        Nation as the unknown unfolds.

    My position in the Pentagon also gives me a unique perspective on a 
number of initiatives to expand the authorities that govern SOCOM and 
geographic combatant commander's operations. These initiatives are 
slowly but surely moving together to match national and military 
strategies.

        <bullet> On the stability operations front, we've seen advances 
        in authorities that will allow greater efforts in train and 
        equip missions, peacekeeping initiatives, and capacity building 
        while partnering with Department of State. Section 1206 of the 
        National Defense Authorization Act for Fiscal Year 2006 permits 
        the Secretary of Defense, at the direction of the President, to 
        conduct or support programs to build foreign military capacity 
        counterterrorism or stability operations. The Joint Staff and 
        combatant commands are actively identifying opportunities to 
        enable partner nations to seize opportunities and counter 
        unexpected threats through assistance under this authority. We 
        are working with the combatant commands, the Joint Staff, and 
        our colleagues at the Department of State to plan potential 
        assistance under this authority and, once directed by the 
        President, to efficiently and effectively implement designated 
        assistance programs. I want to stress that we fully expect this 
        type of authority will be extremely helpful in meeting the 
        needs of our combatant commanders for more flexibility in 
        working with international partners against today's 
        unpredictable threats.
        <bullet> The National Defense Authorization Act for Fiscal Year 
        2006 also established a DOD security and stabilization 
        assistance authority, section 1207, which authorizes DOD 
        support to the Department of State for civilian deployments and 
        programs in countries falling into or emerging from conflict. 
        The DOD is working closely with the Department of State's 
        Coordinator for Stabilization and Reconstruction to determine 
        the most effective means of using this transfer authority to 
        deploy civilian experts and facilitate the provision of 
        reconstruction, security, or stabilization assistance. We need 
        substantial congressional support for the President's fiscal 
        year 2007 request that will support efforts to build civilian 
        capabilities for tasks like stabilization and reconstruction. 
        Although requests for the Department of State and other 
        agencies are outside the responsibility of this committee, I 
        want to stress to the committee that civilian capabilities will 
        be critical to the Nation's long-term success against terrorism 
        and could reduce the stress on U.S. forces by precluding the 
        need for certain deployments.
        <bullet> Our Counternarcotics (CN) portfolio provides very 
        robust longstanding train and equip authorities and resources 
        that permit maximum flexibility for combatant commanders as 
        they develop tactics, techniques, and procedures to combat 
        smugglers, pirates, narcoterrorists, money launderers, 
        proliferators, and other networks. Our foreign CN training 
        efforts are proving a valuable adjunct to our counterterrorism 
        efforts and provide U.S. access to countries for 
        counternarcotics activities whose governments may not allow 
        U.S. in for other reasons. Our close partners from the British 
        SOFs now assist a key Afghan CN element that has been highly 
        successful in seizures over the last year.
        <bullet> The authority provided by Congress last year in 
        section 1208 of the Ronald W. Reagan National Defense 
        Authorization Act for Fiscal Year 2005 is being used 
        effectively by the command to train, pay, equip foreign 
        indigenous forces, and build indigenous capabilities essential 
        to developing counterterrorism networks. As we exercise this 
        authority on the ground, we are getting smarter at how best to 
        employ this very unique tool.
        <bullet> SOCOM was granted relief from title 5 Personal Service 
        Contract prohibitions. This allows DOD to authorize personal 
        services contracts for the purpose of hiring SOF expertise and 
        recruiting long-term sources and assets in support of the 
        global war on terror. The additional authority allows flexible 
        response to emerging situations and the ability to tap into 
        previously unexploited resources.

    As SOCOM undergoes stressful periods of change during this long 
war, there will remain one constant: the importance of our human 
capital investment in the special operator. In terms of missions 
performed and in the qualities of the individuals who undertake those 
missions, the special operator is truly unique and requires a different 
type of mindset on our end in terms of planning and support. Our 
starting point has always been and must continue to be what we call the 
``SOF Truths,'' which are essentially statements of the fundamentals: 
``Quality is better than quantity. SOFs cannot be mass produced. 
Competent SOFs cannot be created after a crisis occurs. Humans are more 
important than hardware.'' I pay special tribute to the superb 
officers, noncommissioned officers, and civilians of the command who 
live and enforce these truths every day.
    These truths have been reaffirmed by the awe-inspiring performance 
of our SOFs in Afghanistan, Iraq, Colombia, the Philippines, and many 
other countries around the world. I hope one day we may be able to 
fully reveal their story. They could not meet their mission 
requirements without the superb support of the Secretary of Defense, 
the department staff, the Joint Staff, and the military departments.
    It is also with the support of Congress that SOCOM has moved so far 
and will continue to do so.
    I would like to conclude by highlighting the implications the 
posture, programming and policy for SOF in the war on terrorism have 
for all aspects of our Nation's defense. Our Special Operators have 
often been the innovators for the larger military, and the SOF mindset 
has been the incubator of innovation. That is especially true today. 
With the shift from SOF being postured for reactive, regional 
contingencies to being a global, proactive, and preemptive force, we 
are witnessing a key evolution in how we must conduct our security 
affairs in the future and address those ``safe havens,'' and build 
capacity to deal with those who would harm our country.
    Finally, a personal note--repeated from last year. Whenever 
possible, I attend funerals of SOF personnel at Arlington National 
Cemetery. It is indeed a high honor to represent the DOD. When I look 
into the eyes of widows, children, parents, and other relatives of our 
fallen heroes, I understand that there is no ``quit'' in their 
demeanor. We must honor their service and sacrifice. They are an 
inspiration to all who witness their courage and spirit. Your support 
is critical to the success of our SOFs. I thank you for your careful 
scrutiny of our program and budget. Together, we can continue to help 
move our SOFs into a position of prominence that will continue to press 
the fight against America's enemies.
    Thank you for your continued support. I welcome your questions.

    Senator Cornyn. Thank you, Secretary O'Connell.
    I will also note that because of the very helpful testimony 
we received during the closed session, we are going to be a 
little cramped for time this morning on our open session. We 
will have to adjourn no later than noon, but that does not mean 
our inquiry into these subjects will end. We will continue to 
be in discussion with you about them, and we will have follow-
on hearings on many of the matters that we are discussing today 
in public session. So there will be no shortage of public 
discussion and debate about these important issues.
    Senator Warner. Could I make just one comment?
    Senator Cornyn. Certainly.
    Senator Warner. I, in closed session, mentioned that 
General Brown has served in his capacity very well, and the 
Secretary indicates that the Secretary of Defense recently 
asked that he extend. I think that is a very commendable 
recommendation by Secretary of Defense Rumsfeld, and there 
certainly is no consideration of this committee at this time 
for any replacement. I do hope he accepts that post, and we are 
fortunate as a Nation to have him continue in office. So give 
him my warmest regards. I have the highest personal regard for 
him and his professional abilities.
    Thank you very much, Mr. Chairman.
    Senator Cornyn. Thank you, Chairman Warner.
    I am going to make my opening statement for the closed 
session part of the record and now recognize Senator Reed.
    [The prepared statement of Senator Cornyn follows:]
               Prepared Statement by Senator John Cornyn
    The subcommittee reconvenes in open session to receive testimony on 
Department of Defense's role in combating terrorism. We welcome our 
distinguished witnesses and commend each of you for the leadership you 
provide:

         The Honorable Thomas W. O'Connell, Assistant Secretary of 
        Defense for Special Operations and Low Intensity Conflict;
         Vice Admiral Eric T. Olson, Deputy Commander, U.S. Special 
        Operations Command (SOCOM);
         Vice Admiral (Retired) John Scott Redd, Director, National 
        Counterterrorism Center (NCTC); and
         Jeffrey N. Rapp, Director, Joint Intelligence Task Force-
        Combating Terrorism, Defense Intelligence Agency.

    We also thank you for a very thorough, analytical, overview of the 
transnational terrorist threats that face our Nation, our interests, 
and our allies.
    Key lessons of September 11, 2001, highlighted the need for our 
Nation's intelligence agencies to work together as a single unified 
enterprise--and also caused us to review the manner in which our 
forces--specifically, our Special Operations Forces (SOF) are 
organized, trained, and equipped.
     Although much progress has been made in the long war against 
terrorism--and I want to recognize the instrumental role our witnesses 
contributed to the success we have achieved--we also recognize that 
terrorist organizations, as well as the growing threat from global 
jihadist networks, continue to pose a significant threat to our 
national security.
    Moreover, this very sentiment was highlighted by the Director of 
National Intelligence, Ambassador Negroponte, on February 28, 2006, 
when he testified before the full committee. He stated:

          ``Let me begin with a straightforward statement of 
        preoccupation--terrorism is the preeminent threat to our 
        citizens, to our Homeland, to our interests, and to our 
        friends.''

    Each of our witnesses represent organizations that are at the very 
heart of this issue. We recognize the hard work and dedication required 
of your organizations to respond to these threats, as well as the 
tremendous sacrifices made by service members, your civilian workforce, 
and their family members--we owe each of them a debt of gratitude.
    I also believe the recommendations of the Quadrennial Defense 
Review (QDR) clearly establish a roadmap for the expansion of our SOF 
to address this threat--and I commend the Department for their efforts.
    Gentlemen, we welcome your insights on developments in your 
respective organizations, as well as your own personal assessments of 
the fiscal year 2007 defense budget request as it relates to the 
Department's ability to prosecute the global war on terror.
    Secretary O'Connell, we look forward to your testimony regarding:

          Your oversight role of SOCOM, specifically in light of the 
        expansion addressed in the QDR--what challenges, if any, does 
        the expansion mean to your office?;
          What authorities, if any, does your office need to ensure 
        for the effective oversight of SOCOM acquisition programs, as a 
        result of this expansion; and,
          An update on your efforts to ensure effective interagency 
        coordination for SOCOM's Military Liaison Elements (MLEs), as 
        well as your overall assessment of the program.

    Vice Admiral Olson, the subcommittee looks forward to hearing your 
assessment on:

          The progress made in establishing the capability to conduct 
        military operations as a supported command;
          A current status of SOCOM's major acquisition programs, 
        including the Advanced Seal Delivery System;
          Manpower challenges and actions taken to address your 
        increased operating tempo; and,
          The current state of your MLEs, and the steps you have taken 
        to coordinate and synchronize those elements with the Chiefs of 
        Mission and related officials within the interagency.

    Vice Admiral Redd, as you are aware, based on the recommendation of 
the 9/11 Commission, the NCTC was codified by Congress in the 
Intelligence Reform and Terrorism Prevention Act of 2004.
    Since your organization has had approximately 2 years to mature, we 
seek your insight regarding the progress made by the NCTC to:

          Serve as the primary organization within the U.S. Government 
        for analysis and integration of all terrorism intelligence; 
        and,
          Your assessment of NCTC's ability to conduct strategic 
        operational planning for counterterrorism activities 
        integrating all instruments of U.S. national power.

    Mr. Rapp, we also look forward to your insight on:

          The Department's, and specifically the Defense Intelligence 
        Agency's, access to all available terrorist threat information; 
        and,
          Any additional funding or authorities you require to execute 
        your mission.

    Our witnesses today represent the quiet professionals--whether 
assigned to the SOCOM or the Intelligence Community--that are on point 
for our Nation in the fight against terrorism and tirelessly work to 
defend our Homeland from the threats of the 21st century.
    We applaud and honor their service and we thank our witnesses for 
their service and for appearing before the subcommittee today.

    Senator Cornyn. Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. Thank you, 
gentlemen, for your participation today and your service to the 
Nation.
    The purpose of this hearing is to receive an update on the 
DOD's efforts to combat terrorism from the officials 
responsible for developing and implementing the policy for the 
military's global war on terrorism, from the intelligence 
analysts and disseminators, and from the operators. Each of 
these cadres of professionals is equally critical to the 
military mission.
    This committee established a SOCOM and the Office of the 
Assistant Secretary of Defense for Special Operations and Low-
Intensity Conflict (SOLIC). The SOLIC Assistant Secretary is 
charged with management oversight of SOCOM, as well as for 
combating terrorism, stability operations, and counterdrug 
policy.
    In February, the press reported that Secretary Rumsfeld may 
be considering proposals to move various functions out of SOLIC 
or even asking Congress to eliminate it entirely. I hope that 
if this is the case, Secretary O'Connell can tell us about 
these proposals today. I must apologize because I will have to 
leave. So, Mr. Secretary, if you want to comment on that, that 
will be your option.
    In addition, retired General Wayne Downing recently 
completed a review of SOCOM's role in coordinating and 
executing the war on terrorism. The chairman and ranking member 
of the full committee have asked for a copy of that review, and 
I hope that Secretary O'Connell can ensure this subcommittee 
that he will work to get it for us. The findings of the report 
will inform the work of the committee. Again, I think this is 
an eminently reasonable request that Chairman Warner and 
Senator Levin have made, and I believe we should have the 
report. I know it is classified, and obviously, we would accept 
it on those terms.
    [The information referred to follows:]

    [The committee staff received a closed briefing on June 27, 2006, 
regarding the report by General Wayne Downing.]

    Senator Reed. I am concerned about reorganization proposals 
coming at a time when the civilian policy leaders need to work 
closely with SOCOM to ensure the progress in the war on 
terrorism and to oversee SOCOM's operations, budget, and 
acquisition programs. The President has asked this committee to 
authorize a $9 billion increase in SOCOM's budget over the next 
5 years and almost a 30-percent increase over last year. This 
growth will have to be wisely managed by the command and the 
civilian leadership in the Pentagon.
    SOCOM has important acquisition needs and unique 
acquisition authorities. Yet, the SOLIC office does not have a 
senior acquisition executive in the Pentagon, as the other 
Services do, to advocate for SOCOM's requirements and to help 
the command manage large programs, such as the troubled 
Advanced SEAL Delivery System (ASDS).
    In addition, special operators have new missions, including 
clandestine ones, that require interagency coordination to 
ensure that they strengthen U.S. national objectives in 
fighting terrorism, something that SOLIC must be actively 
overseeing and keeping this committee informed about.
    Again, I hope that in the course of the rest of this 
hearing or in written responses, that we can get some 
clarification on the issues I have just mentioned.
    In addition, I have written questions, which are as a 
result not only of this hearing but my visit a few weeks ago 
down to SOCOM headquarters with General Brown and Admiral 
Olson. I would forward them for response in a timely fashion.
    Thank you so much again for your service to the Nation and 
thank you, Mr. Chairman.
    Senator Cornyn. Thank you, Senator Reed, for that opening 
statement.
    Admiral Olson, we have talked about SOCOM's 
responsibilities around the world. We know that those 
responsibilities are increasing, and accordingly, the budget 
request for 2007 is about $8 billion, including over $2 billion 
for military personnel costs, a 27-percent increase in your 
budget over last year.
    I would like to ask you to comment on a few questions. 
First of all, does this meet all of your operational 
requirements? Second, can you absorb that sort of big increase 
in your budget in a way that is efficient and effective to meet 
those operational requirements, and have you been able to 
replace all equipment, particularly helicopters damaged and 
destroyed in Iraq and Afghanistan?
    Admiral Olson. Mr. Chairman, thank you for the opportunity 
to respond to that.
    As I said in the closed session, I was the primary 
representative of SOCOM in the QDR process. We did that by 
receiving and evaluating requirements submitted to us by our 
component headquarters and then machining those into a single 
requirements input into the QDR. That was mostly answered.
    We went into the process knowing what we could absorb and 
requesting no more than that. So we are well postured to absorb 
the growth that has been programmed for us in both platforms 
and people.
    As an example, pre-September 11, 2001, our Special Forces 
Training Command was able to turn out about 250 special forces 
operators per year on the Army side; the Green Berets. Last 
year, they graduated 791. Our previous investment in 
infrastructure growth is now permitting us to absorb the 
additional resources that we have programmed through the QDR 
process.
    Does it answer all of our needs? It does not. It answers 
our most immediate needs. It certainly answers our foreseeable 
personnel needs. We will be growing one battalion per special 
forces group, one company per ranger battalion, the equivalent 
of two new SEAL teams, and Air Force special operators at the 
rate that we can produce and absorb them. So we certainly will 
not be asking for increased force structure growth anytime soon 
except for what it takes to implement the growth that we have 
been granted so far in the process.
    Again, we will have additional requirements for 
intelligence, surveillance, and reconnaissance (ISR) platforms, 
with a reminder that those are not only airborne platforms, but 
they are also ground and maritime sensors that are associated 
with ISR in which we have capability gaps.
    Sir, I did not address your question about 
recapitalization.
    We have been able to sustain our fleet without full 
recapitalization of it. We fly some old aircraft. We do not 
have full programs to replace each of those. We have been able 
to replace engines and wings and repair our fleet to keep it 
flying. We are programmed in the future for the V-22 that we 
would like to receive at an accelerated rate. We have long-
range programs for next-generation platforms, and we have been 
granted relief with replacement of combat losses along the way, 
but we have not done a full recapitalization of our fleet 
within the current program.
    Senator Cornyn. I for one--and I think I probably speak for 
many Members of Congress--am more than happy to appropriate all 
funds necessary for our military to do the job that we have 
asked you to do. The challenge is, is that money appropriated 
and used effectively to acquire and develop systems that are 
important to our national defense and protecting our national 
interests?
    That brings me, as you might imagine, to the ASDS. I would 
like to ask Secretary O'Connell and Admiral Olson to both 
comment on these questions.
    The ASDS program has been plagued with problems from its 
inception and was approved for a restructure by this committee 
in November 2005. As a part of that restructure, an ASDS 
reliability action panel was formed to answer reliability 
questions.
    The questions are these: What is the status of the ASDS 
reliability action panel report? What is the current status of 
the program? When can we expect to receive the report, as 
directed by the National Defense Authorization Act for Fiscal 
Year 2006 regarding this program, which actually, I believe, 
provided that it was due on March 1?
    Secretary O'Connell.
    Mr. O'Connell. Sir, I know that the ASDS program management 
office requested an extension through the Office of the Under 
Secretary of Defense for Acquisition, Technology, and Logistics 
(AT&L). We are aware of what the report must entail, to include 
the Secretary's certification that he has revalidated the 
requirement and conclusions of the QDR, the number of eventual 
platforms that would be required, updated cost estimate, a time 
line for addressing the technological challenges. This must be 
coordinated with both the Navy Department and AT&L.
    I would defer to Admiral Olson in terms of the status of 
the reexamination panel, I believe you called it.
    Admiral Olson. Sir, beyond the extension request for the 
report, I do not know today's status of the ASDS reliability 
action report. I will take that question for the record, sir.
    [The information referred to follows:]

    The Advanced SEAL Delivery System (ASDS) Reliability Action Panel 
report was completed on March 14, 2006. The current status of the 
program is we are executing the ASDS program restructure as briefed to 
U.S. Southern Command congressional account holders in November 2005. 
The program restructure consists of two fundamental parts: an 
improvement program to increase reliability and address obsolescence; 
and a concept study to assess hybrid combatant submersible designs for 
follow-on vehicles.

    Senator Cornyn. Secretary O'Connell, given the increase in 
SOCOM's budget and the need to ensure that its acquisition 
needs are represented at board meetings of the service 
acquisition managers, would you support creating a senior 
civilian position within your office for acquisition 
management, one that would complement the position in the 
command?
    Mr. O'Connell. Sir, I have given this much thought in the 
last couple of months, after some of your committee staffers 
raised it. I think it would be a prudent move. If nothing more, 
it gives me someone who might be very well-connected in the 
community, can look at acquisition programs, and at least give 
me a comfort level in terms of are we going the right way, do 
we need to be more aggressive, or are there things like the 
ASDS that we need to curtail and reexamine significantly. I 
think it would be a help.
    I currently have a senior civilian, but not a deputy 
assistant secretary for resources and technology, Tim Morgan. 
He has 16 years of budget oversight and programming experience, 
and he is very capable. However, I do not really have an 
independent acquisition expert on my staff who would report 
directly to me and work with AT&L and others on SOCOM programs. 
So I would be in favor of that.
    Senator Cornyn. From my limited experience in a previous 
life, I know that technology issues--in addition to things like 
the ASDS where you have sort of a moving target, in terms of 
requirements, have a tendency to vastly increase the costs of 
Government acquisitions.
    I am also concerned, Admiral Redd, about technology uses 
within the Government and how we are adapting those technology 
needs to particularly our intelligence gathering and sharing 
requirements. As I recall, when I was out at the Technology 
Transfer Intelligence Committee (TTIC), the predecessor of the 
organization you head, they had--I cannot remember if it was 
four or five Central Processing Units (CPU)--maybe less, maybe 
three CPUs--strapped together. I think there was a toggle 
switch that allowed you to search each one of them, but there 
was not any interconnectivity between those. Could you tell me, 
is that still the situation or has it improved?
    Admiral Redd. Depending on whether you are selling the 
systems or using them, it has gotten better or worse. I have 
nine CPUs by my desk right now.
    Senator Cornyn. Nine of them?
    Admiral Redd. Nine of them, yes, sir. It is all good news 
in the sense that we now have additional things. For example, 
we have classified circuits with several of our allies right 
now, the United Kingdom and Australia. We are working on 
turning that around.
    The problem again, as I mentioned in closed session, is we 
have, in a sense, an elegant but simple solution, but we have 
to use a lot of brute force just to get the information in, and 
that means having all these networks.
    We are starting to turn that around in a couple of ways. We 
will, at one point, God willing, get to the point where we have 
one network, which everybody uses and with all the appropriate 
security. We are a long ways from being there yet. Ten percent 
of that or 20 percent of that is technology; 80 percent is 
still in the policy. So that is getting there.
    We are doing some things which are important, however. In 
fact, my Chief of Staff is right now the guinea pig. One of the 
problems is when you have e-mails coming in from nine different 
systems and you have to go through and punch up and log in on 
each one of those in order. It takes a half a day just to do 
that. We have a single screen pilot project right now so when 
your e-mails come in on different systems, they all show up on 
the same screen. We are trying that out. So that will help 
substantially. Little things like that will help.
    We are also doing things in a deeper sense and working on 
things. We have the ability right now as I mentioned, through 
the National Counterterrorism Center (NCTC) online to access 
right now about 5 million pieces of finished intelligence on a 
Web site, which any organization can come into and use. About 
5,000 people are cleared for that.
    The next steps we are looking at, though, are how do you go 
through large amounts of data and how do you search not only 
one at a time on each of those networks' databases, but how do 
you do a consolidated database of all of them at the same time?
    So we are looking at how to use technology not only in the 
connectivity side, if you will, which is extremely important, 
but also in that basic research, if you will. So a lot of 
things are going on there. As we mentioned, the challenges on 
the collection side also continue, but our goal is to use 
technology wherever we can, obviously, to move things along. As 
I mentioned in closed session, I think we have made an awful 
lot of good progress.
    Senator Cornyn. Some of the agencies of the Federal 
Government's experience with technology challenges have not 
been good, and I keep thinking about the Federal Bureau of 
Investigation (FBI) in particular and a lot of taxpayer dollars 
basically down the drain in attempts to try to bring the FBI 
into the technology age.
    Changing the issue just slightly, though, obviously there 
are a lot of our enemies and others who would like to have 
access to that information. Could you give me some confidence 
in the level of our information security efforts with regard to 
NCTC?
    Admiral Redd. I think in terms of NCTC, it is extremely 
good. You have established us as the one place in the 
Government where all information comes in. Everybody out there, 
just on the personnel side, is polygraphed, and has very high 
security standards. We basically are a tenant of the Central 
Intelligence Agency and so we respond to all of their security 
requirements. I think we do a very good job in terms of that. 
You can always do better.
    I am not the expert on our cryptography or how well we are 
in terms of cybersecurity, but I can tell you it is extremely 
high by the very nature of the fact that we bring all that 
information together and we have some very strict rules.
    Again, the blessing is having that information all in one 
place. The curse is you have to make sure that it stays there 
except when it is properly sent out. I would say that we do a 
pretty good job on that, a very good job on that.
    Senator Cornyn. Working at the Office of Management and 
Budget and also some of the committees that have looked at 
information security across the Federal Government, it causes 
me some concern and not specifically with your agency because I 
cannot recall right now how some of the various agencies have 
ranked. But overall, the Federal Government does not rank well 
when it comes to information security, and that is a huge 
concern.
    Given the late hour, let me make this the last question, 
and I will direct it to Admiral Olson. As I indicated, we 
appreciate your generous time, granting us the last couple of 
hours for questions. We spent most of our time in closed 
session. We have additional matters we want to discuss with you 
and your staff going forward.
    Admiral Olson, elements of special forces have been present 
in Afghanistan since 2001, and given the longevity of that 
continued presence, I would like to get your comment on the 
following. What is the current SOCOM level of effort in 
Afghanistan, and do you see a significant change in the 
presence of SOF there in the next 6 to 12 months as the 
International Security Assistance Force (ISAF) expands its 
operations in Afghanistan? What will the command relationship 
be between SOF that remain in Afghanistan and the ISAF?
    Admiral Olson. Senator, thank you.
    We have just had some relief of SOF in Iraq in particular. 
We drew 15 Special Forces A-Teams out as the training mission 
came to an end.
    I do not foresee significant change in the SOF presence in 
either Afghanistan or Iraq in the coming months.
    I believe that ISAF's presence is important. It will expand 
capability and capacity across Afghanistan, but the SOF's A-
Teams that are in remote sites and working with the Afghan 
National Army will continue to do that with a nationwide 
presence in Afghanistan after ISAF's arrival.
    The SOF in the regions where the ISAF is will come under 
staff control, but will also be responsive to SOCOM 
requirements. I will take that question particularly for the 
record and provide you with a more detailed wiring diagram of 
the command relationships. The bottom line is that ISAF by 
itself will augment, but not relieve special operations 
presence in Afghanistan.
    [The information referred to follows:]

    The decision of exactly what the overall command relationships will 
be in Afghanistan when the International Security Assistance Force 
(ISAF) takes over is not yet final. However, of the two possible 
courses of action, Special Operations Force's (SOF) command 
relationships will remain the same. The Combined Joint Special 
Operations Task Force (CJSOTF) is going to be a supporting command to 
the ISAF (the supported command). CJSOTF will remain under tactical 
control of Combined Joint Task Force-76. The U.S. Central Command 
Forward Special Operations Command will retain operational control. The 
bottom line is that U.S. SOF will fall under U.S. commanders while 
working for ISAF.

    Senator Cornyn. Thank you Admiral Olson, Admiral Redd, Mr. 
Rapp, and Secretary O'Connell for your testimony today.
    We will leave the record open for 2 days so that members 
who could not attend the hearing can submit their questions for 
the record.
    Thank you very much for your presence here today and your 
response to our questions, and again, on behalf of all of us, 
for your service to our Nation. Thank you. We are adjourned.
    [Whereupon, at 12:00 p.m., the subcommittee adjourned.]

</pre></body></html>
